<html>
<title> - TONGASS LAND MANAGEMENT</title>
<body><pre>[Joint House and Senate Hearing, 105 Congress]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-252
 
                        TONGASS LAND MANAGEMENT

=======================================================================

                             JOINT HEARINGS

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                                and the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                    THE TONGASS LAND MANAGEMENT PLAN

                               __________

                              JULY 9, 1997

                             JULY 10, 1997


                       Printed for the use of the
             Committee on Energy and Natural Resources and
                    the House Committee on Resources

                               ------------

                     U.S. GOVERNMENT PRINTING OFFICE
45-244 cc                    WASHINGTON : 1997

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



              COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  FRANK H. MURKOWSKI, Alaska, Chairman

PETE V. DOMENICI, New Mexico         DALE BUMPERS, Arkansas
DON NICKLES, Oklahoma                WENDELL H. FORD, Kentucky
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                BYRON L. DORGAN, North Dakota
JON KYL, Arizona                     BOB GRAHAM, Florida
ROD GRAMS, Minnesota                 RON WYDEN, Oregon
GORDON H. SMITH, Oregon              TIM JOHNSON, South Dakota
SLADE GORTON, Washington             MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana

                    Gregg D. Renkes, Staff Director

                    Gary G. Ellsworth, Chief Counsel

          Thomas B. Williams, Staff Director for the Minority

             Sam E. Fowler, Chief Counsel for the Minority

                  Mark Rey, Professional Staff Member

                    Kira Finkler, Counsel, Minority

                                 ______

                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman

W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland         Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North          Rico
Carolina                             MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                   Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff

                   Elizabeth Megginson, Chief Counsel

              Christine Kennedy, Chief Clerk/Administrator

                John Lawrence, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page
Hearings:
    July 9, 1997.................................................     1
    July 10, 1997................................................    95

                               STATEMENTS

                              July 9, 1997

Bumpers, Hon. Dale, U.S. Senator from Arkansas...................     5
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     8
Craig, Hon. Larry E., U.S. Senator from Idaho....................     6
Janik, Phil, Regional Forester, U.S. Forest Service, Juneau, AK; 
  accompanied by Dr. Tom Mills, U.S. Forest Service, Portland, 
  OR; Dr. Fred Everest, U.S. Forest Service, Juneau, AK; Brad 
  Powell, U.S. Forest Service, Ketchikan, AK; Fred Norbury, U.S. 
  Forest Service, Juneau, AK; John Day, U.S. Forest Service, 
  Juneau, AK; Kimberly Brown, U.S. Forest Service, Juneau, AK; 
  and Chris Iverson, U.S. Forest Service, Juneau, AK.............    29
Katzen, Sally, Administrator, Office of Information and 
  Regulatory Affairs, Office of Management and Budget............    16
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     1
Murphy, Robert P., General Counsel, General Accounting Office....    12
Pickett, Hon. Owen, U.S. Representative from Virginia............     8
Vento, Hon. Bruce, U.S. Representative from Minnesota............     8

                             July 10, 1997

Allen, David B., Alaska Regional Director, U.S. Fish and Wildlife 
  Service, Anchorage, AK.........................................   138
Janik, Phil, Forester, U.S. Forest Service, Juneau, AK; 
  accompanied by Dr. Tom Mills, U.S. Forest Service, Portland, 
  OR; Dr. Fred Everest, U.S. Forest Service, Juneau, AK; Brad 
  Powell, U.S. Forest Service, Ketchikan, AK; Fred Norbury, U.S. 
  Forest Service, Juneau, AK; Beth Pendleton, U.S. Forest 
  Service, Juneau, AK; and Dr. David Brooks, U.S. Forest Service, 
  Portland, OR...................................................    95
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............    95

                                 (iii)

  


                        TONGASS LAND MANAGEMENT

                              ----------                              


                        WEDNESDAY, JULY 9, 1997

                               U.S. Senate,
         Committee on Energy and Natural Resources,
                     and U.S. House Committee on Resources,
                                                    Washington, DC.
    The committees met jointly, pursuant to notice, at 11:11 
a.m., in room SD-366, Dirksen Senate Office Building, Hon. 
Frank H. Murkowski, chairman, presiding.

OPENING STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. We will call the joint Senate-
House hearing to order, and let me introduce Owen Pickett.
    Representative Pickett. Good morning, Mr. Chairman.
    The Chairman. Who is with us this morning from Virginia 
from the House. I think everybody else is recognizable from 
past hearings and performances. How is that?
    What we are here for today is a joint oversight hearing on 
the final Tongass Land Management Plan. This is the first of 
two scheduled hearings, and I want to welcome everyone to what 
is the next stage, if you will, of the Tongass land management 
planning process. This is a process as interminable and perhaps 
conflict-borne as, as somebody suggested, the Mideast peace 
process. Indeed, for newcomers to the debate, I believe you can 
gain a quick understanding of the conflicts in southeastern 
Alaska only if you are already well versed in the politics of 
the Middle East--a good comparison.
    Nevertheless, today and tomorrow we will commence the first 
Congressional review of the Forest Service's final Tongass Land 
Management Plan. This is an effort that has been a considerable 
time commitment in the making. I believe it was roughly 11 
years and a cost of some $13 million or thereabouts.
    As we pursue this inquiry, we are going to be focusing on 
two basic questions. The first one is the final Tongass Land 
Management Plan: Is it a balanced plan for future environmental 
and economic well-being of southeastern Alaska and will it work 
on its own terms, or is the final TLMP, as it is known, little 
more than a batch of partially baked prescriptions and untested 
theories that cater to some perhaps elite, post-modern version 
of a new age rural lifestyle?
    Second, does the final TLMP properly reflect the 
compromises that were struck in past Congressional efforts to 
resolve conflicts in the Tongass? I think the second question 
is important because, with the public's intense interest in 
Alaska generally and the Tongass National Forest specifically, 
Congress for the last 20 years has been an active participant 
in the management of the Tongass, for better or for worse. 
Congress has intervened in the management of the Tongass and 
directed many of the land use decisions.
    I think it is fair to say that the Tongass is perhaps the 
only national forest subject to its own authorizing statutes--
the 1980 Alaska National Interest Lands Conservation Act and 
the 1990 Tongass Timber Reform Act. In these Congressional 
debates, many promises were made, promises about the protection 
of special areas, as well as the protection of the economic 
well-being of the communities of southeastern Alaska. As we 
continue our active Congressional role in the process, we will 
be listening closely to whether and which of these promises the 
administration has honored in the final Land Management Plan.
    So today I plan to focus closely on how this plan differs 
from the draft released last year. On April 18 and on May 28 
and 29, 1996, we held extended oversight hearings on the draft 
plan. Then as now, I was concerned that the proposed plan may 
unnecessarily limit economic activity on the Tongass on the 
basis of unsubstantiated scientific hypotheses. But I was 
assured that was not the case. Then-Chief Jack Ward Thomas told 
us that
    ``When I became Chief of the Forest Service I promised that 
the use of science would be balanced in decisionmaking. The 
document is an example of that commitment becoming a reality. I 
believe that this draft is scientifically sound, and the most 
responsive to public input of any plan yet produced by the 
Forest Service. I believe that the analysis in this draft will 
provide a superior step toward guiding resource decisions in 
the future.''
    Mr. Phil Janik, who is with us today, added the following 
comments to increase our understanding of the draft by stating:
    ``In refocusing the Tongass planning effort, I followed two 
principles. First, I wanted to make better use of scientific 
information in the planning process. Second, I wanted to 
improve our cooperation, consultation, and coordination with 
other Federal and State agencies that had special expertise or 
statutory jurisdiction in the issues we were facing. I was and 
am convinced that early and constant consultation was and is 
the best way to avoid late inning surprises that can overturn 
even the best of planning efforts.''
    Both today and tomorrow, with both the Forest Service and 
the U.S. Fish and Wildlife Service, we will have an opportunity 
to assess whether that early and continual consultation 
actually did produce a scientifically sound plan.
    Dr. Mills, as head of the agency's Pacific Northwest 
Research Station, you told us last April that:
    ``As the Station Director I am familiar with the issues 
surrounding the management of the Tongass National Forest and 
the intensity of the debate. I believe the efforts of the 
scientists of the Pacific Northwest Station, in concert with 
the other team members, has assured that the alternatives and 
their estimated consequences that are displayed in this 
planning document are based on the best scientific information 
available.''
    Finally, Abigail Kimball, the lead Forest Supervisor 
involved in the development of the draft, assured us in April 
1996 that:
    ``We wanted an alternative that would meet the requirements 
of all laws governing the management of the Tongass, maintain 
future options, and allow for changes based on new information, 
and be implementable.''
    Well, for her part, Abigail Kimball has solved the Tongass 
crisis in the only way so far discovered. She has found another 
job. We wish her well in her new endeavors as Supervisor of the 
Big Horn National Forest in Wyoming.
    I read these quotes from testimony last year because I 
think there are significant changes between the draft that we 
reviewed then and the final that we will review today. And in 
each case I want to understand: one, why; two, what rational or 
information was used to make and justify the changes; and 
three, when this information was first discovered; and four, 
who had the opportunity to review and comment on these changes.
    As I indicated in my letter of invitation to the Forest 
Service, we view this hearing to be the initiation of our 
Regulatory Flexibility Act review. We will also be using the 
information that we glean from your testimony to decide how 
best to proceed.
    [The prepared statement of Senator Murkowski follows:]
Prepared Statement of Hon. Frank H. Murkowski, U.S. Senator From Alaska
    Good Morning. I would like to welcome everyone to the next stage of 
the Tongass Land Management Planning process--a process as interminable 
and conflict-prone as the Mideast peace process. Indeed, for new-comers 
to this debate I believe you can gain a quick understanding of the 
conflicts in southeast Alaska, only if you are already well versed in 
the politics of the Middle East.
    Nevertheless, today and tomorrow we will commence the first 
congressional review of the Forest Service's final Tongass Land 
Management Plan--an effort that has been a considerable time in the 
making. As we pursue this inquiry, we will focus on two basic 
questions. First, is the final Tongass Land Management Plan a balanced 
plan for the future environmental and economic wellbeing of southeast 
Alaska that will work on its own terms. Or, is the final TLMP little 
more than a batch of half-baked prescriptions and untested theories 
that cater to some elite, post-modem vision of a new-age rural life 
style. Second, does the final TLMP properly reflect the compromises 
that were struck in past congressional efforts to resolve conflicts on 
the Tongass.
    This second question is important because, with the public's 
intense interest in Alaska generally, and the Tongass National Forest 
specifically, Congress has--for the last twenty years--been an active 
participant in the management of the Tongass. For better or worse, 
Congress has intervened in the management of the Tongass and directed 
many of the land use decisions. The Tongass is perhaps the only 
national forest subject to its own authorizing statutes--1980 Alaska 
National Interest Lands Conservation Act and 1990 Tongass Timber Reform 
Act.
    In these congressional debates many promises were made--promises 
about the protection of special areas, as well as the protection of the 
economic wellbeing of the communities of southeast Alaska. As we 
continue our active congressional role in this process, we will be 
listening closely to see whether and which of these promises the 
Administration has honored in this final land management plan.
    I also plan to focus very closely on how this final plan differs 
from the draft released last year. On April 18, and May 28 and 29, 1996 
we held extended oversight hearings on the draft plan. Then, as now, I 
was concerned that the proposed plan would unnecessarily limit economic 
activity on the Tongass on the basis of unsubstantiated scientific 
hypotheses.
    But I was assured that this was not the case. Then-Chief, Jack Ward 
Thomas, told me that:

          When I became Chief of the Forest Service I promised that the 
        use of science would be balanced in decision-making. The 
        document is an example of that commitment becoming reality. I 
        believe that this draft is scientifically sound, and the most 
        responsive to public input of any plan yet produced by the 
        Forest Service. I believe that the analysis in this draft will 
        provide a superior step toward guiding resource decisions in 
        the future.

    Phil, you added the following comments to increase our 
understanding of the draft. You stated:

          In refocusing the Tongass planning effort I followed two 
        principles. First, I wanted to make better use of scientific 
        information in the planning process. Second, I wanted to 
        improve our cooperation, consultation, and coordination with 
        other Federal and State agencies that had special expertise or 
        statutory jurisdiction in the issues we were facing. I was and 
        am convinced that early and constant consultation was and is 
        the best way to avoid late inning surprises that can overturn 
        even the best of planning efforts.

    Both today and tomorrow, with both the Forest Service and the U.S. 
Fish and Wildlife Service, we will assess whether that early and 
continual consultation actually did produce a scientifically sound 
plan.
    Dr. Mills, as the head of the Agency's Pacific Northwest Research 
Station, you told us last April that:

          As the station Director I am familiar with the issues 
        surrounding the management of the Tongass National Forest and 
        the intensity of the debate. I believe the efforts of the 
        scientists of the Pacific Northwest Station, in concert with 
        the other team members, has assured that the alternatives and 
        their estimated consequences that are displayed in this 
        planning document are based on the best scientific information 
        available.

    Finally, Abigail Kimball, the lead Forest Supervisor involved in 
the development of the draft assured us in April 1996 that:

          We wanted an alternative that would meet the requirements of 
        all laws governing the management of the Tongass, maintain 
        future options, and allow for changes based on new information, 
        and be implementable.

    For her part, Abigail Kimball has solved the Tongass crisis in the 
only way so far discovered--She has found another job. We wish her well 
in her new endeavors as Supervisor of the Big Horn National Forest in 
Wyoming.
    I have read these quotes from testimony last year because there are 
significant changes between the draft that we reviewed then, and the 
final that we will review today. And in each case, I will want to 
understand: (1) why; (2) what rationale or information was used to make 
and justify the change; (3) when this information was first discovered; 
and (4) who had the opportunity to review and comment on these changes.
    As I indicated in my letter of invitation to the Forest Service, we 
view this hearing to be the initiation of our Regulatory Flexibility 
Act review. We will also be using the information that we glean from 
your testimony to decide how best to proceed.
                                 ______
                                 
               Additional Statement of Senator Murkowski
    One of our longest and possibly most abstruse areas of discussion 
yesterday was on the question of what was required to comply with the 
National Forest Management Act, species diversity requirements. This 
section of the act gave rise to the Forest Service's population 
viability regulations. This, in turn, has been the subject of a 
considerable amount of biological debate, as well as erudite review by 
various lawyers and judges. One would assume that as a result of this 
level of scrutiny the meaning of the basic terms of debate would be 
better known. Unfortunately, this does not appear to be the case. That 
was in retrospect abundantly clear to me last night after I reflected 
upon an almost Talmudic exchange that I had with Chris Iverson over the 
difference between a viable population and a sustainable population. 
Quite honestly we could have been debating about how many angels could 
dance on the head of a pin. And frankly, we were.
    The question here is relatively straight forward, if not very 
simple. It is: what does the Forest Service have to do to assure that 
for planning purposes a viable population will be maintained? The 
definition says that ``a viable population should be regarded as one 
which has the estimated numbers and distribution of reproductive 
individuals to ensure its continued existence as well distributed in 
the planning area. In order to ensure that viable populations will be 
maintained, habitat must be provided to support, at least a minimum 
number of reproductive individuals and that habitat must be well 
distributed so that those individuals can interact with others in the 
planning Complications arise because there is no definition of a 
planning area to begin with. There is also no definition of what a 
minimum reproductive number of individuals involves. Finally and most 
importantly, for most species we have no idea of what the numbers and 
distribution of reproductive individuals are needed to ensure the 
continued existence in a well distributed fashion. This is as true for 
old-growth dependent species as it is for species that are dependent 
upon disturbance ecosystems.
    The courts have not been very helpful in assisting us in this 
regard. The Ninth Circuit has decided to keep asking the same questions 
that I am asking today until they are satisfied with the answer. But 
they chose not to provide any guidance as to the precedential value or 
nature of that answer. By contrast, the Fifth Circuit has suggested 
that the Ninth Circuit is all wet. That's not surprising. In the last 
Supreme Court session the Supreme Court heard 20 cases on appeal from 
the Ninth Circuit and reversed the Circuit on 19. I would be careful 
before I would pattern a management program on the basis of Ninth 
Circuit dicta. They have a poorer track record in the Supreme Court 
relevant to the Forest Service has had in the courts generally over the 
last 20 years.
    I must say I am dumbfounded that one of the most sweeping and 
important aspects of federal land management of this half-century is 
still subject to this much confusion. I agree with Senator Craig that 
this, more than anything, suggests an overarching need for Congress to 
intervene. In testimony before the Committee last April the former 
Chief, Dr. Jack Ward Thomas, agreed. He said that, and I am 
paraphrasing now, federal land policy has evolved to where we are 
absorbing all of the costs and impacts associated with the protection 
wildlife species on federal lands. Now with that let's review a bit of 
yesterday's testimony.
    We touched briefly on the VIPOP strategy for assessing viability in 
1994. Chris Iverson wrote a critique of that strategy in July 1994 and 
a critique of the peer review of that strategy where in he noted that 
the limitations expressed by the peer reviewers was ``made without the 
reviewers having any of the TLMP revision SDEIS documents or maps 
available for the review and, therefore, the peer review did not 
include any actual analysis of viability in relation to the 
alternatives proposed for the TLMP revision. There was no time scale 
discussed.'' Nevertheless, we went well beyond the VIPOP analysis in 
developing the final TLMP. In a January 29, 1997 memorandum describing 
the old-growth forest conservation strategy and the Alexander 
Archipelago Wolf and Queen Charlotte Goshawk analyses, Chris Iverson 
notes further that ``the revised TLMP is more than a minimum strategy 
relative sustaining viable wildlife populations. While fully 
integrating the large and medium VIPOP HCAs and the mapping of the 
smaller reserves, the revised TLMP has protected substantial additional 
productive oldgrowth forests to further risks to wildlife viability and 
enhance protection of biological diversity. For comparison, reserves 
allocated in the revised TLMP exceed the amount recommended by VIPOP by 
147%. Old-growth allocated in the revised TLMP exceeds the amount 
recommended by VIPOP in 20 of 21 biogeographic provinces, ranging from 
9% to 460% over VIPOP recommendations.''
    Yesterday we agonized over whether the TLMP was a population 
viability strategy or a hunter viability strategy as far as the Sitka 
blacktail deer was concerned. There was no need for agonizing over this 
because on page 16 of the same Iverson analysis he states that'' the 
revised TLMP provides for maintaining deer habitat capability 
sufficient to sustain both wolf populations and current levels of human 
deer use.'' The regulatory (not statutory) requirement to maintain 
population viability has been enhanced by an assumed responsibility to 
maintain population viability and hunter use. The question is, where 
was that assumed responsibility imposed. Was it imposed in the review 
the scientists did in defining viability, or was it a decision that the 
policy makers made during the development of the TLMP? I will tell you 
frankly, that given that we could not together come to a common 
understanding (even among you, let alone with me) about what 
constitutes a viable population, I have to assume it was the former, 
not the latter. I will close this opening statement by suggesting that 
I hope your interpretation is challenged all the way tot he Supreme 
Court because I do not believe that you: (a) understand what you are 
doing; (b) have applied whatever it is you are doing whether you 
understand it or not in a scientifically sound fashion; or (c) care 
whether it is being applied in a way that balances the equities between 
people and animals.

    The Chairman. Senator Bumpers.

         STATEMENT OF HON. DALE BUMPERS, U.S. SENATOR 
                         FROM ARKANSAS

    Senator Bumpers. Mr. Chairman, I do not have a formal 
opening statement. I would just like to make a few comments.
    First, all of us on this committee are completely familiar 
with the uniqueness of the Tongass and the uniqueness of the 
economic opportunities that it affords to the people of Alaska. 
And of course, the chairman has labored in this vineyard for a 
very long time, and I want him to understand that, so far as 
this Senator is concerned, I am not unmindful of how important 
this forest is to both the chairman and the people of Alaska.
    Having said that, I also want to say that, as much respect 
as I have for the GAO--I have a lot of respect for them; the 
General Counsel is here with us this morning--I have a little 
difficulty with the decision that a forest management plan is 
actually a rule. I think it would be good to have that 
clarified.
    Secondly, we should all bear in mind during this hearing 
that the Tongass Timber Reform Act of 1990, specifically stated 
that the Secretary was directed to ``seek to meet'' market 
demand for timber, but only to the extent consistent with 
providing for the multiple use and sustained yield of all 
renewable forest resources.
    Now, the revised Tongass plan calls for a maximum of 267 
million board feet. I understand that this level is 
considerably less than it used to be under previous plans. The 
original plan contained an ASQ of 520 million board feet.
    The Governor, Governor Knowles of Alaska, sees this plan as 
an opportunity to promote opportunities for smaller operators 
and value added operators. I know that his concern for the 
economic opportunities of the people of Alaska is certainly no 
greater than the chairman of the committee. But I certainly, as 
a former chairman of the Small Business Committee and one who 
has always for 22 years now been active in the Small Business 
Committee and its activities to protect and promote small 
business, I have a tendency to agree with Governor Knowles' 
position on this.
    Mr. Chairman, I am happy to be here and will do my best to 
contribute in the hearing as time permits. I am going to have 
to be in and out. I thank the chairman for calling this hearing 
and I think it will give all of us a chance to clarify some of 
these questions.
    The Chairman. Thank you very much, Senator Bumpers.
    Let me welcome additional House members: Donna Christian-
Green from the Virgin Islands, welcome to the committee; and 
Bruce Vento from Minnesota. Bruce, nice to have you here.
    Let me call on Senator Craig and then I would go back and 
forth for the opening statements.
    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Thank you very much, Mr. Chairman.
    In fact, it is almost reminiscent to have Congressman Vento 
here this morning, because he was serving as one of the ranking 
majority members of the Interior Committee when I first started 
serving in the House in 1981. It was interesting to me that 
that committee and this committee had in the late seventies 
just finished the Tongass Land Management Plan, and I got to 
Congress in 1980, started serving in 1981, only to find out 
that we are going to redo it again.
    I will never forget, Mr. Chairman, asking some of the 
witnesses, in this case an environmental witness, why we were 
redoing this again. We had just done it. It had been finished 
in 1979. And he said: Well, but that was my predecessor. We 
have changed our mind. We have a new position.
    I guess I can tell you that the only thing that has changed 
about this issue is the name of the Interior Committee over in 
the House. It is now called what, Bruce?
    Representative Vento. Resources.
    Senator Craig. Resources Committee.
    Representative Vento. Not Natural Resources, just 
Resources.
    Senator Craig. But the issue is the same.
    And I can also tell you, Mr. Chairman, that I am glad that 
the Tongass is not in Idaho. I have a tough enough time trying 
to balance the interests of the citizens of my State as it 
relates to our forests and the resources of those forests, and 
I am glad the Tongass is not in the mix of all of that because, 
while mine are tough, yours is tougher.
    In fact, I would suggest that maybe the Tongass should be 
referred to as the ``Velcro Forest,'' where all issues stick, 
or at least come to play at some point in time, because it 
appears that in my few years here in the Senate and a few in 
the House that this has always been front and center on the 
burner of almost everyone's agenda, that somehow we ought to 
redo and rewrite a forest plan or a management plan or an 
approach because it is not the way we want it, of the Tongass.
    I think the New York Times accurately described the Tongass 
as the ``talismanic forest,'' and they mean that primarily to 
the environmental community, because for some reason it has a 
rather mythical place in most people's minds, and as a result 
of that we have wanted to change its character or its 
management systems or its plan.
    I have had the privilege of visiting Alaska over the years. 
I will tell you, the whole State is talismanic in that respect. 
But in my belief to multiple use management, I think you can 
balance resource use and you should. In this instance I hope we 
can get there, and I hope that this plan might stick like 
velcro to the forest if it is the right plan.
    Most importantly, though, I think, Mr. Chairman, is the 
dedication you take to oversight. I think Congresses of the 
past have been negligent in doing so and I think it is 
critically important that we exercise the appropriate oversight 
as our responsibility when the Executive Branch passes or moves 
regulations into their full force and effect of law.
    However, as we deal with the Regulatory Flexibility Act and 
bring all of that into context, I think it even exercises more 
our responsibility. And you are taking that well today. I will 
stay and listen with interest. I have come to know this forest 
in a rather intimate way by not so much being there, but by 
simply knowing it on paper and by the image or sometimes the 
illusion that some people hold of this forest in their own 
mind.
    I hope we can get at the business of keeping consistency 
and responsibility and having a balanced plan that protects the 
environment and allows responsible multiple use and allows a 
few people to provide for themselves a livelihood of the 
resources of the State of Alaska.
    The Chairman. Thank you, Senator Craig.
    Congressman Pickett.

   STATEMENT OF HON. OWEN PICKETT, U.S. REPRESENTATIVES FROM 
                            VIRGINIA

    Representative Pickett. Mr. Chairman, I do not have an 
opening statement. I want to commend you for calling this 
hearing, though. I think this is an issue that very 
definitively needs to be resolved, and I look forward to the 
testimony of our witnesses.
    The Chairman. Thank you very much.
    Senator Campbell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
                            COLORADO

    Senator Campbell. Thank you very much. I do not have an 
opening statement, but I am very interested in this issue.
    The Chairman. All right.
    Congressman Christian-Green.

 STATEMENT OF HON. DONNA CHRISTIAN-GREEN, U.S. REPRESENTATIVES 
                    FROM THE VIRGIN ISLANDS

    Representative Christian-Green. Thank you, Mr. Chairman. I 
do not have an opening statement. I just do want to say I am 
pleased to be here to join with members of my committee and 
your committee and you, Mr. Chairman, to look at the issues in 
the Tongass management plan.
    As you said in your opening statement, it does not take 
long for one to be here to realize that it is a difficult 
issue. But I look forward to working with members of both 
committees and you, Mr. Chairman, and my chairman, Don Young, 
to find a balanced approach and resolve some of the issues 
involved.
    The Chairman. Thank you very much.
    Congressman Vento.

    STATEMENT OF HON. BRUCE VENTO, U.S. REPRESENTATIVE FROM 
                           MINNESOTA

    Representative Vento. Thank you, Mr. Chairman. I do have an 
opening statement. I might add that we are on the House floor 
considering a forest bill, the Quincy Library bill, and that is 
the reason for the absence of, I am sure, Chairman Young and 
ranking member Miller, who of course has a strong interest in 
this matter, and I will be in and out because of that.
    I want to concur with the comments of Senator Bumpers with 
regards to the applicability of this new ruling in terms of the 
60-day issue, Mr. Chairman. I am concerned about and have been 
concerned about these efforts to go over rules again because 
they frustrate the implementation of policy very often. We need 
to look at forest management plans and the outreach process 
that occurs before them, I think, in some of these areas.
    In this particular instance, I am sure those who are 
pursuing this have legitimate concerns about the 60 days for 
small business to be able to react to a plan or rule, but in 
other instances it may be a different view in terms of 
implementing the sort of activity that puts these types of 
limits on the implementation rules. No one has been better at 
that, I think, than those of us who are working on land 
management policies to put the limits on the land managers. We 
make it more difficult and adding in some cases to the problems 
we are so concerned about.
    Overall, Mr. Chairman, I note that, with regards to the 
plan, I am disappointed with it for probably different reasons 
than others on the committee. The Tongass certainly is one of 
the most significant fragments of an old North American 
temperate rain forest. It is really a jewel of the National 
Forest System. But it needs to be soundly managed and 
conserved.
    I do not think, in reference to my colleague from Idaho and 
friend, with regards to changing policies with regards to land 
management, I do not think any of us--I think it is a pretty 
dynamic process in terms of information and needs, and I think 
that all of us want to--and if Congress wants to stay involved, 
we are going to have to obviously be ready to accept and make 
modifications based on the information that is coming to us.
    I have been, frankly, very surprised and sometimes 
disappointed about all the information with regards to the 
Pacific Northwest and the fact that we have constantly had to 
monitor and change policies there. Most of the information did 
not make the issues more easy to resolve, and that sometimes--
and that is the case with the Tongass as well.
    The Forest Service' new management plan, however, here is 
controversial and continues, I think, an environmentally 
unsound policy path characterized by timber-driven 
decisionmaking and clearcutting on the Tongass National Forest. 
It doubles the current levels of logging, from 120 million 
board feet to 267.
    Of course, we know that for decades under the contracts 
that there was a mandate to cut 450 million board feet a year, 
and that was not sustainable. The increase will prove, I think, 
environmentally and economically unsustainable. Indications are 
that the demand for timber, Tongass timber, over the next 10 
years will just be over 100 million board feet, which is 
supposed to be one of the prerequisites in the 1990 law, what 
leads this as to what will be the demand, what part of the 
demand we could meet.
    Based on the land being harvested, demand, and the U.S. 
Federal taxpayers' continued subsidies, this of course is very 
high cost timber in North America.
    The new plan appears to ignore the counsel and peer review 
advice of some of the best objective and independent scientists 
who reviewed the impact of the Tongass harvest on wildlife 
issues, such that scientists from many disciplines recently 
concluded that wildlife in unroaded portions of the Tongass 
will significantly be harmed by clearcutting and timber 
harvesting in such areas.
    The new plan does not consider all the public comments. 70 
percent of those who had written and commented to the Forest 
Service called for lower logging levels and greater 
protections. I suppose in light of this maybe the 60 days will 
help.
    Surely this plan merits significant questioning in the 
hearing. Perhaps those most interested and present today will 
not be assailing the Tongass plan from the same perspective 
that I am pointing out.
    Frankly, the Forest Service should return to the drafting 
table and write a management plan that represents the 
priorities of all Americans, not just cut the baby in half to 
satisfy the various interests. The magnificent Tongass resource 
of wildlife and fisheries has an outstanding long-term 
sustainable and tourism potential. It should not be sacrificed 
for short-term gratification.
    This administration, the Clinton administration, has bitten 
the bullet on this issue concerning the Tongass contracts. It 
has paid compensation, and I believe that this halfway measure 
will lead the U.S. Forest Service Tongass policy write back to 
where we began. If I look at what the goal is here, the goal is 
to get this back up close to a half billion board feet a year.
    We owe the natural legacy of the Tongass to our children 
and grandchildren, not to the special interests' bottom line.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Congressman Vento.
    Before we call on the witnesses, let me just make a couple 
of comments relative to points that are important to consider 
as we reflect on the disposition of the Tongass and the 
completeness of the TLMP that we have before us. Two particular 
species were of concern relative to the U.S. Fish and Wildlife. 
One was the archipelago wolf and the other was the goshawk.
    It was interesting to note that the evaluation done by the 
U.S. Fish and Wildlife on the goshawk was limited to proposed 
timber sales. There was no effort, because of lack of funds, 
for the U.S. Fish and Wildlife or the Forest Service to go out 
in the rest of the forest and try and determine the abundance 
or shortage of the goshawks. So a questionable point of what 
kind of science we have on the true nature of the potential 
listing of the goshawk is still up in the air because of the 
inability to go out and make a determination.
    The other issue is rather interesting, and that was the 
archipelago wolf, which there is a legitimate question as to 
whether there indeed is a sub-species, because those that are 
familiar with southeastern Alaska know the wolves swim from 
island to island, with the exception of Admiralty, Baranof, and 
Chichagof, where there are no wolves but there are the brown 
bear. So the reality of whether or not there is a potential 
listing justification for the wolf is rather inconsistent with 
the State Department of Fish and Game, who manages trapping and 
hunting, and in either case has not put any limitation on the 
hunting or trapping of the wolf, and one would assume that if 
indeed there was a potential concern over listing that the 
State Department of Fish and Game would alert the U.S. Fish and 
Wildlife Service to take appropriate action.
    These are inconsistencies that will be brought out during 
the 2 days of the hearing.
    Another point that I would like to bring up before we get 
into the witnesses is the question of drawing attention to two 
documents that dramatize how late, how late some changes were 
made to the May 25 record of decision. This is important to 
reflect on because it shows an inconsistency within the TLMP 
group to reach an accord in advance of the final action on the 
25th.
    I am referring to a May 24 statement from the TLMP team, 
and it is initialed and it is to Gary Morrison, Gail Kimball, 
Brad Powell, Phil Janik, and Fred--it is a little hard to 
read--Norbury. The appropriate portion is the next to the last 
paragraph, which says:
    ``Please look these changes over and give us any comments 
no later than close of business on Thursday, May 15, if at all 
possible.'' That would be the next day after the document was 
prepared. ``It covers, for your review, additional measures for 
proposed standards and guidelines and lists some additional 
measures for landscape connectivity, et cetera, modifications 
to the bear and wolf standards. Enclosed are the proposals as 
they modify the December 1996 version.''
    So here we have on May 14 this memorandum from the TLMP 
team to the specific Forest Service personnel requesting that 
they look over changes and give comments the next day. And this 
will be entered into the record.*
---------------------------------------------------------------------------
    * Retained in committee files.
---------------------------------------------------------------------------
    Then on the next chart we have a response dated May 12. 
That is not the next day. That was the day before. This says: 
``Region X forest management has had an opportunity to review 
the most recent draft of the proposed TLMP forest-wide standard 
and guidelines drafted on 5-5 at 11 o'clock. The initial 
reaction of forest management was that the revised standard and 
guidelines would result in a significant reduction in the 
amount of viable timber available for planned harvest.''
    It goes on in the last paragraph to state the following: 
``We believe that the impacts on timber harvest are so great 
that the current allowable sale quantity is unobtainable,'' and 
this is the presumption of the 267 million. In order to adhere 
to Forest Service policy and applicable laws and regulations, 
changes of the magnitude reflected in the reviewed and revised 
S and G's must be supported by a recalculation of the ASQ. We 
fear that to do otherwise would open the Forest Service to 
allegations of deceiving the public.''
    So I think that sets the stage where we surely have 
questions, because the first is to dramatize how late some 
changes were made and the second is the May 14 memorandum 
asking for comments by May 15, and the second is the May 12 
memorandum from the director of the forest management which 
states that the ASQ is not achievable, and the ASQ was not 
recalculated. So for whatever consistencies we might have 
anticipated, we certainly have changes at the last minute and a 
legitimate question as to whether or not what was recommended 
by the Forest Service is achievable.
    That kind of leaves some questions in the minds of many in 
southeastern Alaska as to what the true allowable cut may be in 
relationship to the discrepancies within the memorandums that 
have been presented to the committee.
    Let me proceed with panel one: Mr. Robert P. Murphy, 
General Counsel for the U.S. General Accounting Office in 
Washington, D.C., accompanied by Ms. Sally Katzen, Office of 
Information and Regulatory Affairs, Office of Management and 
Budget, Washington, D.C. We look forward to your statement and 
testimony and ask that you proceed as you see fit.

    STATEMENT OF ROBERT P. MURPHY, GENERAL COUNSEL, GENERAL 
                       ACCOUNTING OFFICE

    Mr. Murphy. Thank you. Mr. Chairman, Senator Bumpers, 
members of the committees: I am pleased to appear before you 
today to discuss whether the Tongass plan is subject to a 
statute which was enacted last year which provides for 
Congressional review of agency rulemaking. With your 
permission, I will provide an abbreviated statement and ask 
that my full statement be included in the record, Mr. Chairman.
    The Chairman. Your entire statement will be entered in the 
record.
    Mr. Murphy. The statute in question which was enacted last 
year goes by a number of names. The actual title of it is the 
Small Business Regulatory Enforcement Fairness Act, which I 
will refer to as ``SBREFA.'' It was enacted on March 29 last 
year and was intended to balance the respective authorities of 
the Congress and the Executive Branch in rulemaking.
    Over the years the Congress has delegated a lot of 
legislative authority to Executive Branch agencies and there 
was a concern that that delegation had deprived the Congress of 
much of its policymaking responsibilities. We at GAO believe 
that Congressional oversight of agency rulemaking can be 
positive, that it is important to balance the concerns of 
American citizens and American businesses with Federal agency 
rulemaking. We believe that Executive Branch agencies should be 
responsive to citizens and businesses about the reach, cost, 
and impact of regulations without compromising their statutory 
mission.
    As of July 3 of this year, under the terms of SBREFA there 
have been almost 5,000 rules filed with the Congress and with 
the General Accounting Office. 79 of those are major rules. 
Typically, major rules are rules that have more than a $100 
million impact on the economy. About 5,000 of them were non-
major rules. These range from the Federal Aviation 
Administration's airworthiness certifications to changes in 
bridge opening and closing schedules, a wide variety of rules 
that executive agencies promulgate. They file them with the 
Congress and they file them with GAO.
    On June 18 of this year the Chief of the Forest Service 
forwarded copies of the Tongass plan to the Congress and to GAO 
under the procedures that are applicable in SBREFA. At the same 
time, he said that it was the view of the Forest Service that 
the Tongass plan was not a rule under SBREFA and that it was 
not a major rule in any event.
    We disagree. SBREFA provides that before a rule may become 
effective it must be filed with the Congress and with GAO. A 
major rule may not be effective until 60 calendar days after it 
is filed. Once a rule--whether it is determined to be major or 
not, is filed with Congress and with GAO there are expedited 
procedures for Congressional review and passage of a joint 
resolution of disapproval.
    The definition of a rule in SBREFA is extraordinarily 
broad. Without reading the entire definition, the applicable 
excerpt is ``an agency statement of general applicability and 
future effect designed to implement, interpret, or prescribe 
law or policy.'' It is the breath of that rule definition that 
causes agencies to send us 5,000 of them every year.
    The Tongass plan in our view clearly meets this definition 
of ``rule.'' It implements the requirements of the National 
Forest Management Act that the Secretary of Agriculture 
develop, maintain, and revise land resource management plans 
and assure compliance with the Multiple Use Sustained Yield Act 
of 1960 in setting forest management direction and harvesting 
levels. It prescribes the manner or the policy of the Forest 
Service for managing the Tongass National Forest for the 
future, 10 to 15 years. The various management prescriptions 
and land use designations when read together set out what types 
of activities may occur in various sections of the national 
forest.
    Thus it meets the elements of a rule. It is of general 
applicability, it has future effect, and it implements, 
interprets, and prescribes law and policy.
    Now, there are some exceptions in the statute to this 
definition of a rule. They are crafted quite narrowly. The one 
that we thought was the only one that might be arguably 
applicable in this case is an exception for an agency rule of 
procedure that does not substantially affect the rights or 
obligations of non-agency parties.
    I ought to say that, while the Forest Service has taken the 
position that the Tongass plan is not a rule, they have not 
provided us the background or their analysis. So what we have 
been doing is hypothesizing what their point of view might be.
    In our view the plan is not procedural. It does not meet 
the requirements of the exception to the rule. And it does have 
a substantial effect on non-agency parties. It allocates areas 
of the forest to land use designations and describes the uses 
to which the land may be put and the activities which may occur 
there. This management prescription gives general direction on 
what may occur within an area allocated to a particular 
designation, the minimum standards for accomplishing each 
activity, and guidelines on how to go about accomplishing the 
standards.
    Many of the standards and guidelines are quite specific and 
they provide no discretion for the Forest Service in management 
of the forest. For example, if you look at the wilderness 
designation you find that managers may permit special use 
cabins only if, among other things, the permit is non-
transferable, limited to a 5-year term, and provides no 
motorized equipment that may be used without specific approval 
of the regional forester.
    One of the specific provisions of the plan is found in the 
area of timber harvesting. In an effort to comply with the 
Clean Air Act, the Forest Service has provided for a 1,000 foot 
buffer around beach and estuary areas. It has provided a number 
of standards that relate to the survival of wildlife in the 
Tongass plan.
    I may say that those provisions of the plan cannot be 
amended without notice and comment procedures that the National 
Forest Management Act requires. In other words, they are 
binding on the Forest Service in its management of the forest.
    That briefly summarizes our view that the Tongass plan is a 
rule that is subject to review by the Congress in accordance 
with the procedures of the act. Thank you, Mr. Chairman. I will 
be happy to respond to any questions that the committees may 
have.
    [The prepared statement of Mr. Murphy follows:]
   Prepared Statement of Robert P. Murphy, General Counsel, General 
                           Accounting Office
    Chairman Murkowski, Chairman Young, and Members of the Committees:
    I am pleased to appear before you today to discuss the General 
Accounting Office's views on whether the Tongass National Forest Land 
and Resource Management Plan, issued by the United States Forest 
Service on May 23, 1997, is a ``rule'' under the provisions of the 
Small Business Regulatory Enforcement Fairness Act (SBREFA). Attached 
to this statement is a detailed legal opinion we recently issued on the 
question.*
---------------------------------------------------------------------------
    * The legal opinion has been retained in committee files.
---------------------------------------------------------------------------
    SBREFA was enacted on March 29, 1996, establishing a government-
wide congressional review mechanism of new rules, including the 
availability of expedited procedures to act joint resolutions of 
disapproval to overrule federal rulemaking actions. As the joint 
statement on the new law by Senators Stevens, Nickles, and Reid 
explained, the purpose of the legislation was to restore balance 
between the enactment of laws by Congress and their implementation by 
the Executive branch. The Congress sought to reclaim some of the 
policymaking authority that had been assumed by regulatory agencies 
with increased delegation of legislative functions from the Congress to 
these agencies.
    Congressional oversight of rulemaking as contemplated by SBREFA can 
be an important and useful tool for balancing and accommodating the 
concerns of American citizens and businesses with federal agency 
rulemaking. It is important to assure that Executive branch agencies 
are responsive to citizens and businesses about the reach, cost, and 
impact of regulations without compromising the statutory mission given 
to those agencies. SBREFA seeks to accomplish this by giving the 
Congress an opportunity to review rules before they take effect and to 
disapprove those found to be too burdensome, excessive, inappropriate, 
duplicative, or otherwise objectionable. As of July 3, 1997 (about 15 
months following enactment), 79 moor rules and 4,833 non-moor rules 
have been submitted under SBREFA.
    On June 18, 1997, the Chief of the Forest Service forwarded copies 
of the Tongass Plan to both Houses of Congress and our Office following 
the procedures outlined in SBREFA, while stating at the same time that 
land and resource management plans are not subject to the statute. An 
attachment to the transmittal letter states that the Plan is not a moor 
rule.\1\
---------------------------------------------------------------------------
    \1\ A ``moor rule'' is one found by the Office of Information and 
Regulatory Affairs, Office of Management and Budget (OMB), to meet 
certain criteria, such as whether the rule will have an annual effect 
on the economy of $100 million or more. 5 U.S.C. Sec. 804(2).
---------------------------------------------------------------------------
    We conclude that the Tongass Plan constitutes a ``rule'' under 
SBREFA. Therefore, submittal of a report to each House of Congress and 
the General Accounting Office was necessary in order for the rule to 
become effective. If the Office of Information and Regulatory Affairs 
determines the rule to be major, it is not effective until 60 days 
after the submission of the report to the Congress or publication in 
the Federal Register, whichever is later. This would result in an 
effective date of August 17, 1997, 60 days after submission to the 
Congress.
    SBREFA provides that before a rule becomes effective, the agency 
promulgating the rule must submit to each House of Congress and to the 
Comptroller General a report containing: ``(i) a copy of the rule; (ii) 
a concise general statement relating to the rule, including whether it 
is a moor rule; and (iii) the proposed effective date of the rule.''
    On the date the report is submitted, the agency also must submit to 
the Comptroller General and make available to each House of Congress 
certain other documents, including a cost-benefit analysis, if any, and 
agency actions relevant to the Regulatory Flexibility Act, and the 
Unfunded Mandates Reform Act of 1995, and any other relevant 
information or requirements under any other legislation or any relevant 
executive orders.
    Once a rule, whether determined to be a major rule or not, is 
submitted, special procedures are available for a period of 60 session 
days in the Senate or 60 legislative days in the House for Congress to 
pass a joint resolution of disapproval. These time periods can be 
extended upon a congressional adjournment. SBREFA provides that a major 
rule may not become effective until 60 days after it is submitted to 
Congress or published in the Federal Register, whichever is later.
    There are two questions concerning whether SBREFA procedures are 
applicable to the Tongass Plan. The first is whether the Tongass Plan 
is a ``rule'' under SBREFA, that is, an ``agency statement of general . 
. . applicability and future effect designed to implement, interpret, 
or prescribe law or policy.'' The second is whether any of the 
statutory exceptions in SBREFA are applicable. If the Tongass Plan is a 
rule, which we conclude it is, there is a third question--is it a 
``major'' rule, which cannot be effective for 60 days after 
presentation to the Congress and GAO. This determination is reserved to 
OMB's Office of Information and Regulatory Affairs.
    A summary description of the Plan shows clearly that it meets the 
definition of a ``rule.'' The Plan implements the requirement of the 
National Forest Management Act that the Secretary of Agriculture 
develop, maintain, and revise land resource management plans and assure 
compliance with the Multiple-Use Sustained-Yield Act of 1960 in setting 
forest management direction and harvesting levels. It prescribes the 
manner or the policy of the best Service for managing the Tongass 
National Forest for the future (10-15 years). The various management 
prescriptions and land use designations, when read together, set out 
what type of activities may occur in various sections of the National 
Forest. Thus, it meets the elements of a ``rule'': it is of general 
applicability (it affects many parties, private and governmental, 
concerning the National Forest) and future effect (10 to 15 years in 
duration), and it implements, interprets, and prescribes law and 
policy.
    SBREFA sets forth several exceptions to the definition of rules 
subject to congressional review. The only one arguably applicable here 
is ``any rule of agency organization, procedure, or practice that does 
not substantially affect the rights or obligations of nonagency 
parties.''
    In our view, the Plan has a substantial effect on non-agency 
parties. It allocates areas of the Forest to Land Use Designations and 
describes the uses to which the land may be put and the activities 
which may occur there. This ``management prescription'' gives general 
direction on what may occur within an area allocated to a particular 
designation, the minimum standards for accomplishing each activity, and 
guidelines on how to go about accomplishing the standards.
    Some minimum standards and guidelines provide considerable 
discretion to forest managers. For example, for the Karst and Caves 
Resource in areas of the Wilderness Designation, managers are to: 
``Identify opportunities for interpretation of caves for public 
education and enjoyment. Interpretation will generally occur outside 
this Land Use Designation.'' Other standards and guidelines are more 
specific. For example, for the Lands Resource in areas of the 
Wilderness Designation, managers may permit new special use cabins only 
if, among other things, the permit is nontransferable, limited to a 5 
year term, and provides that no motorized equipment may be used unless 
specifically approved by the Regional Forester.
    Among the more specific standards are those applicable to timber 
harvesting. Timber may not be harvested within the 1,000 foot beach and 
estuary fringe or buffer zone. in the Wildlife standards and 
guidelines, forest stand structural characteristics are listed which 
must be maintained after harvesting. For example, in the American 
Marten habitat (1) 10-20 percent of the original stand, (2) four large 
trees (20-30 inches in diameter) per acre, (3) three large dead or 
dying trees (230 inches in diameter) per acre, and (4) an average of 
three large pieces of down material per acre must remain.
    The specific restrictions and prohibitions are binding unless a 
land resource plan is amended in accordance with the requirements of 
the National Forest Management Plan Act, which provides that a plan may 
be amended after adoption following public notice. If the amendment is 
a significant change, the revision must be made available to the public 
in the vicinity of the affected area at least 3 months before amendment 
and the agency must hold public meetings or comparable processes that 
foster public participation. We note that the predecessor Tongass Plan 
was only amended through this process twice in over 15 years and both 
amendments resulted from congressional action.
    In concluding that decisions made in the Plan substantially effect 
non-agency parties and are, therefore, not ``agency procedures,'' we 
also recognize that the regulatory scheme includes a second stage of 
decisionmaking in managing the Forest. That stage occurs when Forest 
Service officials implement the Plan with respect to a particular area 
of the Forest. Clearly the Tongass Plan as a whole has itself a 
substantial effect on non-agency parties--it is not in that sense 
``procedural''--even though Plan restrictions will ultimately be 
embodied in site-specific decisions. We note that to conclude otherwise 
would effectively frustrate the SBREFA congressional review mechanism. 
The vast majority of site-specific actions concern individual use of 
particular areas of the Forest. They would in many cases be rules of 
``particular applicability'' and thereby be excluded from congressional 
review. If only site-specific actions were considered ``rules,'' a 
regulatory scheme in preparation for 10 years at a cost of over $13 
million, with substantial impact during the next 15 years on all those 
who use the Forest, would be insulated from congressional review.
    For the foregoing reasons, it is our opinion that the Tongass Plan 
constitutes a ``rule'' under SBREFA; it is subject to review by the 
Congress in accordance with the procedures set forth therein.
    Thank you Mr. Chairmen. This concludes my prepared remarks. I would 
be happy to answer any questions you may have.

    The Chairman. Thank you, Mr. Murphy.
    Ms. Katzen.

STATEMENT OF SALLY KATZEN, ADMINISTRATOR, OFFICE OF INFORMATION 
    AND REGULATORY AFFAIRS, OFFICE OF MANAGEMENT AND BUDGET

    Ms. Katzen. Good morning, Mr. Chairman, Senator Bumpers, 
members of the committee. It is a pleasure to be here today to 
discuss the applicability of the ``Congressional Review of 
Agency Rulemaking'' statute to the final draft of the Tongass 
Land Management Plan. SBREFA generally, and the congressional 
review provisions in particular, have the strong support of 
President Clinton. He signed the law over a year ago with a 
supportive signing statement. The Federal agencies began 
complying with the law immediately, since the law took effect 
upon signing. And based on what I hear, they are doing an 
excellent job.
    As Mr. Murphy has reported, as of the beginning of this 
month, Federal agencies have submitted 4,912 final rules, 
including 79 that were designated as major rules within the 
meaning of these provisions, to both houses of Congress and to 
the GAO.
    In general terms, under the congressional review statute, 
agencies are to send a copy of each new final rule, along with 
certain analyses that they may undertake related to the rule, 
to both houses of Congress and to the GAO before the rule is to 
take effect. When an agency sends a final rule to the Congress 
and GAO, it is to indicate whether the rule is major or not.
    The statute directs OMB's Office of Information and 
Regulatory Affairs to indicate whether a rule meets the 
statutory definition of ``major,'' that is, whether a rule is 
likely to result in an annual effect on the economy of over 
$100 million, a major increase in costs or prices, or 
significant adverse effect on competition, employment, 
investment, productivity, innovation, or the ability of 
American companies to compete.
    In a June 5, 1997, letter, the Chairmen of the Senate 
Committee on Appropriations, the Senate Committee on Energy and 
Natural Resources, and the House Committee on Resources wrote 
to me regarding the applicability of the Congressional review 
provisions to the Tongass Land Management Plan. Specifically, 
they wished to apprise me of their view that ``this massive and 
long-awaited proposed policy revision must rightfully be 
considered both a `rule' and a `major rule' '' under the 
congressional review statute.
    In your July 2, 1997, letter of invitation for me to appear 
at this hearing, you indicated you would be looking into the 
question of whether the Tongass Land Management Plan was a rule 
and whether or not it was major under these provisions.
    With respect to the first question--whether the Tongass 
Land Management Plan is a ``rule''--the provisions of the 
statute at issue state that before a ``rule'' can take effect, 
the Federal agency promulgating such ``rule'' shall submit it 
to both houses of Congress and GAO. The plain implication of 
this provision is that it is the agency promulgating the 
regulation that has the responsibility for deciding whether a 
particular issuance is or is not a ``rule'' under the relevant 
provisions.
    As I explain in my written testimony, this allocation of 
responsibility to the issuing agency makes eminently good sense 
as a policy matter, given the different statutory authorities, 
practices, program needs, and basic institutional cultures of 
different agencies. Moreover, it is fully consistent with 
agency administration of the Administrative Procedure Act, 
which has been in effect since 1946, and it is from that act 
that the definition of ``rule'' was taken for the congressional 
review provisions.
    Upon receipt of your letter of invitation, in preparation 
for this testimony, I asked whether the Forest Service has 
decided whether the management plan is or is not a ``rule'' as 
defined in the congressional review statute. I was advised that 
the Forest Service does not consider this Land Management Plan 
a ``rule'' within the meaning of the statute. I was also 
advised that, since the statute was signed by President Clinton 
on March 29, 1996, the Forest Service has issued six revisions 
to land management plans, none of which was treated as a 
``rule'' under the congressional review statute. At the same 
time, there were three other ``rules'' that they had worked on 
that were submitted to the Congress under that provision.
    I also should note that the Forest Service has so far as I 
know never treated land management plans as ``rules'' subject 
to the notice and comment provisions of 5 U.S.C. 553, and that 
is the ``rulemaking'' provision of the APA.
    I would also note in this connection that under President 
Clinton's Executive Order 12866 and its predecessors--the 
Reagan and Bush Executive Order 12291, and its predecessor, 
President Carter's Executive Order 12044--OIRA or its 
predecessor has had the responsibility of reviewing agency 
rules. I have been advised that at no time has OIRA or any of 
its predecessors ever reviewed a land management plan under any 
of the applicable executive orders. During my tenure, the last 
4 years at OIRA, we have not reviewed any Forest Service land 
management plans. In short, based on agency practice and our 
own experience, we have no basis to disagree with the Forest 
Service's decision that these plans do not constitute 
``rules.''
    Now, as I mentioned earlier, the congressional review 
statute gives me the responsibility of determining whether or 
not, if it were a ``rule,'' it would or would not be a 
``major'' rule. The definition that I am to use in that regard 
is taken not from the current Executive Order, but from the 
predecessor Reagan-Bush Executive Order 12291. That was the 
definition of ``major'' in that Executive Order.
    I have instructed OIRA staff, who are career civil servants 
and many of whom have been in OIRA for a number of years and 
therefore were responsible for carrying out the regulatory 
reviews under the Reagan-Bush Executive Order with its 
definition of ``major,'' to use the same definition of 
``major'' that they used in carrying out their responsibilities 
in the previous administration in advising me as to whether or 
not a rule is major under the congressional review provisions.
    To the best of my recollection, I have always deferred and 
never overruled the staff on a recommendation as to whether or 
not a rule is ``major'' under the act. Again, upon receipt of 
your letter of invitation, Mr. Chairman, and in preparation for 
this testimony, I asked OIRA staff whether, assuming arguendo 
that the plan is a ``rule,'' would they recommend that it be 
considered ``major'' under the congressional review statute.
    There is obviously one obstacle in that we do not have the 
plan to review, and so we did not have much information 
available. But your June 5, 1997, letter provided certain facts 
that I asked the staff to consider to give me, in effect, an 
advisory opinion. That letter suggests that the Tongass Land 
Management Plan would call for a drop from a harvest of about 
320 million board feet annually to a harvest of approximately 
220 million board feet a year.
    Staff responded that, assuming that the Tongass Land 
Management Plan can properly be interpreted as causing a drop 
in the timber harvest of 100 million board feet a year, they 
would then interpret the plan as being ``major'' if in fact it 
were a rule.
    I appreciate the opportunity to testify and welcome any 
questions you may have.
    [The prepared statement of Ms. Katzen follows:]
     Prepared Statement of Sally Katzen, Administrator, Office of 
  Information and Regulatory Affairs, Office of Management and Budget
    Good morning, Mr. Chairmen, and members of these Committees. It is 
a pleasure to be here today to discuss the applicability of the 
``Congressional Review of Agency Rulemaking'' (Congressional Review) 
statute \1\ to the Final Draft of the Tongass Land Management Plan.
---------------------------------------------------------------------------
    \1\ 5 U.S.C. chapter 8, ``Congressional Review of Agency 
Rulemaking,'' passed in Title II, Subtitle E, of P.L. 104-121, March 
29, 1996.
---------------------------------------------------------------------------
                legislative and congressional background
    The Congressional Review statute had the strong support of the 
President. He signed the law over a year ago. The Federal agencies 
began complying with this law promptly and, based on what I hear, are 
doing an excellent job. As of July 3, 1997, Federal agencies had 
submitted 4,912 final rules, including 79 designated as ``major'' rules 
within the meaning of the Congressional Review statute, to both House 
of Congress and to the General Accounting Office (GAO).
    In general terms, under the Congressional Review statute, agencies 
are to send a copy of each new final ``rule'' \2\ (and certain analyses 
that they may undertake related to the rule) to both Houses of Congress 
and to the GAO before the rule can take effect. When an agency sends a 
final ``rule'' to Congress and GAO, the agency is to indicate whether 
the rule is ``major'' or not.
---------------------------------------------------------------------------
    \2\ 5 U.S.C. 804(3).
---------------------------------------------------------------------------
    The statute directs OMB's Office of Information and Regulatory 
Affairs (OIRA) to indicate whether a ``rule'' meets the statutory 
definition of ``major''--that is, whether the rule is likely to result 
in an annual effect on the economy of over $100,000,000; a major 
increase in costs or prices; or significant adverse effects on 
competition, employment, investment, productivity, innovation, or on 
the ability of United States used enterprises to compete with foreign-
based enterprises.
    In a June 5, 1997, letter, the Chairmen of the Senate Committee on 
Appropriations, the Senate Committee on Energy and Natural Resources, 
and the House Committee on Resources wrote to me regarding the 
applicability of the Congressional Review statute to the Tongass Land 
Management Plan. Specifically, they wished to apprise me ``of [their] 
view that this massive and long-awaited proposed policy revision [to 
the Tongass Land Management Plan] must rightfully be considered both a 
`rule' and a `major rule' '' under the Congressional Review statute. In 
your July 2, 1997, letter of invitation to this hearing, you indicated 
that you would be looking into the question of whether the Tongass Land 
Management Plan is both a ``rule'' and a ``major rule'' under this 
legislation.
            is the tongass land management plan a ``rule''?
    The Congressional Review statute states that ``[b]efore a rule can 
take effect, the Federal agency promulgating such rule shall submit'' 
it to both Houses of Congress and the GAO.\3\ The plain implication of 
this provision is that it is the agency promulgating the regulation 
that has the responsibility for determining whether a particular 
issuance is a ``rule'' under the Congressional Review statute.
---------------------------------------------------------------------------
    \3\ 5 U.S.C. 801(a)(1)(A).
---------------------------------------------------------------------------
    This allocation of responsibility to the promulgating agency makes 
sense as a policy matter, given the different statutory authorities, 
practices, program needs, and sic institutional culture of each agency. 
Moreover, it is fully consistent with agency administration of the 
Administrative Procedure Act (APA). Since the term ``rule'' was used in 
the APA in 1946, each agency has determined, for its own issuances, 
what is and what is not a ``rule'' subject to the APA's informal 
rulemaking procedures. Indeed, I would note that the definition of 
``rule'' in the Congressional Review statute explicitly incorporates 
the definition of ``rule'' adopted in the APA, and then makes certain 
exceptions to that definition. In so doing, it appears to us that the 
Congress intended to incorporate agency (and any related court) 
interpretations of what is meant by a ``rule'' under the APA into the 
definition of ``rule'' adopted in the Congressional Review statute.
    Upon receipt of your letter of invitation, and in preparation for 
this testimony, I sought to ascertain whether the Forest Service has 
decided that the Tongass Land Management Plan is or is not a ``rule'' 
as defined in the Congressional Review statute. I was advised that the 
Forest Service does not consider this Land Management Plan a ``rule'' 
within the meaning of the Congressional Review statute. Since that 
statute passed on March 29, 1996, the Forest Service has issued six 
revisions of Land Management Plans, none of which was treated as a 
``rule'' under the Congressional Review statute.\4\ Nor, I understand, 
has the Forest Service ever treated its Land Management Plans as 
``rules'' subject to the APA's informal rulemaking procedures under 5 
U.S.C. 553.
---------------------------------------------------------------------------
    \4\ In contrast, I am advised that, after the Congressional Review 
statute passed, the Forest Service published three notice-and-comment 
final rules which were sent to both Houses of Congress and the GAO 
under that statute.
---------------------------------------------------------------------------
    I would note that under Executive Order No. 12866,\5\ and its 
predecessor Orders, Nos. 12291 \6\ and 12044,\7\ OIRA (or its 
predecessor) has been given the responsibility to review agency 
rulemakings. I am advised that OIRA has never reviewed Forest Service 
Land Management Plans under these Orders. During my tenure, OIRA has 
not reviewed any Forest Service Land Management Plans, nor do we 
disagree with the Forest Service's inclusion that these Plans do not 
constitute ``rules.''
---------------------------------------------------------------------------
    \5\ E.O. 12866, ``Regulatory Planning and Review,'' 58 Fed. Reg. 
51735 (October 4, 1993), Sec. 3(d) & (e), issued by President Clinton 
on September 30, 1993.
    \6\ E.O. 12291, ``Federal Regulation,'' 46 Fed. Reg. 12193 
(February 19, 1981), Sec. 1(a), issued by President Reagan on February 
17, 1981.
    \7\ E.O. 12044, ``Improving Government Regulations,'' 43 Fed. Reg. 
12661 (March 24, 1978), Sec. 6(a), issued by President Carter on March 
23, 1978.
---------------------------------------------------------------------------
         is the tongass land management plan a ``major rule''?
    As noted above, the Congressional Review statute gives me the 
responsibility of determining whether a ``rule'' is or is not 
``major.'' \8\ The definition of ``major'' that I am to use is taken 
from Executive Order No. 12291, the Executive Order preceding Executive 
Order No. 12866, currently in effect. I have instructed OIRA staff to 
use the same interpretation of ``major'' that they relied upon in 
carrying out their regulatory reviews under Executive Order No. 12291. 
To the best of my recollection, I have consistently deferred to OIRA 
staff in determining whether a ``rule'' is ``major'' for purposes of 
the Congressional Review statute.
---------------------------------------------------------------------------
    \8\ 5 U.S.C. 804(2).
---------------------------------------------------------------------------
    Upon receipt of your letter of invitation, and in preparation for 
this testimony, I asked OIRA staff whether, assuming that the Tongass 
Land Management Plan was a ``rule,'' they would recommend that it be 
considered ``major'' under the Congressional Review statute.
    Your June 5, 1997, letter suggests that the Tongass Land Management 
Plan would call for a drop from a harvest of about 320 million board 
feet annually, to a harvest of about 220 million board feet a year. 
Assuming that the Tongass Land Management Plan can be properly 
interpreted as causing a drop in timber harvest of 100 million board 
feet a year, OIRA staff would interpret the Tongass Land Management 
Plan as being ``major,'' if it were a rule.
    I appreciate the opportunity to testify, and welcome any questions 
that you may have.

    The Chairman. I am going to defer to Senator Craig, who is 
on a tight schedule, and I have got some people that I have got 
to visit with very briefly. So please proceed with your 
questions, and then Senator Bumpers.
    Senator Craig [presiding]. Mr. Chairman, thank you. And to 
both of you, thank you very much for those opinions, 
interpretations.
    Let me go to you, Mr. Murphy, and the General Accounting 
Office. Now, the Forest Service apparently disagrees with your 
assessment about the TLMP revision being a rule. The Forest 
Service claims that the TLMP is not a rule. First of all, let 
me ask, does the Forest Service's opinion that the TLMP is not 
a rule at all affect your own finding that it is a rule?
    Mr. Murphy. Well, I have to say, Senator Craig, that we 
took it very seriously, because agencies that promulgate rules 
are given some level of deference by the courts in how they 
characterize rules, whether they are subject to the 
Administrative Procedures Act or not. The result is that we 
have scrutinized the issue probably a lot closer than we would 
have otherwise. We really dug into it, although we did not have 
the benefit of the Forest Service's rationale.
    Now, the courts in the District of Columbia Circuit, which 
I know better than others in the country, would say that they 
would give some weight to that determination, but it is not 
decisive. And we found that we could not support the Forest 
Service's conclusions, so we did not go with it.
    Senator Craig. It is our understanding of your testimony 
and our own reading of the Regulatory Flexibility Act that the 
General Accounting Office has been given the role of advising 
Congress and perhaps agencies on whether their policy decisions 
constitute rules. It is our understanding that the GAO's 
independent opinion is generally given considerable weight by 
the agencies. Is this also the GAO's understanding of its role?
    Mr. Murphy. SBREFA does not provide any identification of 
who is to decide what a rule is, unlike the issue of whether a 
rule is a major rule or not, which, as Ms. Katzen pointed out, 
has been assigned to her. So in that sense, I cannot say that 
GAO has a special role under the statute for making that 
determination.
    The decision, the opinion, that we issued last week on the 
question was done in our role as adviser to the Congress in 
response to the request of three chairmen of congressional 
committees.
    Senator Craig. So notwithstanding your advice, clearly 
there is a disagreement between the GAO and the Forest Service 
over whether the TLMP revision is a rule. This then brings us 
to the question of who is the final arbiter of whether an 
agency action is a rule or not. Now, OMB apparently believes 
that the agency promulgating the regulation, in this case the 
Forest Service, has the final authority over whether it will be 
considered a rule.
    We have copious case law on this matter, however, that 
clearly demonstrates that OMB is wrong. According to the case 
law, when there is a dispute over whether an agency regulation 
is a rule, the question is settled by the courts, which have 
developed and will apply well-defined criteria that determine 
what constitutes a rule.
    All of this makes perfect sense because laws designed to 
check administrative abuse by Federal agencies would most 
likely not want to put the fox in charge of guarding the 
henhouse.
    As we have stated, the courts have clearly laid out the 
criteria of a rule and the TLMP revision we believe meets that 
criteria. In I believe it is Mada Luna v. Fitzpatrick, the 
Ninth Circuit Court of Appeals stated that a regulation is a 
rule where it narrowly limits administrative discretion or 
establishes a binding norm that so fills out the statutory 
scheme that, upon application, one need only determine whether 
a given case is within the rule's discretion.
    Well, is the Forest Service required to follow the Tongass 
forest plan once it goes into effect? Yes. That is, is TLMP 
establishing a binding norm for the Forest Service? I think the 
answer is yes. Would you agree with that, Mr. Murphy?
    Mr. Murphy. Yes, Senator Craig.
    Senator Craig. Of course, the TLMP will be a binding form 
for the Forest Service. That is the very purpose of TLMP.
    Another Federal court has defined a rule in a similar 
manner. In the case of McLouth Steel Products Corporation v. 
Thomas, the court stated that if the policy in question is in 
purpose or likely effect on the narrow limits or is of a kind 
calculated to have a substantial effect on ultimate agency 
decisions, it will be viewed as a legislative rule and thus 
subject to notice and comment requirements.
    Does the plan limit the discretion of the Forest Service 
once it goes into effect?
    Mr. Murphy. Yes, sir.
    The Chairman. Yes, the answer is, and we agree it certainly 
does. Again, that is the purpose of TLMP.
    Finally, the Eighth Circuit Court has also weighed in on 
the issue and has found that a forest plan in general is a 
rule. In the 1994 case of Sierra Club v. Robertson, the court 
cited a previous Supreme Court ruling that a BLM land 
management plan was a rule and stated that the Forest Service 
plan is analogous. It noted that the BLM plan and by 
implication a forest plan can be regarded as rules of general 
applicability announcing with respect to vast expanses of 
territory that they cover the agency's intent to grant 
requisite permission for certain activities, to decline to 
interfere with other activities, and to take other particular 
actions if requested.
    It appears to be well settled, therefore, that: first, the 
courts are the final arbiter of whether a policy is a rule; and 
second, the forest plan is a rule.
    We first ask then whether the GAO shares our understanding 
that the question of what constitutes a rule is not decided by 
the promulgating agency, but rather it is decided by the courts 
according to well settled principles of administrative law? 
Would you agree with that, Mr. Murphy?
    Mr. Murphy. In the end, Senator Craig, this judgment will 
be made by the Judicial Branch, yes.
    Senator Craig. We would then like to ask whether GAO agrees 
that, according to the precedent mentioned above, that the TLMP 
revision would be considered a rule? Do you still hold that?
    Mr. Murphy. Yes, we do.
    Senator Craig. Thank you.
    Ms. Katzen. Senator Craig, may I just respond to one 
comment that you made? I thought my testimony quite clearly 
stated that the responsibility for determining whether or not 
an issuance was a ``rule'' was made by the agency in the first 
instance. That was not a final determination. We believe in the 
rule of law, and the field of administrative law is rife with 
cases in which the courts clearly are the ultimate arbiters. 
But, as Mr. Murphy had mentioned, it is the responsibility for 
the agencies to make the decision in the first instance, and 
the courts do, under the Chevron line of cases, provide great 
weight to those decisions.
    Is the agency decision ultimately dispositive? No. The 
courts have an independent base for review and some of the 
cases you mentioned have gone specifically to that point.
    I did not want the record to appear that we had in any way 
implied that the agencies were above the law or were not 
subject to the judiciary. I join Mr. Murphy in his statement 
that it will be the courts that will be ultimate arbiters of 
whether or not the TLMP is a rule. But in the first instance it 
is for the agency to decide.
    Senator Craig. Well, thank you. I am not in dispute with 
you on that and I am glad you have underlined it.
    Let me ask this question then. Is the U.S. Forest Service 
unusual in terms of agency compliance with the 1996 act?
    Ms. Katzen. No. I believe, as I indicated, there were three 
rules that they had issued that were subject to the APA's 
definition, which they sent to both Houses of Congress and to 
GAO in compliance with that act. To the best of my knowledge, 
all agencies have been fully responsive to the congressional 
review provisions of the statute.
    Senator Craig. Both Agriculture and Department of the 
Interior, you mean?
    Ms. Katzen. Yes, sir.
    Senator Craig. Could we then receive from your office a 
list of all U.S. Forest Service and Department of the Interior 
actions since passage that have been sent and analysis and a 
list of those that were not?
    Ms. Katzen. We would be aware only of those that are 
``major,'' because that is where our statutory responsibility 
rests. If they were to have issued a regulation that was not 
``major'' and was sent to the Hill, we would not know. But GAO 
would have that information.
    Senator Craig. You have answered it. Please send us the 
list of that which you have.
    Ms. Katzen. Certainly.
    [The information referred to follows:]

    DOI/Fish and Wildlife Service, Migratory Bird Hunting; 
Final Frameworks for Early-Season Migratory Bird Hunting 
Regulations, RIN 1018-AD69, published in the Federal Register, 
8/29/1996.
    DOI/Fish and Wildlife Service, Migratory Bird Hunting; 
Final Frameworks for Late-Season Migratory Bird Hunting 
Regulations, RIN 1018-AD69, published in the Federal Register, 
9/26/1996.

    Senator Craig. Thank you.
    Mr. Chairman, thank you.
    The Chairman [presiding]. Thank you very much, Senator 
Craig.
    Senator Bumpers.
    Senator Bumpers. Mr. Chairman, this makes me think I am 
back in law school, and in that connection, on the 
congressional disapproval procedure of the Contract With 
America Act, section 802--both of you please listen carefully: 
``For purposes of this section, the term 'joint resolution'``--
that is, a joint resolution of disapproval--``joint resolution' 
means only a joint resolution introduced in the period 
beginning on the date on which the report referred to in 
section''--et cetera--``is received by Congress and ending 60 
days thereafter, excluding days either house of Congress is 
adjourned for more than 3 days during a session of Congress,'' 
et cetera.
    Then over here it says: ``After the expiration of the 60 
session days beginning with the applicable submission or 
publication date''--now that is the day we get it. Then it says 
you have 60 session days after that, I assume, to pass a joint 
resolution of disapproval.
    Now, I want you to tell me, what is a ``session day''?
    Ms. Katzen. My understanding of the concept underlying 
these provisions is that after a rule has been issued by the 
agency, it should be sent to the Hill and to the Federal 
Register, and whichever occurs later starts 60 calendar days 
(excluding days of adjournment for more than three days) during 
which a Member could introduce a motion to disapprove. If a 
motion to disapprove is not introduced during that period of 
time, the time would have expired for introducing the motion to 
disapprove.
    Once a motion for disapproval has been timely filed, then, 
going back to the date the rule is sent to the Hill, there is a 
total of 60 session days in which the Congress can utilize the 
expedited procedures for disapproval. There were two terms for 
that period--60 legislative days and 60 session days. The House 
used one term, the Senate used the other term. But the concept 
was days in which legislative action is taken during a session 
of Congress.
    We testified at the time, and have been on record since 
then, that that could result in as much as a year to a year and 
a half following the submission of the rule to Congress during 
which Congress may follow its review procedures.
    Senator Bumpers. And do a joint disapproval if they are 
going to.
    Ms. Katzen. And do a joint disapproval, so long as it is 
introduced in the first 60 calendar days, excluding days of 
adjournment for more than three days.
    Senator Bumpers. Say that again?
    Ms. Katzen. The actual motion--I feel like I am back in law 
school, too, somehow. It is very uncomfortable.
    The concept is that there are 60 calendar days--excluding 
days of adjournment for more than three days--during which a 
motion to disapprove would be introduced. That is a threshold.
    Senator Bumpers. Where are you getting that?
    Ms. Katzen. That is the 802(a) that you were beginning to 
read from. For purpose of this section, this has to be 
introduced within 60 days, excluding days on which they are 
adjourned for more than three days. Later, if it happens that 
on the forty-fifth calendar day or the fifty-fifth calendar 
day, a motion for disapproval is introduced, then you go back 
to the date that it was submitted and you have 60 session or 
legislative days on which to follow through on the motion to 
disapprove in both houses.
    This is all separate from whether or not the rule will be 
in effect during this time, because the effective date is 
triggered by a different provision. This is a very carefully 
drafted----
    Senator Bumpers. Let me frame the question a little 
differently, because you just hit on what I was driving at. 
Senator Murkowski, if he wants to introduce a joint resolution 
of disapproval, must do so within 60 legislative days.
    Ms. Katzen. No, within 60 days----
    Senator Bumpers. Sixty calendar days, but there are certain 
exclusions to that. That is not necessarily 60 days.
    Ms. Katzen. Right.
    Mr. Murphy. Right.
    Senator Bumpers. Is that not correct?
    Ms. Katzen. Yes.
    Senator Bumpers. So we have to introduce that, and then 
Congress has 60 session days in which to deal with it. Now that 
can run up to 18 months according to most definitions I have 
seen of a session day. What happens to the rule during that 18-
month period?
    Ms. Katzen. The way we have interpreted the statute is that 
if the rule is a non-major rule it goes into effect the day it 
is sent to the Hill, and it would be in effect during that 
entire period. Should the joint resolution for disapproval be 
passed by both Houses and signed by the President--because you 
have bicameral passage and presentment to the President, and 
there not be an effective override of any presidential veto--
then the rule would have been in effect up until that point, 
but once the joint resolution is signed by the President the 
rule would not be in effect.
    If the rule is a major rule, then it would not take effect 
for 60 calendar days following the receipt by Congress. At the 
end of the 60 calendar days and without regard to the weekends, 
the rule would then take effect and would be in effect.
    Senator Bumpers. And assuming that Congress has not acted 
on the----
    Ms. Katzen. Assuming it has not passed in both Houses the 
joint resolution to disapprove.
    Mr. Murphy. Senator Bumpers, the legislative history of the 
statute evidences some concern on the part of Congress that 
that may present a difficulty for American citizens who are 
relying upon the rule. As I recall the legislative history, it 
says that the reason the statute was drafted to provide that 
major rules do not go into effect for 60 days is to provide an 
opportunity for the Congress, if it wants to act on a joint 
resolution disapproving that rule, to do it quickly, so that 
you do not have what Ms. Katzen has just described, a rule that 
is in effect for a year before it is disapproved by the 
Congress.
    Senator Bumpers. Let me ask you this question. How does the 
so-called Reg Flex Bill that we also passed last year, which 
was designed to help small businesses, how does the Reg Flex 
Bill on joint resolutions of disapproval compare with this 
Contract With America Act? Do you know the answer to that?
    There is a 60-day period in the Reg Flex Bill, too.
    Ms. Katzen. It was combined in the same bill. What was 
ultimately passed, as part of the debt limitation bill, in 
March of last year had two pieces. SBREFA was the first piece 
that went through both the House and Senate Small Business 
Committees. It provided for guidance to small businesses in 
regulatory compliance, assistance to small businesses, and 
judicial review of the Reg Flex Act, which was the key 
ingredient of that particular piece of legislation.
    In addition, Senators Nickles and Reid had introduced 
congressional review provisions, which were originally free-
standing and were thought to be the response to the House-
passed moratorium on all regulations, that had been passed by 
the House as part of the Contract With America.
    In the Senate version, it was congressional review, not a 
moratorium. It was to provide Congress an opportunity to review 
regulations, as Mr. Murphy said, so that both the Legislative 
and Executive Branch would be co-partners in the regulatory 
regime.
    It was passed by the Senate, I believe, 99 to nothing. When 
the debt limitation was to be extended, Congress took the 
SBREFA piece and the congressional review piece, put them 
together, and they were attached to a bill which the President 
signed on March 29, 1996. The Congressional review piece is now 
part of SBREFA and, since SBREFA included an amendment to the 
Reg Flex Act, congressional review is often referred to as part 
of the Reg Flex Act even though it was originally free-standing 
and does stand on its own.
    Senator Bumpers. Mr. Chairman, these provisions are very 
complex.
    The Chairman. You got more out of that law school class 
than you bargained for.
    Senator Bumpers. I did indeed.
    The Chairman. We have been joined by Congressman Romero. 
Nice to have you with us, Congressman.
    Representative Romero-Barcelo. Thank you, Mr. Chairman. 
Nice to be here.
    The Chairman. Mr. Vento.
    Representative Vento. Thank you, Mr. Chairman.
    I listened with interest to the discussion of our 
distinguished colleague from Arkansas as he went through this 
procedure. And of course, the court will ultimately have to 
make the decisions. But it did make one on the legislative 
veto, as I recall, and this sounds as though the operable 
effect of this, that we all apparently voted for, I guess 99 to 
something in the Senate and big time in the House, too, is 
going to basically end up being, in terms of these instances, a 
legislative veto if it has the type of operation in the context 
that I hear here.
    I think there would be some judicial questions or some 
questions about the constitutionality of this provision based 
on that infringement on the ability.
    Now, Mr. Murphy, have you had other land management plans 
from the Park Service, the management plan for parks, from BLM 
or anyone else submitted to GAO and to Congress? We have got 
4700 of these. Any of them contain other land management plans?
    Mr. Murphy. We do not have any land management plans, sir. 
I think there have been six that have been promulgated in the 
last year.
    Representative Vento. Well, the Forest Service--I do not 
know how many the Park Service had. We do not know how many the 
BLM had, do we?
    Mr. Murphy. No, we do not. Some of the--some of the plans 
which are single resource plans, for example, would not be 
rules and would not be major rules, either.
    Representative Vento. Well, I know, they would not be 
submitted because they may not be major. Is that your point?
    Mr. Murphy. No, they would not be rules at all. Some of 
them might not be rules at all.
    Representative Vento. Would not be rules at all? Some are 
rules and some are not. None of them are listed as rules, are 
they? None of them use the Administrative Procedures Act, to my 
knowledge, in terms of the way that they go through the 
development of the plans. Are you aware of procedures in these 
different agencies----
    Mr. Murphy. No, I agree with you. I agree with you, they 
would not use the Administrative Procedures Act.
    Representative Vento. And they are not listed as rules.
    Mr. Murphy. No.
    Representative Vento. I guess I think the issue in terms of 
``major'' is a kind of a separate question here. But I mean, it 
does mean--do you have any idea--we would have a volume of 
these. Obviously we have other plans that may come forth from 
the Department of Defense or other instances where they have 
plans. Are they submitting their plans for the use of their 
public lands to the GAO and to the Congress?
    Mr. Murphy. I cannot tell you that they are.
    Representative Vento. Ms. Katzen.
    Ms. Katzen. I am not aware of that.
    Representative Vento. Well, I think that I am concerned. I 
disagree actually with this rule for different reasons than my 
distinguished colleague from Alaska. But I am concerned about 
the effectiveness of any type of procedure.
    Mr. Chairman, I see your bells are going off, but I just 
have another question. Does this mean you have a vote, Senator?
    The Chairman. Go ahead.
    Representative Vento. The issue of a major rule--my 
information is--I do not know; in other words, you are not 
taking the argument, setting aside the argument for whether it 
is a rule or a plan. Is that based on the information in 
Senator Stevens' letter?
    Ms. Katzen. That is correct.
    Representative Vento. And of course, my information is 
somewhat different. I do not know whether they are looking at 
in fact the plan that was in effect and what it meant, but in 
terms of the amount of timber harvested last year, it was 120 
million board feet is what I have, and that was with the pulp 
mill running, and now of course the pulp mill is not running. 
So the difference would come from the other end, where they 
would be increasing the harvest. It would still be a 100 
million board feet increase.
    But if we are both wrong in terms of that--but it would be 
close to--the dollar amount also may be different. So that this 
may be--but obviously you accepted this information as such and 
I understand that.
    Ms. Katzen. Simply for the purpose of giving an advisory 
opinion, as I was requested to do. The facts are obviously key, 
and if the facts are as you state, then we may have a different 
interpretation.
    Representative Vento. Well, I do not know how you are using 
it in terms of the baseline data, whether you are taking 
something out of a previous plan or you are taking something 
out of reality.
    Ms. Katzen. I was basing the advisory opinion on the letter 
in which I was presented with the statement that the plan was 
responsible for a decrease in the amount of board feet in the 
amount specified in the letter.
    Representative Vento. Mr. Chairman, I think that the 
submission of this, of resource land plans, to this--what I 
would think is that if we have concerns about the procedures in 
terms of participation--have you made any type of evaluation, 
Mr. Murphy, about the participation nature of the land use 
management plans versus the APA procedure for rules?
    Mr. Murphy. They have their own--the National Forest 
Management Act provides explicit notice and comment procedures 
for these plans and those are implemented in regulations, and 
if I may say they go much beyond the APA in terms of their 
requirements on the agency.
    Representative Vento. Well, that is my judgment. My concern 
is that if you are going to address this you have something 
already that goes beyond it. I think that Senator Murkowski's 
concerns about the last minute modifications that then were 
brought about without, perhaps without comment, or the 
decisionmaking process after this came in is all very 
interesting. It obviously is not--to my knowledge, it does not 
in any way violate what the law is with regards to that.
    I do not know, Senator, if you were suggesting that. I 
think it is desirable to have as much as discussion in terms of 
what the solid proposals are from the Forest Service with 
regards to the Tongass. I can appreciate that fact. But these 
land management plans go beyond that.
    So I think the question for all of us, those working on 
issues of this nature, is whether or not we want to--if this is 
the procedure, if you want to treat these as rules and you want 
to condense the other side of the process in terms of land 
management plans, you may end up with something less in terms 
of public participation rather than more.
    I do not think that anyone is served by the goal of 
frustrating the implementation of the law by selectively--or 
sending plans, because almost any decision that is made, even a 
listing under the Endangered Species Act, if that is considered 
an action or a plan that is submitted, that very well could 
lead us into this same quagmire where we never end up 
implementing the policy acts. It frustrates the action of a law 
that is passed by Congress and signed by the President. it is 
frustrated by virtue of this type of procedure.
    Quite frankly, I think many of us had misgivings about the 
broader rule and regulation issues in terms of review, that 
they were ways to frustrate the implementation of law, and that 
this was a simplified version that would work. But as Senator 
Bumpers unfolded this concern, it appears to be much more 
serious.
    Now, I thought I was coming today to talk about the 
substance to some extent of this plan, but I do think that this 
procedure does not, and this recommendation that these be 
reviewed in this process, is not realistic nor helpful, 
whatever your viewpoint is with regards to land management. I 
think it would lead to even less input on the part of Congress, 
not more.
    The Chairman. Well, I think we have to deal with the facts, 
and this procedure is law and it was signed by the President. 
And the question of whether or not the Forest Service is in 
concurrence with the law will probably be determined by someone 
other than those of us sitting on this committee or those two 
witnesses that we have had.
    I think it is fair to note that under the statements made, 
in addition to the realization that the Tongass Land Management 
Plan is a major rule, the TLMP is also in that concept 
obviously synonymous under the terms set by the 1996 act and 
would therefore trigger other requirements and conditions 
before the rule can take effect. According to the 1996 act, 5 
U.S.C. 804, a major rule, as stated, is any rule that the 
Administrator of the Office of Information and Regulatory 
Affairs of the Office of Management and Budget finds has 
resulted or is likely to result in, and that is: an annual 
effect on the economy of $100 million or more; a major increase 
in costs or prices for consumers, individual industries, 
Federal, State, or local government agencies, or geographic 
regions; or, three, significant adverse effects on competition, 
employment, investment, productivity, innovation, or the 
ability of United States-based enterprises to compete with 
foreign-based enterprises, et cetera.
    So as a consequence of that, I think that we simply will 
have to wait until the court determines the eventual outlook 
and whether the Forest Service has been in compliance or acting 
outside of compliance with the law.
    Yes?
    Representative Vento. I do not disagree with that. I was 
just talking about what the practical implication of it is in 
terms of if it is going to be applied to all land management 
plan decisions by agencies with regards to--I think we 
obviously would, especially given the description of this--and 
I do not think there is any disagreement about it, about what 
the practical effect of it is.
    I would also suggest that there is this whole question of, 
beyond that, in terms of judicial review, and I am sure you 
would agree, whether or not this constitutes in essence a 
legislative veto.
    The Chairman. Well, obviously the question of compliance 
within the law and the ruling as to whether it is a major rule 
or not is going to be determined by a process that is beyond 
the scope of those of us on the committee. But I think it is 
fair to say that, with Mr. Murphy's statement and Ms. Katzen as 
well relative to what they would have done had it been 
determined to be a rule by the appropriate agency, was, that if 
indeed it met the parameters that were suggested within the 
scope of Senator Stevens' letter, it probably would be a major 
rule, and Mr. Murphy's determination that it would have been a 
major rule had the Forest Service submitted it for a ruling.
    Mr. Murphy, you said it would be a rule. So that is 
basically, I think, what we attempted to determine here, is the 
statements definitive relative to that, and the ambiguity 
associated with the fact that the Forest Service chose not to 
have the matter addressed. And the question is did they have 
the obligation to submit it under the rule theory or not? And I 
think the record will indicate the experience level and the 
authority associated with the General Counsel to the GAO as 
well as Ms. Katzen on Office of Management and Budget.
    We thank you for your statement this morning and look 
forward to the next panel.
    Mr. Murphy. Thank you, Mr. Chairman.
    The Chairman. The next panel will be: Mr. Phil Janik, 
Regional Forester, Juneau; followed by Mr. Tom Mills, U.S. 
Forest Service, Portland, Oregon; Dr. Fred Everest, U.S. Forest 
Service, Juneau; Mr. Brad Powell, U.S. Forest Service, 
Ketchikan; and Mr. Fred Norbury, U.S. Forest Service, Juneau.
    Good morning, Phil. Good morning, Tom. I would ask that you 
proceed in any manner that you desire, and we would appreciate 
it if you would care to address or help clarify some of the 
lasting questions that perhaps were left by the previous panel 
or comment on any of the communications that have been 
addressed relative to the procedure so far.
    Please proceed, Mr. Janik.

    STATEMENT OF PHIL JANIK, REGIONAL FORESTER, U.S. FOREST 
SERVICE, JUNEAU, AK; ACCOMPANIED BY DR. TOM MILLS, U.S. FOREST 
 SERVICE, PORTLAND, OR; DR. FRED EVEREST, U.S. FOREST SERVICE, 
 JUNEAU, AK; BRAD POWELL, U.S. FOREST SERVICE, KETCHIKAN, AK; 
 FRED NORBURY, U.S. FOREST SERVICE, JUNEAU, AK; JOHN DAY, U.S. 
FOREST SERVICE, JUNEAU, AK; KIMBERLY BOWN, U.S. FOREST SERVICE, 
 JUNEAU, AK; AND CHRIS IVERSON, U.S. FOREST SERVICE, JUNEAU, AK

    Mr. Janik. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before the committee to supply 
information in regard to the Tongass Land Management Plan 
Revision. With me today are: Dr. Tom Mills, Director of the 
Pacific Northwest Research Station; Fred Norbury, Alaska Region 
Director of Ecosystem Planning and Budgeting; Brad Powell, 
Ketchikan Area Forest Supervisor of the Tongass National 
Forest; and Dr. Fred Everest, Project Manager of the Pacific 
Northwest Research Station. Those are the folks that are at the 
table with me.
    Also present in the room are: Beth Pendleton, Co-Leader of 
the Tongass Planning Team; Dr. Terry Shaw of the Pacific 
Northwest Station, also a member of the team; Chris Iverson and 
John Day, other members of the Tongass team; and Kimberly Bown, 
my Staff Director in Alaska for Public Services. In response to 
staff input regarding possible questioning on tourism and 
recreation, Kimberly has joined us to respond to any line of 
questioning that might lead in that direction.
    Regarding the Tongass revision per se, on May 23, just a 
few short weeks ago, I signed the record of decision for the 
Tongass National Forest plan revision, and that decision 
culminated a long, 10 year effort to come to that point in 
time. The original Tongass plan was the first of its kind, 
approved in 1979 under the National Forest Management Act of 
1976.
    As you know, a forest plan is intended to guide the 
management of a forest for 10 to 15 years, so the Tongass plan 
was ripe for revision. In 1987 the forest plan revision was 
initiated, beginning with the public scoping process. 
Throughout the 10-year planning effort, three draft 
environmental impact statements and draft plans were developed 
and released for public review: one in 1990, the second in 1991 
just after the passage of the Tongass Timber Reform Act, and 
then the third in April 1996, the most recent public review.
    In 1994, under my jurisdiction as Regional Forester, the 
Forest Service entered the final phase of the plan revision. 
Six research scientists from the Pacific Northwest Research 
Station, a specialist from the Environmental Protection Agency, 
and U.S. Fish and Wildlife Service were added to the planning 
team. We also received substantial assistance from the State of 
Alaska through the willingness of Governor Tony Knowles to 
provide representatives from several State agencies to 
participate in the process. The National Marine Fisheries 
Service also contributed to the effort.
    The charter of the planning team, the instructions I gave 
them, was to develop a plan that was scientifically credible, 
that would ensure the sustainability of all forest resources 
over the long haul, and that would meet legal requirements. The 
final phases of the revision effort focused on a broad spectrum 
of issues, including local and regional economies and social 
concerns, wildlife and fish viability issues, habitat 
management, alternative timber harvest systems to clearcutting, 
tourism and recreation, and protection of karsts and cave 
management.
    I believe that the comprehensive revision effort produced a 
solid and balanced plan for the Tongass National Forest. The 
revised plan provides for conserving 92 percent of the old 
growth forest that was present in 1950. That prediction is for 
the next 10-year implementation of the plan; 92 percent of the 
old growth that existed in 1950 will still be standing. Over a 
100-year plan horizon, 84 percent of the old growth that stood 
in 1950 will remain standing.
    The plan provides high levels of protection for fish and 
wildlife and enhances the opportunity for growth in tourism. 
The plan includes guidelines for all resources, such as timber 
and mining activities.
    I believe that the revised plan will support the continued 
economic growth and development of southeastern Alaska 
communities. It provides support for the tourism industry, 
which is experiencing dramatic growth and becoming steadily 
more important to many communities in southeastern Alaska.
    The plan assigns areas of key importance to the tourism 
industry for recreation, provides for subsistence uses, and 
protects important scenic vistas. The plan provides support for 
the continued health of the fishing industry and also for sport 
and subsistence uses of that resource. It contains riparian 
standards and guidelines and requirements for watershed 
analysis, to ensure the protection of spawning and rearing 
habitat for anadromous fish on the Tongass.
    The plan also provides support to the timber industry, 
going through a very significant transition currently, as we 
all know. The owners of both of the pulp mills have closed them 
in response to changes in international and national markets in 
recent years. These closures have had enormous consequences for 
timber-dependent communities in southeastern Alaska because 
there are no other manufacturing operations in southeast 
currently that are capable of using the lower grade timber and 
sawmill residues that were once used by the pulp mills.
    We are assisting local communities in a number of 
scientific, technical, and financial efforts. Scientists from 
the Forest Products Lab in Madison, Wisconsin, in part to your 
invitation, Mr. Chairman, are helping to identify new products 
and new uses for Tongass timber. Technical and financial 
assistance are offered through our State and private forestry 
programs on an ongoing basis, including participation in the 
emerging Southeast Alaska Economic Revitalization Team, which 
is a multi-agency effort that is currently under way and 
complements the activities undertaken by the communities 
themselves, much of that using as its base the economic 
assistance funds that were made available by Congress last 
year.
    Finally, the biologically based allowable sale quantity for 
the Tongass is significantly above the current projected timber 
demand levels, based on the Brooks-Haynes study. Should private 
sector investments and efforts to promote new wood-based 
industries come to fruition in the next few years, there may 
very well be additional available timber supply from the 
Tongass as a contribution to that effort within the context of 
assuring sustainability of all the other resources.
    I would like to spend a little time talking about the 
unique partnership that was developed between research and 
management in the Tongass revision. The Tongass National 
Forest, as you know, is the largest national forest in the 
Nation, encompassing about 17 million acres. The resources of 
the forest are vast, interactions very complex.
    We owe it to the people of the future and the people who 
depend upon the resources today to manage the forest based on 
credible scientific information. In 1994, with the Pacific 
Northwest Research Station, I forged a partnership between 
research and management in the Alaska region to assure that the 
revised plan was based on the latest available science and 
information.
    The Forest Service has always relied on the knowledge, 
expertise, and experience of scientifically trained personnel 
in the development of land and resource management plans, but 
the newness here was actually assigning people to the planning 
team. As I mentioned earlier, there were about six individuals 
what were so assigned from the Pacific Northwest Station.
    They in turn saw to it that some 50 other scientists from 
other agencies, universities, private industry, were part of 
completing scientific assessments on key resources of the 
Tongass. They also assembled new information and published some 
six research documents, including two papers on the northern 
goshawk and the Alexander archipelago wolf, and drew heavily on 
more than 160 scientific papers in doing so.
    The research science efforts for the Tongass revision also 
generated new information as a result of convening panels of 
experts to assess the risks associated with alternative 
resource management scenarios that were considered in the 
revision process. The assembled information was of sufficient 
breadth and depth to allow managers, such as the forest 
supervisors and myself, to make informed and reasoned decisions 
regarding the future management of the Tongass.
    Scientists also evaluated how managers used the information 
in developing the plan. The scientists concluded that we 
considered the science information in all of its thoroughness, 
interpreted it appropriately, and were aware of the identified 
risks as identified by them.
    It is important to note that the scientists did not make 
management recommendations, nor did they make management 
decisions. The research scientists provided decisionmakers with 
objective scientific information, rather than management 
recommendations.
    There is great interest in the Tongass, both locally and 
nationally. In total we received over 30,000 comments over that 
10-year period, from every community in southeastern Alaska and 
every State in the Union. In fact, of that 30,000, 22,000 were 
generated with that last April 1996 public review opportunity.
    The people that we heard from care passionately about how 
the Tongass will be managed in the future, and it was obvious 
that many of them had different ideas among themselves about 
the best way to achieve that. We worked hard to find out what 
local citizens wanted from the National Forest, as well as 
citizens across the country, and I believe that the plan does 
strike a balance between local and national needs and responds 
well to public concerns.
    The planning effort ended with the record of decision May 
23, and we are now starting to focus on implementation in a big 
way. A very important feature of that is collaborative 
stewardship. The Alaska region is committed to continuing to 
build our working relationships with the local communities of 
southeastern Alaska and to continue to work with other Federal 
and State agencies, members of interest groups and the public 
throughout the country. I believe that our continued efforts to 
involve the public at the front end of decisionmaking through 
collaborative stewardship and improvement in that regard will 
result in better decisions, with greater public support, and 
hopefully in turn will lessen the potential delays in plan 
implementation in doing so.
    A little bit on process. The notice of availability of the 
Tongass plan was printed in the Federal Register on June 27. 
The National Forest Management Act provides that the plan 
becomes effective 30 days after the notice of availability. 
Therefore it would become effective July 27. The legal notice 
of the decision on the Tongass plan was printed in the Juneau 
Empire on June 27, therefore generating a 90-day appeal period 
under the Forest Service Administrative Appeals Regulations 
beginning the day after publication of that legal notice.
    The decision I have made and the record of decision, those 
decisions are appealable through the Forest Service 
Administrative Appeals Process, with the provisions indicating 
that filing such notice before September 26 would be the 
deadline, of this year.
    The Tongass revision strikes a balance that protects the 
health, diversity, and productivity of Tongass ecosystems while 
it provides for resource uses well into the next century. It 
provides an ecosystem conservation plan that I believe will 
work. The plan provides for commercial and sport uses of the 
forest that support southeastern Alaska communities, including 
fishing, mining, logging, recreation, tourism, and other uses. 
And it provides resource for subsistence harvests and helps 
sustain Alaska's cultural values.
    I believe that this plan is scientifically credible, 
legally defensible, and provides the basis to ensure 
sustainability of all forest uses over the long haul.
    This concludes my statement, Mr. Chairman. We at the table 
or others we may call upon are available and very willing to 
answer any questions you may have. Thank you.
    [The prepared statement of Mr. Janik follows:]
 Prepared Statement of Phil Janik, Regional Forester, Forest Service, 
                       Department of Agriculture
    Messrs. Chairmen and members of the committees, thank you for the 
Opportunity to address the committees concerning cooperation between 
the Fish and Wildlife Service (F&WS) and Forest Service (FS) on the 
Tongass Land Management Plan Revision and other issues of concern to 
both agencies.
    Preventing the need to list species under the Endangered Species 
Act (ESA) is the current federal government policy; both the FS and the 
F&WS are dedicated to this policy, which is described in a federal 
national Memorandum of Understanding signed in January, 1994, by the 
FS, F&WS, Bureau of Land Management, National Park Service, and 
National Marine Fisheries Service. In December, 1994, the FS, the F&WS 
and the Alaska Department of Fish and Game signed a complementary 
Memorandum of Understanding to establish a cooperative program to 
promote conservation of species tending toward listing under the ESA.
    Moreover, Department of Agriculture Regulation 9500-4 directs the 
FS to avoid actions ``. . . which may cause a species to become 
threatened or endangered.'' More detailed direction is provided in 
Chapter 2670 of the Forest Service Manual. Managing habitat to maintain 
viable populations of wildlife, as required under the regulations 
implementing the National Forest Management Act is one of the most 
important tools we have for maintaining healthy populations of species 
and preventing the need to list species under ESA.
    The agencies have been actively cooperating since 1988 regarding 
wildlife habitat management and wildlife conservation planning on the 
Tongass National Forest. We have collaborated on wildlife field studies 
since 1990, and the F&WS was a member of the interagency Viable 
Population Committee. This committee was formed in 1990 by the FS to 
help revise the Tongass plan by addressing wildlife viability. The 
committee continued its work until May 1994.
    At the same time that I expanded membership in the Tongass planning 
team to include research scientists, I also asked other federal 
agencies and the State of Alaska for assistance. The Environmental 
Protection Agency and the F&WS had full time members on the Tongass 
revision inter-disciplinary team. We also received substantial 
assistance from representatives of several state agencies and the 
National Marine Fisheries Service. We received valuable information 
from all of the contributors. The representative from the F&WS brought 
additional experience and expertise and the Department of the Interior 
perspective to the Tongass Plan revision. He helped the 
interdisciplinary team to write standards and guidelines, mitigation 
measures, and land allocations, and to determine effects of 
alternatives.
    The F&WS also had a full time senior line officer on the Tongass 
plan revision Policy Advisory Group. This group helped guide the 
revision process and identify policy issues critical to the revision. 
The two agencies jointly conducted a public information meeting in 
Ketchikan regarding wildlife conservation planning.
    The F&WS senior staff was briefed on the plan alternatives and was 
asked for suggestions and concerns. I carefully considered these 
changes before I signed the final plan. These changes included 
additions to old growth reserves and modifications of standards and 
guidelines. As required by law, we consulted with the F&WS under 
provisions of the ESA concerning the few threatened or endangered 
species that exist in the Tongass before I made my decision.
    I have briefly described the professional relationship that the FS 
and the F&WS enjoy in Alaska and the years of cooperation for the 
purpose of wildlife and wildlife habitat conservation. I am confident 
that the habitat strategies developed and implemented through the 
Tongass Plan Revision will provide adequate protection for fish and 
wildlife habitat to assure the viability of the species that we are 
concerned about on the Tongass National Forest.
    I look forward to continuing to work closely with the F&WS to 
assure wildlife and fish species thrive on the Tongass.
    This concludes my testimony. I would be happy to address any 
questions you may have.

    The Chairman. Thank you very much, Mr. Janik.
    As we reflect today on some, what, 11 years in the process 
to come up with a 10-year plan which you have achieved--and I 
commend you--the realization that we have spent some $13 
million in the process. It seems a bit ironic, but I assume 
that those are the conditions under which you folks have to 
function and perform.
    Have you got any comment relative to the apparent 
inconsistency of a process that takes you 11 years to develop a 
10-year plan at the extraordinary cost? In other words, is the 
system so constricted to simply dictate that in the future we 
are going to be subjected to this extraordinary process of time 
and money?
    Mr. Janik. In looking at that number of $13 million, Mr. 
Chairman, I try to keep that in perspective in terms of what 
has occurred over that 10-year period. The planning process, in 
credit to my predecessors, had been interrupted a number of 
times for a number of reasons that I am sure can be explained, 
including legislation and so on. And to the frustration of 
everyone, I am sure, at those times they had to go back to the 
drawing board and start reconstructing some things because of 
that new direction.
    I am very proud of what has happened over the past 3 years, 
the time period that I was responsible for the revision portion 
of the 10-year period, and I believe that the folks both in the 
agency and those who helped us from other agencies and the 
responsiveness of the public--frankly, my opinion is that 
things came together quite well. We spent over the last 3 years 
I would say, if I remember the figures, about $2.5 million per 
year, and that was the cost of the last 3-year surge, which was 
very intensive.
    The other factor I try to consider is that we are covering 
a landscape of 17 million acres, the size of most other regions 
of the Forest Service, where 20 such efforts would be taking 
place in 20 separate national forest revisions.
    So in looking at that figure, Senator, I try to find it 
``acceptable,'' given the complexity of the issue, the national 
interest, the scrutiny, the landscape, the complexity of the 
issues. But frankly, I consider the last 3 years--that is all I 
can speak to with experience--as being done in a very efficient 
manner.
    The Chairman. Well, quickly adding that up, there is about 
$7.5 million then of the $13 million that was expended over the 
last 3 years.
    Mr. Janik. That is correct.
    The Chairman. The East Coast media editorial writers have 
not been very kind to the Forest Service in their 
characterization of the final TLMP. You and I both know that 
they evidently know a lot more about Alaska matters than you or 
I or your staff. Nevertheless, I feel compelled to review some 
of this material with you to see if in your opinion it is 
accurate to any degree at all. I think Mario Cuomo said it best 
when he said the difference between reporters and young 
children is that if you say it often enough children eventually 
get it right.
    Let us turn to the forestry experts at the Kansas City Star 
out in Kansas, where they have got as many trees as they have 
wheat. I do not know if you have read this quote, but it is as 
follows: ``Unfortunately, the Forest Service seems to be on the 
side of the robber barons, who would rape this forest for 
short-term gain with long-lasting consequences. For some of the 
wildlife in that forest, the end is drawing near unless there 
is a stop to the attacks on the Tongass. The Tongass plan 
appears to be inadequate for the protection of these species. 
They need to be protected by placing them in a Federal listing 
of threatened species.'' They do not say which ones. ``The 
administration needs to take steps to halt the Forest Service's 
management plan on the Tongass or to modify it considerably. 
The plan is abominable public policy.''
    What do you think of that, Phil?
    Mr. Janik. I strongly disagree with that conclusion. In 
fact, we have worked very hard over the past 3 years. One of 
the principal reasons we brought the scientists on board and 
went to the extent we did to get the scientific information 
that has been used as the underpinning for this plan and the 
interaction with the other agencies was in fact to make sure 
that we met our environmental requirements and, given the 
importance of those resources on the Tongass with regard to 
commercial, sport, as well as subsistence use.
    We have, I believe as the ultimate decisionmaker--with 
confidence I can say that we have met those requirements and 
then some.
    The Chairman. Well, let us turn to the forestry experts at 
the New York Times. I think they have done a good job of 
maintaining the pristine quality of the environment in New York 
City and they must feel compelled to provide a little advice 
for Alaskans. It seems that we get an editorial about once a 
month from them on the Tongass. They indicate:
    ``The Service recently issued the broad outlines of its 
long-awaited management plan for the Tongass in southeastern. 
The plan is not reassuring. It calls for too much logging in a 
forest that is already heavily cut''--that is contrary, I 
think, to your statement earlier--``and, worse, would threaten 
watersheds vital to the Tongass' biological future and the 
livelihoods of commercial fishermen.''
    I wonder what gives here, Phil. Are we threatening the 
Tongass' biological future and the livelihoods of commercial 
fishermen?
    Mr. Janik. I do not believe that, Senator. Again, based on 
the direction in the revision, I am very confident that we are 
going to sustain those uses over time and we are going to 
protect the resources that enable that kind of use.
    There obviously have been some very different kinds of 
opinions stated, both in the media and elsewhere. Those two 
articles you have just referred to I am familiar with. There 
have also been many articles that I have read that I believe 
strike a pretty objective description of what has come out of 
the Tongass revision in terms of all the features that we have 
provided for.
    Again, just quoting from some of the numbers I just 
presented in my testimony, when one considers that 94 percent 
of the old growth that existed----
    The Chairman. 92 percent I think is what you said.
    Mr. Janik. Excuse me. 92, that existed in the fifties will 
remain after 10 years of implementation of this plan; and 84 
percent over a 100-year period. And when you look at the beach 
and estuary protection and the riparian standards that we have 
established and the responsiveness to community protection 
areas--I guess I would like to sit down with one of these folks 
or all of them and discuss the perspective they have, because 
we have tried to be very responsive to those needs.
    The Chairman. When you go back and refer to 92 percent of 
the old growth that was present in 1950's, it is assumed that 
that is when large-scale logging basically began.
    Mr. Janik. That is correct.
    The Chairman. So there was virtually little large-scale 
logging prior to 1950.
    Mr. Janik. That is correct.
    The Chairman. And one wonders why we have not been able to 
get our story across relative to the factual information. You 
have indicated that 92 percent of the old growth forest is 
still there and this plan provides for its continuation.
    We heard from the Houston Chronicle in Texas, where they 
have always had a problem with Alaska, with the arithmetic, and 
the fact that there is somebody bigger than them. But their 
view of Alaska, of course, is that I guess Texas has never 
gotten over the fact that it used to be the largest State.
    I note that, a quote from the Houston Chronicle: ``Half of 
the Tongass old growth trees have already been logged,'' quote, 
unquote. ``The increased logging in the new TLMP not only means 
more old growth trees lost, but more roads through virgin 
areas, built at taxpayers' expense by the way, more runoff and 
more fouled streams, to the detriment of salmon.''
    Well, we have already harvested half the trees, according 
to them, and we are going to foul up the streams as well.
    Mr. Janik. Senator, I have been asked the question several 
times: What difference does the new revision make as compared 
to previous practices by the Forest Service on the Tongass that 
have been authorized. I think some of the criticism that may be 
valid with regard to our authorizations have been 
distributional. There are certain areas on the Tongass where we 
definitely are going to have to do things differently. There 
are some areas where the new standards and guidelines will not 
permit the level of harvest that occurred in that particular 
area in the past.
    So there is definitely a change emerging here with the 
revision. But we are still presented with an opportunity to do 
things right for the long haul. As I have often said, even in 
front of your committee, sir, we are in a prevention mode still 
and we would like to stay in that mode and not have to correct 
problems later, so that 50 years from now we can look back and 
enjoy the same kinds of things on the Tongass that we enjoy 
today.
    The Chairman. 50 years from now under this plan you will 
still have 92 percent of the old growth forest.
    Mr. Janik. Moving towards that 84 percent figure. After 10 
years we will have the 92 percent.
    The Chairman. Then we go West to the San Francisco 
Examiner. That is a paper owned by a corporation that still 
owns and manages a significant amount of private timber in 
California, and publishes in a city that was built to a large 
degree on timber wealth. The Examiner is even worse with its 
numbers than most papers. Its editors have not yet grasped the 
difficult concept of multiplication, because they claim:
    ``The Forest Service would double the number of trees 
logged each year. The plan threatens to destroy virgin forest 
and pristine watersheds. The Clinton administration should stop 
this plan and should do it now.''
    Mr. Janik. I appreciate you drawing attention to that 
particular article, because it does reveal one item that is 
often misunderstood and misquoted. The old forest plan before 
the revision was signed had an allowable sale quantity of some 
520 million board feet. That is total volume, often misquoted 
as being 450 because at that time we only expressed volume 
based on saw log portions of the total volume. But really the 
important comparison is 520.
    The new calculation is 267 in the revision, which is a 
substantial decrease, of course.
    Another figure that is misquoted is that the ASQ, the 
allowable sale quantity, is often referred to as a timber 
target, which it is not. It is a planning calculation. It 
establishes the maximum that could be cut off the Tongass over 
a decadal period, meaning 2.67 billion board feet, on the 
average 267 per year.
    But it was only last year that we had a harvest as low as 
120 million board feet. For the last 17 years the average 
harvest on the Tongass has been about 327 million board feet. 
So when some folks refer to a doubling of the harvest, 
comparing the 267 with the 120 I think is what they are doing. 
They are looking at a very exceptional year, last year, when 
the timber industry was sent into a tailspin with regard to the 
closure of the mill in Sitka and Wrangell and then the upcoming 
announcements with regard to Ketchikan Pulp Company and so on.
    But this revision does substantially decrease timber 
offerings and potential harvesting on the Tongass, and we 
certainly have heard a lot about that from many of our critics.
    The Chairman. I will not ask you why we have not been able 
to communicate factually the correctness and accuracy of your 
new TLMP. But clearly it has not been evidenced in public 
consumption in these editorials.
    The Lewiston, Idaho, Tribune--that is a town that has a 
large pulp mill. The Lewiston Tribune states: ``Organizations 
like the National Resource Defense Council will not be happy 
until every tree on every national forest is declared off 
limits to the timber industry. The industry, once habituated to 
buying 200 year old Tongass trees for $2 each, will not be 
satisfied until the Tongass returns to logging limits of old, 
about twice that of the new plan.''
    I guess we could all feel good to be in the middle of this. 
But being in the middle between a questionable policy of the 
past and a draconian view of the future is not necessarily a 
position of very high virtue. Also, I think that the Lewiston 
editorial writers exaggerate a bit as they characterize what 
the communities and the industry in southeastern Alaska have 
asked for.
    Would you care to characterize the position of the 
Governor's Timber Task Force, Phil? Or should we ask them 
directly?
    Mr. Janik. It would probably be best to ask them directly. 
But as an adviser to that group, what I have experienced with 
that task force--that was by invitation of the Governor; I felt 
very privileged to be invited to sit on that group. I find them 
a group that is trying to identify their futures, given all the 
changes that have occurred in southeastern Alaska and the 
timber industry, trying to determine where to make the kinds of 
investments that would fill some of the voids that now exist in 
southeast, particularly dealing with the lower grade material 
that has, frankly, no place to go now with the pulp mills 
having closed, and kind of a forward-looking group.
    Yet a great deal of uncertainty exists within the group 
because of the dramatic changes that have occurred. But I am 
optimistic about the task force and where it may lead. I think 
a forum like that is necessary right now to help folks make 
those kinds of decisions.
    We are there in the role of technical assistance, again 
helping with one of the things you have gotten involved in, Mr. 
Chairman, that is the Wisconsin lab representatives coming out 
from the Forest Service to help those folks determine what the 
potentialities are and so on.
    So I feel good about the forum.
    The Chairman. Well, I think we all agree that the position 
of the Governor's Task Force has been a positive one, and I 
would agree there is uncertainty relative to the assurance of 
the industry being maintained at a yet undetermined level, but 
optimism that it can achieve a significant contribution to the 
economy of southeastern Alaska.
    But I am not sure just where the Clinton administration is 
on the same subject. I note that a May 21 story in our own 
Washington Post made the following observation: ``The White 
House had no specific comment on the Forest Service's plan 
yesterday when it came out, saying only that the administration 
is committed to national forest management that protects the 
environment and maintains a sustainable supply of timber across 
the country. Congressional sources familiar with the new plan 
said the administration would probably wait to see what kind of 
a response the plan generated from the public and on Capitol 
Hill before taking a stand one way or another.''
    They did not say anything about the editorial writers. We 
have already seen that.
    I would ask you, what is your interpretation of the 
administration's position on the plan now that we have had an 
opportunity to hear from the editorial writers? And I am not 
sure you can take a sample of what the reaction is here on the 
Hill, but many people are informed by the editorial writers as 
to the attitude generally of the public.
    What is your opinion of the administration's position on 
the plan?
    Mr. Janik. Before I answer that question, just one 
response, if I may, to the somewhat mixed reaction by the 
public at large, although there again there have been many 
editorials and newspaper articles that I have reviewed that 
have indicated that the opinion is that the plan is a balanced 
one. But I think again the interest in the Tongass and 
different expectations of what occurs there or should occur 
there pretty much leads to some often polarized positions on 
what the expectations might be on that forest.
    The Chairman. Would you care to explain in your opinion why 
this polarization?
    Mr. Janik. Well, I think it is because, Senator, the 
Tongass still represents to many folks--and I hear this a lot 
from people getting off ferries in Juneau, where I live--they 
come to Alaska to see the pristine environment and the 
wildlife, and at the same time they come to look at the 
lifestyles of the people. So there is mixed expectations. 
People come there for different reasons.
    But I think the wildness of Alaska is what draws most 
people up there, and I think the notion of not disturbing any 
of it is often what folks kind of imagine as an expectation, 
anyway, on the Tongass, where others recognize what a national 
forest is and that is a multiple use mission kind of setting 
and in fact appreciate being able to view a mining operation or 
a logging operation, and so on.
    I do think that across the board, based on the public 
comments we have received, that regardless of where people come 
from they do expect the job to be done right and 
environmentally sound, regardless of what it is we may be 
taking on, whether it be mining, logging, road construction, or 
whatever.
    There is a sense of, let us make sure we do it right in 
Alaska. I hear a lot of that regardless of the philosophy that 
people come to me with.
    Regarding specifically your question regarding the 
administration, all I can say to that I guess is that the plan 
is signed. I am the decisionmaker. If there had not been, I 
guess, strong support with the review that we had throughout 
the process--and I expected that kind of review to occur--I am 
not sure that would have happened. But the regional forester 
did sign that document, meaning me, on May 23.
    I also would point out that we need to be a little bit 
careful because of the appeals process, with regard to who 
might be reviewing these challenges that may emerge to the 
planning decisions that I ultimately made, and that comes to 
the Chief's office for deliberation. So I would guess there is 
some hesitancy to weigh in on some of these things immediately.
    The Chairman. I assume it is fair to say that you have 
gotten your last paycheck after signing the document?
    Mr. Janik. That was still delivered, yes. That goes 
automatically into my account, and I did not hear anything from 
the bank.
    The Chairman. And you did not have anything bounce, all 
right.
    Let us turn to the St. Louis Post-Dispatch. I guess in St. 
Louis they do not really worry too much about endangered birds 
except perhaps the Cardinals are having a hard time staying 
above .500 in the weakest division in baseball. But they would 
believe that the Clinton administration should and could stop 
this plan. They also note:
    ``Standing in a downpour during his trip in May to a Costa 
Rican tropical forest, President Clinton extolled the rain 
forest. `I came here to emphasize the importance of the forest 
that surrounds us, the chain of life, not only in Costa Rica 
and Central America, but in all the world,' '' he said.
    The Post-Dispatch goes on to editorialize that: ``The 
Tongass is no less important, no less deserving of 
preservation, and no less worthy of presidential protection.''
    I happen to agree that the Tongass is no less important, 
Phil. But my constituents live there, as you know, and so do 
you and I, and that is why I must make the following request. 
At our last hearing I noted a June 20 Washington Times story 
that reported that in order to accommodate the President's 
speech it was necessary to bulldoze and pave a 350-foot path to 
the podium. As you recall, he was on crutches at the time. So 
the Costa Rican Government bulldozed and paved a path right 
through the rain forest, the Barelo Carilio National Park.
    Now, whatever the current administration finally decides on 
the TLMP, I hope you can assure me today that we will not be 
bulldozing it and paving any paths to accommodate perhaps 
presidential proclamations on the Tongass. I would assume that 
we could agree on that, Phil?
    Mr. Janik. We will do whatever is right, Senator.
    The Chairman. Not whatever is necessary. Well, that is 
reassuring.
    I could not help but note a certain inconsistency there, 
that obviously was too good to pass up.
    Mr. Janik. That is one article I have not seen.
    The Chairman. We would be happy to provide it for you.
    Mr. Janik. I would like to read that.
    The Chairman. It probably is not in your circulated 
reading, but it is certainly in ours.
    I am going to move over to an area that you highlighted in 
your statement with regard to recreation and tourism, where the 
Forest Service is focusing more of its area of attention. I am 
pleased that the tourism standard and guidelines provide 
assistance for appropriate recreation needs and tourism, using 
the different land use designations or the various LUD's.
    I think the guidelines will be helpful in advising local 
Forest Service officials about what kind of recreation and 
tourism opportunities should be considered and can be 
accommodated in different land use categories. I am pleased the 
agency will be able to work with the recreation and tourism 
industry to provide and develop some of these guidelines and 
standards.
    I think that there is a presumption that you have stated 
that Alaska is that pristine area that ought to be available, 
and the opportunity to just take off and walk through the 
Tongass is something that was epitomized in a conversation I 
had with the Vice President, where he and his family were 
looking forward a couple years ago to an opportunity, that 
conflicted I think with a book, so as a consequence the trip 
had to be cancelled.
    But you and I know you just do not go for a nice long walk 
through the Tongass. Unfortunately, there are very few areas in 
the Tongass that allow a visitor for a walk through the 
Tongass. I think there is a road around--excuse me. There is a 
trail around Ward Lake in Ketchikan that offers something of 
that nature. But few areas really have that kind of an 
experience. You have to put a trail in, you have to brush it 
out, you have to clear oftentimes timber because of the 
density.
    But yet the vision is, we will just go for a walk, we will 
cross the island. And of course, you get a couple hundred yards 
into that and you suddenly are faced with the reality that you 
are likely not going to reach your goal.
    So I would suggest that attention be given, particularly in 
the area of high density visitor opportunities, for some kind 
of a forest walk. I know that there has been some advance and 
there has been more concern expressed. But I understand that 
there is a proposal for permanent oversight facilities in some 
of the remote recreation or old growth habitat LUD's areas, and 
I am curious to know how those proposals will be evaluated in 
the course of planned implementation as you look at more and 
more requests for accommodations for visitors in the areas, as 
opposed to what we pretty much had, which were day-type trips 
or the availability of a Forest Service cabin, which really do 
not provide the visitor with the opportunity that many visitors 
would like, a little more in the idea of accommodations being 
provided.
    Mr. Janik. Senator, I will attempt to answer that. But 
while I am doing that, I would ask Kimberly Bown, if I may, to 
come to the table.
    The Chairman. Yes.
    Mr. Janik. If we are going to pursue some questions on 
tourism, she has traveled 4,000 miles here. I would like her to 
have an opportunity to answer some of these questions.
    The Chairman. That is fair enough.
    Mr. Janik. Thank you.
    Senator, I am really pleased with what has happened with 
regard to our interaction with tourism, the tourism industry 
representatives, regarding this revision, because I believe 
they at least have some level of satisfaction with our 
responsiveness to their requests. That has dealt with 
identification of some of the areas that they have been 
particularly interested in, and it does represent somewhat of a 
menu or a mix of opportunities for different clients that they 
serve and what their expectations are.
    With regard to all the land use designations and how that 
affects them, there are standard and guidelines that apply to 
each of those in the forest plan and would represent certain 
restrictions on some of those expectations. But I think we have 
tried to front-load consideration of those needs early on in 
the planning process and, even though there will be further 
NEPA work and analysis--the forest plan is not going to resolve 
all those things, of course--I am confident that we have in a 
great degree reduced the potential conflict that will come from 
project implementation, including considerations within old 
growth reserves or anywhere else.
    The Chairman. Well, I note in the standard and guidelines, 
for example, permanent overnight facilities in the areas of old 
growth habitat are 24. That would be number of overnight guests 
that you would consider as appropriate in old growth habitat in 
the entire Tongass?
    Mr. Janik. Kimberly, would you like to answer?
    Ms. Bown. At any one site, Senator.
    The Chairman. For what?
    Ms. Bown. At any one site.
    The Chairman. At any one site? How many sites might you 
anticipate?
    Ms. Bown. That would be evaluated on a case by case basis 
as the proposals came in. What the plan--actually, the plan 
really does lead the Nation in terms of looking at types of 
facilities and capacities, a range, providing some sideboards 
in the range of capacities that these kinds of developments, 
the scales of developments, and by prescription or by LUD 
offering some guidelines to the staff on the forest in 
evaluating proposals as they come in the door.
    We were lacking that in the past. The industry has asked 
very aggressively for some and helped us develop, actually, 
develop those sideboards so that that capacity question that 
has been debated a lot in the past does now have some better 
direction and guidelines to provide the staff in evaluating 
proposals.
    The Chairman. Do you anticipate establishing pretty much 
along the lines of the concession type contracts that the Park 
Service has?
    Ms. Bown. We operate a little bit differently from the Park 
Service. They often invest their own Government funds to build 
the facilities. We work in partnership with the industry, the 
Forest Service providing some of the facilities, the cabins, as 
you mentioned, campgrounds, trails, and then we look to the 
industry to provide other services, the more outfitted and 
guided services, the vehicles.
    The Chairman. Do you within your budget, do you have the 
capability to build, say, a lodge at a site with 24 beds?
    Ms. Bown. We would not necessarily pursue that. We would go 
out with a request for proposal and solicit proposals from----
    The Chairman. The private sector.
    Ms. Bown. From the private sector.
    The Chairman. Okay. And are you prepared to give them a 
lease?
    Ms. Bown. Yes.
    The Chairman. And would the lease be adequate to amortize 
the cost?
    Ms. Bown. That is what we are--within the confines of the 
national direction, which for large-scale developments such as 
ski areas, there are long-term leases available. For the 
shorter term operations there's a scale that applies to the 
various levels of development. More typically the operations 
are authorized for 5-year periods, and then the larger scale 
developments are often up to 15 years or longer, depending.
    The Chairman. When do you anticipate having available to 
the visitor industry a pro forma of what they can--what 
definitive areas might be available, what the lease terms might 
be, and what would be most desirous from the standpoint of the 
professional planner?
    Ms. Bown. In terms of the larger scale developments?
    The Chairman. Yes.
    Ms. Bown. Well, in working with the industry to define 
that, we do not have in the current plan specific sites laid 
out for those larger scale developments.
    The Chairman. Does industry have any requests in to you?
    Ms. Bown. They do not at this time. And we had some 
difficulty in working with that upper scale development with 
them because they feel themselves in a competitive nature and 
are not necessarily ready to share their long-term visions for 
where their interests are.
    For the smaller scale developments, however, we are working 
with them actively to look at various options for small base 
camp facilities or hut to hut type systems or trail connectors 
that they might need.
    The Chairman. It is kind of a chicken and egg deal, which 
begins first. In other words, does the industry come to you 
with requests or do you kind of define your parameters that you 
are prepared to make available to encourage industry to put in 
facilities so that visitors can have access? Your experience in 
observing the Park Service in Glacier Bay may be of some 
assistance to you. That is a concessionaire, but clearly you 
are going to have to provide a sufficient lease to encourage 
investment to come in and amortize, because it is probably 
quite a seasonal opportunity.
    Ms. Bown. We do have sites in the Alaska region, one right 
now in fact that is out on the street up on Turnigan Pass, to 
respond to that heavy demand for rest room facilities and other 
services.
    The Chairman. I am well aware of the demand for rest room 
facilities and the reluctance of the Forest Service to 
necessarily have to provide that service. But you have been and 
it is much to your credit.
    Ms. Bown. And right now we are in the request for proposal 
process from the industry or from the private sector to develop 
a fairly broad level facility up there to accommodate the rest 
rooms and the lodging and others. That came or it was generated 
as a catalyst from the demand that was there.
    That is the pattern, typically, that a demand arises and 
then we respond to it with a request for proposal if it is not 
appropriate for us necessarily to offer that service. Other 
ways that those proposals or activities are authorized or 
initially generated are from the industry walking in with an 
idea, as for instance the icefield flights out of Juneau were 
initially conceived of by the industry and walking in, and as 
we all tested that together it has really expanded to quite an 
industry there.
    Mr. Janik. I think Kimberly, Mr. Chairman, used a very 
important word. What we are trying to do is position ourselves 
so we can be responsive to requests, and the involvement of the 
tourism industry in the revision has taken us a giant step, I 
think, in terms of where they would like to see some 
opportunities for further consideration.
    But the kinds of operations you are suggesting, I do not 
think we really have seen any serious large proposals come in 
yet.
    Ms. Bown. Not in southeastern Alaska.
    Mr. Janik. Not in southeast.
    Ms. Bown. We have had a number on the Chugach.
    The Chairman. Well, again, I think the industry is still 
formulating its plans for expansion, and there has been an 
assumption that it would be very difficult to get long-term 
leases sufficient to amortize investments in the Tongass. But 
perhaps more aggressive posturing by the Forest Service will 
resolve that.
    I am interested in exploring the different ways that you 
would evaluate impact and desirability of different forms of 
tourism in the wilderness areas and other nondeveloped land use 
designations. Would you evaluate, say, a boat landing facility 
on how many people would have access to the wilderness, or does 
the valuation include impacts associated with length of stay?
    For example, how do you assess the different impact of a 
boat landing for a vessel that may deposit 75 people onto a 
wilderness beach who may stay for 1 or 2 hours against a set of 
kayakers that may camp overnight, build fires, spend more time, 
and therefore impact for a longer period of time the area 
involved?
    How do you balance between those impacts? Or let us assume 
that you have one of the smaller tour boats simply drop anchor 
and run a group ashore in a wilderness area in their shore 
boats?
    Ms. Bown. May I?
    Mr. Janik. Certainly.
    Ms. Bown. Actually, that specific situation or scenario was 
discussed with the industry between draft and final and some 
changes were made to our matrix and standard and guides on 
recreation and tourism to accommodate those boat-based small 
excursion opportunities in the less developed LUD's, which is 
what they were requesting. What they were requesting was that 
the capacity should be higher than the 12. At that point it was 
at 12-person capacity, and now it is sitting at anywhere from 
groups of 50 to it is accommodating the larger, the small 
cruise ship but larger excursions onto that one fringe of the 
beach.
    In evaluating a proposal that would come in for, let us 
say, a boat base facility for a kayak group versus a motorboat 
or whatever, that would be evaluated on a case by case basis 
and the cumulative effects of what that activity did to the 
surrounding area certainly would be considered under the NEPA 
process for that specific project.
    But as I said, originally the capacities really offer some 
long-awaited guidelines for the staff across the forest to use 
as sideboards where they can consider the proposal.
    The Chairman. Well, as we move towards more utilization for 
tourism as an attraction to southeastern Alaska, let us take 
again the proposed construction of a 24-person overnight 
facility in an area that the industry would select, but let us 
assume that area is sensitive. It is an old growth LUD habitat 
and the environmental analysis required to evaluate the 
desirability of locating such a recreation facility would 
probably be substantial.
    So the agency may be hard-pressed to find the cost of an 
environmental review sufficiently capable to satisfy the 
interested parties that such a facility will have an acceptable 
level of impact on the old growth habitat or LUD. One of the 
easiest ways to fund that would be to have the analysis be 
required to be underwritten by the applicant, that is the cost 
of the analysis.
    How would you work that if indeed the opportunities would 
be mandated that you consider a competitive process? So the 
question is can you negotiate with one or do you have to put it 
out for competition? And if the applicant is going to 
underwrite the cost and suddenly finds out that he has a 
competitive situation there, how do you make sure that the 
special use permit is considered as being competitively offered 
at the same time you find an applicant who is willing to defray 
part of the cost of doing the environmental evaluation?
    Have you addressed these questions?
    Ms. Bown. Yes, we have, not necessarily to the satisfaction 
of the proponents. This is a national issue to some degree, but 
as a proponent would like to expedite the evaluation of their 
idea or proposal or project, they can expedite it through 
offering to pay for the analysis, the EA or EIS as is 
determined necessary.
    In doing that, we enter into a third party agreement where 
the Forest Service contracts with a firm or the private sector 
to do the environmental analysis or assessment, and in doing 
that they retain the decisionmaking position that they need to 
retain or that the agency needs to retain.
    At that point when the environmental or the NEPA process is 
finished, then you do have to go out with a solicitation or 
prospectus to ask for or request proposals again in a 
competitive nature, because the bottom line is that what we are 
trying to do out there is to get the best offering to the 
public. The proponent that initially underwrites the cost of 
the environmental assessment does have a risk associated with 
not being competitive for the end project that is authorized 
through a special use permit.
    The Chairman. Do you not think that is going to discourage 
people from running the risk of underwriting the cost, if they 
have no assurance? Because you know, this is pretty much 
pioneering in a sense. You have got a short season. It is 
dependent on, what, Memorial Day to Labor Day or something of 
that nature.
    I mean, I am being a devil's advocate here, but I think it 
is important that you recognize that if you are going to pursue 
this in a sincere and yet feasible manner you are going to have 
to have flexibility.
    Mr. Janik. Mr. Chairman, you have keyed on a very 
troublesome area in terms of what we would like to do, and it 
is in conflict with the competitive bidding process and so on. 
All I can say to that is we are trying to find a way to make 
that work. We do not have the answer to that yet.
    The Chairman. Have you asked for any Congressional 
assistance?
    Mr. Janik. I do not think that has happened, no.
    The Chairman. Well, that is what we are here for. If you 
need special consideration relative to the uniqueness, the 
short season or any number of functions, I would suggest that 
you pursue it with a request, and we can always hold a hearing 
and see if it is feasible and equitable.
    Let me ask a question about how you calculate permit fees. 
As I understand it, your fee is 3 percent of the adjusted gross 
cost of a trip. Does that not penalize expensive trips 
involving expenditure of a short time on a forest, like a large 
boat, helicopter landings, to the benefit of less expensive 
trips where the participants on the trip spend a lot longer 
time and therefore have a greater impact? I am talking about 
the kayakers or those that organize pack trips.
    It seems that one would question, should not your fee be 
related to the amount of time and the level of impact that is 
being visited on the forest as a factor, a major factor?
    Ms. Bown. The current fee structure that has been in place 
since the early eighties does give the operator the choice of 
either a fee per service day or a 3 percent of the gross 
revenues. The 3 percent of the gross revenues can be adjusted 
for time on forest, which we do very, very frequently up in 
Alaska, is the time that they are on national forest for a day 
is the only time that is associated or calculated into the fee 
calculation.
    Additionally, we have instituted nationally, but we have 
taken advantage of it especially at our visitor centers for bus 
visits or taxi drivers or such, that a short stop fee is then 
instituted where the stop or the visit is generally less than 4 
hours. That has also been able to minimize or make more 
equitable the fee charged to those operators.
    The Chairman. Well, I am still a little concerned about 
penalizing the expensive trips and not reflecting more on the 
related amount of time and the level of impact of some of the 
visitor types. Are you comfortable with that?
    Ms. Bown. I am afraid I really do not understand your 
question, Senator.
    The Chairman. Well, the kayakers are in there, as an 
example, or the organized pack trips, and they are in there for 
several days. So their impact is obviously much different than 
a boat or a helicopter. A helicopter lands, they are in there 
for 20 minutes if that long. Is there an equity there or is 
there an inequity?
    Ms. Bown. The current system with 3 percent of gross----
    The Chairman. I am not asking about the current system, 
because we can always change the current system.
    Ms. Bown. My point is that we have changed it for a short 
stop fee, and we are pursuing that same system to be applied to 
those icefield flights, which is exactly I think the point that 
you are making. The short stop fee, which is available only for 
very short stops, generally 4 hours or less, and not more than 
2 service days for that package trip, which certainly the trips 
to the visitors centers by the buses and the taxis fall within 
that and do get it, it is a per-head charge and it is much less 
and a lot less calculation that goes along with it.
    We are hopefully--I am certain that by next season we would 
have the air flights, the icefield flights for instance, under 
the same short stop fee, which will ease their accounting and 
the fee structure to them considerably.
    The Chairman. Why does it take so long to resolve the 
helicopter issue?
    Ms. Bown. Well, we have----
    The Chairman. That is where you have got a substantial 
visitor demand, as I understand it.
    Ms. Bown. Right now we have a regional working group, four 
outfitter guides that are working hard on this. They all have 
other jobs. We pull them in at least--we pulled them in twice 
this year so far. They are working with our fiscal folks to 
bring this together. Phil's leadership has put a tremendous 
emphasis on accommodating and being responsive to the visitor 
industry's needs as authorized through our special uses.
    The special uses really are the vehicle that we authorize 
all these uses, and so we have a special team. But they are 
working hard on this and they----
    The Chairman. How long have they been working on this?
    Ms. Bown. Well, we came in with this short stop fee 
nationally, it became available to us last year, to the Nation. 
And we have instituted it for the visitor centers initially and 
now we are pursuing it for the air flights, the air carriers.
    The Chairman. When will you have it completed?
    Ms. Bown. Applicable to the icefield flights?
    The Chairman. Well, helicopter flights, wherever they are.
    Ms. Bown. I can assure you by next season. I am not sure if 
they could get any sooner, but I could certainly check for you.
    The Chairman. Phil, is there a reason that we cannot make 
some decisions on this? I mean, you have been working on it for 
a long time. The operators, you know where they want to go, you 
know what they do. They need some finality, some certainty. 
Somebody has got to make some decisions.
    Mr. Janik. I took a note on this, obviously, and we will 
see if we can expedite this faster than it has been.
    The Chairman. Is there some uniqueness that makes it very 
difficult to reach a decision how you are going to set them up 
and manage them?
    Ms. Bown. I cannot speak for all the fiscal implications 
that I know that are involved in this. The current fee 
structure, though, has been working fairly well for these 
folks, and primarily the leadership of the Alaska region has 
pushed for a short stop fee that has changed the national fee 
structure to accommodate these specific kinds of short stops on 
national forests, because a lot of the use is off national 
forests.
    The Chairman. Well, we have seen an extraordinary time 
sequence involved with the Forest Service's actions, and I 
would hope that certain things are within the parameters of 
decisions being made in a reasonable time, because we have a 
seasonal reality associated with Alaska. You get the 
information, say you want a decision by a certain date, put a 
team together, and get it done, make a decision.
    Let us go to wild and scenic rivers. How many of the 
recommendations or the recommended wild and scenic river 
corridors are adjacent to development LUD's, in the sense of 
corridors adjacent to those areas? Got any idea?
    Mr. Janik. Why do not I start the answer to that, Mr. 
Chairman, and then if Kimberly has anything to add. As 
identified in my decision in the record of decision, 32 of the 
112 rivers that were deemed eligible for possible 
recommendation were selected and passed on as a recommendation 
as part of the forest plan revision, 32 of the 112.
    An additional 37 of the 112 have the majority of their 
corridors within wilderness and LUD-2 areas. And then I am 
going to add another figure to that: Another 25 occur in non-
development LUD's. So with the recommendation of 32, and then 
you add to that the 37 and add to that the 25, you end up with 
94 of those 112 have a pretty substantial level of protection.
    That was one of the considerations in terms of choosing the 
32 figure, in addition to it simply shaking out as being 
representative streams in various provinces as part of the 
study. I emphasize that point because I have heard quite a bit 
of criticism regarding why did that shake out as such a low 
number, 32, when you had 112 to select from. Well, part of that 
had to do with this observation on our part.
    So 84 percent of 112 are in a pretty high level of 
protection, considering the 32 we are also recommending. In 
addition, there were some communities that responded back to us 
that basically said that designation as wild and scenic was not 
something they would prefer to have happen, and we took some of 
that response into consideration, I believe.
    I am going to stop there and see if Kimberly has anything 
to add to that.
    Ms. Bown. I do not.
    The Chairman. Could you provide for the record which 
communities objected and were accommodated as a consequence of 
their rejection?
    Mr. Janik. Certainly.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. In assessing the effects of potential wild 
and scenic river recommendations, I gather you assumed a half-
mile corridor, even though all the currently designated rivers 
in Alaska have a one-mile corridor. I am wondering what would 
be the effect of the wider corridor on the timber base and 
transportation corridors?
    Mr. Janik. In total acreage, I do not have that available. 
But again, we could provide that.
    The Chairman. Does anybody have that number?
    [No response.]
    The Chairman. Can you provide us with that?
    Mr. Janik. Yes, we can.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. You have pretty well, I think, acknowledged 
what kind of comments you received on your proposals relative 
to your ability to accommodate some of the communities on the 
proposed designations. So I assume you had comments that were 
in favor and those that were in opposition?
    Mr. Janik. Yes, we did.
    The Chairman. What was the basis for the additional 
recommendations in the final TLMP?
    Mr. Janik. On the five additional streams?
    The Chairman. Yes.
    Ms. Bown. I am sorry, I do not have that in front of me.
    Mr. Janik. These were, as I remember, these were 
recommendations from the public in terms of going from, I 
believe it went from 25 to 32, is my recollection, Mr. 
Chairman, from the draft to the final. And I believe it had to 
do with recommendation from the public that we considered.
    Mr. Norbury, perhaps you have something else to add to 
that. I think that was the reason.
    Ms. Bown. Brad may be able to answer as well, because I 
think they were in your area.
    Mr. Powell. That is very accurate. There was public comment 
in support of those, and the majority of those were also in 
protected areas, as Phil already mentioned.
    The Chairman. Can you recall a few of the names of the 
five?
    Mr. Powell. I would have to check. The five we added, the 
majority I think were in LUD-2's or----
    The Chairman. You do not remember the names of the rivers?
    Mr. Powell. I can look that up.
    The Chairman. We would appreciate that for the record.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. Let us go into the funding a little bit now, 
on the implications of the plan, cost estimates and so forth. I 
am informed that you were advised by staff that you would be 
asked to estimate what it would cost in out year appropriations 
to implement the final TLMP. I wonder if you could give us some 
indication on how that cost would compare to appropriations 
over the last several fiscal years?
    Mr. Janik. I am going to ask Mr. Norbury to help me with 
that answer. But the estimate for implementing the forest plan 
that I approved approximates about $83 million. That assumes 
fulfilling the full potential of the 267 million board feet of 
timber. That is a significant assumption because, again, that 
is not a target.
    The Chairman. Is road building in that?
    Mr. Janik. Sir?
    The Chairman. Or has road building been taken out?
    Mr. Janik. I believe roads are in there. That is the total 
number, approximately $83.5 million. The timber portion of 
that, of course, is substantial, and any reduction from the 
allowable sale quantity in terms of what the offering might be 
for that particular year would significantly affect that 
number, that total.
    The Chairman. Now, if the legislation in the House that 
would terminate any road building as part of the timber 
purchase credit, if that is stricken, then you would assume 
that the contractor would bid the timber in at a price to put 
his own roads in, which would mean that the stumpage would be 
substantially less than it is assumed under your proposal of 
some, what, $83 million?
    Mr. Janik. $83.5 million.
    The Chairman. Is it basically a push, even though 
recognizing you do not get that back under the same funding 
mechanism?
    Mr. Janik. Are you asking if road building was prohibited?
    The Chairman. No, no.
    Mr. Janik. Or the purchaser credit were eliminated?
    The Chairman. You have got it in here, but there may be a 
change if Congress eliminates that.
    Mr. Janik. The $83.5 million does assume the existing 
purchaser credit. That is in the plan, so if there is any 
change to that those numbers would have to be adjusted.
    Mr. Norbury. Mr. Chairman, to clarify, the $83 million does 
not include the purchaser credit allowance.
    Mr. Janik. Oh, I am sorry.
    The Chairman. How does that compare to previous years? I 
understand it does not, it does not include purchaser credits. 
Purchaser credits are how much more?
    Mr. Norbury. For a program of 267 million, we are 
estimating $32 million a year in purchaser credit.
    The Chairman. How does this compare with previous years' 
appropriations on a fiscal year basis?
    Mr. Norbury. For the past 3 years the allocation to the 
Tongass has been around $65 million a year.
    The Chairman. For the past 3 years it has averaged $65 
million?
    Mr. Norbury. Around $65 million in total funds.
    The Chairman. And with the exception of last year, those 
were years when the allowable cut was in excess of 250.
    Mr. Norbury. Yes, sir, that is correct.
    The Chairman. And the rationale for the $83 million when 
you are harvesting less timber and spending, needing a greater 
appropriation compared to previous years, when you were 
harvesting more timber and had less appropriation, is due to 
what?
    Mr. Norbury. Mr. Chairman, I can provide some detail of 
what the changes are, but before doing so let me emphasize that 
we do not regard the plan as a budget document.
    The Chairman. Well, you might not, but the taxpayer might.
    Mr. Norbury. The plan is implementable at various budget 
levels. We do have some estimates of what we think a desirable 
budget level is, and those estimates simply represent what we 
think would be a desirable way to progress toward the 
objectives established by the plan. I will provide some detail 
on what those are.
    But if we get different budget levels, we will continue to 
implement the plan. There are increases in several areas. One 
of them is in the NFEM fund code, which is currently titled 
land management planning inventory and monitoring. That is to 
provide for an expanded monitoring program for the Tongass and 
also some additional administrative studies.
    The Chairman. Monitoring? What do you monitor that you do 
not monitor anyway? You have got your forest people out there. 
I mean, you use a term, but what does it really mean? What are 
you going to physically do more than you are doing now?
    Mr. Norbury. The detail on that is provided in the plan. 
The monitoring plan, our estimate is $1.4 million a year. Much 
of that are things that we are doing now, but what we intend to 
do a better job of is things like monitoring stream conditions 
to be sure that the standard and guidelines that we have 
established for streams will in fact achieve the objectives and 
have the results that we intend that they have.
    The Chairman. I assume the U.S. Fish and Wildlife Service 
does some of that. The State Department of Fish and Game does 
some of that. You are saying more monitoring and there is less 
logging occurring.
    Mr. Norbury. One of the problems we have had with 
monitoring in the past that is done by the other agencies is 
that it is done in a piecemeal fashion and it is not always 
laid out in a way that would let us determine the extent to 
which the changes they pick up in their monitoring are 
attributable to our management actions.
    What we really hope to do with this new plan is to work 
cooperatively with the other Federal agencies and the State of 
Alaska in developing a joint monitoring program in which we can 
all be looking at it from the same point of view and produce 
data that we could share and use commonly.
    The Chairman. I can certainly appreciate and understand 
that. But I would assume that there would be some efficiencies 
associated with that. You are going to monitor, then somebody 
else's budget, maybe the U.S. Fish and Wildlife Service, can be 
reduced in the sense of their monitoring. But you know, just 
for everybody increasing the monitoring budget, if you want to 
wander down that rabbit trail because everybody wants to assume 
the responsibility--I would like you to provide for the record 
what you propose to do with an $83 million fiscal budget 
excluding purchaser credits that is going to be different than 
what you have been doing previously when you have been spending 
$65 million and producing a higher volume of timber.
    [The information requested was not received at the time the 
hearing went to press.]
    Mr. Norbury. If I may, Mr. Chairman, I will touch on a 
couple of other differences that are actually of larger 
magnitude than the one you just mentioned. The timber program 
would be--funding for the timber program would be increased. 
Our costs for preparing timber sales have increased.
    The Chairman. Why have they increased? Environmental 
concerns?
    Mr. Norbury. Because of environmental concerns. Our costs 3 
years ago were running at around $50 a thousand. They are 
running closer to $80 a thousand.
    The Chairman. Do you think that has something to do with 
those that suggest that the Federal Government subsidizes the 
Tongass Forest for the benefit of the industry? I mean, if your 
costs go up to a point, we would have to acknowledge that there 
is substantial Government subsidy.
    Phil, you know what I am getting at.
    Mr. Janik. I think I understand your inference, yes, Mr. 
Chairman.
    The Chairman. What encouragement do you have to control 
your costs so that the forest will stand on its own? Or can the 
Tongass stand on its own in relationship to the increased costs 
associated with what it costs you to manage it?
    Mr. Janik. The display here simply tries to depict what it 
would cost to get out the various outputs, and it does not 
really get into that philosophy.
    The Chairman. I know, but you and I are continually 
confronted with the criticism that the Tongass is a subsidized 
forest for the benefit of industry. Is that not a fair 
statement?
    Mr. Janik. We do hear that, yes, sir.
    The Chairman. How do you counter that when your costs are 
increasing and you are using, what, $50?
    Mr. Norbury. On the projections--Mr. Chairman, on the 
projections that we have in the plan, the timber program is 
about a breakeven proposition. The anticipated revenues will 
just about cover the costs of operating it. The other programs 
do not generate revenues and are in fact subsidized.
    The Chairman. And are in fact subsidized?
    Mr. Norbury. Yes, sir.
    The Chairman. Well, go ahead, Phil, and give me a degree of 
comfort.
    Mr. Janik. I do not think I have any comfort to offer. The 
costs for the timber program are increasing and, yes, you are 
correct, you have heard us state and you have seen that the 
expectation of projections for timber are decreasing.
    The Chairman. How much--how far do you go with this? I do 
not know. Are your costs increasing 10 percent, 15, 20, over 
what they have been? And how do they compare with other 
forests?
    Mr. Janik. I think Mr. Norbury has the figures per 
thousand. I think we are close now to nearly $100 per thousand 
for preparation.
    Mr. Norbury. The allocation for fiscal 1997 was based on 
$80 a thousand. Our expectation is that under the plan it will 
be closer to $100 per thousand. The last time I did a regional 
comparison on this, our costs were still lower than the costs 
in the Pacific Northwest.
    The Chairman. Well, that is as a consequence of the 
President's forest plan, is it not, the President's forest plan 
as it is applicable in the Pacific Northwest?
    Mr. Norbury. I have not investigated the reasons behind the 
costs.
    The Chairman. Well, you ought to investigate it.
    It appears to me that we are moving--and as you look at 
your planning, I think you have got an obligation to recognize 
that it appears that we are well on our way to the Tongass 
doubling the costs. What are you going to do about it? And if 
you cannot do anything about it, are you going to ask for some 
kind of relief? Or do you just let it go?
    The forester who is working on the tourism plan is working 
on a plan. You folks are moving to almost doubling your costs, 
which brings on the question of justification for 
commercialization of the forest. What kind of relief do you 
need? What are you asking for? Or is it just a reality that we 
have to live with it and Katy bar the door.
    Mr. Janik. Well, with regard to today's discussion, Mr. 
Chairman, it is simply a reality that we tried to depict here 
on this page, and that is that the outputs--and I think I would 
go back to Mr. Norbury's statement. This is not a budgeting 
document as such, so that if we do not get budgeted at $83.5 
million, which is likely, that we will not, then some of these 
expectations will not be realized.
    So this plan can be implemented at any funding level.
    The Chairman. Well, what I asked is which ones goes out the 
window and which ones remain.
    Mr. Janik. That is deliberated every year in the budget 
process.
    The Chairman. You have got that process under way, 
because--and assuming you do not get full funding, and the 
reality is nobody gets full funding around here. What would 
happen if you got 80 or 70 or 60 percent of your requested 
funding levels? How do you implement and pattern your land 
management outcomes at these different funding levels?
    Mr. Janik. That is the very struggle we go through every 
year in the negotiations of the budget with the national office 
and beyond.
    The Chairman. Well, it would appear that something would 
have to give.
    Mr. Janik. Yes.
    The Chairman. And my question to you is, does the timber 
preparation? Is that what gives first in this scenario of 60 to 
70 percent of funding?
    Mr. Norbury. Mr. Chairman, we do not have that kind of 
discretion with respect to our budget. We do not get a sum of 
money that we can allocate amongst the programs. It comes to us 
tied to specific programs, so if we get less than full funding 
that will vary from program area to program area. Those 
decisions are made both by the Congress and by the national 
office.
    The Chairman. If the Congress appropriates into the timber 
funding program an adequate amount, you can perform that task, 
perhaps at the expense of monitoring or doing something else; 
is that right?
    Mr. Norbury. We will pursue the timber program to the 
extent we receive timber funding. We will pursue the monitoring 
program to the extent we receive monitoring funding.
    The Chairman. Given the completion of the plan and the 
administration's emphasis on downsizing, it would appear that 
now would be an appropriate time to evaluate the personnel 
complement and the organizational structure of the region and 
the Tongass National Forest as a whole. In broad terms, can you 
describe what sort of downsizing initiatives you envision and 
whether you envision any office shifts or major organizational 
changes?
    Mr. Janik. I would like to start again with that answer and 
then maybe give Mr. Powell an opportunity to talk about his 
specific area in Ketchikan, just to speak from what is 
happening on his area.
    Let me start this way, Mr. Chairman. We have formed what we 
are calling a transition team in the region to analyze this 
very subject area, and that is with the changes in the plan, 
with the changes in the Federal budget, as we have seen the 
trend, how ought the region to respond to those changes? And 
there have been some things already in motion because of having 
to do more or the same with less, depending on how you look at 
it.
    We have figures which represent, for instance, that in 1996 
we had about 662 people serving the Tongass National Forest, 
and in 1997 that is down to 654. We are projecting that could 
drop as low as around 566, again for the Tongass National 
Forest. If you compare that number, that projection, for the 
year 2000 with back as recently as 1994, you will see a number 
of about 725.
    We have these numbers and we would be happy to submit them 
for the record if you wish.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. How many of those in 1994 were contract or 
brought up to assist in the preparation of various Forest 
Service activities? Because there was an effort at one time to 
bring up from, I think, Oregon, the Willamette area, to 
expedite.
    Mr. Janik. I think these numbers only reflect, if I am 
correct, permanent full-time employees on the payroll.
    The Chairman. So in 1994 you had about 725?
    Mr. Janik. And in 1997 we are looking at 654, and 
projecting a loss of nearly 100 more by the year 2000.
    The Chairman. What type of positions are you losing?
    Mr. Janik. Here is just a quick display. On the Chatham 
area, for instance, we are looking at a loss of about 48 
positions during this transition, with about 16 of those being 
engineers, 3 various line positions, biologists about 9, 
foresters about 13, and then administrative types about 7. We 
have breakouts like this for each of the areas of the Tongass, 
and if you would like me to go through those I will.
    The Stikine area, considering it started, this process of 
``downsizing,'' a few years ago, the influence of this plan in 
their judgment is that they will probably hold level. But the 
Ketchikan area, Mr. Powell's area, you are looking at minus 40 
positions, Brad?
    Mr. Powell. That is correct, that is what we are currently 
anticipating. The only thing I would add to what Phil has said 
is each of the areas has undertaken a process to look at the 
new forest plan, try and anticipate what type of organization 
that we think it will take to implement that plan, and then try 
and develop plans for the future to make those adjustments in 
our organization.
    The Chairman. You indicated a reduction of so many 
engineers and so many biologists.
    Mr. Janik. Yes.
    The Chairman. How many engineers do you have?
    Mr. Janik. I do not know if I have that figure with me. Do 
we have that?
    The Chairman. How many biologists do you have?
    Mr. Janik. I am sorry, Mr. Chairman. I do not think I have 
those numbers with me.
    The Chairman. Can you provide us for the record the 
breakdown of the various capabilities?
    Mr. Janik. Just to clearly understand, for the Tongass?
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. Of the 654. This is just the Tongass, as 
opposed to the Chugach. How many personnel do we have in the 
Chugach?
    Mr. Janik. I believe we have nearly, what, 200 people on 
the Tongass?
    The Chairman. Chugach.
    Mr. Janik. Excuse me, on the Chugach.
    I cannot pick that number up. I will provide that to you.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. Does anybody know that?
    [No response.]
    Mr. Janik. We will provide that number to you.
    The Chairman. Is there also a downsizing contemplated in 
the Chugach?
    Mr. Janik. They are going through a downsizing as we speak, 
yes.
    The Chairman. Do you have any plans for a reorganization of 
any of your offices, functions, districts, regions?
    Mr. Janik. We do not anticipate that currently. What we are 
trying to do is develop shared services and teams that approach 
things in a more efficient way. Kimberly referred to special 
uses. We have made a decision regionally that we could get that 
job done more efficiently if we not try to do it by each 
individual unit, but rather provide a central experience bank 
of people that could handle those requests that come in. We are 
looking at various areas like that and trying to respond 
similar in kind.
    But we have not anticipated any changes in units, such as 
district reconfiguration or forest areas or whatever.
    Mr. Powell. Phil, just one addition to that. We are looking 
at one district combination, between our Ketchikan ranger 
district and Misty Fjords. But it is not really derived from 
the Forest Service plan. We are looking at it because we think 
it makes good sense to serve the citizens of Ketchikan and we 
think that we can be more efficient in doing that. So it is 
just occurring at the same time, and we currently have not made 
a decision on that. But we are looking at that to see if it 
makes sense to combine those into one office.
    The Chairman. Well, is there any reason why it would not? 
Misty Fjords' access to Ketchikan is--I cannot understand why 
you would have two to begin with.
    Mr. Powell. Well, it is a very large administrative unit 
when you take all of Misty Fjords and Ketchikan ranger 
district. Traditionally it has been managed as two. We have an 
opportunity now with a vacancy in one of those positions and we 
are taking a hard look at it. In fact, we have one manager 
operating both of them now as we explore that.
    Mr. Janik. Brad's basically got that on a trial basis right 
now it and it is so far looking like it makes sense.
    The Chairman. In Ketchikan you utilize the old Federal 
Building and the Forest Service Building out towards the ferry 
terminal?
    Mr. Janik. Right.
    Mr. Powell. We have two primary offices there in Ketchikan: 
the old Federal Building where the supervisor's office is and 
then the ranger district building, which is close to the post 
office, which serves now as the office for both Misty Fjords 
and Ketchikan ranger district.
    The Chairman. How many people are in the Juneau office, the 
regional office?
    Mr. Janik. In the regional office, we have about 200. I 
think we have just under 200 at the regional office. And we 
have been attempting to downsize there as well. We have gone, 
for instance, from, what was it, 12 staff directors to 7. That 
occurred about 2\1/2\, 3 years ago. And we are looking at ways 
to improve efficiencies through that kind of merging.
    The Chairman. I draw your attention to a document that is 
part of your administrative record. You have it as exhibit 1 in 
the materials that were sent to you, a document summarizing 
commitments made between the Forest Service and the Fish and 
Wildlife Service in December of last year concerning 
implementation priorities. Can you give us an estimate on how 
much success you had in the completion of these tasks and what 
the cost would be?
    Mr. Janik. Yes, I could go through each of these 18. I am 
sure you do not want me to do that, but these are referred to 
as the list of the 18 commitments that were made between Dave 
Allen and myself, my counterpart interest Alaska region for the 
Fish and Wildlife Service.
    I would say there has been substantial agreement and 
progress on these points. Some of these points were items that 
I agreed were appropriate for inclusion in the record of 
decision in discussion with Dave Allen and his staff. Others 
represent follow-up commitments for implementation of the plan. 
For instance, I will just pick one out here: number 13 and 14, 
for instance, inter-agency monitoring of wolf mortality. That 
would be done with the Department of Fish and Game as well.
    No. 14, conduct TLMP studies as a collaborative effort; 
there are some scientific studies that are identified in the 
plan that we are going to do some follow-up on, and we 
definitely would want the Fish and Wildlife Service being part 
of that.
    Those are just two examples.
    The Chairman. Would in your opinion any of these require a 
plan amendment in the near future?
    Mr. Janik. No, no.
    The Chairman. Would the costs be included in your earlier 
estimates of what would be required to fully implement the 
plan?
    Mr. Janik. Regarding these 18?
    The Chairman. Yes.
    Mr. Janik. Yes, sir.
    The Chairman. And they were totaling what?
    Mr. Janik. Just for these 18? I have no idea.
    The Chairman. Can you provide that?
    Mr. Janik. Yes, we can provide that.
    [The information requested was not received at the time the 
hearing went to press.]
    Mr. Janik. Although some of that is going to be estimates, 
not absolute assurances, because some of this, Mr. Chairman, we 
are going to basically determine and forge based on what our 
budget realities are.
    The Chairman. Would you anticipate seeking additional 
appropriations or authority from Congress or the Department of 
the Interior or the Department of Agriculture in association 
with this list?
    Mr. Janik. I would say that remains to be seen. We did not 
anticipate that at the time this list was put together.
    The Chairman. Well, if you anticipate any as you review and 
provide for the record, I would appreciate it if you would 
review that and indicate kind of an update on whether or not.
    Under appendix N of the FEIS there is a statement, ``Sitka 
blacktail deer are the principal prey of the wolf and long-term 
viability of wolves is directly related to long-term deer 
habitat capability,'' which is a point of common agreement 
among the wolf assessment panel. Now, that is a strong 
statement. If the long-term viability of the wolves is directly 
related to the long-term deer habitat capability, how do you 
account for a viable wolf population in areas of southeastern 
Alaska, such as the mainland, Glacier Bay? Moose and goat 
populations are certainly not high enough in these areas to 
offset the 13 deer per square mile you project as needed to 
maintain wolves.
    Appendix N states further--okay. Well, why do you not 
answer that one.
    Mr. Janik. May I ask Chris Iverson to replace Kimberly Bown 
at the table?
    The Chairman. Sure.
    Mr. Janik. I think we are going to be needing his 
expertise, as well as perhaps some of Tom Mills' people on this 
one.
    Thank you, Kimberly.
    Chris, would you please address the 13 deer per square mile 
and its significance with regard to the prey base for wolves?
    Mr. Iverson. Those values and the relationship you quoted 
is related to the wolf assessment that was prepared. Those 
values are derived from the Prince of Wales study area and we 
make the statement that where deer are the principal prey of 
wolves in that analysis.
    The Chairman. Is there any place that deer are not the 
principal prey of wolves?
    Mr. Iverson. We hypothesize that on the mainland, where 
goats may be a principal prey, and in the Stikine River delta, 
where moose may be a principal prey, on the Chilkap Peninsula 
moose may be a principal prey. So in other areas off of the 
islands, we believe that deer may not be the principal prey 
items.
    So those conclusions are restricted to the islands by and 
large, Prince of Wales especially.
    The Chairman. Well, there is not 13 goats or 13 moose per 
square mile in the Stikine, that is for sure. So what are they 
eating there?
    Mr. Iverson. They are eating moose and it would take many 
fewer moose. We have not----
    The Chairman. Not necessarily goats?
    Mr. Iverson. Certainly fewer goats. But we have not made 
those assessments relative to mainland wolves. The issue in the 
assessment was relative to deer and the equilibrium models that 
were done in the wolf assessment were relative to deer 
populations. And the analysis was careful to restrict it to 
island populations, where deer is the principal prey of wolves.
    The Chairman. What did you factor in relative to Admiralty, 
Baranof, and Chichagof, where there are no wolves?
    Mr. Iverson. They were not factored in because wolves do 
not occur on those islands.
    The Chairman. But deer do.
    Mr. Iverson. But deer do.
    The Chairman. And what is the--outside of man, what is the 
predator then for the deer on those islands?
    Mr. Iverson. We suspect that perhaps brown bear may be 
taking fawns, and certainly the human harvest.
    The Chairman. You have the human harvest on the rest of the 
islands, where you have both the wolf and the deer.
    Mr. Iverson. Correct.
    The Chairman. Yet you do not have the wolves on Admiralty, 
Baranof, and Chichagof.
    Mr. Iverson. And I believe we have perhaps more deer and 
perhaps more liberal hunting seasons for human use on the 
mainland.
    The Chairman. Because there are certain areas where you 
have high density, for example on Queuyu, where I believe the 
deer season has been for all practical purposes almost closed 
for a decade as a consequence of the high number of wolves. 
What do the wolves eat if there is no deer? Each other?
    Mr. Iverson. I would suspect out there that the wolf 
density is low, commensurate with the low deer density. So the 
wolves per area is much lower on Queuyu than it is on Prince of 
Wales, where there are much healthier deer populations.
    The Chairman. But do not the wolves move to where the deer 
are?
    Mr. Iverson. To an extent. But certainly within the 
territory----
    The Chairman. I mean, you see them swimming, and you have 
observed them surely, from the islands in southeastern Alaska, 
island to island.
    Mr. Iverson. Yes, they swim to a certain extent, 2, maybe 3 
miles maximum.
    The Chairman. Yes. And do they go back and forth from the 
mainland to the islands?
    Mr. Iverson. In the central southeast, in the Stikine area, 
the Stikine River delta, we believe they move from the mainland 
to the islands fairly readily. On Prince of Wales, where the 
swimming distance is much greater across Clarence Strait, I 
think the interchange--we have suspected that the interchange 
is much, much less. The genetic studies suggest there is some 
interchange, but based on a 3-year study no wolves left on 
Prince of Wales Island toward either Revilla or the mainland.
    The Chairman. Because it is simply too far?
    Mr. Iverson. At least during that time period we did not 
see it, possibly because it could be a long swim, not too far. 
But the probability of a swim across there, a successful swim, 
is likely very low.
    The Chairman. That is the same probability you are using to 
suggest that there is no wolves on Admiralty, Baranof, and 
Chichagof, because it is too far to swim.
    Mr. Iverson. That is one possibility, but we are not 
certain of why wolves have never colonized those three islands. 
It may be the swimming distance, it may be the presence of 
large brown bear populations. We simply do not know.
    The Chairman. You have brown bear populations on the 
mainland, and you have wolves, and you have deer.
    Mr. Iverson. The brown bear populations on the mainland are 
much lower and you have a source population for the wolves 
through the interior possibly in British Columbia.
    The Chairman. Appendix N states: ``Furthermore, the wolf 
assessment concluded that sustaining the current estimated wolf 
populations on Prince of Wales''--and I guess it is ``Koskiosko 
Island.''
    Mr. Iverson. Koskiosko.
    The Chairman [continuing]. ``Koskiosko would require a deer 
population of from 42,000 to 54,000 for a 95 percent 
probability of equilibrium, given current human deer harvest 
levels.'' 95 percent probability means that you are pretty sure 
of this finding, or at least I would think that would be the 
case.
    In order to have such a high level of statistical 
confidence in the statement, I assume it is based on a 
carefully controlled experiment on Prince of Wales that is 
repeatable and carries with it the 95 percent probability. Is 
that correct, and could you provide the committee with a copy 
of the study or studies that generated such a high level of 
confidence?
    Mr. Iverson. That value and that analysis was done and 
included in the wolf assessment, which we can provide you a 
copy of. The details of that, it was a multiple iteration 
statistical analysis based upon three principal factors: one, 
the current deer harvest on Prince of Wales Island; the current 
estimated deer population; and the reproductive capacity of 
those species.
    David Pearson at the University of Alaska was the 
statistician that developed that analysis. Beyond what is 
already in the wolf assessment, I could see if we could obtain 
the original printouts or whatever original analysis went into 
developing that relationship.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. Well, I assume, since you used it, that you 
have got it.
    Mr. Iverson. We could try to obtain it from Dave Pearson, 
the principal author of that assessment.
    The Chairman. Is that model-based or is it based on actual 
experiments?
    Mr. Iverson. It is based on estimated population size from 
several factors: the telemetry study that Dave Pearson did on 
Prince of Wales Island. He had estimates of the population size 
of wolves. He had reproductive, estimates of reproductive 
capacity of wolf size and number of pups. He had from Fish and 
Game the number of deer that were harvested on Prince of Wales 
Island. And we had estimates of deer population size on Prince 
of Wales and the proportion of the population that was 
harvested by humans.
    He took those independent factors that are real data--they 
are not--well, deer harvest is real data--and he took those 
data and applied them into this statistical model to develop 
this equilibrium of 13 deer per square mile.
    The Chairman. You are aware that the subsistence board made 
a recommendation to reduce hunting dramatically on Prince of 
Wales Island?
    Mr. Iverson. Yes, I am.
    The Chairman. It was not finalized, but it was recommended. 
Do you concern yourselves with predator control of any kind to 
enhance the deer population?
    Mr. Iverson. That has not been an option that we have 
considered at this point.
    The Chairman. It has not been an option?
    Mr. Iverson. Not so far that we have considered. That would 
not be one under our purview.
    The Chairman. Why?
    Mr. Iverson. I think that is a State Fish and Game 
responsibility.
    The Chairman. Well, I mean, if you are legitimately 
concerned--and you are--with the deer population and the 
largest, outside of the human take, is the wolf, you have no 
concern over limiting the number of wolves when you recognize 
that traditionally--and this is factual and scientifically 
proven--that on an island the deer population will be decimated 
dramatically over a period of time by the wolf and the wolf 
will swim off to the next island.
    So if you want to maintain a higher number of deer on the 
island, you address the merits of some kind of reduction of the 
wolf population.
    Mr. Iverson. That may not be--our concern up to this point 
has been to sustain enough habitat to support the stable 
populations of all these species and to sustain the current 
human harvest of the deer.
    The Chairman. But do you recognize the reality that the 
wolves take the deer and once the deer are reduced they move 
off to the next island, or do you dismiss that?
    Mr. Janik. Mr. Chairman, may I answer that?
    The Chairman. Yes.
    Mr. Janik. I think that deals with more a policy kind of 
all. The Federal subsistence board, which I sit on--often Jim 
Kaplan, my deputy regional forester, represents me there--they 
dealt with that very recommendation that you mentioned and they 
voted not to follow through with that recommendation.
    There is also coordination that goes on with the Alaska 
Department of Fish and Game and that board on some of the 
subject matter you are referring to, and that is when there is 
a problem with regard to predator control or whatever in terms 
of other expectations, that is discussed.
    We also have free communications, obviously, from agency to 
agency, and the Fish and Wildlife Service, the Department of 
Fish and Game, and the Forest Service through that agreement 
that we signed in I believe it was December 1994, which deals 
with preventing listing of species, but nevertheless when there 
is a relationship like this with regard to predator and prey, 
if issues of this kind come up, that is discussed in that kind 
of forum.
    And we have direct access to people in the Department. If 
we think actions are necessary that do not come under our 
jurisdiction, we bring them to our attention. So far that has 
not seemed to be necessary in that area.
    The Chairman. Well, if you go over to Queuyu, I would 
suggest that you might find some different attitudes 
prevailing. I do not see how you can simply determine that you 
are going to manage all species at a maximum level and not 
recognize the reality of what happens with the wolf and the 
deer population relative to the cycles that have been in 
existence since you have got any recorded history of 
southeastern Alaska. That is just the reality.
    Anyway, it is apparent that your business is not predator 
control.
    Appendix N includes a discussion about the deer habitat 
models which for areas on Prince of Wales and Koskiosko predict 
a current deer habitat capability of 19 deer per square mile 
for an area as a whole and 20 deer per square mile for the 
unfragmented and unroaded wildlife areas, such as Honker 
Divide. The discussion and accompanying tables go on to show 
that scientific studies of deer densities from northern 
southeastern Alaska to Vancouver, B.C., have found actual deer 
densities to be as much as two to seven times higher than would 
be predicted by your model.
    Given the only real science around predicts significantly 
higher numbers than you have in your unvalidated deer model, 
why would you continually rely on your model as having any 
validity in predicting habitat capability of 13 deer per square 
mile as a ``professional working hypothesis'' for purposes of 
basically locking up areas to provide deer for wolves?
    Mr. Iverson. Senator, the model that we are using does 
predict habitat capability. It does not estimate deer 
populations per se. This table was developed to compare our 
model outputs, how well they compare, with other blacktail deer 
populations on the west coast, and our model was at or below 
most of these other. And these populations are estimated 
populations, not capabilities. So maybe those populations were 
higher at that time or those lands, like Vancouver Island, have 
a much higher capability for deer density than islands in 
southeast.
    So we believe that the model is as good a model as we can 
produce with the data that we have right now relative to 
habitat capability, and it is careful to show in the table that 
it is capability and not population estimates, as the other 
numerical estimates in that table show.
    The Chairman. So you are erring on the side of 
conservatism.
    Mr. Iverson. That is one possible explanation.
    The Chairman. Appendix N concludes: ``Wolf populations 
appear to be more resilient on Queuyu, Kupreanof, Mitkof, 
Wrangell, Zrimbo, and Etolin Islands than what you call GMU-2, 
Prince of Wales, and may possibly persist under relatively low 
deer densities.''
    Now, I find that rather startling in looking at the facts 
as I understand them. We do not have to speculate, to resort to 
untested models, to know wolves persisted in this region--that 
is Queuyu, Kupreanof, GU-3--through the consecutive severe 
winters of 1969 through 1972 and resulting extremely low deer 
densities in the seventies to the early nineties, and survived 
over 50 years of bounties which were paid on all wolves taken 
in the region. Now, that is a correct statement, is it not?
    Mr. Iverson. Yes, it is, Senator.
    The Chairman. Is it not correct, as reported in appendix N, 
a researcher by the name of Smith in 1986 reported that 78 of 
80 wolf scats located near the den of a wolf pack on Revilla 
Island were dominated by beaver hair and bones and that 70 
percent of the telemetry relocations were within the vicinity 
of active beaver colonies? Is that true or false?
    Mr. Iverson. That is true.
    The Chairman. Is it not also true that Revilla has a 
substantial deer population?
    Mr. Iverson. I am not sure of the current population on 
Revilla. They are lower, I believe, than Prince of Wales and 
associated islands, outer islands, probably higher than on the 
mainland.
    The Chairman. Yet Prince of Wales was noted for special 
action by the subsistence board, as opposed to Revilla?
    Mr. Janik. The advisory recommendations, yes.
    The Chairman. So that must mean something.
    Wolves also persist, and have for as long as we have had 
records, on the mainland in Glacier Bay, where there is few if 
any deer. Pearson in his 1996 study acknowledges this, but 
attributed it to more a diverse prey base. Now, I assume that 
he meant moose, goats, and isn't it true that moose and goat 
numbers in the area are nowhere near high enough to offset the 
deer biomass available, say, on Prince of Wales Island?
    Mr. Iverson. I would say the densities of those species are 
much lower.
    The Chairman. Also, Pearson in his study of wolves on 
Prince of Wales found that deer feces and parts in 90 percent 
of the seats--that is ``scats.'' This number was then assumed 
to be the floor of deer requirements to maintain Prince of Wale 
wolves and was then plugged into various models to come up with 
a conclusion that habitat capacity of 13 deer per square mile 
must be maintained to ensure wolf viability on Prince of Wales?
    Mr. Iverson. No.
    The Chairman. That is not correct?
    Mr. Iverson. That is not correct.
    The Chairman. What is correct?
    Mr. Iverson. An explanation of that, that 13 deer per 
square mile on this, and I think this line of thought, and let 
me explain, is that the analysis of 13 deer per square mile, 
the capability to produce those current number of deer would 
sustain the current condition. The current human harvest of 
deer I think is 2,500, 3,000 deer on the island. It would 
sustain the current deer--wolf population on the island.
    So it would maintain the status quo. It is not a minimum 
level to maintain viable populations of wolves. The wolf 
assessment was careful to say we are not certain what that 
population level is. They were talking about in the wolf 
assessment what would sustain the current equilibrium.
    The Chairman. In appendix N, double counting of wolf prey 
leads in the model to ``no consideration of the annual 
increment of annual spring fawn production that may represent a 
20 to 40 percent increase in population size until mid to late 
winter,'' biomass available to wolves essentially throughout 
the year but not represented in the model, and the acknowledged 
likelihood you are underestimating deer habitat capability, 
possibly by a very substantial amount.
    Is that a possibility?
    Mr. Iverson. That is certainly one of the factors that we 
listed in appendix N for believing that the deer habitat 
capability model was somewhat conservative.
    The Chairman. Based on what you have told us, I am 
wondering if this is a habitat capability plan or a hunting 
capability plan. Do you have enough wolves for the hunters, the 
trappers?
    Mr. Iverson. We were assessing--we were not designing--this 
was an assessment of what does this plan provide in terms of 
capability. Our assessment was that I think it is over 80 
percent of the range on Prince of Wales had sufficient habitat 
under this alternative to sustain the current equilibrium, this 
13 deer per square mile estimate. So we were going to sustain 
the current human use of the deer resource, the current wolf 
population, the current harvest of wolves. So we were providing 
a sustainable approach in over 80 percent of this range.
    The Chairman. Well, what is your charge, to maintain a 
viable population or to maintain the current bag limits?
    Mr. Iverson. Our first obligation is to sustain habitat to 
provide for viable populations of all the species. What this 
analysis suggested was that with the habitat there we had a 
high assurance of the viable level, as well as sufficient 
habitat to maintain the current other uses of the resource--
resources.
    The Chairman. So you are doing both, in effect?
    Mr. Janik. I would say that, yes, that strategy was 
designed to do both. I guess I would ask Brad just to make a 
comment about the influence of the group there dealing with 
subsistence on that island.
    The Chairman. Do you want to go next?
    Mr. Powell. I think, particularly back to the subsistence 
issue, that the Southeast Council when they made their 
recommendation they were influenced by some information that 
they thought indicated that there had been a downturn in deer 
harvest. Subsequently that information proved to not be factual 
and, as the subsistence board actually looked at it, that is 
why they made the determination not to change the seasons, 
because they did not find that there was any downturn in 
harvest.
    What we have agreed to, though, is to do some additional 
work and increase our monitoring to really watch that harvest 
over time. So I think that it is really a little bit of apples 
and oranges, what we are talking about, because they really had 
some information that did not prove to be accurate in the long 
term.
    Mr. Janik. Mr. Chairman, one other thing--and Chris, 
correct me if I am wrong here--but as I remember us focusing in 
on this detail of habitat capability for deer on Prince of 
Wales, one of the primary reasons was in fact that that was 
judged to be a hot spot, so to speak, with regard to concern 
for wolf population trend. In other areas of the Tongass you 
will not find any specific deer management guidelines per se 
because the other measures that we decided, that I decided, to 
implement captured most of the concerns for the deer winter 
range, whether it be beach protection area or estuary or old 
growth reserves.
    So the particular attention given here to Prince of Wales 
was because of the hot spot. Chris, is that correct?
    Mr. Iverson. That is correct, because of the substantial 
past harvest, the reduction in capability on the island, and 
the current what was perceived as possibly unsustainable 
mortality levels.
    The Chairman. Well, I think what you are attempting to do 
is meritorious. On the other hand, you are overlooking the 
capabilities of the contribution of predator control, 
regardless of how unseemly it may be to the public. It is a 
management tool, if properly used, to enhance the species you 
want to see enhanced. And the fact that your agency shies away 
from it as far as any recommendation is concerned I think is a 
bit irresponsible relative to recognizing that it is and can be 
a very effective management tool.
    Yet, for professional reasons and public opinion, and 
perhaps correctly, you have chosen not to consider that in the 
management.
    Further, you take no note of the other reality, and that is 
the winter kill, which, as you and I both know, is significant. 
It is unpredictable. It is just a reality that is associated 
with southeastern Alaska. At the time when the heavy snowfall 
comes down, the deer are on the beaches eating kelp. They are 
vulnerable to the wolves, they are in a weakened condition, and 
in many cases that winter kill will dictate that some action 
should be initiated relative to assisting.
    Of course, one of those actions can be reduction of the 
wolf population.
    Mr. Janik. Mr. Chairman, just for clarification, our 
position is not in opposition to any type of predator control, 
whether it be even trapping or hunting. It just so happens that 
particular measure does not come under our jurisdiction, so we 
would----
    The Chairman. No, but you have the ability to make 
recommendations.
    Mr. Janik. That is correct.
    The Chairman. And you are not making any in the area of 
predator control.
    Mr. Janik. In this particular setting, though, we are 
confronted with the observation that the wolf numbers are lower 
than they ought to be, and that is the----
    The Chairman. The wolf numbers are lower than they ought to 
be?
    Mr. Janik. In this particular area, yes. And that is why--
--
    The Chairman. Which particular area?
    Mr. Janik. Prince of Wales.
    Mr. Iverson. Let me----
    The Chairman. You are going to get in trouble there, Phil.
    Mr. Janik. Well, let us talk about that.
    Chris.
    Mr. Iverson. This analysis--we suspect that the populations 
are sustainable right now. What our concern is is for the long-
term capability in terms of deer to support the wolf 
population.
    The Chairman. You get a winter kill, what are you going to 
do about it?
    Mr. Iverson. There will be a natural predator-prey response 
so that the prey population of deer will go down and likely the 
wolf population will go down, similar to what you explained on 
Queuyu.
    The Chairman. Yes, it follows. The deer population drops 
down and then the wolf population either moves if they can or 
they drop down.
    Mr. Iverson. Correct.
    The Chairman. Yet you are managing the forest in such a way 
as to enhance both the wolf and the deer, in the sense of 
habitat.
    Mr. Iverson. In the sense of habitat, for long-term 
sustainability of a population.
    The Chairman. But these extending circumstances that you 
have no control over do occur, and you have no plan or any 
apparent effort to take whatever steps might be necessary to 
initiate a predator control program to offset the reality of 
the winter kill, and that is obvious.
    Is it not fair to say that there is in part a tradeoff 
between the timber harvest, Phil, and deer bag limits, and that 
you choose to maintain the status quo in deer harvests and to 
reduce the timber harvests accordingly? That is the conclusion 
I reached.
    Mr. Janik. My answer to that would be that the old growth 
reserve system on Prince of Wales that has been established, 
one of the largest on the Tongass--Brad, help me. How many 
acres?
    Mr. Powell. It is close to a quarter million acres on north 
Prince of Wales and interconnected reserves, primarily around 
the Honker Divide area.
    Mr. Janik. That is the more substantial influence on the 
timber yield, is that old growth reserve, as compared to 
specific measures for deer standard and guidelines there, I 
would say.
    The Chairman. But you cannot give me a specific answer and 
I understand that, but that fringe area is an effort that has 
been attempted to have been maintained as a reality of where 
the deer spend the winter. They cannot get up to the meadows, 
they cannot get up on top.
    Let us go over to the other hot one. How many goshawks are 
there on the Tongass, and is the population increasing, 
declining, or stable?
    Mr. Iverson. In the goshawk assessment and in our 
documentation, we have pretty clearly said that we do not know 
what the current population is. In response to the second part 
of your question, the assessment looked at the habitat 
relationships of goshawks, the clear and undeniable selection 
for productive old growth, the reduction of old growth in 
southeast Alaska that approximates about 15 percent of the 
region.
    The goshawk assessment, based upon those two relationships, 
concluded that there has likely been a reduction in capability 
for goshawks, which would have an associated decline in the 
population.
    The Chairman. Well, what do you say about the Justice 
Department's filing in the Southwest Center for Biological 
Diversity v. Babbitt in July 1996: ``Because there is no 
current study to estimate relative abundance or density, no 
inferences can be made about the number of goshawks nesting in 
southeastern Alaska or their population trend.''
    Mr. Iverson. I would agree with the first part, that we 
cannot make inferences on the population size. But as I just 
said, I believe that we can make some inference based upon 
relationships, that we are fairly certain that there has been a 
reduction in capability in southeastern Alaska over the past 40 
or 50 years.
    The Chairman. So I guess I would ask, who is wrong, you or 
the Justice Department? You suggest the Justice Department?
    Mr. Janik. Careful, Chris.
    The Chairman. Anybody want to volunteer who is right?
    Mr. Janik. We do deal with habitat, Mr. Chairman, and we 
try to do the best we can in making the relationships and 
setting out prescriptions that respond to that. That really is 
what our strategy is based on.
    The Chairman. Yet you recognize and acknowledge that you 
have not done an extensive inventory of the habitat beyond the 
areas of proposed timber sales of any consequences?
    Mr. Janik. We have not done an extensive search for goshawk 
nests, that is true, Tongass-wide.
    The Chairman. So your studies have been done in association 
with timber sales?
    Mr. Janik. Not just limited to that. Chris, go ahead. We 
have gone beyond just the timber sale areas.
    Mr. Iverson. Yes. We testified before that we found a large 
number of nests relative to timber sale preparation activities. 
But we have also found a large number of nests outside of 
timber sales. And furthermore, the Fish and Wildlife Service 
conducted a survey in I think 1995 that surveyed all or 
surveyed only within legislatively withdrawn areas. And I think 
as we testified last year, they did not find a reservoir of 
goshawks in those areas.
    The detection rates were not different between timber sale 
preparation areas and wilderness and LUD-2 areas.
    The Chairman. Well, I am not going to ask you how much of 
the forest or the timbered area that you covered, because I do 
not think you have been able to cover an extensive amount to 
bring any scientific evaluation. But you have answered the 
question relative to how many goshawks there are. You do not 
know. And we know what the Justice Department has concluded, 
that there is no current study to estimate the relative 
abundance or density and no inferences can be made on the 
number of goshawks nesting in southeastern Alaska or the 
population trend.
    So I question the science because there is not enough of it 
and what we have is not conclusive. Yet as a consequence of the 
goshawk, the theory of a threatened species is before us and 
currently before the U.S. Fish and Wildlife Service, and I 
think that indeed is unfortunate relative to the scientific 
evidence that we have.
    Are goshawks an old growth-dependent species?
    Mr. Iverson. I would say ``dependent'' is not an accurate 
word. I would say they are closely associated with, with 
productive old growth forests.
    The Chairman. Let me ask you whether they are dependent or 
not. You say closely associated. Well, that can mean----
    Mr. Iverson. They select for old growth relative to its 
abundance and availability in their habitat use patterns, but 
they also use other habitat types. So to say they are dependent 
upon old growth is unlikely accurate. They are closely 
associated.
    The Chairman. Well, as you may know, quoting from the 
Justice Department filing in the Southwest Center for 
Biological Diversity v. Babbitt: ``The Forest Service stated 
that, although its joint study with the Alaska Department of 
Fish and Game showed that goshawks were located in old growth 
areas, it also showed that, contrary to the earlier theory, the 
goshawks in southeastern Alaska do not necessarily require 
large areas of fragmented higher volume old growth forests. 
According to the Forest Service, the study revealed that, while 
goshawks were selecting productive old growth forests, male 
goshawks selected the edges rather than the forest interior 
habitat.
    ``Additionally, of the 1592 goshawk telemetry relocation 
points collected from 68 radio-marked goshawks, only 20 percent 
would occur in areas currently delineated under the old growth 
TLMP as available for timber harvest over the next 100 years.''
    Finally, as to population trends, the Forest Service 
concluded: ``Despite low sample sizes, the current research and 
monitoring to date have failed to reveal evidence of declining 
goshawk populations.''
    Any comment?
    Mr. Iverson. I think most of that is accurate. There is a 
part in there about the selection of edge by male goshawks, and 
subsequent analysis last summer in the final goshawk assessment 
could not--based on new analysis, we no longer propose that 
relationship. There is not a selection or an avoidance of edge 
habitat, whether it is clearcut edge or old growth 
nonproductive forest edge. So that relationship----
    The Chairman. What was the justification for the earlier 
contention that there was?
    Mr. Iverson. It was with a smaller sample size and a 
different statistical analysis and, as the goshawk assessment 
team, we put the new analysis and the assessment--we would 
stand behind the new analysis.
    The Chairman. You would not the old one?
    Mr. Iverson. Not any longer.
    The Chairman. Why did you the first time?
    Mr. Iverson. Because it was a preliminary analysis on 
smaller sample size, and a different statistical analysis. It 
was a preliminary result.
    The Chairman. Well, putting aside the edge area, do the 
HCA's contribute to the goshawk viability?
    Mr. Iverson. Yes, they do.
    The Chairman. You sure?
    Mr. Iverson. If they are providing productive old growth 
forest as a long term strategy for sustaining the population, 
yes.
    The Chairman. Well, let me tell you what the Justice 
Department said in the same case: ``Then from October 26 to 
October 28, 1994, the inter-agency workshop held a meeting to 
re-evaluate its June 30, 1994 recommendations in light of new 
information. The transcript of this meeting provides critical 
insights into the true state of the scientific knowledge 
concerning the Queen Charlotte goshawk.
    ``The transcript revealed that, although the inter-agency 
workshop team, a team composed of the leading goshawk experts, 
had doubled the information they had last June, they 
nevertheless still had `no information about the population 
dynamics, demography, or the habitat needs of the birds.' ''
    Mr. Iverson. That is correct.
    The Chairman. It sounds to me like less than perfect 
science.
    Dr. Mills. I would like to comment on that if I could, Mr. 
Chairman.
    The Chairman. Go ahead.
    Dr. Mills. I think we have testified very clearly that the 
scientific record on systems as complex as the Tongass are far 
from complete. However, I think, as Mr. Iverson just cited, 
there has been additional goshawk information collected, and 
inevitably the decisionmakers are placed in a position of 
making decisions in the face of uncertainty. And if we had to 
wait until we had certainty, there is probably a whole bunch of 
opportunities that we would miss in the meantime.
    The Chairman. Well, I do not know that I agree with you.
    One of the things that I am sure you read in the Tongass 
testimony relative to Barry Hill is the lack of accountability 
for time and costs has delayed the forest plan revision. This 
particular listing states relative to your question, Dr. Mills, 
or statement: ``An option on these things that we do not know 
all the science we would like would be to move forward with a 
decision, a decision conditioned on adequate monitoring 
components.''
    It further states: ``The Forest Service has historically 
failed to live up to its own monitoring requirements, and 
Federal regulatory agencies and other stakeholders continue to 
insist the Forest Service front-load the process, perpetuating 
the cycle of inefficiency.''
    I am just wondering why on these questions that clearly you 
need more science, more time, more evaluation, you would not 
make your decisions conditioned on monitoring, so that you 
could initiate whatever changes.
    According to the inter-agency task force chaired by the 
Council on Environmental Quality--and this is the Bible that we 
currently live under--according to that inter-agency task force 
chaired by the Council on Environmental Quality. ``An agency 
can condition a decision the effects of which may be difficult 
to determine in advance because of the uncertainties or the 
costs. However, the Forest Service has historically given low 
or negligible priority to monitoring and continues to approve 
projects without adequate monitoring components and does not 
generally perform the monitoring of a forest plan 
implementation required by its current regulators.''
    I can understand your effort to finalize, but clearly in 
these areas that we have discussed there is a lot lacking and 
we both know it. But you have not in your evaluation of your 
TLMP done in my opinion what would seem to be an appropriate 
action, and that would be to condition your decisions on 
monitoring these scientific questions that you do not have the 
information.
    Mr. Janik. Two reactions to that if I may, Mr. Chairman. 
One is that our monitoring plan in the revision intends to 
address the very concerns you just mentioned. We may not be 
able to do 100 percent of the monitoring job that we would like 
to do, but we are definitely going to pick up the pace and do a 
more credible job of monitoring than perhaps has been done in 
the past.
    That monitoring will in large part, again, deal with the 
habitat trends, with some tracking of populations, which are 
much more difficult to survey and analyze and draw any cause-
effect relationships from.
    The other part I would like to say is that the old growth 
reserve system and the beach areas that have been protected and 
the estuary areas that have been protected and the riparian 
standards that have been chosen all relate to a whole host of 
species that are believed to be associated and-or require those 
kinds of habitat conditions.
    It is not just restricted to the goshawk or it is not just 
restricted to any single species, but a whole community of 
species. That is why I was persuaded to make the kinds of 
decisions I did.
    The Chairman. Well, certainly no one would criticize you 
for making the decision based on constant monitoring. But once 
you set the level so low, there is little inducement and we 
basically lose the value of monitoring. I am personally of the 
opinion that that is what we have done here, as opposed to 
setting it at a level that would meet the industry's current 
installed capability, which is not addressed in the TLMP 
unfortunately, and then monitor your process where your science 
is questionable.
    It is so basic that maybe that is why it escapes me.
    Dr. Mills. Mr. Chairman, I would surely agree that there 
have been places where the Forest Service has not been as 
aggressive with monitoring as would be desirable. I believe 
that is why the regional forester included a fairly assertive 
monitoring package in this plan, and likewise in collaboration 
with the region PNW station scientists have some follow-on 
studies to do that very kind of enhancement of information.
    I would also suggest, though, that opportunities are not 
necessarily being lost by taking the decision track----
    The Chairman. Well, it depends on whose opportunities you 
are talking about. If you are talking about the state of the 
industry's opportunities and the jobs that go with it and the 
community and the welfare of the areas, we are not at a level 
of the existing sustained capability of the industry after we 
shut down the two major pulp mills.
    But that is a responsibility I think only some of you bear.
    Dr. Mills. I think that there is also ample evidence that 
when we have taken the tack to wait until we had perfect 
information that, first of all, we never had it. But at that 
time, oftentimes the options available for decisions had far 
greater impact on the very people that you are concerned about 
than if a more conservative approach was taken in the absence 
of the complete information.
    Some of the decisions that were made in the Pacific 
Northwest as a result of similar decisions I think would bear 
that out.
    The Chairman. Well, I guess you and I disagree on that 
point.
    Let us talk about marten. There seems to have been some 
misunderstanding by the national press on just what a marten 
is, but we all know. And maybe they can--there is not many of 
them left in here. Well, we will do the best we can.
    The five biogeographic provinces to which the marten 
standard applies, I am told, is East Chichagof, Kupreanof, 
Mitkof, Etolin Island and the vicinity, minus Zrimbo, which 
does not have marten, north central Prince of Wales, and 
Revilla.
    Now, in your record of decision you say: ``The effect of 
the measures added to alternative 11 have not been explicitly 
modeled, but have been judged to be relatively small.'' 
However, in appendix M you further say: ``Where applied and 
found necessary, the effect will be to approximately double the 
rotation age and reduce the volume available for harvest in any 
time period by about half.''
    Mr. Janik, the new plan schedules 496,000 acres of old 
growth for harvest. Over 304,000 or 60 percent of the 496,000 
acres are found in the 5 provinces to which the measure added 
for that matter apply. About 130,000 acres of old growth 
scheduled from those provinces is classified as high volume.
    The marten standard applies to high volume old growth 
stands below 1500 feet in elevation. Most high volume old 
growth is found below 1500 feet, possibly as much as 80 percent 
of the high volume. That would translate into as much as 
104,000 acres in the 5 provinces to which the marten standard 
will apply. Almost 104,000 acres of high volume old growth 
would contain something like 3.8 billion board feet of timber.
    According to appendix N, the added measure would reduce the 
contribution of these high volume stands to the allowable cut, 
allowable sales quantity, by half. That is a potential 
reduction of 1.9 billion board feet of timber. That is almost 
as much as your entire NICIASQ for the next decade, which is 
about 2.19 billion board feet.
    Do you think that qualifies as a significant reduction in 
the ASQ?
    Mr. Janik. There was considerable discussion when we dealt 
with the mitigation measures as to what effect those would have 
on the calculated ASQ, and we spent a great deal of time on 
this very subject. One item that influenced the stay on the 267 
calculation was that we have left determination of where to 
apply mitigation measures to interdisciplinary teams because we 
judged that even within those provinces those measures may not 
be necessary, depending on what other old growth conditions may 
exist there in such an analysis.
    In addition, our experts who make those kinds of 
calculations--we have one of them here today, John Day--studied 
this at length and determined that, given the tradeoffs with 
other kinds of things that are conditioned into those 
calculations, that there was no reason to believe that this was 
a significant change at this point. It goes back to your 
message on monitoring, Mr. Chairman. We are going to watch this 
very closely, and if we experience that these mitigation 
measures are having to be applied in a very regular kind of 
fashion within these provinces and are going to accumulate into 
a level that will definitely have an effect on our projected 
yield, we will definitely address that problem.
    The Chairman. Would you increase the yield then?
    Mr. Janik. Pardon me?
    The Chairman. Would you increase the yield?
    Mr. Janik. That is possible.
    The Chairman. You see, the point I am making here is, when 
you set a reduction of 1.9 billion feet of timber as a 
consequence of your analysis that may be so low that the 
monitoring and the public opinion associated with increasing 
the volume if your science proves too conservative is a reality 
that you could offset by monitoring a reduction of a billion 
board feet rather than almost two.
    Mr. Janik. The mitigation measures just for the marten, it 
would be very unlikely that the outcome of the monitoring would 
be an increase, because the additional restrictions suggested 
in those mitigation measures could only lead over time to a 
decrease if they are applied and accumulate over time.
    But the 267 generally, if overall monitoring suggests that 
the potential is greater than that overall, considering all 
things, then, yes, we have as much of an obligation to look at 
an amendment there as we would with a reduction.
    The Chairman. What would you do if the State banned 
trapping on marten? Would that make any difference?
    Mr. Janik. In terms of mitigation measures?
    The Chairman. In terms of available timber. If you made a 
reduction of 1.9 billion board feet as a consequence of this 
extended evaluation and the State prohibited trapping of 
marten, what would that do?
    Mr. Janik. The responsibility we have is with the habitat, 
Mr. Chairman, and we have----
    The Chairman. Yes, but if you have more species because 
nobody is trapping them?
    Mr. Janik. But if we deteriorate the habitat base upon 
which the species depends, over time, regardless of what other 
measures are in place, that will become the limiting factor and 
they will decline.
    The Chairman. Well, will these mitigation measures that you 
have taken be adequate for the current take that occurs by 
trapping?
    Mr. Janik. We believe the mitigation measures and the old 
growth reserve system--I do not want to just say mitigation 
measures here, but the total response to what we understand are 
the habitat relationships with the marten--we believe are 
adequate to sustain that species over time.
    Now, there are other variables that come to play on the 
actual fluctuation of population trends, and we are back to 
that discussion that we had earlier in terms of who is in 
charge of these measures and, if in fact things like trapping 
need to be, regulations need to be changed, the Department of 
Fish and Game would be the appropriate authority to do that, 
one way or another.
    The Chairman. Well, have you looked at trying to maintain 
the current level of harvest? Marten I am talking about, 
trapping of marten.
    Mr. Janik. Chris, help me there.
    Mr. Iverson. That has not been an implicit objective of the 
design of the conservation strategy. It is to maintain 
sufficient habitat so that in the long term sufficient viable 
populations would be maintained.
    The Chairman. That is contrary apparently to your 
management on the deer population, where you acknowledge you 
are trying to keep both up in the air.
    Mr. Iverson. The discussion earlier relative to deer 
populations was an analysis of what the habitat from the 
strategy could produce, and for deer it would sustain the 
current situation. The strategy, in addition to these 
additional measures, are what we judge necessary for a 
reasonable likelihood of long-term sustainable populations.
    The Chairman. And you observed the marten populations on 
Prince of Wales, where you had extensive logging, is that 
right?
    Mr. Janik. Are you asking if we actually observed?
    The Chairman. The population levels.
    Mr. Janik. The concern for the marten was really revealed 
through some of the panel assessments that were conducted and 
the risk level. At least that is what influenced my 
decisionmaking.
    The Chairman. Was the risk panel a major factor in the 
decisionmaking process on the marten, your own decision?
    Mr. Janik. The information on risk totally, not just what 
came from the panel but then as was interpreted by the science 
team, influenced my decision, yes, sir. Risk in terms of 
viability of all these species.
    The Chairman. In calculating the ASQ you used something 
called ``regulation classes,'' with regulation class 1 being 
clearcut, 2 clearcut and reserves, and 3 group selection; is 
that correct?
    Mr. Janik. I understand those as broad categories we used, 
yes. If we are going to pursue a line of questioning on this 
calculation of ASQ, we may want to shift here with emphasis on 
Mr. Norbury and Mr. Day, but that is of course your preference.
    The Chairman. Well, if a particular stand was in regulation 
class 1 for purposes of the ASQ, is it not true one of the 
effects of either the added marten or goshawk standard will be 
to change the regulation class from 1 to 2 or maybe 3?
    Mr. Janik. I think we are going to have to ask Mr. Day to 
come up and answer some of these. Chris, why do you not step 
back for a second. We may call you back.
    John Day is coming to the table.
    Mr. Day. In regards to the regulation class question, 
regulation class 1, 2, 3 is kind of a derivation of land use 
designation and a variety of scenic classes. Reg class 1 is 
managed more intensively than 2 and 3. But one thing we have 
done, realizing from our experience on the ground in the visits 
we have done and input from the forest supervisors, is we have 
reduced, say, the total permissible harvest from those down 
slightly, because we know--at least in Brad's case, he has 
stated 20 percent of his areas in green will not be managed as 
green, for a variety of competing reasons.
    So it is true they have been dropped down, and they would 
be impacted by the standard and guidelines. If laid on top of 
the reg class 1, we would certainly make that change in the 
model.
    The Chairman. What are the scheduled acres by regulation 
class for alternative 2--excuse me--alternative 11 as used to 
calculate the ASQ, scheduled acres by regulation class?
    Mr. Day. In terms of percent?
    The Chairman. Uh-huh.
    Mr. Day. Of the entire available land base, I know that 
about 65 percent is scheduled. I do not have the breakdowns.
    The Chairman. Of the total land base. Why do you not 
provide that for the record.
    Mr. Day. Okay.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. How many of the high volume acres below 1500 
feet in elevation in the 5 provinces to which the additional 
marten standard applies were regulation class 1 for purposes of 
calculating the ASQ?
    Mr. Day. Again, may I explain the way we went about 
incorporating----
    The Chairman. Not really. I just need the answers.
    Mr. Day. Again, I am not exactly sure.
    The Chairman. Why do you not provide that for the record.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. Table B-12 of appendix B illustrates how 
sensitive the economics of timber harvesting are to regulation 
class change. For example, on the Chatham area high volume 
normal operable timber in regulation class 1 has a net dollar 
per acre value of $4,958 per million board feet--excuse me, per 
thousand board feet. Change the regulation class to 2 and the 
net dollars per acre drops to 2,054 per thousand, a drop of 
some 61 percent. Change the class from 1 to 3 and the value 
drops to a minus $13,000.
    Given this, how much of the timber in your NICI from the 
FEIS is still economic after the additional protective measures 
are applied and the necessary changes to regulation class have 
been made? Anybody know?
    Mr. Day. Well, the way we determined NIC 1, the N-I-C 1, it 
is based on the operability classes. Now, the incorporation of 
the marten standard and guide and the goshawk standard and 
guide would not influence the operability call for that 
particular area. But granted, there would be additional costs 
certainly from the standard and guidelines if it moved from a 2 
to a 3 or a 1 to a 3 rate class.
    Mr. Norbury. Mr. Chairman, the application of the marten 
standard and guidelines or the goshawk standard and guidelines 
is far more complicated than simply moving from one regulation 
class to another. Basically, the marten standard and guidelines 
established certain habitat objectives and leaves considerable 
flexibility to the field to determine what silvicultural 
prescription would achieve those objectives.
    We have done some experimental layouts in the Ketchikan 
area--Brad may want to comment on this here in a few minutes--
where we have looked at what are the alternative silvicultural 
prescriptions that might achieve the marten and goshawk habitat 
objectives. What we are finding is that there are choices and 
there are significant choices, and that there are silvicultural 
regimes that can get as much as 70 percent of the volume, 
rather than the 50 percent that we were thinking at the time 
the plan was adopted.
    The other interesting thing that is coming out of that 
analysis is that the value of the timber that is coming out of 
those areas has increased. Basically, we are leaving a lot of 
the lower value timber there to provide the habitat objectives 
established by the standard and guidelines.
    So while it is true that the costs of harvesting are going 
up substantially in those areas where you apply those standards 
and guidelines, the values of the timber coming off are also 
increasing. And based on the field trials that we are doing 
right now, it looks like it is about a wash.
    Would you like to add to that?
    Mr. Powell. I could only add from the standpoint that I 
think Phil mentioned earlier that we need to monitor this, 
because we have just started to----
    The Chairman. I do not have any problem with that. It is 
where you start, it is your base, that concerns me.
    Mr. Powell. I understand, but just to explain a little bit 
the wide variation.
    The Chairman. No, just go back to this report. They say you 
have basically been derelict in the monitoring process and your 
decisionmaking process. You either have or you have not. Now, 
maybe you are getting better.
    Mr. Powell. I think we have acknowledged, as we talked 
earlier, that we intend to increase our monitoring. But what I 
think is important relative to the issue that we are talking 
about, as we try to apply the standard and guide there are many 
different options. We have got our field foresters out looking 
at it right now.
    What we are finding out is if you look at these standards 
and guides they do not require that merchantable trees be left, 
so oftentimes we think we will be able to leave utility grade 
trees or lower value trees, thus increasing the value of the 
stand and meeting that marten standard. But we are not going to 
really know until we lay out a few of these, see how they sell, 
see what it takes to administer them and what it takes to 
actually accomplish the standards and guide.
    The Chairman. Well, I do not dispute that, Brad. But by the 
same token, you could be in here making the same presentation 
relative to the unknown lack of scientific evidence on the 
goshawk or the marten or the wolf at a level of 350 and saying 
you are going to monitor it because you do not know.
    Now, clearly because of peer pressure and national 
environmental pressures and so forth, you have chosen to come 
down with what you feel you find defensible, and it may be 
conservative and you are maybe going to monitor. But I think it 
points out the reality to anybody who has sat here for 5, 4 
hours at least, the extraordinary complexities and the 
constriction that is within the Forest Service in its ability 
to responsibly come up and say: Well we do not know; this is 
what we are going to do and we are going to monitor in the 
process.
    And you have not been monitoring in a manner that has 
certainly been commendable by the report on the lack of 
accountability for time and costs, which you have all read, as 
I have, and underlined.
    Mr. Janik. Mr. Chairman, I just want to emphasize that my 
decision was not politically based. It was based on the science 
input and the risk assessments and, frankly, I want to stay out 
of the courtroom.
    The Chairman. Well, I am not going to argue that. But by 
the same token, your decision could have been signed by any one 
of two people that were there previous to you, or at least one, 
because this thing has been ready at different numbers at 
different times and could have been signed, but was not.
    And I am not going to go into the reasons why it was not 
signed, but maybe that is a subject for another hearing at 
another time.
    Mr. Janik. But all I can say to that, not passing judgment 
on any of those previous events, but the information base we 
are dealing with today is different than I am sure what they 
were dealing with then, and that is what influenced me.
    The Chairman. I could not agree with you more, but the 
opportunity to monitor was there and it was not then, and it is 
becoming now I think something that you are considering. Why 
you were not considering a long time ago, I do not know.
    Anyway, the question of viability. In developing your 
approach to meeting the species viability requirement under the 
National Forest Management Act, did either you or your 
cooperating agencies include consideration of the impact of 
timber harvesting on non-Federal lands in your analysis?
    Mr. Janik. The information that was totally considered and 
that I understand did consider some of the information 
available of what was happening adjacent to Federal land. But 
the predominant focus was the habitat trend on Federal land, 
meaning the national forest.
    Dr. Mills. If I could add to that, Mr. Chairman. The risk 
assessment panels were asked to evaluate the likelihood that 
habitat was available to provide for at least a minimum number 
of reproductive individuals that were well distributed across 
the planning area, and the planning area with the interspersed 
State and Native corporation lands was considered in that scope 
of planning.
    The Chairman. And that included Native lands?
    Dr. Mills. Yes.
    The Chairman. Was your approach to species viability 
modeled after the President's Northwest forest plan?
    Dr. Mills. The methods that were used to extract expert 
opinion from recognized experts in the field, yes, was a method 
that had a lot of similarities to the expert opinion panel 
process used in the Northwest forest plan.
    The Chairman. In your decision did you apply a viability 
standard requiring 80 percent chance of viability for 100 years 
of every native vertebrate species?
    Mr. Janik. I think Dr. Mills is looking at me because that 
is a decisionmaker's reference. I did not use any fixed 
percentage to persuade me to make the decisions I have made. 80 
percent has been----
    The Chairman. Well, how did the risk panels advise you? 
What did the risk panels advise you to do?
    Mr. Janik. They did not.
    Dr. Mills. If I could comment----
    The Chairman. What did they use? Certainly they addressed 
it.
    Dr. Mills. The risk panels did not use any particular 
cutoff of what constituted an acceptable level of risk. They 
were very careful simply to provide estimates of what the risk 
level was. And in fact, the results from the risk assessment 
panels for the final alternative include some estimates of the 
range of risk, many of which are well below 80 percent.
    The Chairman. Well, what did they use as a definition of 
viability, then?
    Dr. Mills. Viability was defined as habitat that was 
available for a viability population well distributed across 
the planning area.
    The Chairman. What is a viable population?
    Dr. Mills. That was articulated by the magnitude and 
connectivity of habitat that was deemed to be necessary for 
these individual species.
    The Chairman. Well, you still are left with the question of 
viability as a broad interpretation. It means different things 
to different people. How many martens, how many deer, how many 
goshawks? How many do you need to have a viable population?
    Dr. Mills. We have acknowledged that the information on 
population levels and trends is fragmentary at best and 
therefore, consistent with our planning regulations, we looked 
at the presence of habitat and its connectivity across the 
planning area.
    The Chairman. Well, yes, but is that what the planning 
regulations require? You have got 90 percent theoretically of 
the forest or thereabouts is going to remain in the state that 
it was in 1950. So when you give me viability and you 
generalize, yet you have been quite specific on setting an 
allowable cut. I just cannot necessarily accept that you can 
use a general term of viability without some association of 
what does that mean in numbers?
    Dr. Mills. What we are required by regulations to consider 
is to maintain a habitat to support at least a minimum number 
of reproductive individuals----
    The Chairman. What's a minimum number?
    Dr. Mills. Well, in habitat that is well distributed so 
that those individuals can interact with others in the planning 
area. We did not do an estimate, a direct estimate of 
population. We did do an estimate, based upon the experts, of 
how much habitat was necessary to maintain a viable 
population----
    The Chairman. You have got 80 to 90 percent of your habitat 
retained under this plan.
    Dr. Mills. That is true, Mr. Chairman. 80 to 90 percent of 
the productive old growth, and a requirement that that habitat 
must be well distributed across the planning area and therefore 
connectivity in those habitat components. Therefore, that is 
what the experts on the panel evaluated and provided estimates 
of the likelihood that implementation of the alternatives over 
a 100-year time period would lead to various levels of habitat 
magnitude and connectivity.
    The Chairman. Well, that is what bothers me about the 
process. You can justify your experts in your particular 
profession, but as a layman--and I am going to ask you, well, 
is 78 percent non-viable? You cannot tell me it is or is not.
    Dr. Mills. No, Mr. Chairman, I cannot say that 78 percent 
is viable or non-viable. Scientists worked very hard to provide 
some estimates of the level of risk of achieving viability and 
well distributed populations.
    Mr. Janik. In terms of how I looked at that as the 
decisionmaker, Mr. Chairman, in those areas where there was a 
pretty high level of assurance that I heard from the risk 
assessments, it led me to a decision of one kind. When there 
was not as much assurance with some of these paneled species 
and then further interpretation by others, that is what led to 
the response with some of the mitigation measures, to 
demonstrate that where we were less certain as to whether the 
job was being done adequately some additional measures would be 
employed to make sure we would not commit any fatal flaws.
    The Chairman. Well, that is fine. But, you acknowledge that 
this was modeled after the President's Northwest forest plan, 
and that was dealing with a forest that was to a high degree 
harvested. They were harvesting second growth. Now, here you 
have a different forest. You have virgin forest that is 
probably 30 percent dead or dying.
    Mr. Janik. I believe what Dr. Mills meant was that the 
procedures might be similar, but the people providing the 
information were confronted with the conditions of the Tongass, 
not the Pacific Northwest, when they gave their assessments.
    The Chairman. Well, that is true, but when you deal with a 
figure of what is viable and what is not, we are flying kites.
    Mr. Janik. Well, the courts have chosen not even to try to 
be precise with that.
    The Chairman. But your defense of a decision is now based 
on your comment that you are going to monitor.
    Mr. Janik. And the risk ratings.
    The Chairman. But risk ratings are beyond your control in 
many cases. Winter kill is beyond your control.
    Mr. Janik. The risk ratings represent an important piece of 
information to me.
    The Chairman. Sure they do. But some of the risks 
associated with the viability is beyond your control, beyond 
habitat control.
    Mr. Janik. Yes, these are habitat-related.
    Dr. Mills. If I could comment on the habitat versus non-
habitat considerations. Much for the same reasons that I 
believe are implied in your questions, Mr. Chairman, we wanted 
to make sure that the information we provided did not 
unnecessarily restrict management of habitat based upon impacts 
on population that had nothing to do with habitat, and 
therefore the risk assessment panels were asked to evaluate the 
habitat contribution to viable and well distributed population 
and to ignore non-habitat factors, and thereby did not indicate 
some higher level of risk that led to more habitat protection 
based upon non-habitat impacts on populations.
    The Chairman. The assumptions that you just described, did 
the public ever have an opportunity to comment on those?
    Dr. Mills. The public? The public did have information in a 
science report that was published about the same time that the 
draft EIS was published. The draft EIS had the panel results in 
it, and therefore the public had opportunity to comment on the 
information that was considered in the risk assessment.
    Mr. Janik. I believe the information was also discussed in 
the face to face visits that we made twice to 32 communities in 
southeast as a matter of the science component to that.
    The Chairman. In the 1997 panelists, the question comes up, 
why did the panelists not review all of the original proposed 
alternatives, including the preferred alternative in the draft 
TLMP and the selected alternative and the unreleased record of 
decision. Particularly if there will be different panel members 
comparing these risk assessments with the previous risk 
assessments for certain of the alternatives, it may have been 
an apples to oranges comparison.
    At a minimum, to ensure that the same individuals are 
applying the same opinion-based analysis in the same way, 
looking at the same management prescriptions, the new panels 
could have reviewed all the alternatives. Am I not correct?
    Dr. Mills. The second set of panels were called, Mr. 
Chairman, because the preferred alternative in the draft EIS 
and the alternative that was emerging as the final alternative 
had never been subjected to risk assessment panels.
    The Chairman. Why was that?
    Dr. Mills. Because the risk assessment panels that were 
called prior to the draft EIS evaluated the alternatives in the 
draft prior to the selection of both the preferred and the 
development of the final, so that those two alternatives simply 
were not available when we called the panels in 1995 and 1996, 
and therefore the principal reason for calling the panels in 
1997 was to evaluate the two alternatives that had not 
previously been provided to the panels.
    The Chairman. Well, why did this process occur after the 
public participation effort had been completed?
    Dr. Mills. In an effort to make sure that the draft could 
get out in as timely a manner as possible, and likewise----
    The Chairman. Well, it took how many years?
    Dr. Mills [continuing]. And likewise not to subject the 
public to another supplement after about three after this draft 
was out.
    The Chairman. Well, it is supposed to be a public process, 
is it not? I mean, you pride yourself on public participation 
up to a point, and then after the public participation effort 
has been completed this occurred.
    Dr. Mills. The risk assessment panel results for the nine 
alternatives that were paneled and were available for public 
comment in the draft spanned the preferred alternative and the 
draft and the final alternative, and therefore the public 
certainly had considerable information about risks associated 
with different alternatives.
    The Chairman. Well, that is my point. The 1997 panel risk 
assessment did alter the analysis of each alternative, 
including the regional forester's selected alternative.
    Dr. Mills. I am sorry, could you repeat that? I did not 
catch it all.
    The Chairman. The 1997 panel risk assessment did alter the 
analysis of each alternative, including the regional forester's 
selected alternative.
    Dr. Mills. No, the risk assessment panel that was called in 
1997 did not alter the analysis. It analyzed two alternatives 
that had not previously been available for analysis and also 
paneled several other alternatives that had been previously 
paneled to determine whether in fact the second set of panels 
provided results that were comparable to the first set. Our 
analysis of the second set of panels confirmed that in fact 
they were comparable.
    The Chairman. And you are suggesting the public had a 
chance to comment on those two alternatives that you analyzed?
    Dr. Mills. Well, the public had a chance to comment on the 
preferred alternative in the draft.
    The Chairman. No, no, I am talking about what your risk 
assessment panel did. If you say it did not alter, then I am 
asking you if the public had an opportunity specifically.
    Dr. Mills. I have acknowledged that, no, the public did not 
have the particular risk assessment results from the preferred 
alternative in the draft, nor the final alternative in the 
final EIS, to comment on. But I also commented that those two 
alternatives are well within the bounds described by the nine 
alternatives for which the public did have risk assessment 
results and could comment on the draft.
    Mr. Janik. Mr. Chairman, the primary reason for reconvening 
the panels was to increase the legal defensibility of the plan, 
in that those two were not subjected to the same kind of rigor 
initially. We made that decision at expense of criticism of 
having the process linger on for that reason.
    The Chairman. Well, I would suggest that that kind of a 
compromise may cause you problems. I think it is fair to say 
that we have acknowledged that the public did not have a chance 
to comment on the two alternatives and, given the significance 
of these assessments in the final decisionmaking process and 
the problems that we have articulated with the first round of 
assessments in our view of the draft TLMP, I find no rational 
reason why the public was precluded from any meaningful review 
on these new risk assessments.
    The public should have had a right to see, review it and 
comment on it in the context of comments on a new draft 
preferred alternative; and why did they not?
    Mr. Janik. I would ask if I could just clarify one point. 
The forest supervisor's recommended alternative did receive 
public comment. It just was not subjected to the paneling. That 
was in April 1996. That is because when they formed the 
recommendation they picked and chose from various alternatives 
that had been paneled.
    Dr. Mills. If I could add just one more, Mr. Chairman. I am 
not sure I heard everything that you said there, but----
    The Chairman. I will repeat it if you want.
    Dr. Mills. No, that is okay. But there were no flaws that 
we identified with the first set of panels, nor the second set 
of panels. The second set of panels were called in no way as an 
indication that the information provided from the first set was 
in any way in error or incomplete.
    The Chairman. The difference, of course, is that you have 
different personnel on the different panels. And still we are 
faced with the reality that the public had the right to see, 
review, and comment on the context of commitments in the new 
draft preferred alternative, and I still do not have an 
explanation of why the public did not have a chance to comment 
on it.
    Dr. Mills. There are two----
    The Chairman. Other than the time element.
    Dr. Mills. There are two points there, Mr. Chairman. One, 
we were concerned about the question of whether the ability not 
to get all 24 panelists back together would in fact cause a 
problem. We were able to get 20 of the 24 back together, but we 
had to have 4 new panelists. The four new panelists nonetheless 
were experts in their fields, just as the other four who could 
not be there.
    One of the reasons that we repaneled in 1997 some of the 
same alternatives that we paneled earlier was in fact to be 
able to do that comparison, and the results from comparing the 
1997 panels and the 1996 confirmed that in fact estimates from 
the two sets of panels were very comparable.
    The Chairman. Well, anyway we have acknowledged that the 
public did not participate.
    What measures were taken to protect the scientific 
integrity of the panel process? The process was conducted under 
a modified version of the Delphi method that is not described 
anywhere in the scientific literature. It was imperative that 
the process be conducted in a fashion that is both credible and 
empirically defensible. However, the confidentiality of the new 
panelists' identify and views was breached and seriously 
compromised.
    On April 3 I was contacted by media representatives who had 
in their possession lists of the new panel members. They asked 
my office to react to the selection of the panel members. A few 
days before that we were informed that the interest group 
representatives also had in possession the new lists and were 
urging their members to contact--now get this--to contact the 
panel participants for the purpose of providing them with 
information and their views regarding the appropriate 
management of the Tongass.
    These contacts may have affected, perhaps grievously, the 
integrity of the panel process. For example, I understand the 
Department's Office of General Counsel expressed a similar 
concern in writing.
    Now, maybe you can reassure me about your promises about 
the scientific integrity of the new risk assessment process. 
This would be a good time to do it.
    Dr. Mills. The risk assessment process that we used is a 
nominal group process that is described extensively in the 
literature. It is very similar to a Delphi method, which 
likewise has an extensive body of literature. It similarly was 
used in the Northwest forest plan and has stood the rigors of 
court scrutiny and stood to those rigors.
    Concerned that some of the panel members might have been 
contacted and influenced by outside sources, we made special 
pains during the 1997 panels to ask all the panelists whether 
they had been contacted with any attempt to influence them, and 
they responded to a person that they had not. Therefore we 
continue to support the credibility and integrity of the panel 
process and the results it has produced.
    The Chairman. I think previously there had been 
acknowledgment that, Mr. Janik, you were heavily influenced by 
the marten panel. And I am going to read an excerpt from the 
marten panel: ``Marten TLMP assessment silent observer notes,'' 
whatever that means, ``March 25-26, TLMP Building, Juneau.'' I 
did not know they named a building after it, but I am not 
surprised.
    This is a statement of the general introductory session: 
``The participants met on the planning process and alternative 
descriptions were very good. There was a lot of information 
presented in a short period of time. However, there were 
several topics that were not presented that should have been 
and some information presented that may have biased the 
panelists. They are:
    ``One, there was not any mention made of the young growth 
management program on the Tongass. Panelists left with the idea 
that once an acre is harvested the Forest Service walks away 
from it.''
    Page 2: ``Observation of the panel. One panel member noted 
that he was the president of the local chapter of the Sierra 
Club in his area. Several panel members had a very anti-
clearcut attitude and were very opinionated and outspoken on 
this. All panel members had a difficult time distinguishing the 
differences between a viable marten population and a 
sustainable marten population.''
    Any comments?
    Dr. Mills. I would like to make one and then I would like 
to ask Chris Wood to elaborate since he is very familiar with 
that panel.
    It is certainly true that in the science process there is a 
lot of very strong discussion and views hammered out with a 
fair amount of intensity, and I am sure the marten panel was no 
exception to that. We did try to determine whether in fact the 
panel member was a member of the Sierra Club and found that 
that was not true. And there is a rather extensive body of 
literature that does talk about the effect of harvesting on 
suitability of marten habitat, and to conclude that that 
somehow means that there is a bias against clearcutting I do 
not believe is a correct result.
    But if I could ask Chris Iverson to add to that in terms of 
in particular the information that was provided to the panels.
    Mr. Iverson. Yes, Senator, I gave the presentations on the 
alternatives and the background of forest ecology that we 
discussed, and it was true that in that presentation I did not 
discuss second growth management. Then there was a later 
discussion, I do not know if it was in that panel, but in 
subsequent panels we did provide the fact that we do have a 
second growth management program on the Tongass. Approximately 
200,000 acres have been treated.
    So that, as I recall, there was a sequence of several 
panels that I gave this presentation. I cannot recall if later 
in the discussion that issue came up or if it was in subsequent 
presentations, but it was apparently true that from that 
observer and that presentation we did not discuss second growth 
management.
    The Chairman. Well, do you agree or not with this statement 
that ``all panel members had a difficult time distinguishing 
the difference between a viable marten population and a 
sustainable marten population? Several panel members indicated 
that they considered both terms meant the same thing and could 
not distinguish between the two terms when doing their ratings. 
It might have been helpful to have spent more time trying to 
get these distinctions clear in the minds of the panelists.''
    Mr. Iverson. I did not facilitate that panel. Jean 
Negaynor, one of our IDT members, did. We discussed as he was 
facilitating that panel and we wanted to bring that concept up 
to separate the distinction between a sustainable population 
and a viable one, and he did comment that there was at least 
one panel member that did have difficulty distinguishing 
between that.
    The Chairman. It says here ``all panel members.''
    What is the difference, again?
    Dr. Mills. Mr. Chairman, could I ask----
    The Chairman. Let me just ask, since you worked this area 
of sustainability. I would like to know myself, and maybe some 
folks out there that are still sitting would like to understand 
the difference between a viable marten population and a 
sustainable marten population.
    Mr. Iverson. I cannot give you specifics, but I will give 
you conceptually what the difference would be. A sustainable 
one is one that had a principal population that, like in money 
management, would produce interest that you could harvest, a 
sustainable surplus or a harvestable surplus, and there was a 
habitat capability that could produce that level of a 
population. So that would be a sustainable population, that 
could sustain itself as well as a sufficient harvestable 
surplus.
    Now, a viable population conceptually would be one that 
just had enough habitat, had a long-term capability to sustain 
itself without an additional harvestable surplus, in very brief 
terms.
    The Chairman. That would be a minimum viability.
    Mr. Iverson. Well----
    The Chairman. Sure it would.
    Mr. Iverson. It would be a population that could just--the 
habitat necessary just to sustain itself.
    The Chairman. That is a minimum, is it not?
    Mr. Iverson. It has often been referred to as that.
    The Chairman. I hope that some of the Alaskans that read 
this and have a familiarity with it will recognize the 
constriction that we run afoul of in representing the ability 
to make decisions here based on that kind of discernability, 
because I can certainly understand the panel members 
questioning the viability and the sustainability, because a 
sustainable marten population could become a viable marten 
population, depending on a number of things, including habitat, 
hunting--excuse me--trapping pressures or what have you.
    Mr. Iverson. Senator, you are on track with a good 
observation, that there is so much uncertainty or a lot of 
uncertainty in this concept in terms of population 
fluctuations, uncertainty about habitat relationships, that 
there is a continuum there of when a sustainable population may 
come to the level of a viable one because of this uncertainty.
    The Chairman. Well, if I were sitting on the panel I do not 
know whether I would come down on the side of sustainable or 
viable as my charge.
    Mr. Iverson. They were clearly charged with the viable 
population, long term viable.
    The Chairman. Yes, but you just acknowledged that a 
sustainable can become a viable.
    Mr. Iverson. I do not believe I said that. I said there is 
uncertainty.
    The Chairman. You acknowledged that I said it, that it 
could happen.
    Mr. Iverson. Because of uncertainty, there is a continuum.
    The Chairman. We have a letter here to Chris Iverson from 
David Pearson, who was one of the panelists in 1995.
    Mr. Iverson. He was a resource specialist, I believe.
    The Chairman. He was on the team?
    Mr. Iverson. No, he was the author of the wolf assessment.
    Dr. Mills. He provided background information to the 
panelists.
    Mr. Iverson. He was a resource specialist.
    Dr. Mills. He was not one of the panel evaluators.
    The Chairman. He provided background on the wolf?
    Mr. Iverson. Correct, at the first panel assessment.
    The Chairman. He says as follows in the second paragraph: 
``Nonetheless''--he is commenting on the second day. ``It was 
good to hear from biologists with years of experience. 
Nonetheless, it was very clear to me and to the panel members 
that the volume of information presented was overwhelming and 
the members felt uncomfortable evaluating a plan for an area 
with which they are almost completely unfamiliar.''
    And of course, most of them have not lived in Alaska, so 
their familiarity is limited to they see in a short time or 
however they study.
    He goes on to say: ``I think it would have been best if a 
working definition of 'well distributed and viable' was 
established at the very beginning of the process.''
    He further states: ``It is also clear that you folks are so 
pressed for time that you cannot doublecheck the information 
that you present and expect the panelists to reference when 
evaluating the planned alternatives.''
    ``Further''--is that enough? The best part is yet to come.
    I think the point is this is another case of a participant 
who does not know the definition of ``viable.''
    Mr. Iverson. Could I respond to that, Senator?
    The Chairman. Sure.
    Mr. Iverson. In response to your first point, Dave Pearson 
was making an observation on behalf of the other panelists, 
which I am not sure--I think that was his perception. I do not 
know that we can take that as their belief.
    In response to the second point, the definition of ``well 
distributed population'' is what I think you referenced, the 
panelists through the discussion of the behavior of each 
species on each panel came to conclusions of, through their 
discussion, what might be a well distributed population. There 
was no a priori definition of that, and it was developed as the 
discussion evolved in each panel.
    The third, the haste that was referenced there in terms of 
the data I think that Dave was referencing. It was one column 
of data in one deer model outputs that I believe that Dave was 
referencing in terms of a problem in data, that was corrected.
    The Chairman. I have got to take a telephone call back 
here. Go ahead with the questions.
    If you gentlemen want to walk out, let us just keep going, 
but individually you can walk out and come back. That is what I 
am going to do.
    Mr. Rey. This will be questions for Tom. Did either sets of 
the panels--that is, either the 1995 or the 1997 panels--have 
members that were not full-time Federal employees?
    Dr. Mills. Yes, there were members that were not full-time 
Federal employees, including those who were identified by the 
Governor as representing the Governor. That included both State 
employees and university employees. We restricted the panel 
members to Federal employees and those that the Governor 
identified in order to meet the requirements of FACA.
    Mr. Rey. That was true in both 1995 and 1997?
    Dr. Mills. Yes.
    Mr. Rey. And there were no members in either 1995 or 1997 
who were neither Federal nor State employees, then?
    Dr. Mills. Not at the time they were panelists, no.
    Mr. Rey. Were notices published of panel meetings?
    Dr. Mills. No, there were not notices published of panel 
meetings. They were not treated as a public event. They were 
treated as an opportunity to provide information on the effects 
of the alternatives.
    Mr. Rey. So there were no public observers or anything of 
that nature?
    Dr. Mills. There were no public observers. There were 
individual silent observers, just as the letter that the 
Senator read.
    Mr. Rey. Those were also Federal employees?
    Dr. Mills. I believe they were all Federal employees, all 
Forest Service employees.
    Mr. Rey. What criteria or considerations did you use in 
selecting panel members, and did you do any evaluation of 
either whether or now you wanted to balance their points of 
view or their areas of expertise?
    Dr. Mills. I would like to ask Dr. Everest to answer that. 
He was personally involved in the selection of the panels.
    Dr. Everest. All the panelists were selected for their 
expertise in the given area, like all the wolf panel 
participants were experts on wolves from various places across 
the country, as often as possible from Alaska.
    Mr. Rey. Did the public have any chance to comment on the 
information in appendix M or appendix N of the FEIS prior to 
your publication of the record of decision?
    Mr. Janik. No.
    Mr. Rey. Was there any consideration given to making that 
opportunity available at any time in the process?
    Mr. Janik. There was only brief discussion, recognizing 
that alternative 11 and all of its implications was properly 
part of the public process and we saw no need to go back to the 
public with that alternative.
    Mr. Rey. Appendix M and appendix N were published in May 
1997 and the FEIS was published in January 1997. How did you go 
about using M and N as information for the FEIS?
    Mr. Janik. The addition of appendix M and N pretty much 
came about, especially appendix N, as a result of the 
repaneling that took place, and therefore was provided as part 
of the record for purposes of fulfilling that obligation. 
Again, it was not subjected to public review.
    Mr. Rey. If I heard the testimony correctly, you were 
comfortable that the difference in individuals between the 1995 
panels and the 1997 panels did not have an influence on the 
results, because you felt that the results were comparable in 
both cases. Did you hear that right?
    Dr. Everest. That was correct.
    Mr. Rey. But you also published for public information a 
May 8 document called the 1997 TLMP Risk Assessment Panels, 
which described how to use the information from the risk 
assessment panels properly and how to avoid using it 
improperly. That was the purpose of the document, right?
    Dr. Everest. Yes.
    Mr. Rey. And there you indicate that variability and mean 
likelihood scores of up to a maximum of about plus or minus 15 
points was noted between the 1995 and 1996 panels and the 1997 
panels when the same alternatives were rated by the same 
evaluators approximately 15 months apart.
    Dr. Everest. That is correct.
    Mr. Rey. Can you square the two statements, first the fact 
that there were different people did not materially influence 
the results, but second that, even where they were some of the 
same people apparently, if I am not misreading this, there was 
still a plus or minus 15 percent factor?
    Dr. Everest. I think that just indicates that there is some 
uncertainty around any estimate of risk that is done through 
expert opinion. In the panels where there were some new panel 
members, the variability that we saw was not greater than those 
areas, those panels where there were no new panel members.
    Mr. Rey. But the variability was pretty high in any case?
    Dr. Everest. The variability was variable. For example, in 
the brown bear panel it was plus or minus 2 points. In some 
other panels it was as high as plus or minus--the highest was 
17 points, a spread of 17 points.
    Mr. Rey. Which were the highest in your recollection?
    Dr. Everest. Which were the highest in terms of 
variability? Marten was 14 points, goshawk was 17, wolf was 14, 
brown bear was 2, the other mammals widely distributed group 
was 5, other mammals endemics was 10.
    Mr. Rey. Was there any correlation between the fact that 
the mitigating measures that you added in at the very end of 
the process were for--is there any relevance to the fact, I 
guess I should say, that the mitigating measures that you added 
to the end of the process, at the end of the process, were 
primarily for species where the variability in the risk 
assessment panels was the highest as opposed to the lowest?
    Dr. Everest. No, I would say no.
    Mr. Rey. Let us go back to the question of defining 
viability for a second. The document also says: ``The inherent 
uncertainty in evaluating risk prevented the evaluators from 
identifying the precise trigger point for maintaining 
viability.'' Is that in the context of the discussion we had 
still a position that you----
    Dr. Everest. What the panelists did was look at--well, 
first they defined what ``well distributed and variable'' meant 
to them--``well distributed and viable'' meant to them. They 
did that by looking at the five outcomes that they had 
available to them in the panel process. In general, they 
identified and defined ``well distributed and viable'' as 
falling within outcome 3.
    Outcome 3 was a situation where the habitat could have 
permanent gaps and there may be some difficulty of individuals 
interacting across those gaps. In general, the panelists said 
that was where their concept of viable and well distributed 
fell. So to span that particular outcome, we summed outcomes 1 
and 2, outcomes 1 and 2 and 3, and the spread is within outcome 
3.
    But within outcome 3 the spread could have been a 
significant number of points, and there was no way to define 
exactly where within that spread of points the trigger was for 
well distributed and viable.
    Mr. Rey. It is true, as you say here, that the panel 
evaluators' concept of a well distributed habitat was a more 
difficult condition to meet than the maintenance of habitat to 
sustain viability, that they distinguished between those two 
and that the former was a tighter standard in their view than 
the letter?
    Dr. Everest. That is correct. For example, you could have 
viable brown bear populations on Admiralty Island only, but to 
be well distributed they would have to be on Admiralty, 
Baranof, and Chichagof.
    Dr. Mills. But it is also true, if I could add, that since 
with most of the species the panelists could not define where 
those two triggers fell within outcome class number 3, the 
results, the numerical results, simply described the range of 
outcome likelihood that encompasses 3 without any indication of 
where those two triggers might fall within 3.
    Mr. Rey. So they did not have a specific idea of where they 
fell. They just knew that one was a tougher standard than the 
other.
    Dr. Mills. That is what they concluded.
    Mr. Rey. The last question: Where in either the regulations 
or the statute did you derive the authority to define the 
planning area to include all land ownerships in the geographic 
location of the Tongass?
    Mr. Iverson. I do not believe that is in the planning area. 
The planning area is the national forest system lands, and that 
was the area that the analyses were done in the FEIS. The 
panelists were displayed maps of the entire forest, but the 
assessment of likely outcomes was restricted to Federal lands.
    Mr. Rey. Did we not have testimony earlier that you looked 
at the Native lands as well in making the viability 
determinations? Not the panels themselves, but you in making 
the decision.
    Dr. Everest. The panelists, the panelists were shown the 
entire planning area, which included the other ownerships as 
well. So when they did their risk assessments they were taking 
into account the entire planning area.
    Mr. Iverson. For a clarification, when we said yes, we 
included other non-Federal lands and analyses to do cumulative 
effects analyses, in many analyses we included the acreage of 
private lands in those analyses. Particularly I recall in 
appendix N in the goshawk analysis, there is a section in there 
that includes non-Federal lands to do a full cumulative effects 
analysis.
    Mr. Rey. And from whence does the responsibility to include 
the non-Federal lands in the analysis derive?
    Mr. Iverson. It is related to the requirement to do a 
cumulative effects analysis. There is two lines of question 
there. I think you are asking about viability in non-Federal 
lands. That was not the case. The question was did we consider 
non-Federal--my answer in the non-Federal land analysis is 
relative to cumulative effects analysis, not to viability.
    Mr. Rey. It was also disclosed in the viability panels that 
you were looking at the entire planning area. It was discussed 
that there was a significant amount of harvest on the non-
Federal lands, was it not? And it entered into their 
considerations that the amount of harvest on non-Federal lands 
was in fact relevant, perhaps in some of their minds highly 
relevant, to the viability considerations; is that not correct?
    Mr. Iverson. They were shown the maps and the activities 
with the juxtaposition of the non-Federal lands, but their 
likely outcomes were restricted to Federal, the Federal land 
component of that landscape. Now, if the allocation of land, 
the combination of allocation of lands among the various 
alternatives may vary, and their outcomes would be predicated 
on the combination of Federal allocations, say like on Prince 
of Wales, whether there is reserves or not, that was the 
component they were instructed to affect their likelihood of 
outcome assignment of points.
    The Chairman. Well, I think we are just about wound up. I 
had hoped to get through panel one and panel two, and I think 
we are about two-thirds through with panel two. It would be my 
intention to reconvene tomorrow at 9:30.
    But prior to that, I have a couple of questions that came 
up in association with the opening statement of Mr. Phil Janik. 
In your review, is there any other national forest with 
proportionally as much old growth and, if so, what? I am sure 
there is not, but what would be the second major forest of our 
national forests?
    Mr. Janik. Probably the Chugach.
    The Chairman. Okay, so Tongass is the first, Chugach is the 
second. Where would we go for the third?
    Mr. Janik. That is a tough one.
    Mr. Iverson. One or more of the forests in the Pacific 
Northwest may be in the 15 to 20 percent range, maybe 30. We 
could check and get you some figures in the FEMAT.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. Because it would be interesting to see a 
comparison of the manner in which the monitoring process occurs 
on other forests, the manner in which a forest management plan 
is structured, because I think that there is some significance 
and uniqueness associated with the Tongass.
    I am also curious to know how you address your 
responsibility in two areas. One--and my terminology may be a 
little inconsistent here, but to meet the anticipated demand or 
market demand, which I think you have acknowledged as one of 
your criteria. Then the other is to fail to address, if you 
will, the installed capacity of the industry as we have it 
today without the two pulp mills.
    There seems to be an inconsistency there. You want to meet 
market demand, but to meet market demand theoretically you 
would first address sufficient timber to meet your installed 
capacity. But we have had conversations about this before and, 
for reasons that are yet to be explained to me, you have not 
seen fit to address that. Yet you arbitrarily address many 
other factors.
    Mr. Janik. I will address the demand question first. That 
of course refers back to the Tongass Timber Reform Act, the 
often discussed clause, seeking to provide enough timber to 
meet market demand. We have been through a number of 
discussions on this, a number of court cases, and the rest of 
that clause is a very important part of that obligation and 
that is consistent with other multiple use objectives, using my 
own license here in terms of wording, but something to that 
effect.
    But we have struggled with this subject, there is no 
question about that, and there has been great debate over just 
how demand should be calculated and what does it represent and 
what is the absolute obligation of the agency with regard to 
it.
    I would like to inform you, Mr. Chairman, we are working up 
right now a set of procedures that I hope will enable us to 
treat demand more definitively than we have in the past. I am 
not in the position to predict when those might be complete, 
but we are working on this very subject, because we know that 
we need to be more profiled with how we are addressing the 
subject of demand and how it relates to capacity of mills and 
all of that kind of thing.
    Now, our current estimate of capacity of mills is, or 
consumption, I guess, of wood, is 230 million board feet saw 
log. We got that information from the operators themselves. 
Now, if you translate that to add the utility onto it----
    The Chairman. Is this existing mills that are operational?
    Mr. Janik. Yes, as I understand, yes.
    The Chairman. What about Wrangell?
    Mr. Janik. No, that does not include Wrangell.
    The Chairman. Is there a reason? It is installed capacity.
    Mr. Janik. Well, it is not operating.
    The Chairman. Why it is not operating?
    Mr. Janik. Well, because APC chose to close it.
    The Chairman. No. There is not enough timber to attract a 
buyer.
    Mr. Janik. And we hear that, sir.
    The Chairman. No, it is not ``hear it.'' It is factual, 
Phil. Let us recognize a few realities.
    Mr. Janik. Well, I am going to acknowledge your difficulty 
in some of these areas.
    The Chairman. Well, you have got 230, but you do not have 
Wrangell.
    Mr. Janik. Now, 230 is just----
    The Chairman. Saw logs.
    Mr. Janik. So if you add the utility onto that----
    The Chairman. Let us stay with saw logs, because what are 
you going to do with the Wrangell mill?
    Mr. Janik. The point I am trying to make here in terms of 
the total harvest that is needed to provide that is that it 
exceeds our calculated ASQ, I would suspect.
    The Chairman. That is obvious. I asked the question what 
your obligation was to meet installed capacity. You talk about 
meeting market demand. You address market demand initially on 
the basis of installed capacity. That is one major----
    Mr. Janik. That is one definition.
    The Chairman. Yes, but it is an appropriate definition to 
consider, because before somebody else comes in and establishes 
additional capacity prudence dictates that you address your 
current installed capacity, because the infrastructure costs, 
which you folks do not necessarily have to spend a lot of time 
on because it is not your charge, are significant. The loading 
facility, cold decking facility, environmental concerns 
relative to the sawdust disposal, hog fuel disposal, emissions, 
suggests that the logical place if you are going to do any 
manufacturing is where you already have installed capacity.
    Mr. Janik. We do not see it that way, Senator. A point of 
disagreement.
    The Chairman. You tell me how you see it.
    Mr. Janik. The calculation of 267 million board feet as our 
calculated allowable sale quantity is our transmission to the 
world, the public and the timber industry that this is the best 
that can be expected as a maximum, and our projection----
    The Chairman. You did not relate it at all to the installed 
capacity?
    Mr. Janik. We certainly related in discussion, but we do 
not interpret it as an obligation.
    The Chairman. You felt no obligation then? You felt no 
obligation?
    Mr. Janik. Not an absolute obligation, that is correct.
    The Chairman. No obligation to the people of southeastern 
Alaska or the investment associated and the jobs in the 
sawmills? You felt no obligation?
    Mr. Janik. We tried to do the best we could to provide as 
much timber as possible, recognizing that need by the timber 
industry.
    The Chairman. You had an obligation, just like you have an 
obligation for habitat, to address the concerns associated with 
the installed capacity and the sustainability of jobs 
associated with that.
    Mr. Janik. That is something we try to do, sir.
    The Chairman. I can recall when the Chief sat right where 
you are sitting and told me there would be enough timber for 
the Wrangell mill; there was absolutely no reason why there 
could not be, with the ultimate disposition and demise of the 
two pulp mills.
    What do you say to that? I can pull out the testimony if it 
would help.
    Mr. Janik. The very discussions that we are having with the 
Governor's Timber Task Force amount to this kind of discussion, 
and that is what can one reasonably expect off the national 
forest, off the Tongass, and then they are looking at other 
possible sources of timber and they are addressing these very 
references, such as capacity and-or utilization, which is from 
our record about 50 percent of the capacity. So that would be 
about 170 in terms of the existing operating facilities, which 
does not include Wrangell and does not include the new proposal 
at Ketchikan either.
    We have tried to do our best, given all the other 
obligations we have, to put as much timber on the street as we 
can.
    The Chairman. As I see the TLMP as it is presented now, you 
have as a consequence of a process which you could have made 
judgments on monitoring it because of the unknown science, lack 
of scientific evidence with regard to the qualifications of the 
goshawk or the wolf or the marten or any number, it is evident 
that you have come down with a figure which you say you can 
substantiate, and I cannot suggest that you cannot. But there 
is no scientific evidence as to the adequacy or inadequacy of 
this low base.
    Now, if you are wrong on the marten, if you are wrong on 
the wolf, if you are wrong on the deer, the theory is you are 
going to increase the allowable cut. But that is hypothetical.
    The point I am making is you cannot on the one hand try and 
meet market demand as an obligation without recognizing the 
association of installed capacity, because that is going to 
basically have the ability to meet market demand. You are not 
going to meet market demand without primary manufacturing, 
because you are not going to allow, I assume, the export of 
round logs out of the State, are you?
    Mr. Janik. That is another policy we are working on right 
now, and that is a very important item to this discussion.
    The Chairman. Well, let us discuss it now. Are you going to 
allow round log exports outside of cedar?
    Mr. Janik. We have been approving some of those 
applications currently, Mr. Chairman. But we also hear much 
from our southeast communities and the timber industry that 
they want to see more manufacturing done on site, the value 
added notion, and we are taking that into consideration as 
well.
    I am not in a position to predict the outcome as to how 
generous or restrictive we will be with that.
    The Chairman. Do you want Congress to address the question 
of round log export and simply prohibit it? Would that help you 
out?
    Mr. Janik. I am sorry, I missed the first part of that.
    The Chairman. Would you like Congress to address the issue 
of round log export off Forest Service lands in Alaska? Would 
that help you out?
    Mr. Janik. If Congress were to give us that instruction----
    The Chairman. Yes, to not do it.
    Mr. Janik. I am not sure it would help us out. It would 
certainly clarify the issue.
    The Chairman. Well, it would help meet market demand, would 
it not, in the State? Because if you are going to allow the 
export you are not going to meet the market demand associated 
with primary manufacturing.
    Mr. Janik. The difficulty we have in this transition is the 
timber industry right now is in a spot, as you know, without 
any place to go with their lower grade material.
    The Chairman. And whose fault is that?
    Mr. Janik. It is a combination of factors.
    The Chairman. Well, let us be realistic.
    Mr. Janik. International pricing----
    The Chairman. Aw, come on, Phil. Let us get basic. ALP came 
in with a proposal for a 10-year extension, a 10-year contract 
to put in a fiberboard mill. The Secretary of Agriculture 
acknowledged that he was going to recommend it and it was 
turned down at the White House.
    Now, that would have utilized utility grade had it been 
built, right?
    Mr. Janik. That would have utilized utility grade.
    The Chairman. And what happened with Ketchikan Pulp? They 
came in and asked for a 15-year contract to put in an 
investment of, what, $220 million into a pulp mill. It would be 
the state of the art, chlorine-free. You folks were non-players 
in that issue, but clearly this administration and the Forest 
Service chose not to consider and grant that extension.
    So these are realities, and you can call it market demand, 
but both of those facilities would be operating today, and 
those jobs in those communities and that new technology, which 
the administration prides itself on, would be in existence, two 
cleaner mills, state of the art, and a place for the utility 
timber.
    Now, I am not blaming anyone at the table, but I think we 
have to reflect on those hard core facts. They asked. They were 
denied.
    Mr. Janik. In terms of answering your initial question, 
Senator, I think there is obviously a basic disagreement here. 
We do not see any absolute obligation to meet any particular 
level as compared to trying to do the best we can to meet 
market demand. That is how we interpret TTRA.
    The Chairman. Well, I think that particular acknowledgment 
might cause you to reconsider at a later time, so I will just 
leave it at that, because that certainly is a statement that I 
have never heard enunciated from the Forest Service or any 
representative of the Forest Service, that there was not an 
obligation to meet market demand and the association of meeting 
that through trying to address the existing installed capacity, 
recognizing that the two pulp mills are gone.
    Which takes us back to the original Forest Service 
contribution of coming into southeastern Alaska with long-term 
contracts to utilize the utility timber that makes up the 
majority of the forest in southeastern Alaska. So now you have 
acknowledged that you are looking at individual requests for 
export, which simply drives the primary manufacturing base 
outside Alaska. If you allow that, that is what will happen.
    But the irony of it is--and I think you have gone through 
and reviewed the records of the former Chief Frank Heinselman 
and the thought process that occurred in the fifties, that 
somehow we needed to stimulate a year-round industry in 
southeastern Alaska and it was up to the Forest Service to 
provide the assurance of a timber supply and hence the 50-year 
contracts, to utilize a product that you are proposing to ship 
out now in the round.
    Mr. Janik. I am not proposing that at all, Senator.
    The Chairman. Well, you are suggesting that you are looking 
at requests and you have granted requests previously. Very few 
requests have been granted. I think you are the first person 
to--you and I had a conversation some time ago, a few years 
ago, when you first acknowledged that you had allowed a 
shipment to go out at a time when there was a shortage of 
timber in the State at a time when we had a pulp mill and 
certainly a market for that.
    Yet you saw fit to--I would like to see, again have the 
record reflect your justification of that, because it still is 
a little foggy to me. But the Forest Service is going to either 
try and position its structure for the benefit of the job base 
in Alaska or it is not. That the obligation that you took on 50 
years ago, but clearly that seems to have abandoned, and I 
really fail to understand the rationale.
    Mr. Janik. The perspective we have in reevaluating the 
export policy, Mr. Chairman, is that it is going to become more 
restrictive. We recognize the importance of keeping as much 
wood in southeast as possible. We are working with the timber 
industry on that subject and we will certainly work at levels 
beyond our regional level to finally resolve this as to what 
would be a working productive policy. I just want to make that 
clear with you.
    The Chairman. I do not know how long we are going to have 
to wait. But I think it is important to reflect in your 
statement that to suggest that the responsibility for the pulp 
mills closing is a change in international and national markets 
in recent years is not a full disclosure by any means relative 
to what you could have added, that the Forest Service denied 
the extension of both companies to change their process and 
rejuvenate their facilities, and these were denied by the 
Forest Service.
    Whether it be the Forest Service that wants to accept the 
responsibility or the administration, it is academic. To 
suggest in your statement that the economic disaster funds 
somehow make up for the disaster associated with the loss of 
the industry and the inability now to utilize the utility 
timber and the attitude of the Forest Service in simply 
dismissing that as a responsibility is just beyond me, and 
beyond many, many people in Alaska that fail to understand 
where the stewardship has gone.
    Mr. Janik. If I may react to that statement, Senator.
    The Chairman. Go ahead.
    Mr. Janik. We are frankly very proud of the contribution we 
are trying to make to assist communities going through this 
transition that they are, those that have been dependent upon 
the timber industry as well as the industry itself. My 
testimony mentions our State and private forestry programs, the 
effort that Brad himself has been involved in with regard to 
the SRT formulation and working in a multi-agency fashion. We 
are doing the best we can with the resources we have to assist.
    The Chairman. Well, you are getting the resources. Your 
budget seems to indicate that you have got some plans to expend 
the taxpayers' dollars. But clearly you do not have a plan to 
meet the installed capacity that is left in Alaska.
    Is it not extraordinary that here we have the largest of 
all our national forests and we cannot even sustain a minimum 
base industry? Hell, New York State burns more for firewood 
than we cut commercially. I think these things have to be kept 
in a perspective. You have testified time and time again, and 
you know the merits of how you present your case, and so do I.
    I am struck by your conclusion: ``The Tongass revision 
strikes a balance. It protects the health, diversity, and the 
productivity of the Tongass ecosystem while it provides for 
resource use well into the twenty-first century. The plan 
provides for commercial use of the forest to support the 
southeastern Alaska community.''
    I do not know how you can make that statement if you do not 
even address the existing capacity in those communities after 
you have terminated the major users of the wood product, and 
that is the pulp mills.
    So I guess we have come to the conclusion of 4\1/2\ hours, 
and I commend you for your patience and your willingness to 
respond. I think that we have touched on some delicate areas 
and touched on some broader areas and have structured a record 
that we will be able to reflect on in the future. I would 
appreciate giving any of you an opportunity to wind this up. I 
have no further statements, other than, relative to the 
testimony of the first panel, I would ask that we may have the 
agency's written findings on whether the TLMP is a rule, and I 
am going to ask for that to be determined within the week. If 
there is any reason why they cannot do it, why, we will see.
    [The information requested was not received at the time the 
hearing went to press.]
    The Chairman. Which leads me to I guess one other question, 
and that is who makes the decision in the Forest Service of 
whether this is a rule or not relative to the process that we 
were exposed to in the first panel?
    Mr. Janik. I believe we can expect that decision to come 
from the Chief, sir.
    The Chairman. Has the Chief addressed this?
    Mr. Janik. The Chief today has taken the position that 
forest plans are not a rule, including the Tongass plan.
    The Chairman. Including the Tongass plan.
    Mr. Janik. And given the input of GAO and OMB over the past 
few days, I would suspect he is going to read those documents 
very carefully. I have no way of predicting whether that can be 
done in a week in terms of any affirmation one way or another 
of what his position might be. But I would say the short answer 
to your question is the Chief.
    The Chairman. Well, that is fair enough. That is where I 
would put it, too. I assume that--we are faced with a case of 
whether the Chief and the Forest Service is complying with 
under the intent of the law or they are not. The fact that they 
have not been is incidental to the reality of whether it fits 
into that qualification, and I guess somebody else is going to 
make that determination.
    Mr. Norbury, do you have anything to wind up your 4 hours 
or 4\1/2\ hours?
    Mr. Norbury. No, sir, but thanks for the opportunity.
    The Chairman. Mr. Powell.
    Mr. Powell. I have nothing to add.
    The Chairman. Dr. Mills.
    Dr. Mills. I am sorry, Mr. Chairman. I cannot resist.
    The Chairman. Go ahead.
    Dr. Mills. I would like to touch just very briefly on the 
question of timber demand and start a little bit where Phil 
Janik left off about the difficulty of----
    The Chairman. I might add, that is the first thing that is 
going to be up tomorrow.
    Dr. Mills. Then I will be more than happy to wait until 
tomorrow.
    The Chairman. Go ahead.
    Dr. Mills. No, that is fine. We will talk about it 
tomorrow.
    The Chairman. If you want to get it on the record today, do 
it.
    Dr. Mills. I am sure I will have ample opportunity 
tomorrow.
    The Chairman. Dr. Everest.
    Dr. Everest. I will wait until tomorrow.
    The Chairman. Chris.
    Mr. Iverson. I will pass, too, Mr. Chairman.
    The Chairman. Phil.
    Mr. Janik. Thank you.
    The Chairman. All right. Have a nice afternoon, and I 
suggest you go out and buy a nice steak or something. You 
deserve it.
    [Whereupon, at 4:19 p.m., the hearing was recessed, to 
reconvene on July 10, 1997.]


                        TONGASS LAND MANAGEMENT

                              ----------                              


                        THURSDAY, JULY 10, 1997

                               U.S. Senate,
         Committee on Energy and Natural Resources,
                     and U.S. House Committee on Resources,
                                                    Washington, DC.
    The committees met jointly, pursuant to notice, at 9:36 
a.m., in room SD-366, Dirksen Senate Office Building, Hon. 
Frank H. Murkowski, chairman, presiding.

OPENING STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning, ladies and gentlemen. We will 
call the hearing to order, and we will proceed where we left 
off yesterday. You all know your seats. We have got some fresh 
water for you and let us know if the chairs do not fit.
    The good news is we are starting a little earlier this 
morning. Instead of 11 o'clock and going until 4:30 or 
thereabouts, why, we will start at 9:30 and hopefully finish a 
little earlier today.
    Mr. Janik, we are going to start on some of the analysis 
that may involve Mr. Brooks, if you are so inclined. I see you 
have got an extra seat up there. What I propose to do is to 
direct the inquiries to you and you can field them as you see 
fit, Phil. Is that fair enough?

    STATEMENT OF PHIL JANIK, REGIONAL FORESTER, U.S. FOREST 
SERVICE, JUNEAU, AK; ACCOMPANIED BY DR. TOM MILLS, U.S. FOREST 
 SERVICE, PORTLAND, OR; DR. FRED EVEREST, U.S. FOREST SERVICE, 
 JUNEAU, AK; BRAD POWELL, U.S. FOREST SERVICE, KETCHIKAN, AK; 
FRED NORBURY, U.S. FOREST SERVICE, JUNEAU, AK; BETH PENDLETON, 
  U.S. FOREST SERVICE, JUNEAU, AK; AND DR. DAVID BROOKS, U.S. 
                  FOREST SERVICE, PORTLAND, OR

    Mr. Janik. Thank you, Mr. Chairman.
    The Chairman. With regard to some of the projections on 
Alaska's export of manufactured residue and utility logs, 
recently the Louisiana Pacific announced their interest to 
pursue a veneer mill in Ketchikan that would utilize low grade 
logs. In light of this development, how might your demand 
projections change?
    Mr. Janik. I do think this line of questioning probably 
will focus on Dr. Mills and David Brooks. I am just going to 
ask them to take some of these.
    Dr. Mills. Let me comment first and then ask Dr. Brooks to 
elaborate.
    The projections that were prepared by Dr. Brooks and Dr. 
Haynes to project demand for timber from the Tongass in the 
future were strongly based on the competitiveness of the Alaska 
producers in the world markets that they need to serve. That 
was based predominantly on the sawmills that are currently 
there, sawmills which would produce considerable mill residues 
in the form of chips as well as utility logs.
    The assumption was made that either those chips and utility 
logs would be exported profitably into the export market or 
that some of the utility logs would be left, depending upon the 
scenario that was generated, as logging residue. To the extent 
that our understanding, which I am sure is far from complete, 
is that the veneer mill would utilize utility logs, the lower 
end of the grade spectrum rather than the high end, then there 
is certainly an opportunity for that veneer mill to utilize 
some of those utility logs that otherwise in the projection 
were assumed to be exportable, and therefore would enhance the 
profitability of the sawmill industry, but would not 
necessarily lead to any significant increase, if at all, in the 
total demand on standing timber that was projected in the 
Brooks and Haynes study.
    David, could you elaborate on that?
    Dr. Brooks. Actually, not at all, except to say that that 
would be my answer to the question as well, with the exception 
that if we were to receive additional data that suggested that 
we needed to re-examine the assumptions that we made, that is 
something that we certainly would do. But given the information 
that we have now, that is the answer to the question.
    The Chairman. What in your opinion would be the offhand 
percentage of volume that would come out of the forest relative 
to utility?
    Dr. Mills. It varies considerably by scenario in the 
projections.
    The Chairman. Well, I know. The further north you go, the 
more utility you get; the further south you go, the better 
quality you have for saw logs. But generally speaking.
    Dr. Mills. The scenarios that I was describing were 
scenarios about competitiveness of market demand, especially in 
Japan.
    The Chairman. I am talking about supply.
    Dr. Mills. Yes, I have got that. I am sure I am not getting 
at this fast enough, but let me give it a shot.
    The different scenarios about the competitiveness of the 
Alaskan industry and the extent of demand in Japan led to three 
different scenarios that had associated different levels of 
demand for timber from the Tongass. Likewise, in each of those 
scenarios, a low, a moderate, and a high, there were different 
percentages of the utility volume that were assumed to be 
economically viable and utilized. So the amount of utility 
volume that was utilized depended upon the degree of optimism 
or pessimism about the ability of southeastern Alaska to 
produce.
    The actual numbers ranged as low as approximately 50 
percent in the lowest scenario and then the highest scenario 
was----
    Dr. Brooks. 80 percent.
    The Chairman. That interprets into 50 percent and 80 
percent?
    Dr. Mills. Of the utility volume would be utilized and not 
left as logging residues.
    Dr. Brooks. I am sorry.
    The Chairman. I would assume that you were comparing 
utility with previously what went in for the most part, in the 
pulp process.
    Dr. Mills. Dr. Brooks has a better handle on the specific 
numbers in the assumptions. Let me turn to him.
    Dr. Brooks. What we tried to do was to incorporate in our 
projections estimates of the volume of both utility and lower 
grade saw logs that would not have currently identified local 
manufacturing use.
    The Chairman. Right.
    Dr. Brooks. And that does range. It does change by the 
scenario.
    The Chairman. What I am looking for here in this 
conversation is--maybe I can express it as the pie theory. You 
have got a stand that X percentage is utility, X percentage is 
low grade saw logs, X percent is, and it depends on where you 
are at. But I am just looking for your general application of 
the percentile.
    Dr. Brooks. In the median scenario we assumed that roughly 
two-thirds, 67 percent, of the volume of spruce and hemlock was 
used in saw milling in Alaska. That is, 67 percent of the 
volume we project to be demanded of the Tongass.
    The Chairman. That is throughout the Tongass, of course?
    Dr. Brooks. That is correct.
    The Chairman. An average between the north and south.
    Dr. Brooks. That is correct.
    The Chairman. Okay.
    Dr. Brooks. In the low scenario, the figure is 47 percent, 
and in the high scenario the figure is 80 percent.
    The Chairman. And the difference would be the utility that 
would be used or available for pulp or chips?
    Dr. Brooks. Both utility and lower grade saw logs. One of 
the differences across the scenarios is the assumption we make 
about the both efficiency and competitiveness of Alaska mills, 
and we assume that in the scenario that tries to describe a 
future in which those mills are not very competitive or 
efficient that they would be using only the higher log grades 
in the spectrum of the inventory.
    The Chairman. Now, when you talk about ``those mills'' what 
are you talking about specifically in the current mills?
    Dr. Brooks. We are basing, we based our projection on what 
we have as data for the current mill structure of Alaska.
    The Chairman. Which are what? Tell us what they are, the 
current mill structure?
    Dr. Brooks. We can provide that data for the record if you 
want.
    The Chairman. Well, surely you know.
    Dr. Brooks. Well, the saw mill in Ketchikan.
    The Chairman. Which one?
    Dr. Brooks. The KPC saw mill.
    The Chairman. The one associated with the pulp mill?
    Dr. Brooks. That is correct.
    The Chairman. Okay, that is one mill.
    Dr. Brooks. The Hemlock Mill.
    The Chairman. That primarily cuts the larger logs.
    Dr. Brooks. That is correct.
    The Chairman. That is two mills.
    Dr. Brooks. I would have to refer to paper that I could 
find in my files for the list of mills that are recorded as 
currently having equipment, whether or not that equipment is 
operating. There are three or four larger mills and of course, 
as you know, a large number of small mills in Alaska.
    The Chairman. Well, you know, we have identified two mills 
in the Tongass that are operational, that are not necessarily 
large, but I guess by Alaska standards they are two operating 
saw mills. Is that it?
    Dr. Brooks. Well, no, of course not, Mr. Chairman. But 
the----
    The Chairman. Are there others of that size?
    Dr. Brooks. Well, I should say that our methodology is not 
mill-specific. I am using, I am referring to this information 
about individual mills to indicate my familiarity or some of my 
familiarity with the conditions in Alaska. But the method that 
we use to do this projection is not mill-specific and was not 
intended to be tied to or in reference to specific mills.
    The Chairman. No, but you are talking about a volume that 
comes out of a primary manufacturing process, and you have 
identified two relatively small mills, one of which I think is 
operating--I think both are operating one shift, simply because 
of lack of timber supply. My observation obviously is, while 
there is a great deal of sophistication in the process, that 
there is not much coming out of the other end in the sense of 
production, simply because of a number of excuses or reasons 
that basically are as a consequence ultimately of a lack of 
timber available to the mills, whether it be with the current 
situation where we are today, not knowing what the TLMP is 
actually going to provide in real terms relative to available 
saw logs vis a vis utility, what we are going to do with the 
utility since we do not currently have a use for it other than 
exporting or making chips out of it.
    Another thing that caught my mind in your comments was the 
generalization that you made of looking towards the Japanese 
market. I think if you look at the last couple of years of 
production of the major timber operations in the State, you are 
seeing a shift from the Japanese market to the domestic market. 
I wondered if you had included that in your analysis of future 
market demand?
    Dr. Mills. The answer to that, Mr. Chairman, is yes. In 
fact, that helps highlight the basic approach that was taken to 
estimate demand, which was based on the ability of the 
southeastern Alaska industry to compete in the markets that it 
supplies to. And you are certainly correct, it has increasingly 
sent a larger share of its supply to the domestic U.S. market, 
in part in response to some of the cost differences between the 
total cost, given the increased stumpage prices in the Pacific 
Northwest.
    The Chairman. Well, there is also the application of the 
metric system in the export market as opposed to the domestic 
market. It is my understanding the export market, the cuts are 
in the metric cut. Is that not correct?
    Dr. Mills. I believe that is correct. I am not certain on 
the metric.
    The Chairman. Some of the mills had converted some of their 
head rigs over to the standard.
    Mr. Vento, good morning.
    Representative Vento. Good morning, Mr. Chairman.
    The Chairman. I am going through an extensive list of 
questions. Any time you want to ask any, why, just pipe in. Do 
you have any statement?
    Representative Vento. Not this morning. Thank you.
    The Chairman. It is my understanding that fair market 
prices are being offered for cants and dimensional ungraded 
lumber from the interior part of the State, most of that 
probably private Native land and some State land. I am 
wondering if this does not suggest that it would be possible to 
sell significantly more timber from Alaska's national forest?
    Dr. Mills. If the question, Mr. Chairman, is is there a 
market for additional volume, then the answer to that is yes, 
there is. It depends upon the competitiveness of that volume in 
the markets it serves. Perhaps one indicator of the 
competitiveness is what currently happens to timber that is 
harvested on Native corporation lands, the vast, vast majority 
of which goes into the export market as logs, which is some 
indication at least of the challenges that the southeast market 
has in a cost sense with some of its competitors in the markets 
it serves.
    The Chairman. Well, of course that has been assisted by the 
Forest Service policy which prohibits round log export from 
Federal land, because I am sure we would all agree that if the 
Forest Service allowed the export we would not have any saw 
mills.
    Dr. Mills. There certainly is evidence to indicate that the 
round log exports are more profitable than the local 
processing, by observing what the Native corporations have 
done, yes.
    The Chairman. But on the other hand, it is fair to say that 
the Native corporations also had a problem of disposing of 
their utility logs, and a number of that volume went in the 
pulp mills when there was a market for utility.
    Dr. Mills. It is my understanding that, yes, occasionally 
some utility volume was used in the pulp mills, and it at other 
times goes as export or is left as logging residues and cannot 
pay its way out of the woods in an economic sense.
    The Chairman. And of course, as you recognize, there is a 
significant difference between the interior timber, the quality 
of that timber, and the timber quality of the southeast, which 
generally speaking is much higher, because you have the white 
spruce in the interior. So the point is it is even harder to 
market the interior timber because it does not meet the 
dimensional and oftentimes it is white spruce, vis a vis Sitka 
spruce and western hemlock, and it is smaller and limbier and 
it is more pole-type timber.
    The point is, and I think it is a significant one, that if 
we are able to market the interior timber, which is you might 
say of an inferior comparison to the timber that dominates 
southeastern Alaska, it certainly suggests that there is a 
potential market for more southeast timber if it were 
available. Is that a fair statement?
    Dr. Mills. Well, it is certainly a fair statement, Mr. 
Chairman, that the amount of supply and the cost of that supply 
influences the ability of the industry in southeastern Alaska 
to compete. But I also suggest that another factor is that the 
cost structure of the southeastern Alaska industry in 
relationship to the other competitors that it faces, and in 
spite of some extensive efforts on the part of the industry, 
there is some inherent difficulties at bringing their costs 
down to what some of their key competitors' are.
    In fact, some of the information we have got indicates that 
the labor component, at least of the logging cost, in 
southeastern Alaska over the last 10 years has been some 65 
percent higher than comparable costs in the Pacific Northwest, 
and that likewise the labor costs in the saw mill production 
are almost 50 percent higher. So there are some cost 
differences that are inherent in southeastern Alaska that do 
play into the eventual profitability of the industry and its 
ability to compete.
    I sure would agree, as you said, that the amount of supply, 
the value of that timber, is certainly one of the factors, but 
there are a number of other factors as well.
    The Chairman. Well, let us consider this. This is not, 
obviously, a debate society, but I think it is fair to point 
out that you have identified a significant amount of volume 
that is perhaps left in the woods because it is utility or less 
and has little market demand. That will increase unless there 
is a facility to utilize that, such as a pulp mill or a veneer 
plant. As a consequence, that, coupled with your increased 
costs, which we decided yesterday were double, the Forest 
Service cost of preparation, double what it was--how many years 
ago--5 years ago, you by the very nature of the process have 
created a curb against competitiveness vis a vis interior 
timber, which is of lesser quality. It has to be taken out of 
the woods far, far in many cases from any water transportation. 
Most of it is trucked into Nanana, loaded on rail cars, goes 
200 miles or so to Seward, is cold decked, moved out of Seward.
    So to suggest, if you will, that this can now compete in an 
export market with southeast timber, which is of a higher 
quality, clearly suggests a factor is the cost of the southeast 
timber as a consequence of the increased cost of the Forest 
Service in the manner in which their costs have increased and 
been added onto and-or utilization.
    I think we have made that comparison. It is evident because 
we are seeing timber come out of interior Alaska that 
previously was not marketable, but it has become marketable 
because of the increased cost of the southeast timber. I think 
we owe it to good forest management practice to get busy and 
create a market, a real market for that residue that is either 
going to stay in the woods or has no other utilization because 
it is so marginally profitable. But if you had a veneer plant, 
it might be.
    You know, when you say whose responsibility is it, remember 
it was through the Forest Service that the two pulp mills were 
created to utilize this volume that otherwise would be exported 
out of the State or left in the woods, because previously most 
of the logging was very selective, for the saw mills only, and 
there was only one saw mill, one in Ketchikan, Ketchikan Spruce 
Mill, and Columbia Lumber in Juneau. That is virtually all we 
had after the war, and we are almost to that point now.
    In any event, British Columbia is expected to drastically 
curtail lumber harvesting as we understand it. British Columbia 
produces a significant volume quite close to Alaska, south in 
Prince Rupert. They are exporting much of their spruce, their 
pine, their fir to the Pacific Rim. Is it not possible that 
Alaska can fill in a portion of the niche as British Columbia 
producers cut back production?
    Dr. Mills. Well, there is a couple points there and then I 
would ask Dr. Brooks to elaborate.
    First of all, there is the issue of British Columbia's 
future harvest levels, which is an item on which different 
people have different opinions. I think the preponderance of 
the opinion is not in support of a drastic curtailment of 
harvesting in British Columbia, although I acknowledge that 
there are different opinions on that subject. Some evidence in 
the past of the ability, the relative competitiveness of 
southeastern Alaska and British Columbia, is apparent from what 
happened when the prices went up materially on stumpage in the 
Pacific Northwest as a result of reduced harvest level on 
Federal lands.
    What happened at that time was that, rather than southeast 
Alaska picking up some of the slack or any significant piece of 
the slack that was left by the reduced production in the 
Pacific Northwest, instead British Columbia did, in part 
because of a cost advantage that British Columbia has relative 
to southeast Alaska, according to the information we have.
    The Chairman. That cost is associated with what?
    Dr. Mills. With logging, that some of the logging, the 
processing and the stumpage prices that British Columbia has 
marginally lower costs in total for the products they produce 
than southeast Alaska does.
    The Chairman. In the letter that we sent you, one of the 
author's most important assumptions was that British Columbia's 
current historical high timber production levels will continue 
for the next decade is challenged by I think four specific 
experts. One was Mike Aspy, and Les Reid, entitled ``World 
Timber Resource Outlook: Current Perceptions,'' a discussion 
paper that forecast the production would drop to 63 billion in 
2010. That would be a 20 percent reduction.
    A 1996 analysis by Taylor noted in the Robert Flynn and 
Associates reports, ``Timber Supply from the Tongass National 
Forest: Meeting Market Demand,'' predicted a British Columbia 
harvest of 65 in the year 2000.
    A 1995 study by Price Waterhouse entitled ``An Analysis of 
Recent Forest Product and Land Use Initiatives in B.C. and 
Implications for Timber Supply Jobs'' estimated the harvest 
would drop to 59 over the next 5 to 10 years.
    In other words, four experts here are suggesting something 
contrary to what your opinion is. Would you explain the 
discrepancy?
    Dr. Mills. I would go back to what I acknowledged in the 
beginning, that these projections of the future can have 
different scenarios.
    I would ask Dr. Brooks to explain the rationale behind the 
assumption of continued production from British Columbia which 
continues the trend that we have observed in the past in spite 
of earlier suggestions by others, including some of those 
authors, that there would be precipitous reductions.
    Dr. Brooks. Yes. Mr. Chairman, we are familiar with almost 
all of the studies that were cited and certainly with the 
authors and have had the opportunity to speak with some of them 
directly, and particularly Mike Aspy and Les Reid, as well as 
other colleagues in Canada who have different views as to the 
future of British Columbia.
    For those specific studies, at least two or three of them, 
they were done as analyses of the early 1990's British Columbia 
forest practice and policy revisions that had been proposed or 
put in place, and those studies were projections of what would 
happen to British Columbia timber production if those policies 
were fully implemented. In the ensuing 5 or 6 years or 4 or 5 
years, a number of those policies and practices have in fact 
changed. It is based on the decision of the British Columbia 
ministry to not implement some of the practices and some of the 
revisions to their management that leads us to conclude that 
the scientists who suggest that British Columbia will continue 
to harvest timber at its current level is a more credible 
projection than those who suggest that it will fall 
precipitously.
    The Chairman. Well, Dr. Con Schalau, you have read his 
statement, and if you have not I will summarize it. He says: 
``We do not share this pessimistic assessment by Brooks and 
Haynes of the stiff competition from producers in Canada. They 
neglect to point out that production from British Columbia will 
decrease significantly in the very near future.''
    Now, you have taken another posture perhaps to support your 
contention or the current TLMP. But it says further, and it is 
the position of Dr. Schalau, that: ``There is nothing to 
prevent Alaska from filling the niche vacated by the B.C. 
producers, provided there is a reliable national forest timber 
supply. If there is low-cost material base and economic 
transportation,'' which there certainly is, ``Alaska lumber 
could compete very well in Pacific Rim markets in certain 
niches.''
    The fact of the matter is that B.C. is exporting heavily to 
Asia. Alaska is right next door, just across the border. There 
are three Canadian mills just over the border where most of 
the--I do not know what ``SPF''--spruce, pine, and fir, I 
guess, production went to Japan. One mill is located less than 
75 miles from the Alaska border.
    I rest my case.
    An important assumption behind the Brooks-Haynes 
calculation of reduced demand for Tongass timber is increased 
Russian timber production in the near future. Your report 
stated that the Russian timber production, in combination with 
other considerations, simply weakens the case for seeing this 
decade as a time when lumber production in Alaska can expand 
rapidly and find markets at any price.
    I mean, your report is almost a defeatism: at a time when 
the market for Alaska lumber was expanding into a domestic 
market from a pretty much dependent on export market to a 
projection or pronouncement that the market is relatively in a 
potential future decline because of Canadian competition and 
Russian competition, and so forth.
    Let me go on. But many forest economists agree with the 
statement that the Russian timber production simply weakens the 
case for seeing Alaska production to be competitive. The 
economists disagree. The considerable political and economic 
difficulties, the instability in Russia, along with its huge 
infrastructure problems, have made it very difficult to have 
confidence that the country will become a major consistent 
supplier any time soon.
    Now, apparently we have differences of agreement, but some 
facts bear this out. In the 1996 report by Robert Flynn and 
Associates, the notation is: ``A considerable number of U.S. 
companies have explored the possibility of developing log and-
or lumber export projects in Siberia and the Russian Far East, 
but, with few exceptions, these projects have all ground to a 
halt. Weyerhaeuser's failure in this region is perhaps the best 
known example.''
    I have been over there. I have seen the volume of timber. 
It is certainly there. They are using Korean loggers. They are 
bringing them in from Korea because the Russians have such a 
poor work ethic that they cannot get them to work in the woods. 
It is an incredible situation.
    But I wonder if you could explain why, against the weight 
of much expert opinion and actual experience, you would assume 
that Russia will soon become a significant timber supplier? I 
cannot help but note that you have built a case here for Alaska 
being less competitive and it seems that it is one that is 
structured to support your contention of less market demand and 
less production, less responsibility by the Forest Service to 
provide timber by coming up with scenarios that, while they are 
contrary in the sense of expert opinions, simply suggest that 
we cannot be competitive.
    Your increased costs substantiate that. But go ahead and 
tell me why, in the weight of opinion, you would assume that 
Russia will soon be a significant supplier in the Asian market?
    Dr. Mills. Mr. Chairman, I will leave it to Mr. Norbury to 
comment on the issue of whether the increased costs of 
preparing the timber effectively influences the stumpage price 
paid for by the industry. But the two principal competitors 
that southeast Alaska has faced and the authors project would 
continue to face are British Columbia and in Europe, and that 
the European suppliers in the sawn wood products have 
penetrated the Japanese market from less than 1 percent to 
about 10 percent in a decade.
    Those are the two most important sources of competition 
that the southeastern Alaska producers face.
    I would ask Dr. Brooks to describe how other potential 
sources of supply and competitors were faced, and in particular 
whether that is a fair representation of their consideration of 
supply from Russia.
    Dr. Brooks. Mr. Chairman, the description in our report 
about Russia or the reference to Russia was not intended to or 
does not suggest that we believe that production from Russia 
will increase substantially or change from its current 
position. We do project, however, that in some scenarios that 
production from regions other than North America or, more 
accurately, shipments from other regions other than North 
America to the Japanese market will increase.
    In the median projection, however, we do not project an 
increase over the current volume. There is, of course, 
considerable disagreement, as you point out, about the future 
for Russia. The only additional piece of information that I 
think is worth considering is that in fact in the period since 
roughly 1990 Russian shipments into the Japanese market have 
increased from their long-term--or they stopped declining and 
they in fact increased slightly.
    Part of the explanation for that is that the export market 
is the most attractive market, given the collapse of the 
domestic economy in Russia and the desire to earn hard 
currency.
    But we fully agree with the analysis that suggests that 
there are considerable difficulties and that the prospects for 
Russia are not that great. But we try to point out Russia is--
the potential for Russia is an example of the challenges faced 
by Alaska in trying to produce and deliver to market lower 
grade products.
    The Chairman. Robert Flynn's study or report notes, and 
this is with regard to Scandinavian, European timber going to 
Japan: ``The potential to expand timber production in the 
region is relatively insignificant in comparison with the 
reductions in timber harvest in western North America in the 
first half. The estimated timber harvest in Finland may 
increase. In Sweden softwood harvests are expected to increase. 
But the potential increase pales in comparison to the 
anticipated drop in timber supply in other regions.''
    Is the Forest Service doing anything to help the Russians 
in their timber development?
    Dr. Mills. We do have some assistance programs that deal 
predominantly with reforestation and aforestation. I am not 
familiar with any direct assistance associated with processing 
and harvesting.
    The Chairman. How about technical assistance?
    Dr. Mills. Technical assistance for reforestation and 
regeneration I am aware of. I am not aware of any technical 
assistance associated with harvesting or processing.
    The Chairman. Anybody else on the panel?
    Mr. Janik. I would add fire prescriptions to that list. We 
are very active as a region in our international program, Mr. 
Chairman, with Russia, and on any particular trip that is made 
by our specialists, particularly through the State and private 
forestry program, we are confronted with quite an array of 
requests with regard to providing assistance. I am sure that 
during some of these visits we have talked about processing, 
but the targeted areas are the ones that Dr. Mills mentioned.
    The Chairman. When you talk about reforestation, you are 
talking about your technical expertise that has been developed 
in the manner in which you what, leave fringes for natural 
receding on hillsides?
    Mr. Janik. Establishment of nurseries, those kinds of 
things.
    The Chairman. Well, you do not have nurseries in Alaska?
    Mr. Janik. No, but we have experienced individuals in that 
subject area that are assisting the Russians.
    The Chairman. So I guess it would follow that, while it is 
good to assist the Russians, the old theory of charity 
beginning at home occasionally--you cannot do the thinning that 
is necessary in the Tongass National Forest. You have 
acknowledged that in other meetings we have had, because of 
limited funding; is that right?
    Mr. Janik. That is correct. There are opportunities for 
thinnings that are not being realized because of funding 
restrictions.
    The Chairman. But you go over and help the Russians.
    Mr. Janik. As part of the funding that is provided through 
the international program, yes.
    Dr. Mills. And if I could comment, Mr. Chairman, about some 
ongoing research work to provide information about 
opportunities that might exist in southeast Alaska to utilize 
the material that is there, including a subject that I know you 
are interested in, the second growth timber, some studies are 
currently under way working with some of the Native 
corporations in southeastern Alaska to determine the yields 
that can be achieved, the lumber yields that can be achieved 
from second growth timber, so that they can do a better job of 
assessing the profitability of opportunities.
    So clearly the technical assistance is not only technical 
assistance that is given to the Russians, but a very active 
program of technical assistance to landowners in Alaska as 
well.
    The Chairman. You assert that the Japanese Government may 
intervene to protect its domestic lumber producers. How do you 
reconcile this belief with the fact that the Japanese have been 
shifting increasingly to finished lumber from logs and with 
that outcome of the recent negotiations that have led to less, 
rather than more, protection of Japan's small inefficient 
producers?
    Dr. Brooks. Mr. Chairman, that comment about Alaska was 
perhaps--about Japan, excuse me--was a speculative comment. I 
think, however, there is more information, more contemporary 
information About the Japanese market that we conclude provides 
evidence of the competitiveness of that market and the 
challenges faced by all competitors in that market, not just 
Alaska.
    We do not single out Alaska as particularly ill suited to 
compete in that market. We are simply trying to describe the 
conditions in that market and the realities of what is going on 
as part of the information base that is necessary to assess 
what likely market developments might be.
    The Chairman. You know, what I fail to understand is why 
the Forest Service is not more inclined to let industry 
establish what market demand is, rather than come down with 
your proposed ASQ and have you substantiate what you think it 
is based on your ASQ, which is what you have done here. And 
virtually all of the projections that we have noted here have 
been subject to different points of view.
    In a free market system, why, the market demand is set by 
the basic opportunity to market, as we traditionally look at 
the saw mill industry or the wood products industry in a world 
market. They either compete in the world market on a prevailing 
price or they shut down. There is no magic to it.
    But what we are doing in this sophisticated analysis is 
something entirely different. We are setting an ASQ and backing 
it up with projections that are arbitrary relative to what the 
future market demand may be. When we started this process 15, 
20, 25 years ago, this kind of sophistication was not part of 
the process. Capital went in, made an investment, and they 
either competed or they did not.
    Dr. Mills. I would certainly agree, Mr. Chairman, that in 
the end demand is the demand that is realized and it is a 
function of industry's decisions and ability to effectively 
compete or not compete. We have acknowledged very clearly that 
there is a great deal of uncertainty associated with the demand 
that will occur in the future, and that is clearly represented 
by at least three scenarios that are provided, which vary 
considerably in terms of what that demand is.
    Nonetheless, for timber as well as for other resources 
provided from the national forest, it was relevant information 
to consider when the decision was made, and I would certainly 
leave it to Phil Janik to describe how that demand information 
was considered and what weight it had in the determination of 
the ASQ. But I am fairly confident it was not the only 
consideration in setting the ASQ.
    The Chairman. Well, no, but if the Forest Service had 
approved Alaska Lumber and Pulp's request for a 10-year 
contract and they had converted the pulp mill into fiberboard, 
which is what they wanted to do, that would have from their 
standpoint met what they assumed would be a demand for that new 
product, which would create obviously a market demand on the 
Forest Service to provide the timber. But the Forest Service 
chose not to consider the merits and grant that 10-year 
extension.
    If the Ketchikan Pulp Company had been given their 15-year 
extension, they would have expended over $200 million in a 
state of the art, chlorine-free pulp mill to utilize the 
utility grade and established a market demand, obviously, at a 
significantly higher level than exists now.
    So as you subjectively apply your market demand on the 
basis of what you assume after you have taken away these two 
major users of utility volume, you have arbitrarily drafted a 
scenario for the future that you have basically controlled by 
the inability to allow the private sector to come in with new 
technology and amortize the investment with an assured supply 
of timber, since there is no other source other than the Native 
timber. There is no State timber, there is no private timber.
    When you have a situation where you allow the export from 
the private land, which you do not allow that--that is just a 
reality. Maybe we should have put a restriction. In fact, had I 
have been here I think I would have insisted that the Native 
private land be subject to the same restrictions as the Forest 
Service, because that is the only way we are going to have any 
primary industry in southeastern Alaska or any jobs associated 
with the timber industry, because otherwise it would be subject 
to export because that is the most immediate return and the 
highest profitability.
    That still leaves the dilemma of what to do with the 
utility, because much of that cannot stand being exported out.
    But I guess my frustration is that you were the godsend in 
the sense of providing a market for utility. You have abandoned 
that obligation and left us with no alternative of what to do 
with the utility. I think you bear a responsibility, and it is 
not part of your walking papers, so to speak, as you put 
together your TLMP.
    But anyway----
    Representative Vento. Mr. Chairman, let me----
    The Chairman. Sure, go ahead.
    Representative Vento. On this point on the demand issue, I 
guess the numbers I had seen for 1996 were like 120 million 
board feet. This report, of course, provides for, the plan 
provides for up to 267. Can you explain the differential in 
terms of the existing demand? That was with one pulp mill 
running, which is not now running. What is your response? 
Obviously, we are very concerned about going to that number.
    I think, frankly, the whole issue of demand here--the 
United States is making, we made the market in this area, and 
it is a question of whether or not we want to continue the type 
of program that will sustain that market in terms of costs, 
because this becomes a very high cost type of program. 
Admittedly, in a mixed economy one might argue that there is a 
responsibility, an ongoing responsibility, a thing that the 
Senator, the chairman, would argue.
    But would you respond to my question in terms of the 120 
versus the 267 for the projected implementation of the plan?
    Mr. Janik. Mr. Vento, if I may start the answer to that and 
then maybe Dr. Mills would have a follow-up. But if I may try 
to clarify those numbers as you asked, the calculated allowable 
sale quantity in the revision is, as you state, 267 million 
board feet. I quickly point out, that is an average per year 
figure. You are familiar with those provisions, I know.
    That is not a timber target. We are very careful not to 
describe it as such because funding and many other things 
affect what we actually offer per year.
    The 120 figure that you quote was in fact what was 
harvested off the Tongass last year. However, the last 17 year 
average of what was harvested exceeds 300 million board feet 
off the Tongass. So that was kind of a blip in a long series of 
harvest statistics that were much higher, over 300 million 
board feet.
    When you compare the 267 allowable sale quantity 
calculation with the old plan, the number is 520 million board 
feet. That was the calculation. So we have many that have 
pointed to this as a dramatic, substantial reduction in timber 
potential in terms of yield, and we have to acknowledge by the 
statistics that it is. It is about a 50 percent reduction in 
terms of potential, meaning the allowable sale quantity limit.
    Now, next year, for instance, just as another example, we 
are projecting about 170 million board feet in terms of our 
timber offering, not 267. That is just based on anticipated 
budget restrictions and so on.
    So we have been very careful trying to explain that the 
that 267 is a planning calculation, but a lot more comes into 
play when we actually deal with what we offer every year. The 
new revision does represent a substantial reduction in timber 
projection.
    Representative Vento. I know Dr. Mills wants to respond 
further, but there have been a significant number of changes in 
terms of land use in the area. So that issue--I mean, I do not 
know that the private lands, in this case the Native American 
lands, should be discounted as not providing jobs and so forth, 
because I think it is very important. That is the impression I 
had in listening.
    But with regards to that, of course, I think it is 
appropriate to try to go to demand. It is a question of what 
gets factored into demand. If we are looking at the absence of 
these mills or the limited competitive ability of mills or 
other products, I thought the view was from the standpoint that 
we were trying to in fact sell a processed product rather than 
being a raw material supplier for the Pacific Rim. Of course, 
pulp was one of them, chipboard could have been another, 
plywood would be another, I guess. But that is not realistic 
with the quality.
    There have been a lot of changes in terms of these 
particular products. I know, for instance in my State, we have 
built up the number of chip plants to actually use the entire 
production in the State and in fact are utilizing a lot of 
hardwoods that were not formerly used in terms of pulp and 
paper. Of course, 20 years ago we thought of long fibers as 
being necessary to paper production. Today of course that is a 
much changed environment in terms of the technology. Because 
principally the woods produced in southeast Alaska are long 
fibers, the type of advantages that they had are not as 
apparent as they were 17 years ago when you had a cut.
    But I think it is appropriate to look at where the demand 
is and what the costs are, and this is relatively high cost 
timber in terms of sale preparation, in terms of harvest, and 
so forth. So as a result we get a lower--it is something that 
we need to look at in terms of where the demand would be in 
terms of where the Forest Service and how we ought to function.
    Of course, I think there are some other issues besides, 
that come in besides just the harvest, that come into 
consideration with regards to the forests in the southeastern 
Alaska and generally with regards to the American public.
    Let me yield to Dr. Mills to respond to this ongoing 
dialogue and question.
    Dr. Mills. Well, I certainly agree with what I said earlier 
about the degree of uncertainty. I would also agree that the 
presence or absence of the pulp mills clearly affects what the 
effective demand for timber is in southeastern Alaska, and that 
there is a number of things that influences the industry's 
decisions to establish or to close individual facilities, and 
that those conditions can change over time. I would certainly 
agree that decisions by the U.S. Government can influence that 
cost structure, which simply adds to the uncertainty about 
projecting future demands.
    The comparison--the only additional question I would raise 
is that the comparison between ASQ and the projection of 
demand--the ASQ is an estimate of technical and biological 
sustainability of the timber harvest over time, given the land 
allocations and the standards and guidelines for management of 
those various pieces of land, rather than some sort of 
calculation of the timber demand, and that some estimate of 
likely future demand levels is simply something considered in 
the setting of those land allocations and standards and guides, 
along with demands for all sorts of other resources and 
considerations, be they habitat for species or recreation 
opportunities.
    So I want to caution on some direct comparison between 
allowable sale quantity and demand if they were intended to be 
the same thing.
    Representative Vento. They are of course not, not the same. 
I understand that, of course. But we look at these averages. As 
was pointed out, I pointed out in my statement, that neither of 
the pulp mills now are functioning. So in looking at demand, I 
think this is an unusual approach in terms of the Forest 
Service, to actually look at demand; is it not, Mr. Janik?
    Mr. Janik. As I said yesterday--I believe you had already 
left, Mr. Vento--we are developing procedures right now so as 
to become more definitive in how we are treating demand than we 
certainly have in the past. References like the Brooks and 
Haynes study will be just one reference in that regard.
    If I may ask Mr. Norbury to just cover some of the other 
variables that we do and have considered in the past and will 
be considering as we develop these new procedures, I think that 
would help understand how we are seeing the total demand 
function.
    Mr. Norbury. Mr. Vento, let me comment on an earlier 
statement of yours. All the national forests as part of their 
National Forest Management Act planning cycle do consider 
demand for timber. In the analysis of the situation, demand for 
timber and demand for all the resources of the forest is 
considered.
    It is the Tongass Timber Reform Act that has put particular 
emphasis on the treatment of timber in the Tongass plan. For 
that reason, I think we are going further in our analysis of 
demand here than perhaps has been customary in the past. As Mr. 
Janik said, we are going to try to carry that further and be a 
little bit more definitive in our treatment of it in the 
future.
    One of the things that we are looking at is, in the Tongass 
Timber Reform Act demand is actually treated in two time 
frames. One of them is a planning cycle time frame, the other 
is an annual time frame. The study that has been the subject of 
dialogue here this morning has primarily addressed the planning 
cycle time frame, which is appropriate because what we are 
talking about today is the plan.
    What Mr. Janik is talking about is how do we get from the 
plan level consideration, which has the--we have a demand 
forecast for and we also have an ASQ--to the annual timber 
offerings that we do? Now, the demand information coming to us 
from the planning cycle analysis is critical in beginning to 
figure out what we are going to do year by year. But there is 
other information that we have to consider as well when we make 
a decision on a year by year basis. There are other indicators 
of demand that are available to us year by year, that are not 
available to us when we are doing the planning cycle level 
analysis.
    There are things like what is the volume under contract and 
what is happening to the volume under contract, what is 
happening to the ratio of our sale offerings to actual sales, 
how many of our sales go unsold, what is the ratio of the bids 
to appraised price? When bids run well ahead of our appraised 
price, that is an indicator of market scarcity; it is another 
indicator of demand. When we have sales that go unsold, that 
may be an indication that our actual sale offerings are running 
ahead of demand.
    So our intention is to try to take all of this information 
into account in addition to the demand forecast done by the 
Pacific Northwest Station in setting our annual sale program.
    Representative Vento. Or what is in the package that is 
being offered for sale? For instance, so often I think the 
problems that I encountered in reviewing some of the issues in 
southeast Alaska, Mr. Chairman, is that there was interest in a 
certain type of Sitka spruce or old growth and there was not as 
much interest in some of the interior, more expensive type and 
less valued timber, which might have served the Forest 
Service's purpose in terms of the totality of management of 
that particular forest.
    But the issue with regards to timber under contract that 
has not been harvested in Alaska, what is the number of board 
feet that are under contract or have been sold but not 
harvested at this point?
    The Chairman. I think, Bruce, you also have to ask at the 
same time how much of it is tied up in litigation.
    Representative Vento. Well, that is fine. I think that 
would be appropriate. Percentage numbers, and I think you may 
want to give a more definitive answer or a more precise answer 
for the record if you do not have that with you. But I think, 
in other words, this would be an indication.
    I expect there is a problem now with two mills going down 
in anticipation. What is needed and what is your estimation in 
terms of what is needed if in fact--so we are trying to 
respond. I think this is a case where Milton Friedman does not 
have a chair at the table, Mr. Chairman.
    The Chairman. But my point is, Bruce, that there is an 
assumption that you have got timber in the pipeline that ought 
to be available. But what happens more often than not is you 
get a timber sale and there is a challenge to the EIS.
    Representative Vento. That is fair.
    The Chairman. So you have got it out there, but you do not 
have it.
    Representative Vento. Can we get any response to this now, 
or would you rather----
    Mr. Norbury. I think we would rather provide the 
information for the record.
    Representative Vento. There may be more correspondence on 
this, I think, and the nature of the question.
    [The information requested was not received at the time the 
hearing went to press.]
    Representative Vento. It is important, I think, if we have 
to make a decision from a public policy standpoint in terms of 
what the responsibility is for the Congress, the Government in 
terms of monitoring, and the effect on the economy in southeast 
Alaska. I have some concern with that and with some of the 
other values, obviously, outside of simply the harvesting of 
the timber.
    For instance, there is a suggestion that with longer 
contracts, of course, which is bidding on the hope that there 
would be jobs available--that is what they were doing with the 
50-year contracts with the 2 mills, and that turned out to be a 
problem in my view.
    But in fact, do we have any answers on possible scenarios 
that might play out in the future in terms of the competitive 
ability of southeast Alaskan mills to produce processed 
products other than pulp, like a veneer plant or some other 
types of alternatives? Was that part of the study here? Did we 
look at that in terms of what the jobs would be to be produced?
    Dr. Mills. We did not in the study incorporate some of the 
more recent proposals--the veneer mill is one, an ethanol plant 
is another; another has been described as a medium-density 
fiberboard plant--predominantly because we do not have 
sufficient information to fully evaluate their competitiveness 
and only have estimates of what they state their utilization 
capability or capacity would be.
    To the extent, though, that the veneer mill would actually 
utilize some of the lower grade utility logs to produce veneer, 
which is our understanding at least of what is proposed here, 
if they could do it with a cost structure that would permit 
them to compete, in fact it would complement quite nicely the 
saw mill industry that is there, which cannot utilize some of 
those utility logs and right now would have to try and sell 
them into the export market, and in fact if they could not sell 
them into the export market it begins to affect the 
profitability of the saw mill.
    But we did not include those in the demand projections for 
want of sufficient information to evaluate their effective 
competitiveness.
    Mr. Janik. May I just add to that, Mr. Vento. The chairman 
is certainly aware of this. He has been partially responsible 
for getting our representatives from our Wisconsin Forest 
Products Lab to southeast Alaska.
    Representative Vento. From Madison.
    Mr. Janik. Yes, from Madison. What did you say?
    Representative Vento. No, no, you said Wisconsin.
    Mr. Janik. Okay, yes, at Madison. Thank you.
    They have been out several times. Not only are they 
interacting with the Governor's Timber Task Force, but they 
have also held several workshops throughout southeast Alaska, 
and the very purpose of their visits is to help potential 
investors understand what opportunities might exist for the 
products at hand and maybe open some awareness, because of the 
changes that have taken place, as to what those new 
opportunities might be.
    Representative Vento. Well, I am sure the chairman would 
remind me that they want certainty and predictability. There is 
less flexibility for any entity that establishes a business in 
southeast Alaska based on a product from the Federal 
Government. So they need a reliable partner in the process, but 
I think it has to match what the forest plan is for the use 
driving the wood products.
    I was listening to the discussion about the technical 
assistance, Mr. Chairman, with interest because up to a point 
most of the technical assistance in terms of forestry only went 
to countries that were subject to Agency for International 
Development funding, and we made some changes, for instance, in 
that at one point. You may have been involved. I was involved 
in the House side in providing some assistance to Brazil and 
other countries that were not AID countries.
    So I am pleased to hear that they are providing technical 
assistance, I think in the broad sense. I do not know that it 
is appropriate to set up a platform for competition with 
southeast Alaska in Russia. I do not think that that was the 
intent. But it is--I think it should be a source of strength 
and I suppose a degree of pride that Forest Service research 
work and the technical expertise that they have developed is 
sought out and utilized by other nations.
    In that vein, of course, looking at what might happen, of 
course, Siberia and Russia do possess a tremendous amount of 
timber, and it is not unlikely that, as in other cases, nations 
like Japan, perhaps Korea, would in fact set up entities that 
would in fact have a contract to harvest, ship, do the entire. 
So that is, I think, a valid point.
    However, I do not know how much it fits into your study, 
Dr. Brooks, but I was surprised to read the sudden increase in 
timber supply from Scandinavia in 10 years, going from less 
than 1 percent to 10 percent. What is the difference in terms 
of the cost of timber harvest in Alaska? You pointed out labor, 
but I am certain--I was sort of rankled by that. I came out of 
sort of a labor background, so I know it is not all going to 
the workers, but it is the cost of living in southeast Alaska 
compared to the difference in terms of Canadian dollar value 
and other factors as well, is it not?
    But what is the differential in terms of is Alaskan timber, 
with or without the type of government support that is provided 
for it in terms of the Forest Service and other subsidies, what 
is the differential in terms of prices that we are facing?
    It is lower grade, I heard you say that. Do you want to 
comment on that? Can you give that to me in sort of layman's 
language in terms of what we are facing in terms of a 
differential?
    Dr. Brooks. Well, if I may, Mr. Vento, avoid providing the 
details of prices, part of how I understand your question is 
the comparison of southeast Alaska to some of its competitors, 
including Canada and Europe or Scandinavia in this case. The 
explanation for the rapid increase in European shipments to the 
Japanese market is partly a consequence of cost differentials 
and partly a consequence of the products that they are able to 
provide to the Japanese market and the way in which the 
Japanese market is changing.
    For nearly 20 years the Japanese market has been learning 
to do with less and less old growth timber and to adapt to use 
second growth and smaller diameter timber, and especially the 
products of smaller diameter timber. What Scandinavia and 
Austria are supplying to the Japanese market is small 
dimension, kiln-dried lumber that is used to be laminated into 
the posts that they use in traditional Japanese houses. That is 
the primary product.
    There are a number of factors that have contributed to the 
attractiveness of that semiprocessed or final product in the 
Japanese market. That has been able to substitute for some of 
the old growth hemlock that has been used to manufacture that 
same product. It is partly a consequence of prices of the 
delivered product to the market and the cost structure of the 
producers and changing tastes and preferences in the 
marketplace.
    Those are the kinds of factors that we have tried to bring 
to the forefront in our analysis of changes in market 
conditions and prospective future market conditions.
    Representative Vento. In your response to me it sounds as 
though they are using less old growth or that they are adapting 
to use less, that some of our products from Alaska would in 
fact be as desirable. But they are obviously also looking for 
raw logs, which obviously there is a limitation in terms of the 
export from Alaska or from other Federal lands, or should I say 
national lands. Get my semantics right.
    But that, of course, I think is the concern, that we not 
end up being a source for raw materials as such, that we try to 
add value to the product.
    Let me just skip over. Mr. Chairman, I have to leave here. 
There are a couple other hearings going on. But one of the 
issues, of course, is that you find out the wolf in southeast 
Alaska and the goshawk is species that are under consideration. 
I know that the chairman raised those and probably may have 
discussed it in more detail, and I hope I am not going over 
something that----
    The Chairman. Great detail yesterday.
    Representative Vento. But the thing I want to talk to, I 
just want to get some idea, because I had not examined or 
studied the whole report, but do you consider these symbolic--
or not symbolic, but keystone species in some way, that they 
are indicative of what is going on in the total ecosystem? What 
is the response here? I know that there is someone from the 
Fish and Wildlife Service here to answer questions concerning 
that as well.
    Dr. Everest. I will take a shot at that, Mr. Vento. The 
wolf and goshawk are old growth-associated species, but they 
are just two of many old growth-associated species. The 
strategies for meeting the needs of the old growth species have 
addressed all of the species, not just those two.
    Representative Vento. We have addressed all of them, but 
they are highlighted in the report, or at least in the debate 
that is going on here. I would suggest that when you were 
dealing with the northern spotted owl that there was sort of a 
forest full of problems under that owl. What I am asking you 
here is, are these species, are they indicator species or 
keystone species, in the words of the ecologists?
    Dr. Everest. I think you could reasonably call them 
indicator species. I would not call them keystone species.
    Representative Vento. Pardon me?
    Dr. Everest. I say you could reasonably call them indicator 
species.
    Representative Vento. Well, you could call them keystone 
species. Jack Ward Thomas sort of schooled us a little bit on 
this. So they are keystone species. So when we start talking 
about them, they are old growth indicators. I think it is 
always a mistake to pick out, look at a bird, look at an 
individual species. It is kind of hard to defend a banana slug, 
but some of the others are working a little better when we are 
talking about the bald eagle or something.
    It is important, I think, to recognize that this is the 
total ecosystem that we are probably talking about in this 
case; is that right?
    Dr. Everest. Yes, that is right.
    Mr. Janik. If I may add to that, Mr. Vento. As the 
decisionmaker of the revision, the old growth habitat component 
is what the focus was, as Dr. Everest said. And that is that 
whole host and community of wildlife to depend upon that.
    Representative Vento. So we could isolate out the goshawk 
or the wolf and take care of those, raise them in zoos or 
whatever the Speaker has recently proposed, or lately--or not 
lately proposed, but some time ago--and it would not really 
satisfy and it sort of begs the question, is what my point is. 
The issue is that you make a decision about it, that these are 
helpful in terms of giving you some guidance as to what the 
status is in the health of the old growth system.
    Dr. Everest. That is correct.
    Representative Vento. And I do not know if anyone is 
debating that, but I just think that it sort of begs the 
question. You can have a disagreement about how much of that 
you would like to have available, that low elevation old growth 
in this sort of 6\1/2\ million acres that exists out of the 17 
million in this area, if it is even that much that has not been 
harvested.
    But that is what the debate is about and that is of course 
what many of us will be focusing on.
    Mr. Chairman, I have been buzzed to come back and have my 
presence in the House recorded, so I am going to yield and 
thank you for your patience and courtesy to me in asking 
questions.
    The Chairman. Happy to respond, my friend. Let me just 
remind you that it is estimated that the Tongass, of the old 
growth, about 30 percent is dead or dying. That is just the 
natural phenomenon of the recycle. Under our current proposal, 
92 percent of the forest would remain untouched for the next 10 
years, I think, 84 percent for 100 years.
    I do not know how many saw mills or wood manufacturing 
facilities you have in your State, but I know you are 
traditionally a producer, a large producer. I think it is 
important to note here that we have three saw mills left that 
are considered large operators--one in Metlakatla, one in 
Ketchikan, one in Klawak--that would require about 155 million 
board feet a year.
    There is a group of small mills that are very, very small. 
They cut between 5 and 10 a year. If you add them all up, there 
is two, four, six, eight of them. They cut about 75 million a 
year. So if you take the 3 mills that we have and the small 
ones that operate infrequently, you are looking at about 230 
million a year.
    The problem with this is that the Forest Service has not 
seen fit in its ASQ to consider the potential of the Sealey 
mill, which may or may not become a reality in Ketchikan. It 
formerly was an operating mill, so the Forest Service provided 
timber. The Wrangell mill which sits there has been shut down 
for the last 3 years. In a community of 2,200, it is the only 
job base year-round--down, no timber. Then the potential 
ethanol or veneer plant, which would utilize utility timber.
    That is the problem we have got, Bruce. When the Forest 
Service lab comes up and presents me with an analysis that they 
have studied the utilization of marketing the dead yellow 
cedar, well, that is such a fraction, and the Japanese will not 
buy dead wood. I am a little perplexed.
    We need their expertise, but you and I know the 
sophistication of capital. And with the example that capital 
has had in the wood manufacturing products in Alaska, banks are 
not anxious to lend and entrepreneurs are not anxious to invest 
because of the continual problems associated with the ability 
of the Forest Service to provide and, if they can provide, the 
ability to deliver, because more often than not there are 
continuing lawsuits brought to bear.
    You are in for--your frustration as you put up timber sales 
and do the best you can on the EIS' and have them challenged. 
As a consequence, Bruce, we have got 67 environmental groups in 
Alaska now, all with young attorneys in Anchorage where they 
have their offices, and they come from Brown, they come from 
Harvard. They do their missionary work in Alaska, and they have 
to have a cause. So the cause is any environmental.
    You do not quite have that in your State because you have 
private land, you have a developed resource. We are the new 
kids on the block, and we are a public land State. Sometimes, 
Bruce, it is like rowing uphill. And it is important that you 
come over and expose yourself to some of these problems, 
because they are a little unique.
    Representative Vento. It has been some time, Mr. Chairman, 
since I have been to southeast Alaska. Perhaps in the near 
future we will find an opportunity to visit.
    We do have a lot, of course, of State and national land in 
Minnesota, a couple national forests, as you know, that have 
their own issues, and they do add to it.
    The Chairman. I am aware of your Boundary Waters. But keep 
one thing. What has happened to us in the last 5 years is the 
Forest Service's cost of preparation of timber has doubled. It 
has gone from $50 to $100. As you look at the generalization 
that, well, you know, this is a subsidized forest, that is part 
of the problem.
    Representative Vento. Part of the problem might be treating 
plans like rules, Mr. Chairman. You know, it is expensive to 
prepare those plans, and if you do not want to go through the 
expense of preparing the plans and doing the work, the 
preparatory work that is necessary to integrate with the other 
laws that we have on the environment, and then to add to that 
now something that is going to--I mean, I understand the 
concern, but this obviously is a two-way street. All of a 
sudden it is every lease we do, every sale we do that is going 
to be subjected to the type of rule.
    Basically, I voted for that and most of us voted for it, 
but I do not think we anticipated necessarily--and hopefully we 
can get this issue resolved in a way that will provide for some 
predictability and certainty.
    I will have to excuse myself, Mr. Chairman. Thank you.
    The Chairman. Thank you again.
    I think we have to call a spade a spade, and if the costs 
go up then it is a subsidy and we are going to have to live 
with it.
    Phil, you said in your testimony yesterday that it is your 
belief that the Forest Service is under no legal obligation to 
meet the demand for the Tongass timber. I found this statement 
disturbing yesterday. I find it disturbing today, in light of 
the fact that the Tongass Timber Reform Act declares that the 
Forest Service ``seeks to meet the demand'' for timber from the 
Tongass.
    I wonder if you could give us a little further explanation 
of your statement?
    Mr. Janik. I will try to do that, Mr. Chairman. What I 
tried to express yesterday was that, although we very much have 
an obligation to try, to try to do the best we can to meet 
demand, because the law says that we ought to do just that, 
there is no legal obligation as we interpret it that we have to 
achieve a precise level that may be estimated or observed.
    That does not mean we are less committed to trying to 
achieve that level. But there is no absolute legal obligation.
    The Chairman. Well, would it not seem to you if the forest 
management provision--and I am going to read it to you: ``The 
Secretary shall, to the extent consistent with providing for 
the multiple use and sustained yield of the renewable forest 
resources, seek to provide a supply of timber from the Tongass 
National Forest which: meets the annual market demand for 
timber from such forest and meets the market demand from such 
forest for each planning cycle.''
    Now, that to me says you seek to meet market demand.
    Mr. Janik. Yes.
    The Chairman. And it is part of the statute.
    Mr. Janik. That is exactly what I am trying to explain in 
terms of how we interpret that. That is that that second part 
of that phrase is very important. We have tried to address all 
our other obligations with regard to multiple use on the 
Tongass. That is what the revision represents and the best we 
can do with regard to that in combination with the timber 
projection is to calculate a 267 ASQ.
    The Chairman. Well, notwithstanding the 1990 Tongass Timber 
Reform Act ``seek to meet market demand'' language, did you 
calculate the ASQ in basically the same way that it is derived 
on other national forests?
    Mr. Janik. I cannot honestly say I know how demand is 
calculated on other national forests. As Mr. Norbury said 
earlier, we have the additional----
    The Chairman. I am not talking about the demand. I am 
talking about the ASQ.
    Mr. Janik. The ASQ is a function, as was said by someone 
here earlier, and I agree, of the total land base, the land 
allocations, and the prescriptions that were decided in the 
revision. And from that comes the calculation----
    The Chairman. My question is is it calculated in the 
Tongass the same way it is calculated in other national 
forests?
    Mr. Janik. In that sense I would say yes.
    The Chairman. You would all agree to that?
    Dr. Mills. In general, yes.
    The Chairman. What do you mean, ``in general''? It is or it 
is not. Is it calculated as the same basic concept or way? Are 
there different regulations or different laws?
    Dr. Mills. Using your terms, conceptually in the same way, 
based upon the requirements of law and land allocations and 
standards and guidelines, I would answer yes. In terms of any 
particular computational method that is used, it varies 
considerably from forest to forest, or computation to 
computation.
    The Chairman. So it varies considerably from computation to 
computation?
    Dr. Mills. It varies in the details of the computational 
procedure, not in terms of the concepts that underlie the 
calculation.
    The Chairman. In terms of laws that are applicable, you are 
telling me it is identical to your other national forests? Is 
that what you are telling me?
    Mr. Janik. No.
    The Chairman. Okay. Well, let us start again.
    Mr. Janik. Let us start again. I thank you for that.
    The Chairman. I just noticed you were briefed there a 
little bit, so go ahead.
    Mr. Janik. Well, yes, my legal adviser wanted to make sure 
that I was clear on this.
    The Chairman. I thought we would catch a little attention 
on this one.
    Mr. Janik. What I was trying to explain earlier is the 
actual calculation of ASQ, the mechanical computation is very 
similar.
    The Chairman. Very similar.
    Mr. Janik. Right, to the rest of the forests.
    The Chairman. But it is not the same?
    Mr. Janik. What is considered----
    The Chairman. It is not the same?
    Mr. Janik. What is considered in that process is----
    The Chairman. It is not the same or is it the same?
    Mr. Janik. I would say the actual process and methodology 
of calculation is very similar.
    The Chairman. But not the same?
    Mr. Janik. I cannot say how each forest does this, Mr. 
Chairman. But I believe our procedures are in line with the 
rest of the national forest system direction that comes out of 
NFMA.
    However, in terms of the existence of the Tongass Timber 
Reform Act--and I want to be clear on this point--we certainly 
have an additional emphasis put on demand, and we are very 
serious about that and pay very close attention to that. But 
the second part of that phrase is what in fact has limited our 
ability to go any higher with the allowable sale quantity, and 
that is all the obligations that we have in the multiple use 
setting.
    The Chairman. When you say with regard to demand, and we 
have gone through the demand and it is so hypothetical relative 
to what the demand really is.
    Mr. Janik. I do not argue that point. That is a very 
difficult situation to deal with and to say here is what the 
number is. I do not argue that point.
    The Chairman. So you would say then that you do calculate 
the ASQ in basically the same way that it is derived on other 
national forests?
    Mr. Janik. We consider different things and we put more 
emphasis on observing demand because of TTRA. The actual 
computation based on features that control and limit the ASQ, I 
would say that is similar, meaning land allocation, size of the 
forest, and standards and guidelines that cause restrictions in 
our ability to realize more timber yield.
    The Chairman. Dr. Brooks, I wonder if you could comment on 
your analysis of demand that suggests that your estimate of 
demand should be a hard cap on timber sale offerings?
    Dr. Brooks. Mr. Chairman, I have never said that.
    The Chairman. Go ahead. The point is does your analysis 
suggest that there should be a hard cap?
    Dr. Brooks. No, it does not. Our analysis suggests that 
this information that we provide is among the information that 
should be considered in establishing the annual sale quantity. 
But we also try to point out in our analysis that there is 
considerable uncertainty associated with our projections of 
demand, and we have tried to display that as explicitly as 
possible, not only the range of uncertainty through the three 
scenarios, but to describe some of the other factors that would 
contribute to additional uncertainty around the trends that we 
project.
    The Chairman. Well, we have acknowledged the uncertainty. 
Yet the uncertainty has resulted in the conclusion of an ASQ. 
So you have pulled down a scenario to fit, if you will, 
recognizing the uncertainty. Is that a fair statement?
    Dr. Brooks. Our analysis simply focuses on projected demand 
in markets, and we have provided information and this analysis 
to the region. There is no science component or no science 
responsibility in setting the ASQ.
    The Chairman. I am going to go back to my discussion with 
Mr. Vento very briefly relative to--and I am sure you are 
familiar with--the material that consists of the recognition 
of, here we have the largest of all our national forests and we 
can identify an industry that is left with three modest sized 
mills, that would be modest in comparison to what California, 
Oregon. Modest; they are not large.
    I see Mr. Powell nodding his head. The rest of you are 
refraining, but I will just generalize by suggesting these are 
modest, 3 modest sized saw mills that probably employ, what, 
50, 75 people? Mr. Powell, you know what Ketchikan employs?
    Mr. Powell. I do not have those numbers with me. They 
actually employ a few more than that. I think the 2 saw mills 
that Ketchikan Pulp Company is running, they are estimating 
they employ somewhere in the neighborhood of 200 people. It is 
a little hard, though.
    The Chairman. Is that in the saw mill, though, or in the 
woods?
    Mr. Powell. I was going to say, they also have their woods 
operation people and their loggers and their administrative 
people that are tied into those numbers.
    The Chairman. We have the personnel numbers here and I will 
get them.
    Then we have the Viking Lumber Company in Kawak and that is 
really the state of the industry as it exists. We have seen the 
saw mills being built in Seward on two occasions, saw the 
impact of logging in Chugach, relatively limited as far as 
anything compared to southeastern is concerned; is that not 
right? Not much going on up there.
    Mr. Janik. Not much going on up there.
    The Chairman. And there has not been for a long time. Costs 
are too high and just it is a tough, tough operation, barging 
off Montague and Hitchinbrook and other areas. So it is fair to 
say that the opportunities, limited as they are, are located in 
the southern part of the State. So the industry consists of 3 
saw mills left, and the estimated requirements are 155 million 
board feet a year. Is that right?
    Does anybody know?
    Mr. Powell. I could comment on that. That is I think 
approximately the capacity of those mills. Now, the 
requirements may be substantially different. As you mentioned, 
those mills can operate on one shift or they can operate on two 
shifts, and in reality they generally operate somewhere between 
that depending on the economic conditions.
    The Chairman. Or the availability of logs.
    Mr. Powell. That is certainly one of the factors.
    The Chairman. You cannot run a saw mill if you do not have 
any logs.
    Mr. Powell. I would say that is accurate.
    The Chairman. Well, we have established that.
    If you take their requirements of 70 million in Metlakatla 
and I believe it is 50 million in Ketchikan and 35 in Kawak, I 
think that is 155 million. Then there is a small mill in 
Petersburg, 10 million, that operates once in a while. There is 
Pacific Rim Cedar in Wrangell that I think takes, I do not 
know, 10 million. There is a Metlakatla tribal mill that is at 
the old airport at Annette Island that tries to take 10. There 
is the Kensley mill which I am not aware, that takes 10. 
Herring Bay takes 5. Icy Straits Lumber in Hoonah is 10. Then 
there is a shake mill at Thorn Bay that takes 10, and there is 
something up at Chatham.
    These little guys, 75 million if they are all operating. 
Now, that gives us 230 million. And your ASQ is 267, and that 
includes utility, right? And how much utility is in that 267?
    Mr. Janik. About 18 percent, as I understand it.
    The Chairman. Give me a figure.
    Mr. Janik. 18 percent.
    The Chairman. I will have to figure the percent out?
    Mr. Janik. That comes out to nearly, I think----
    The Chairman. About 50 million?
    Mr. Powell. About 50 million.
    Mr. Janik. About 50 million.
    The Chairman. And you are pretty satisfied that you will 
stand behind your statement that there is a real, a real 210, 
215, 217 commercial saw log availability?
    Mr. Janik. With the caveats you mentioned to Mr. Vento. 
That is, our ability to deliver that depends very much on 
appeals, litigation, that kind of thing.
    The Chairman. And how much of that do you have in the 
pipeline now?
    Mr. Janik. If I reference this year, Mr. Chairman, and next 
year as an example----
    The Chairman. No, this year right now.
    Mr. Janik. 220 million board feet, although 50 of that was 
part of the KPC settlement. So 150 to 170 million board feet is 
what we anticipate offering this fiscal year.
    The Chairman. How much of that is tied up in litigation?
    Mr. Janik. Fred, do you happen to know that?
    Mr. Norbury. We have several lawsuits right now, but we do 
not have any significant amount that is actually under 
injunction.
    The Chairman. Well, is 150 available, then? No lawsuits 
against it until tomorrow?
    Mr. Powell. One thing I would add to that, there is about 
500 million currently under contract, sold timber. So that is 
what the industry is currently operating on, in addition to the 
timber that Mr. Janik has just mentioned that is being prepared 
and offered this year.
    The Chairman. Well, I am talking about the 150 that Mr. 
Janik mentioned, 220 less 50.
    Mr. Janik. That is what we are shooting for this fiscal 
year.
    The Chairman. You are shooting for, but it is not available 
now? It is not under contract?
    Mr. Janik. Unless interfered with, it will be available.
    The Chairman. By when?
    Mr. Janik. By the end of the fiscal year.
    The Chairman. By the end of September?
    Mr. Janik. Yes, sir.
    The Chairman. Now, in addition, since we have spent so much 
time on the issue of utility, if we look at the potential of a 
veneer mill in Ketchikan, I am told that is going to require, 
what is this, 30 to 80 million board feet? 50 to 80 million 
board feet. And the Wrangell saw mill would require 100 million 
board feet, and Sealey's mill 20 million board feet, and an 
ethanol, which I assume would use pretty much hog fuel, you are 
looking at another 190 million board feet.
    If you add 190 to what you have got, the large mills 
needing 155, the small mills needing 75, that is 230. You add 
190, you are up to 420, which is far in excess of your ASQ, 
right?
    Mr. Janik. That is correct.
    The Chairman. So you have disregarded how you are going to 
meet your obligation to fully utilize the product of the 
forest, the significant portion being the utility, then you 
have just not addressed in your ASQ as to how we utilize that.
    Mr. Janik. I think that is the basic disagreement we have, 
Senator.
    The Chairman. Well, let us talk about it.
    Mr. Janik. We have set our contribution to satisfying 
whatever need----
    The Chairman. Well, just a minute. Now, the last time you 
gave a 50-year contract to address utility timber, right? That 
is what you did. Is there a reluctance to acknowledge that?
    Mr. Janik. To stimulate the markets in southeast Alaska.
    The Chairman. Stimulate--to create the market.
    Mr. Janik. Yes.
    The Chairman. There was not any market before.
    Mr. Janik. I believe that was the justification for doing 
it by the Government.
    The Chairman. And the rationale is we would ship those 
utility logs down to Bellingham or Everett as opposed to 
manufacturing them in southeastern Alaska. That was the 
justification for the contract, because that is what would have 
happened. And that was the whole rationale that the Government 
had.
    Now, 50 years later, we are left with the utility, which is 
30 percent or whatever. What is the utility?
    Mr. Powell. About 18 percent. Mr. Chairman, one 
clarification on what you were saying, though, when you added 
those numbers, particularly with the ethanol plant, 
particularly with the veneer plant. Those numbers that do 
utilize primarily the utility grade would not be additive onto 
that total, because they are really looking at using that 
portion of that that is not going to the saw mills. So those 
numbers would be discounted somewhat.
    We do anticipate if those types of mills were brought on 
line that they could fit.
    The Chairman. Well, the Sealey mill would not be part of 
that.
    Mr. Powell. No, just the veneer plant, just the ethanol 
plant. In fact, the Ketchikan proposal would see Alaska really 
looking at trying to use that material that we have talked 
about as utility, that has been talked about being exported, 
and could be encompassed within this ASQ figure that we are 
talking about.
    The Chairman. Yes, but what you fail to in my opinion 
address is any responsibility to try and accommodate and 
encourage investment to utilize this resource, because, as you 
stated yesterday, Phil, you prepared--you have allowed the 
export based on, I assume, the circumstances as you see them.
    Mr. Janik. There is no available market for utility and 
some of these smaller companies are about at their limits.
    The Chairman. My question to you is, I think you have an 
obligation to substantially assist in some manner or form the 
creation of a utility utilization, as you did 50 years ago. 
Now, it is not going to be the same kind of a contract, but 
clearly forest management practice dictates you are going to 
leave more wood in the woods if you do not have that 
utilization.
    Your business is the best forest monitoring practice, and 
that suggests you get the greatest utilization out of the 
resource that you can. I am disappointed that you are not 
putting more emphasis on that, because that I think is the 
significant void that we face. I am going to continue to keep 
preaching that until we get something done about it.
    We are going to have a vote in a few minutes, so I am going 
to continue the questioning, because we have got probably, we 
have got two or three, three more areas of questioning that I 
want to pursue.
    This is on general timber sale economics and the final 
TLMP. Historically, only about two-thirds of the ASQ has 
actually been harvested and processed by the mills, due to 
losses from appeals, litigation, and non-economic sales. If 
this trend continues under the new plan--and I see little 
reason to suggest it will change--the actual harvest we can 
expect to see from the Tongass would drop to around 150 million 
board feet or less.
    Is that a realistic assessment based on the history?
    Mr. Janik. I personally would not translate that to the 
revision. What we have tried to do in the revision is improve 
our ability to successfully defend sales if they should be 
litigated, based on the provisions and the compliance with the 
law.
    The Chairman. Would you say that is an unrealistic 
assessment?
    Mr. Janik. I would hope we would do better than that.
    The Chairman. What would you hope you would do?
    Mr. Janik. I have no idea, Mr. Chairman.
    The Chairman. Well, that is why I posed this question, 
because if the trend continues, and there is no reason to 
suggest that you will not have as many suits as you had before, 
then the new plan will harvest about 150 million board feet. 
Now, what do you see as you doing that would change that?
    Mr. Janik. As I have said, I believe the revision is now 
better prepared to not keep us out of the courtroom, but to 
have us be successful in the courtroom. Certainly we are going 
to experience delays, as we have in the past, and that does 
deal with the subject area reliability, which we all want to 
see improved upon, and we are going to do our best in that 
regard.
    The Chairman. The reaction to the new plan from both 
environmental interests and commodity users suggests a 
continuation of the existing tension between the various 
interests. Now, both sides, for decidedly different reasons, 
appear less happy with your decisions. Is that a fair 
statement?
    Mr. Janik. I think that is a judgment that can be reflected 
by some of the reaction we have gotten, yes.
    The Chairman. At the harvest level of 150 million board 
feet, which we can or cannot assume, but is historically at 
least possible, a not unlikely outcome given, as I suggested, 
the past decade history, only about 75 million board feet would 
be saw log quality; is that correct?
    Mr. Janik. I could use some help on that.
    Mr. Powell. I do not think that is correct.
    The Chairman. What do you think is?
    Mr. Powell. Well, again, if we use the utility figures that 
we have talked about, you would discount about 20 percent of 
that. I think what you may be referring to is again another 10 
percent or so of that would be cedar products, and then again 
you have got low quality saw logs that typically have gone to a 
pulp mill, but now we would be looking at a higher percentage 
of that actually going to a saw mill.
    The Chairman. Well, what do you figure, then, would be saw 
log, saw timber quality out of 150?
    Mr. Powell. Well, a simple calculation again would be 
taking about 18 percent off for utility. So you are going to 
end up around 80 percent is of a saw log grade, and then 
discount 10 percent of cedar if you assume that that is not a 
part of what you are talking about and you are around 70 
percent is of the saw log grade. Granted, some of that would be 
lower grade.
    The Chairman. So you are looking at roughly, you would 
suggest, 100 million?
    Mr. Powell. I think with your 150----
    The Chairman. Well, it is important, you know, that we have 
some degree of accuracy. I might suggest we are going to hold 
you to these figures to some extent, because this is what the 
industry has to depend on. It is all they have got.
    Mr. Powell. With your scenario of 150, 70 percent of that 
would be close to 100, 105 or so.
    One other point to remember, though. The cedar part of 
this, as Mr. Janik mentioned, we are also looking at how that 
would be handled in the future in terms of export. In fact, Mr. 
Sealey's mill that you mentioned earlier, Mr. Sealey is 
actually looking at his mill processing cedar. So if in fact 
there were cedar mills, then you would have to add that cedar.
    The Chairman. Well, would the Forest Service stop the 
export of cedar if Mr. Sealey's mill got on line?
    Mr. Powell. I would say that very issue about export of 
cedar is one of the things that we are reviewing currently.
    The Chairman. Yes, but gentlemen, no one in his right mind 
is going to build a cedar mill if you are going to allow the 
export of cedar. You are either not going to allow it if 
somebody builds a mill and they have the assurance that they 
will have a market, because the stupidest thing that they could 
do would be to build a mill and not have the assurance that you 
are going to prohibit the export of cedar.
    Mr. Janik. Mr. Chairman, I said yesterday--I believe it was 
me that said this, and I will say that again with emphasis--the 
very reason we are looking at the export policy is because we 
think we do need to be more restrictive with the policy. What 
you are asking for here is you are asking for some 
predeterminations.
    The Chairman. On the other hand, you are indicating you are 
going to approve specific requests for export of raw log 
utility because you have no use for them.
    Mr. Janik. The final policy will determine exactly what we 
will be doing. We would expect it to be more restrictive.
    The Chairman. Well, let me tell you. Nobody is going to go 
in and invest a nickel unless there is some assurance from the 
Forest Service on continuity and a guarantee of a supply of 
timber. Now, one of the things that I am interested in Mr. 
Powell's statement, and I have got to run, but I will just 
leave you with this thought. You have just given us an 
indication that we are going to have roughly 100 million board 
feet, assuming the 150 million is correct relative to your ASQ 
deliverability.
    So we are going to have 100 million board feet of saw logs. 
And yet our large operators' consumption requirements is 155 
million board feet, and we have not taken care of the small 
operators, which are 75 million board feet, for a total of 230. 
So already we are 130 million under the capacity, if you will, 
of the industry, which is relatively insignificant in 
comparison with other States and operating in other forests. 
And we have not addressed the Wrangell mill, which is another 
100 million.
    So this ASQ that you have come up with as far as saw log 
availability in relationship to installed capacity is 130 
million short. That is what you have left us with in your ASQ 
today, and I think that is unconscionable, if you will, 
relative to the obligation that you have and the volumes that 
we were cutting before, which was 450 with the 2 pulp mills.
    I am going to have to go. I leave you with the questions, 
but you can answer that if you want or make any comments you 
would care to. You can keep going.
    Mr. Rey. Let me just continue and see if we can close out 
this area, and then maybe we will just take a break.
    Generally speaking, notwithstanding the difference between 
the ASQ and actual production, it is your view that you still 
have met the ``seek to meet market demand'' language in TTRA, 
even though you may not deliver what is actually in the ASQ; is 
that correct?
    Mr. Janik. Let me make sure I understand the question. Even 
though we may not achieve the ASQ level of 267 in any 
particular year?
    Mr. Rey. Right.
    Mr. Janik. We would judge that we are still meeting the 
obligation of TTRA?
    Mr. Rey. Right.
    Mr. Janik. Let me answer that again this way. The direction 
in the law, TTRA, does say ``seek to meet timber demand.'' But 
it also says within the context of the other multiple use 
objectives. That brings a whole new dimension and array of 
obligations that we have tried to address in the revision and 
we judge we have.
    267 is the calculation that has come from that. We have 
tried to pay attention to the demand function as best we can in 
fulfilling that obligation. But yes, in the context of not 
achieving the ASQ and given all the other obligations that we 
judge we would have met, we would consider ourselves in 
compliance with the law.
    Mr. Rey. In your record of decision you precluded timber 
harvested on forested wetlands. How many acres of timber was 
scheduled to come from such lands and what was the ASQ effect 
of that measure?
    Mr. Janik. Mark, if I may get some help here, because we 
have some definite numbers on that that we can provide and I do 
not want to misquote those.
    Fred, can you handle that?
    Mr. Norbury. Yes. There were 2,500 acres of forested 
wetlands of the 4 specified types scheduled for harvest over 
the next 100 years, approximately 70 acres in the first decade.
    Mr. Rey. The amount of economic timber in the new plan, or 
the NIC 1 lands as the plan calls them, is about 219 million 
board feet. Logging costs obviously have a big effect on 
whether or not timber is economic. As I understand it, you 
recently issued an interim directive to your timber sale 
appraisal handbook which shows logging costs--we are talking 
about logging costs rather than preparation costs now--logging 
costs had increased by some 34 percent.
    What effect will this have on whether or not the 219 
million board feet of economic timber can be achieved?
    Mr. Janik. If I may, Mr. Norbury.
    Mr. Norbury. The NIC 1 component is not based on logging 
costs directly. It is based on offerability, as you probably 
read. It is what is considered normal offerability, harvestable 
with normal equipment. We actually have done a recent 
comparison of appraisals in the 1994-97 period of the sales 
offered in 1994 to 1997 with what we used in the model, the 
FORPLAN model, for estimating the ASQ.
    What we found was that the costs were actually very 
comparable. So we are fairly comfortable that numbers that were 
used in the model for calculating ASQ are comparable to the 
appraisal allowances that have actually occurred in recent 
years.
    Mr. Rey. So the increased costs would not in your 
expectation make the NIC 1 component substantially smaller as 
you move to plan implementation?
    Mr. Norbury. The costs themselves will not change the NIC 
1, NIC 2 component. That distinction is based on the 
offerability layer. The standards and guidelines can have some 
effect on offerability, which would change the NIC 1, NIC 2 
component. Increased logging costs, if they occur, could have 
the effect of making some more of the NIC 1 uneconomic. But we 
do not have a separate estimate of that.
    Mr. Rey. Do you have any sense of that at this time?
    Mr. Norbury. It depends critically on what you think is 
going to happen to prices. If you accept--the price projections 
done by the Pacific Northwest Station show that prices will 
increase in the coming years. If prices increase the way we 
expect them to, all of the NIC 1 will be economic. In fact, all 
the NIC 2 will become economic as well.
    Mr. Rey. But that is based on price assumptions as well?
    Mr. Norbury. That is based on price assumptions, yes. 
Currently our harvest comes about--some portion of the NIC 2 is 
also economic. About 8 percent of our current harvest comes off 
lands that we would now categorize as NIC 2.
    Mr. Rey. In appendix B of the FEIS, you indicate costs 
relating to timber harvests had been calculated using actual 
cost expenditure reports, so in other words these are 
historical costs for harvesting under the old TLMP, is that 
right?
    Mr. Norbury. It is based on harvests under the old TLMP 
since that is the plan in fact that is still in effect. So all 
the appraisals have been done under the old TLMP.
    Mr. Rey. In your ROD you say that 35 percent of the 
harvesting will be by methods other than clearcutting. Is it 
not true that it costs substantially more to log using these 
other methods?
    Mr. Norbury. It certainly does. The costs are much higher 
with the alternative logging methods. The FORPLAN model 
explicitly recognized different logging costs with different 
harvest methods and also with different volume classes. So that 
the costs for the low volume partial cut harvests as shown in 
the model is much higher than the clearcut, easy to access 
ground.
    Mr. Rey. One element from your timber model that will have 
a direct effect on the amount of economic timber is road 
construction costs. As I understand it, for at least the first 
decade you used an historic average of a mile of road for each 
2 million board feet of timber; is that correct?
    Mr. Norbury. The FORPLAN model actually has .4 mile of road 
per million board feet harvested.
    Mr. Rey. That is close to what I calculated. Given that the 
road construction history was developed under the old plan, 
including nearly exclusive use of clearcut logging, fewer 
stream buffers, no 1,000 foot shoreline setbacks, and no 
additional standards for martens, wolves, goshawks, fewer 
visual constraints on harvesting, would you not expect the 
amount of timber harvested per mile of road to decline under 
the new plan?
    Mr. Norbury. It is generally true that with partial cut 
harvests and considering the facts that you have laid out that 
the miles of road constructed per unit of volume harvested are 
going to go up, and they have been going up on the Tongass for 
some time. We believe, though, we have modeled them accurately. 
We think this .41 estimate is what we expect to occur.
    Mr. Rey. So you would not expect a decrease in volume per 
mile to have any effect on the NIC 1 size?
    Mr. Norbury. Again, it will not affect our categorization 
of NIC 1 and NIC 2. It could--if the miles of road requirement 
goes up more than we expect, then what that could do is render 
some of the NIC 1 uneconomic, that is correct.
    Mr. Rey. I understand that the forest is nearing completion 
of a sale called the Indian River sale, and I believe that that 
sale largely incorporates the new standards and guidelines from 
this new TLMP. Is that correct? Anybody know?
    Mr. Norbury. All the sales that are about to be decided are 
incorporating the standards and guidelines of the new TLMP, 
with some room for interpretation of the mitigation measures 
that we discussed yesterday for goshawk and marten.
    Mr. Rey. As I understand it, the completed appraisal on the 
Indian River sale shows all of the alternatives that you are 
considering in the sale package turning up deficit. Is that 
correct? Does anybody know?
    Mr. Norbury. I am not familiar with the details of the 
Indian River sale.
    Mr. Janik. I am not, either.
    Mr. Rey. Why do you not submit that for the record.
    [The information requested was not received at the time the 
hearing went to press.]
    Mr. Rey. The point of the questions was to look at Indian 
River as an example of a sale that incorporates the new 
standards and guidelines and evaluate whether the alternatives 
do turn up uniformly deficit or whether our information is 
wrong on that.
    Mr. Norbury. I would comment, however, that many of our 
existing sales have all the alternatives appraised at a deficit 
in the stage two stage, at the EIS preparation stage, and still 
sell positively. It is critical upon the state of the market 
when you offer the sale.
    Mr. Rey. I see.
    In the record of decision you say that some of the measures 
added in alternative 11 have not been explicitly modeled, but 
were judged to be relatively small. Can you elaborate on which 
things were not modeled?
    Mr. Norbury. Are you speaking of the mitigation measures 
for goshawk and marten connectivity?
    Mr. Rey. Right.
    Mr. Norbury. We did not explicitly model any of those 
mitigation measures. The fundamental reason was that--actually 
there was several reasons that were prominent. One of them is 
that there is some suitable land that is not scheduled that is 
available to make up any slack that is created.
    Part of it, though--and this is probably the major reason--
was that our conclusion was we probably would be double 
counting if we tried to model it. There is two kinds of double 
counting that occur. The marten and goshawk mitigation measures 
basically force you to use something other than clearcutting, 
some sort of partial cutting regime. We already expected to do 
something other than clearcutting on about a third of the lands 
harvested anyway.
    In addition, the FORPLAN model includes some constraints to 
meet visual quality objectives, and our estimate, based on some 
preliminary analysis, was that the restrictions on harvest that 
were already forced in order to meet visual quality objectives 
would account for any reduction in harvest for the marten and 
the goshawk.
    The way that would work out, what we would do, if we had 
come back--we thought if we had gone back and explicitly 
modeled for the marten and goshawk, that would in turn allow us 
to relax the visual quality constraints and that would 
compensate for the harvest reduction that was caused by the 
marten and goshawk standards and guidelines.
    Mr. Rey. I am reading from a January 21, 1997, memorandum 
to ``Fred'' from Kent Julan. The subject of it is ``NIC 1 
consistency issue.'' At the beginning of it he states: ``NIC 1 
is overestimated in the preferred alternative, alternative 11, 
by about 12 percent based upon a proposed refinement of the 
operability layer developed by Don Gulnak and Gary Fisher 
during revision of the forest plan. The approach, which was not 
used in the final plan, consisted of reclassifying lands 
originally designated as having normal operability as difficult 
operability based upon their proximity to other areas 
designated as normal and distance from existing roads.''
    Can you tell me whether that difficulty has been corrected 
or is there still a problem in the model in terms of 
overestimating NIC 1?
    Mr. Norbury. I am aware of the memo and I can get into that 
topic quite deeply. John and Dave actually did the analytical 
work and if you want to get into that we can have John address 
some of the particulars.
    My recollection of what John reported to me was that there 
was an error in the analysis that that memo rests on. It was an 
inadvertent error that was actually, they were running an 
algorithm that had originally been written to test the 
capabilities of a new work station that they had and it was not 
intended for production work. The fault of the algorithm was 
that it tended to find some areas to be NIC 2--it found NIC 2 
within NIC 1, but did not find NIC 1 within NIC 2. So it had a 
bias in it.
    Once we worked through that, we remained convinced that the 
original classification was correct. Now, we have acknowledged 
that NIC 1, NIC 2 distinction that is in the plan is based upon 
the existing operability layer, and that operability layer will 
be updated over the course of the plan implementation so that 
the NIC 1, NIC 2 balance may change.
    The Chairman. To go back, Mr. Powell and Mr. Janik, 
relative to what we were looking at, you did not concede that, 
based on the historical experience, that the ASQ would actually 
drop down to 150 as I cited. Historically, only about two-
thirds of the ASQ has actually been harvested and processed by 
the mills due to loss from appeals, litigation, and non-
economic sales. You indicated that you thought you could do 
better than that as a consequence of your current commitment 
and structure.
    So I want to go back and try and pin you down on what you 
think you can do.
    Mr. Janik. I have no idea, Mr. Chairman. You are asking me 
to predict the outcomes and frequency of appeals and 
litigation.
    The Chairman. Well then, will you agree----
    Mr. Janik. I have no way of determining that.
    The Chairman. Will you agree that, based on the historical 
harvest and the actual challenges that have been made, that we 
historically would see somewhere around 150 million or less?
    Mr. Janik. If you apply the historic statistics? I suppose 
if you just do that simple mathematics, that is what you would 
get. But what I am saying is there is no way to predict if that 
is going to be the reality.
    The Chairman. Is it going to be less or more?
    Mr. Janik. I do not know.
    The Chairman. Well, I know. But how does the--you have got 
3 saw mills out there that are going to require about 150 
million board feet of saw logs. We have already conceded if we 
apply the 150 as being somewhat in the ballpark that 50 of it 
will be utility. So as far as the ability of the Forest Service 
to provide for the Metlakatla, the Ketchikan, and the Kawak 
mill, we are already 50 million board feet short of what they 
would require.
    Mr. Janik. Mr. Chairman, these are the very kinds of 
discussions we are having in the Governor's Timber Task Force 
and looking at all ownerships and what kind of contribution can 
come in trying to meet whatever demand or request for timber 
might emerge from the timber industry. We are doing the best we 
can to identify our contribution to that and we think we have, 
and we will do our best to try to----
    The Chairman. Well, what do you think your contribution is 
going to be?
    Mr. Janik. I believe we will be able to produce 150, as I 
said, for this fiscal year.
    The Chairman. 150, of which 100 will be saw log 
approximately, high quality saw log. That is what we have 
ascertained here in our general discussion; is that not 
correct?
    Mr. Powell. Again, I think that is relatively close.
    The Chairman. Okay.
    Mr. Powell. Again, around 18 percent utility.
    The Chairman. 150 is relatively close.
    Mr. Powell. About 25 percent of the material would not go 
to the saw mill.
    The Chairman. We have gone through that and agreed you roll 
out about 50, so you have got 100 million board feet. And you 
have got in the 3 modest sized mills you have got a requirement 
of 155. So you are roughly 55 short of meeting that. Is my 
arithmetic haywire or something? These are all hypothetical.
    Mr. Janik. There may be requests for timber out there that 
we will not be able to satisfy with what comes off the national 
forests, so we acknowledge that.
    The Chairman. Well, I am glad you acknowledge that because 
that is clearly the case. If I have got 3 saw mills and they 
have got a capacity of 155 million and the market is out there 
and I can sell the lumber, the question is can you supply it. 
And we are already 50 short going in, and we have not taken 
care of the small mills, which are only 8, that require 75 
million, and we have not taken care of the Wrangell mill.
    What we have done is we have a surplus of something in the 
area of 50 or so million board feet of utility to hopefully 
plug into perhaps veneer. But I think we have made the point 
that in your ASQ you have not addressed the installed capacity. 
As a matter of fact, you are, well 125 million under it in your 
ASQ, which is I think an unfortunate economic reality for 
southeastern Alaska.
    That is why we are so interested in the manner in which you 
came up with this process.
    Now, with regard to the socioeconomic impact of the TLMP, 
we identified several of the shortcomings last May. What I 
would like to do is focus on some specific questions. There is 
always a good deal of rhetoric that continued timber harvesting 
in the Tongass will diminish Alaska's tourism industry, but I 
think it is true that tourism in Alaska has grown tremendously 
in the past 2 decades during the Tongass timber harvesting at 
much greater levels than proposed in the TLMP revision. Is that 
true?
    Dr. Mills. If I could provide, Mr. Chairman, a little bit 
of information, and then I am sure Mr. Norbury has got what is 
in the plan in terms of projections.
    The recreation and tourism industry is, as you point out, 
the fastest growing resource-dependent----
    The Chairman. Yes, but you have to qualify: seasonal.
    Dr. Mills. It is certainly true that many of those are not 
full-time jobs.
    The Chairman. Well, let us face it now, gentlemen. It runs 
from Memorial Day to Labor Day.
    Dr. Mills. They certainly are not full-time jobs. Your 
average wage likewise----
    The Chairman. Let me ask you. Why when you identify tourism 
do you not qualify it like you do everything else and say it 
like it really is? You would have the reader believe that the 
tourism industry operates 365 days a year coming to Alaska.
    Dr. Mills. Mr. Chairman, I am not suggesting they operate 
365 days a year, and I am trying to respond with the 
information I do have, that probably is as relevant as how many 
days they work, which is what their average wage is, which is 
$32,000 a year according to the information I have here, which 
is roughly a quarter less than the annual average earnings in 
the wood products sector, which is closer to $45,000 per year.
    It is the fastest growing at some 22 percent over the last 
10 years, to a level now of approximately 3,000 jobs in 
southeast Alaska.
    The Chairman. You are saying the average tourism business 
person is generating $31,000 in 4 months?
    Dr. Mills. The information I have is that the average 
annual earnings in 1995 from those engaged in recreation and 
tourism is $32,000 a year.
    The Chairman. And your source for that?
    Dr. Mills. I do not have the source here, but I believe it 
comes from State employment data which was released last 
summer. But we would happy to provide for the record the 
source.
    The Chairman. Yes, I think we need to. That seems a little 
high for 4 months work. I cannot think of anybody in the 
tourism industry that is working on a salary that is making 
that kind of money for 4 months. You know, that is 120 grand a 
year.
    [The information requested was not received at the time the 
hearing went to press.]
    Dr. Mills. No, it is $32,000 a year.
    The Chairman. No, you are saying $32,000 for 4 months.
    Dr. Mills. No, I am saying $32,000 for the average annual 
earnings for recreation and tourism, and your calculation is 
they work 4 months and then translating that into some annual 
equivalent. All I am trying to say is my information says it is 
$32,000 for their average annual earnings.
    The Chairman. Well, can you annualize that with what you 
make in 4 months?
    Dr. Mills. We will provide the source for where the 32 
comes from.
    The Chairman. It is 8,000-plus a month. I think it is fair 
to say that somebody working in a curio shop or peddling tee 
shirts is hardly making $8,000 a month during the 4-month 
tourism season, and that is what they are working because they 
are not employed those other months.
    This is page 3490: ``The estimate represents total net 
jobs''--``due to recreation and tourism actively under such 
alternative. Income''--now this is where we part, gentlemen. 
``Income was estimated using the IMPLAN-derived estimate of 
$31,773 per employee. While this estimate may seem high, it is 
important to remember that much of the income from recreation 
and tourism employment is concentrated in a short period of 
time and will thus lead to higher estimates when extended to a 
whole year on an average annual employment basis.''
    Now, that is what you have done. You have taken the 4 
months' salary and extended it out to a whole year, which is 
hardly accurate. Is that not correct?
    Dr. Mills. I am not as familiar as I might be with the 
table you are reading from.
    The Chairman. Well, it is your stuff.
    Dr. Mills. The information that I have got has an estimate 
of average annual earnings in 1995 of $32,000, and we will be 
happy to provide an explanation of that.
    The Chairman. Can you, Mr. Janik, clarify this apparent 
inconsistency?
    Mr. Janik. I think Mr. Norbury has the table in hand. Go 
ahead, Fred.
    And if we cannot explain the discrepancy here, we will, as 
Dr. Mills just mentioned, do so for the record later.
    Mr. Norbury. I think we should provide it for the record.
    Mr. Janik. He would prefer to provide it for the record.
    The Chairman. Well, what you have done is you have taken 
and projected this for a whole year.
    Dr. Mills. Mr. Chairman, as I said, that is exactly what we 
will look into and clarify.
    The Chairman. Well, I know, but does this not----
    Dr. Mills. If that is what we have done, we apologize.
    The Chairman [continuing]. Skew your figures relative to 
the contribution of the industry, which is significant? I am 
not belaboring that point. But it is a pretty significant 
inconsistency. It is about a 400 percent error.
    Mr. Janik. We would like an opportunity to examine that, if 
you will, and then report for the record.
    The Chairman. This is what you have got, and I am reading 
from it. And you have got the same page I have, right, Mr. 
Norbury?
    Mr. Norbury. Yes, sir, I do, and it is not clear to me yet 
what the discrepancy is.
    The Chairman. Income was estimated, derived at $31,773 per 
employee. Then it goes on further and it says ``concentrated in 
a short period of time and will thus lead to higher estimates 
when extended to a whole year on an average annual employment 
basis. Total income and nonresident supported income was 
derived in the same fashion in the case of employment.''
    One can only reach the conclusion that this was extended 
for a whole year, while the employment season is, what, 4, 5 
months?
    Mr. Norbury. Mr. Chairman, I do not think that is what the 
analyst did at this point, but I would like an opportunity to 
double check that.
    The Chairman. Well, relative to the time spent by visitors 
and southeastern Alaska, I assume you would agree that little 
time is spent in the remote areas, including most of the 
Tongass, as far as most of the visitors that come up there? 
They do not spend much time in the remote areas. You have got 
no facilities. You have got a few cabins out there. You know, 
you have got a couple hundred thousand coming up by tour 
vessels, is that right?
    Mr. Norbury. Yes, sir. The tourism, particularly the out of 
State tourism, falls predominantly on developed areas, like 
Juneau, Ketchikan, Skagway, Sitka, in terms of numbers of 
visitors.
    The Chairman. Now, we had a little conversation yesterday 
about the editorial policy of the various media on their 
presumption and attitude toward the Tongass, and I think it is 
fair to say that a lot of misinformation about tourism is 
sponsored by environmental groups, and the media have 
repeatedly said that timber harvesting poses great threats to 
salmon harvesting. But is it not true that salmon harvesting 
employment is not generally affected, if at all, by the 
differences in the 12--excuse me--the 11 alternatives 
considered by the Forest Service, including an alternative that 
called for no further timber harvesting?
    Mr. Janik. This is with respect to the fishing industry per 
se?
    The Chairman. Yes.
    Dr. Mills. It is true that over the next 10 years, which is 
the time period for which the plan projected employment 
effects, that the difference amongst the alternatives would not 
likely have any significant effect on salmon harvesting and 
seafood processing employment. However, the effect over the 
long term could be considerably different.
    The Chairman. Why?
    Dr. Mills. Because of the eventual effect of different 
management scenarios on protection of the fisheries' 
productivity and the resulting impact on fish population levels 
in combination with the other factors that affect fish 
population levels.
    The Chairman. Yes, but those have all been taken into 
account in your TLMP.
    Dr. Mills. They have been taken into account and considered 
in the first 10 years, and in the first 10 years, no, there is 
not projected to be a significant change in fish productivity 
and in turn the associated employment.
    The Chairman. Well, of course, you would change the plan. 
Theoretically the plan would be subject to change in 10 years, 
and you would be as prudent as you are now, one would have to 
assume, only you would have probably more and better science in 
10 years than you have got now.
    Dr. Mills. I acknowledge that. I am sure I am not doing a 
very good job of touching on the point you are trying to touch 
on.
    Mr. Janik. Having been involved in some of these 
discussions personally, Mr. Chairman, if one were to choose an 
alternative which carries a high risk for fisheries, fisheries 
habitat that is, the incremental change occurring from year to 
year, what I believe Dr. Mills is trying to say and certainly 
what I have been exposed to, the incremental change that occurs 
from year to year in the sense of deterioration does not start 
revealing itself until after the 10-year period, but 
nevertheless is significant. That is why important action is 
being taken now to provide additional protective measures.
    The Chairman. Do you have any figures relative or are you 
conversant in figures that show the southeast anadromous return 
runs at an all-time high, as a general statement? Because I 
have got the specifics here if you want.
    Dr. Everest. They are at an all-time high now, have been 
for the last several years.
    The Chairman. And I assume that the rationale for that is a 
combination of things, probably the termination of interception 
on the high seas by the driftnet fisheries, reasonable water 
levels, probably good fisheries, and forest habitat management 
with the buffers around the streams and so forth?
    Dr. Everest. Certainly a combination of things, all of the 
things you named: good fish management, relatively good fresh 
water habitats, and extremely high ocean productivity, as we 
have discussed previously.
    The Chairman. Now, Mr. Janik, you and Mr. Powell and others 
are professional foresters here. Was it not a policy 15 years 
ago or some time frame that the considered technology was that 
you cleared the streams, the fish, the anadromous streams, of 
deadfalls that blew down and so forth, tried to keep them as 
clean as you could?
    Mr. Janik. In fact, you referenced the portion of my career 
which was back in Oregon, Mr. Chairman. It is true back in the 
sixties, for instance, with the knowledge level that existed 
then, the understanding was that that accumulation of woody 
debris in streams was detrimental to fish.
    Since then, research has shown that large woody debris has 
substantial value to fishery productivity, and no longer is 
that so-called stream cleanout occurring.
    The Chairman. And you were an ardent, I assume, supporter 
of that scientific process that led to changes?
    Mr. Janik. That level of understanding led to management 
policies that involved stream cleanout, yes, sir.
    The Chairman. I assume it is true that wood products jobs 
are being lost at a much higher percentage of residential 
employment than recreation and tourism or seafood processing?
    Dr. Mills. Mr. Chairman, if the question is whether the 
number of jobs in the wood products industry are dropping 
faster than others are increasing, the information I have here 
confirms that, yes.
    The Chairman. Thank you.
    Does the final environmental impact statement analyze how 
communities will be affected by decreasing tax revenues, 
decreasing real estate prices, utility prices, increasing costs 
per child in school, decreased school funding based on fewer 
students?
    Mr. Janik. Fred, can you help us with that one?
    Mr. Norbury. The list of factors that you describe, Mr. 
Chairman, are not addressed explicitly in the community by 
community analysis. But they are included under the general 
headings of the quality of life that was addressed by the panel 
that the station convened to evaluate the effects of the 
alternatives on the communities.
    The Chairman. Why were they not on the affected 
communities? You have got so few of them. Community by 
community? I mean, no big deal.
    Mr. Norbury. The larger issue, the analytical issue that is 
raised here, is trying to figure out exactly which community is 
going to be affected by a reduction in timber harvest, and to a 
considerable degree that cannot be predicted by the Forest 
Service because we cannot predict who is going to continue to 
operate and who is going to close. If we knew that, we would 
know which communities were going to be affected and a lot more 
detailed analysis would be possible.
    The Chairman. Well, you knew that Sitka was going to be 
affected. You knew Ketchikan was going to be affected. Pretty 
obvious. So why could you not do an analysis of the two most 
affected communities? Probably Wrangell, because the only thing 
they had was one saw mill.
    Mr. Norbury. There is a section in the EIS that goes into 
the effects of mill closing, that gets into some of the 
dimensions.
    The Chairman. Why would you not take each of the three 
major communities that are affected and tell them? Is this not 
part of your obligation under the TLMP, to communicate this as 
part, as opposed to generalizing it?
    Mr. Norbury. As I was starting to say, Mr. Chairman, there 
is a section that addresses mill closings. It does not get down 
into the level of detail that you talked about in terms of some 
of the social effects.
    The Chairman. Well then, why does it not? Why did it not?
    Mr. Norbury. We do not have the analytical capability of 
talking about----
    The Chairman. You can contract for it. You have got all 
kinds of analytical capability.
    Mr. Norbury. It is not a question of personnel, sir. It is 
a question of methods. A lot of the discussions that you are 
talking about can be, with state of the art, in my opinion can 
only be discussed qualitatively. To the extent that that was 
possible, I believe we did that.
    Mr. Janik. I believe part of what we also did, in addition 
to the panel that Mr. Norbury mentioned, is I believe in those 
32 visits to the communities that occurred, the face to face by 
the planning team, there was a basic survey of sorts held 
during those stops and that was included in the writeup in 
terms of the community profile. So that was generated by the 
community members themselves.
    The Chairman. Well, you both were on the planning team, Dr. 
Everest and Mr. Norbury, right?
    Mr. Norbury. I was not a member of the planning team, sir.
    The Chairman. You went into these communities, Mr. Everest, 
Dr. Everest?
    Dr. Everest. Some of our staff folks did, yes.
    The Chairman. Some of them did. Where did they go?
    Dr. Everest. I think basically all of the communities were 
visited.
    The Chairman. Which ones?
    Mr. Janik. Mr. Chairman, may I suggest, if I may, we call 
up Beth Pendleton, who was a co-leader of the team and 
participated extensively in those visits.
    The Chairman. Sure.
    Dr. Everest. All 32 of those communities were visited 
twice, I believe.
    The Chairman. On the specific issue of the impact that 
would take place?
    Dr. Everest. I will pass that over to Beth.
    The Chairman. Please proceed.
    Ms. Pendleton. The communities that we visited were 
approximately 30 communities. We visited all the communities on 
Prince of Wales. We also visited Metlakatla, Ketchikan, Saxman, 
Meyers Chuck, communities to the north including Yakatat and 
Sitka, Juneau, and many other communities.
    The Chairman. Wrangell?
    Ms. Pendleton. Yes.
    The Chairman. Petersburg?
    Ms. Pendleton. Mm-hmm.
    The Chairman. And what was the discussion?
    Ms. Pendleton. At each community we had various displays on 
all aspects of the plan, including socioeconomics, looking at 
employment trends. We also had a questionnaire that was 
provided to folks that they could fill out and provide 
information on related to quality of life.
    The Chairman. Was that input from those people communicated 
and made a part of your plan?
    Ms. Pendleton. It is part of the planning record.
    The Chairman. By community?
    Ms. Pendleton. That is correct.
    The Chairman. What was the community response?
    Ms. Pendleton. We had actually very few actual responses. 
It was not a mandatory. It was something voluntary and we did 
not receive a great number of responses.
    The Chairman. To what extent did the socioeconomic impact 
of providing timber, say to restart the Wrangell mill, impact 
the formulation of the final TLMP ASQ?
    Mr. Janik. Perhaps I could try to respond to that.
    The Chairman. Yes.
    Mr. Janik. The emphasis and the concentration was on what 
was the feasibility of producing timber off the Tongass, again 
given the other obligations that we had. There was not a 
specific targeted ``keep the Wrangell mill open'' or such a 
kind of reference in the assessment, given that we see that as 
personal investment decisions made by the industry as such.
    The obligation we judged that we are responsible for is 
providing what we believe we can produce off the national 
forest and then let the private sector sort that out.
    The Chairman. You recognize that is contrary to what Jack 
Ward Thomas, who sat roughly where you are, stated that there 
would be enough in whatever the final resolve of this is for 
the Wrangell saw mill specifically? You were aware of that?
    Mr. Janik. I stand on my statement. I would suspect 
whatever the ex-Chief said at the time might have had to do 
with the context of those current conditions and maybe what was 
being delivered then----
    The Chairman. I do not know. The current conditions then 
were you were still working on the TLMP.
    Mr. Janik. Well, and we did not have an idea of what the 
ASQ was going to be at that time.
    The Chairman. Well, he obviously said there would be enough 
timber for the Wrangell mill, and you have left it out.
    Mr. Janik. I believe that was in reference to the draft EIS 
at the time. Is that correct? Was that the subject of the 
hearing?
    The Chairman. It was part of the discussion of the calamity 
associated with the closure of the Sitka mill and the impending 
closure of the Wrangell mill, which came about I think in 
October. He went up to Wrangell. You were there.
    Mr. Janik. Yes.
    The Chairman. And said that there would be enough timber 
for the reopening of the mill. And I do not know whether we 
hold people to a committed promise, but that was certainly the 
statement of the highest authority in the land on the topic.
    Mr. Janik. All I can say, Mr. Chairman, to that is that we 
do not see that the revision result would prevent the Wrangell 
mill from opening. That very well may happen.
    The Chairman. But certainly, according to the figures we 
have here, it is not even on the list. There is 155 million 
board feet that are committed to the 3 existing mills and the 
Wrangell mill needs 100. So I mean, let us not kid ourselves. 
It is simply not there.
    So whatever the Chief said is whatever the Chief said, but 
it certainly did not carry through to the end.
    Did the Forest Service socioeconomic responsibility, say to 
the community of Wrangell, have a measurable impact on the 
final ASQ number?
    Mr. Janik. The ASQ again was determined on the features I 
mentioned earlier.
    The Chairman. So the answer is no?
    Mr. Janik. Not specifically, but it was considered in the 
total context.
    The Chairman. It is quite fair to say the only way the 
Wrangell mill could even consider being partially open is if 
the others scaled back their installed capacity, is that not 
right?
    Mr. Janik. I am not sure that calculation is right, 
depending on what you are looking at. But we do view it as a 
competitive situation, Mr. Chairman, yes. That is how we see 
that.
    The Chairman. That is too bad, is it not? And the Forest 
Service bears no responsibility, because you are all able to 
make your mortgage payments and you all still have your homes 
and your schools and so forth. And here you have got a little 
town.
    The thing that is so frustrating in this whole process is 
this is the largest of all the national forests. It has the 
smallest of any significant commercial activity currently. The 
likelihood of any occurring is minimal. You have got 30 percent 
of the timber that is dead or dying. And we have got a TLMP 
here, a Tongass Land Management Plan, that clearly leaves out 
the small communities, is inadequate to address even the 
reduced installed capacity. And outside of the hard-nosed 
Government ``well, that is the way it is,'' the hardships are 
not part of this socioeconomic impact on the communities. The 
promises that have been made are simply overlooked and we are 
down to where we are today, which is to examine the completed 
product.
    I certainly would not be very proud of it, but I do not 
bear that responsibility of putting this thing together. When I 
look at the hypothetical evaluations based on the archipelago 
wolf and the marten, my immediate reaction is to tell the State 
to stop trapping and stop hunting the wolf and stop trapping 
the marten, and I certainly do not know of anybody that is 
taking the other species of any consequence, the goshawk.
    We are told that we are ready to go to panel number three, 
and that would be, I gather, just Mr. Allen and Mr. Janik. So I 
would excuse the rest of you. We will have questions for the 
record, and wish you a good day. Hopefully, we can come back 
and see ourselves again in a few years and see where we have 
gone with our responsibilities collectively and individually.
    [Pause.]
    The Chairman. While we are waiting for a couple of people 
to come in, I wonder, Mr. Janik, do you have any comment on the 
release, the draft of Barry Hill, lack of accountability for 
time and costs on the forest plan revision? I am sure you have 
a copy of it.
    Mr. Janik. You are speaking of the GAO report?
    The Chairman. Yes.
    Mr. Janik. Yes, I will say this about the report. I would 
agree that 10 years is a long time for a revision to be under 
development, and I certainly would conclude that there should 
have been a more efficient way to do that. At the same time, I 
have to appreciate the history of what has gone on with the 
attempts with the revision in terms of the several 
interruptions that have occurred.
    So I am a little hesitant to pass judgment on the historic 
events of that kind. I will repeat what I did yesterday: I do 
think that, given the nature of the Tongass, the large land 
base of 17 million acres, the complexity of the issues, the 
profile, often the polarized views that need to be dealt with, 
that it is not surprising that it was a cumbersome process. But 
the specific criticisms of the Forest Service on lack of 
monitoring, the lack of the ability to make decisions?
    Mr. Janik. Let me speak to monitoring first. I think that 
in a relative sense we have a good record on the Tongass of 
monitoring. Some of the things that we have generated have been 
used by the forests in the lower 48. That does not mean, 
however, that we do not have room for substantial improvement.
    The Chairman. I think the focus here and the criticism 
specifically was that monitoring was not used in the absence of 
the ability to make a decision, because of the questionable 
science. Do you take issue with that?
    Mr. Janik. I take some issue with that. I think the 
importance of the science, introduced especially over the past 
3 years in a more intensive way than it has been in the past, 
and in terms of the anticipated reaction by the courts to a 
number of challenges these days that we often face, whether it 
be on viability of wildlife species or whatever--I do think 
that one needs to have a plan that is legally defensible. That 
was one of our principal focuses as we proceeded for the past 3 
years.
    The Chairman. Of course, that is non-guaranteed. Legally 
defensible is in the eyes of the beholder.
    I am kind of curious relative to your comments yesterday 
where you indicated that, if indeed some of the species in the 
habitats you were concerned about showed an increase or the 
science showed more promise, that the ASQ would be increased.
    Mr. Janik. Yes, I was referring to the regular process of 
forest plan implementation, that through monitoring you observe 
how reality is shaking out as compared to projections in your 
plan. And if you find out over time that there is an 
accumulation of a difference, then you are obligated to amend 
the plan, make changes to it.
    The Chairman. I noted on page 13 when they were commenting 
on the Forest Service not being accountable for time and costs 
of its decisionmaking process, the specific statement that the 
Forest Service is held accountable for developing a plan, and 
the plan may be scientifically credible and legally defensible, 
but it is not accountable for making timely, orderly, and cost 
effective decisions. While the agency incurs the time and costs 
associated with legal challenges to the scientific credibility 
and the legal defensibility of its decision, the costs of the 
Forest Service indecision and delay are borne by others, namely 
the taxpayer, while the costs associated with the uncertainty 
of not having an approved forest plan are borne by members of 
the public who are concerned about maintaining diversity.
    So indeed there is a good deal of criticism over what the 
OMB suggests is the ability to use monitoring in lieu of 
scientific decisionmaking, which is less than totally supported 
because of the various exposures associated with coming up with 
a scientific decision.
    So is it not conceivable that you can be as legally--have 
as legally defensible a position by simply saying, we are going 
to monitor this, and by monitoring if it is indeed a question 
of the science leaving questions unanswered, by monitoring it 
we can indeed determine what action would be taken? Is your 
legal position any less defensible by that conceptual process?
    Mr. Janik. Our judgment, Mr. Chairman, is that we have 
taken the revision to the point of adequacy on the three points 
that I have stated a number of times, and we consider that 
absolutely required to sustain the implementation of the plan.
    The Chairman. I think what you have done is debatable in 
that regard, but clearly the cost and the time are excessive. I 
cannot help but note the comment here: ``The inefficiency that 
is occurring in the process to revise the Tongass plan is 
occurring at every single decisionmaking level within the 
Forest Service.'' You, sir, bear a portion of that 
responsibility.
    It further states: ``An internal Forest Service report 
estimates''--and this is an internal Forest Service report that 
you have access to--``estimates that inefficiencies within the 
agency's decisionmaking process cost up to $100 million a year 
in the project level alone.'' Do you dispute that?
    Mr. Janik. I am not prepared to answer that national 
statistic, but I would like to say there on that point again, I 
would disagree. I think the effort that has occurred over the 
past 3 years that I have been familiar with the revision has 
been a very efficient one. As I said yesterday, if you equate 
this land base and the complexity to other situations in the 
country, you would be seeing anywhere from 60 to 20 different 
forest planning efforts, and we were producing one revision. I 
think that has to be kept in context.
    The Chairman. I believe that you gentlemen have opening 
statements, Mr. Allen and Mr. Janik. Go ahead.

  STATEMENT OF DAVID B. ALLEN, ALASKA REGIONAL DIRECTOR, U.S. 
            FISH AND WILDLIFE SERVICE, ANCHORAGE, AK

    Mr. Allen. Thank you, Mr. Chairman. What I would like to do 
is submit my formal statement for the record, and I have some 
additional comments I would like to make just to highlight the 
important points in the statement.
    The Chairman. Please proceed.
    Mr. Allen. It is my pleasure to be here today to discuss 
U.S. Fish and Wildlife Service's involvement in the TLMP 
planning process. The involvement by the Service in the Forest 
Service planning process effectively began with the enactment 
of the National Environmental Policy Act in 1969. The thrust of 
our involvement has been to provide technical review for fish 
and wildlife conservation as part of the overall forest 
management planning process.
    Beginning in the late 1980's, the Service provided 
technical advice on the Tongass plan through inter-agency 
committees and work groups. Examples include the Forestry-
Fisheries Work Group, Viability Populations Committee, and the 
development of conservation assessments for the Alexander 
archipelago wolf, the Queen Charlotte's goshawk, and the 
marbled murrelet.
    The goal of the Service's involvement in the TLMP planning 
process has been to work in partnership with the Forest Service 
to ensure adequate protection of fish and wildlife resources. 
In 1994 we accepted the Forest Service's invitation to be a 
full participant on the interdisciplinary team preparing the 
new TLMP plan. EPA, the National Marine Fisheries Service, the 
Biological Research Division of the U.S. Geological Survey, the 
State of Alaska and academia joined in this effort as well.
    In January 1994 the Departments of Agriculture, Interior, 
and Commerce entered into a memorandum of understanding 
establishing a framework for cooperation in the conservation of 
species tending toward listing. In December of that same year, 
the Forest Service, the Fish and Wildlife Service, and the 
Alaska Department of Fish and Game entered into a similar MOU 
to establish a cooperative program consistent with the 
directive of the national MOU. This memorandum of understanding 
was the impetus for the conservation assessments I mentioned 
earlier prepared for the wolf, the goshawk, and the murrelet.
    In April 1996 the Forest Service published the revised 
supplement to the draft TLMP EIS. In August 1996 the Service 
responded to that draft with detailed comments.
    In the 11-month interval between the draft and the final 
NEPA document publication, numerous meetings were held between 
the Forest Service and the Fish and Wildlife Service technical 
staff and policy level managers to further overall inter-agency 
coordination. This was done in the interest of providing for 
fish and wildlife conservation in the Tongass.
    For the future, the Service strongly endorses the Forest 
Service's commitment to establishing an inter-agency team to 
develop and implement a biological monitoring program for the 
new TLMP. A monitoring program is crucial to evaluating the 
overall effectiveness of the plan in terms of fish and wildlife 
conservation. With the Forest Service in the lead, the Service 
has already expressed it willingness to be a partner in this 
effort.
    Thank you. That concludes my oral comments and I will be 
happy to answer any questions.
    [The prepared statement of Mr. Allen follows:]
Prepared Statement of David B. Allen, Regional Director, Alaska Region, 
       U.S. Fish and Wildlife Service, Department of the Interior
    Mr. Chairman and members of the Committee, I am David B. Allen, 
Regional Director of the Alaska Region of the U.S. Fish and Wildlife 
Service. It is my pleasure to be here today to testify on the 
collaborative process between the Service and the U.S. Forest Service 
during the development of the new Tongass Land Management Plan (TLMP).
    Eighty percent of the land area in Southeast Alaska is managed by 
the U.S. Forest Service. Thus, the fate of fish and wildlife resources 
therein, many of which are species for which the Fish and Wildlife 
Service has statutory responsibilities, are inextricably tied to 
management of the Tongass National Forest.
    The involvement of the Service with Forest Service planning 
processes began, in earnest, with enactment of the National 
Environmental Policy Act of 1969. The two agencies have since agreed 
that the Service should provide input to overall forest management 
planning at the inception of the process in order to facilitate fish 
and wildlife conservation in any subsequent decision-making. Closer and 
earlier coordination promotes the concept of resource conservation as 
an overall management goal in all aspects of forest management.
    Prior to the May 1997 completion of the new TLMP, the Forest 
Service was operating under the 1979 Plan, as amended in 1986 and 1991. 
All of these had received Service review and comment during their 
development. However, the working relationship between the Service and 
the Forest Service has evolved enormously over the last 7 years.
    Beginning in the late 1980s, the Service provided technical 
guidance through staff-to-staff contacts as members of various 
interagency committees, work groups, teams, and panels that developed 
resource conservation information for incorporation into the Plan. 
Examples of these groups and their output included, the Forestry-
Fisheries work Group; Viable Populations Committee; the development of 
conservation assessments for the Alexander Archipelago wolf, Queen 
Charlotte goshawk and marbled murrelet; watershed analysis review; 
interim project review; and the deer model review.
    The Service had a single goal for its involvement in these 
activities: to support Forest Service efforts to manage habitat to 
assure that viable populations of fish and wildlife would remain well 
distributed throughout the Tongass National Forest. This involvement 
not only furthers the Service's mandate to protect and conserve trust 
resources, but also helps fulfill the Forest Service's responsibilities 
to the American public under Forest Service regulations associated with 
the National Forest Management Act.
    In 1994, at the invitation of the Forest Service, the Service 
assigned a biologist to be a full member of the interdisciplinary team 
preparing the new Tongass Land Management Plan. This invitation meant 
that in addition to Service participation in the various teams 
ancillary to the planning process, the Service was now involved with 
the actual development of TLMP. The Service was joined by other 
agencies in this effort when the Forest Service also involved the 
Environmental Protection Agency, National Marine Fisheries Service, the 
Forest Service Laboratory, USGS Biological Resources Division, State of 
Alaska, and academia in TLMP development. Subsequently, the Service's 
Assistant Regional Director-Ecological Services was invited to become a 
member of the TLMP policy team, a group comprising Forest Service, FWS, 
EPA, NMFS, and State of Alaska policy-level representatives that met 
periodically to review TLMP Team work.
    In January 1994, the Departments of Agriculture, Interior, and 
Commerce entered into a Memorandum of Understanding (MOU) that 
established a framework for cooperation and participation among the 
agencies in the conservation of imperiled species in the Tongass 
National Forest. In April 1996, the Forest Service published the 
Revised Supplement to the Draft Tongass Land Management Environmental 
Impact Statement and Draft Forest Management Plan for public review and 
comment, in accordance with NEPA requirements. On August 24, 1996, the 
Department of the Interior submitted comprehensive comments and 
recommendations for improvement of these documents. During the 11-month 
interval between draft and final NEPA document publication, numerous 
meetings were held between agency technical staffs and policy level 
managers as part of our overall interagency coordination. Much of this 
interaction occurred from November through December 1996. Again, the 
objective of our efforts was to assist the Forest Service in their 
efforts to assure that the TLMP would provide for species viability 
throughout the Tongass, a responsibility of the Forest Service as 
required by Forest Service planning regulations under the National 
Forest Management Act.
    Our interaction in the TLMP from January to the present has 
principally occurred at the staff level, dealing with technical issues 
only. Such issues include reviews of TLMP supporting documents, 
standards and guidelines, and NEPA projects in transition.
    For the future, it is the Service's view that as the new TLMP is 
implemented, it must be carefully monitored. We believe that monitoring 
is critical to the TLMP's success because it is the only available 
mechanism by which the Forest Service can determine the effectiveness 
of the plan in terms of the conservation of fish and wildlife resources 
on the Tongass. The U.S. Forest Service has committed to establishing 
an interagency team to develop and implement a monitoring program. The 
Service has expressed a willingness to participate in the monitoring 
program as a full partner.
    This concludes my testimony on the collaborative process between 
the Service and the U.S. Forest Service during the development of the 
new TLMP. Thank you for your interest in the TLMP. I would be happy to 
answer any questions you may have in regards to our collaborative 
efforts on the TLMP with the U.S. Forest Service.

    The Chairman. Thank you, Mr. Allen.
    Mr. Janik.
    Mr. Janik. Thank you, Mr. Chairman, for the opportunity to 
testify twice in 2 days. Thank you for this opportunity, and to 
accompany Mr. Allen with regard to our cooperation with the 
Fish and Wildlife Service during the revision of the plan.
    Let me start by saying that preventing the need to list 
species under the Endangered Species Act is the current Federal 
Government policy both that the Forest Service and Fish and 
Wildlife Service are dedicated to. That is described in the 
Federal national memorandum of understanding signed in January 
1994 by the Forest Service, Fish and Wildlife Service, Bureau 
of Land Management, National Park Service, and the National 
Marine Fisheries Service. In fact, in December 1994 we 
localized that commitment. The Forest Service, Fish and 
Wildlife Service, and Alaska Department of Fish and Game signed 
a complementary memorandum of understanding to establish a 
cooperative program to promote conservation of species tending 
toward listing under the ESA.
    Moreover, the Department of Agriculture Regulation 9500-4 
directs the Forest Service to avoid actions which may cause a 
species to become threatened or endangered.
    The Chairman. Avoid actions?
    Mr. Janik. Yes. It reads verbatim ``to avoid actions which 
may cause a species to become threatened or endangered.''
    More detailed direction is provided in chapter 2670 of the 
Forest Service Manual, and managing habitats to maintain viable 
populations of wildlife as required under the regulations 
implementing the National Forest Management Act is one of the 
most important tools we have for maintaining healthy 
populations of species and preventing the need to list them 
under ESA.
    The agencies have been actively cooperating for a long 
time, certainly since 1988 regarding wildlife habitat 
management and wildlife conservation planning on the Tongass 
National Forest. We have collaborated on wildlife field studies 
certainly since 1990 in a very obvious way, and the Fish and 
Wildlife Service was a member of the inter-agency viability 
population committee that has received quite a bit of 
notoriety. This committee was formed in 1990 by the Forest 
Service to help revise the Tongass plan by addressing wildlife 
viability. The committee continued its work until May 1994.
    At the same time that I expanded membership in the Tongass 
planning team to include research scientists, I also asked each 
of the Federal agencies and the State of Alaska for assistance. 
The Environmental Protection Agency and the Fish and Wildlife 
Service had full-time members on the Tongass revision 
interdisciplinary team. That was over a 2\1/2\ year period.
    We also received substantial assistance from 
representatives of several State agencies, as I mentioned 
yesterday, and the National Marine Fisheries Service. We 
received valuable information from all these contributors.
    The representation from the Fish and Wildlife Service did 
bring additional experience and expertise and the Department of 
the Interior perspective to the Tongass plan revision. The 
personnel on the team helped write the standards and 
guidelines, mitigation measures, land allocation 
determinations, and were involved in those deliberations as the 
team put together their proposals and analysis.
    Fish and Wildlife Service also had a senior person 
represented on the Tongass plan revision policy advisory group. 
This group helped guide the revision process and identify 
policy issues critical to the revision. The two agencies, just 
as one example of cooperation, also jointly conducted a public 
information meeting in Ketchikan regarding wildlife 
conservation planning.
    Fish and Wildlife Service staff was briefed on the plan 
alternatives and was asked for suggestions and concerns. I did 
carefully consider those recommendations in developing the 
final plan. Their recommendations included additions to old 
growth reserves, modifications of standards and guidelines. 
Also, as required by law, we did consult with the Fish and 
Wildlife Service under provisions of the ESA concerning the few 
threatened and endangered species that do exist on the Tongass 
currently. Those do not have many management implications, by 
the way, but we did go through the formal process before making 
the decision in the ROD.
    I have briefly described the professional relationship that 
the Forest Service and Fish and Wildlife Service enjoy in 
Alaska and the years of cooperation for the purpose of wildlife 
and habitat conservation. I am confident that the habitat 
strategies developed and implemented through the Tongass plan 
will provide adequate protection for fish and wildlife habitat 
to assure the viability of the species we are concerned about 
on the Tongass.
    I look forward to continuing our work together with the 
Fish and Wildlife Service to assure wildlife and fish species 
and their welfare on the Tongass, and I appreciate being able 
to accompany Mr. Allen today.
    The Chairman. In your statement, Mr. Janik, you used the 
word, and I interrupted you, ``avoiding'' actions that would be 
detrimental to any of the concerned creatures that habitat the 
forest or potentially could be identified to avoid listing; is 
that correct?
    Mr. Janik. That could lead to a listing, yes, sir.
    The Chairman. And two of those creatures are hunted and 
trapped. The wolf is hunted and trapped, the marten is trapped, 
right?
    Mr. Janik. That is correct.
    The Chairman. Your statement was: ``Moreover, the 
Department of Agriculture directs the Forest Service to avoid 
actions which may cause a species to become threatened or 
endangered.''
    Why is it not within your purview to make a recommendation 
to the State, who manages fish and game, to terminate hunting 
and trapping of these species as a contributor to ensure that 
they are not listed?
    Mr. Janik. I believe the MOU that I mentioned in the 
testimony, Mr. Chairman, that we signed together in December 
1994 provides a forum for doing just that kind of thing should 
that kind of action be observed as being necessary under the 
prerogative of the agency having the jurisdiction.
    The Chairman. Well, why do you not do it?
    Mr. Janik. We constantly are talking about the needs of 
these species. The revision--my responsibility----
    The Chairman. We have a species that is threatened 
potentially.
    Mr. Janik. Yes.
    The Chairman. Why would it not be prudent to simply take 
that action? You have an interest. You are a landowner. You can 
close that land. If this were a recreation leaseholder, you 
could dictate terms and conditions to protect your land.
    Mr. Janik. There is no problem in doing that, Mr. Chairman, 
after one determines it is necessary.
    The Chairman. Well, even the thought of it being--I can 
read you the process that we have gone through already with the 
U.S. Fish and Wildlife Service relative to the last time 
around. Why would it not simply be prudent? Just a minute now. 
You are basing a good deal of your ASQ on habitat concern 
associated with two or three species.
    Mr. Janik. Yes, a whole host of species.
    The Chairman. No, just a minute. Specifically the 
archipelago wolf because it was potentially on the list for 
threatened species, the goshawk, the marten. Those are the ones 
that we're specific about, right?
    Mr. Janik. Those were given particular attention, but the 
strategy that has been developed has been for all of the old 
growth associated species.
    The Chairman. Well, I know, but that answer circles the 
question relative to the court case that we had, the mandate to 
have the new TLMP down prior to a certain date before the court 
ruled and would rule on the existing TLMP, which potentially 
would threaten the likelihood of a listing as a consequence of 
not having a current plan.
    Now, we all know this. We have gone through this. It is a 
charade to suggest otherwise. The point is your TLMP came down. 
We have still the exposure from the U.S. Fish and Wildlife or 
from the court relative to a listing. But my question to you 
is, do you not think it would ensure a more prudent response to 
the concern that you have as a landowner to simply make a 
recommendation to the State Department of Fish and Game that 
they terminate hunting and trapping for these species?
    Mr. Janik. The revision addresses habitat and I know you 
understand that, Mr. Chairman, that that is the responsibility 
of the revision. Mr. Allen has to consider other factors and he 
will raise those as he sees fit, I am sure, in the forum that 
we have established. If that observation is such to generate a 
recommendation to the Department of Fish and Game or whomever, 
I am sure that is where that discussion would lead.
    The Chairman. Well, as we are all aware, the court 
decision, the Fish and Wildlife Service, and the negotiations 
that began with the Forest Service in an attempt to ensure that 
the final forest plan would prevent the need to list the 
goshawk or the wolf as endangered--so to suggest that they are 
not a part of this process specifically I think is misleading.
    The Fish and Wildlife Service had until May 1997 to reach a 
decision, and then of course we know the rest. There was a 
question of a criticism for not having the proposal done and 
the exposure associated with not having that done relative to 
the court's ultimate decision.
    So on the one hand we potentially have expedited a process 
to ensure that we would have a plan, and on the other we have 
not taken all the steps that could have been taken as a prudent 
landholder to ensure that there were no further threats to 
these particular species that have been identified, that could 
very easily have been taken.
    Now let me ask you, Mr. Allen and Mr. Janik. Had the State 
5 years ago or last year even taken the initiative to ban 
trapping and hunting on these species, would that have been 
taken into consideration, that actual fact, in your evaluation 
of the TLMP?
    Mr. Allen. Mr. Chairman, I will try to answer that issue 
with regard to wolf conservation. I think that obviously had 
the State taken such action that would have been very 
significant in evaluating the overall issue of conservation of 
the wolf. They have not.
    One thing I would like to add, though----
    The Chairman. Just do not leave me there, they had not. But 
it would have made a difference had they?
    Mr. Allen. Well, certainly. I mean, obviously any direct 
impact on the take of wolves certainly would have had some 
significance.
    The Chairman. It might have had a detrimental effect on the 
deer.
    Mr. Allen. That is also possible, Mr. Chairman. In fact, it 
is also likely.
    The Chairman. Very likely, because, what, one wolf takes 
how many deer a week?
    Mr. Allen. I am not exactly sure.
    The Chairman. You are a wolf expert.
    Mr. Allen. No, I am not a wolf expert.
    The Chairman. Well, it says here you are.
    Mr. Allen. I have wolf experts that work for me, but I am 
not.
    The Chairman. Well, what do they tell you? How many?
    Mr. Allen. What do they tell me, how many they take a week?
    The Chairman. A week or a month. I do not care.
    Mr. Allen. I do not have that information.
    The Chairman. You do not know?
    Mr. Allen. No, I do not know.
    The Chairman. Would you provide it for the record?
    Mr. Allen. I certainly can.
    [The information requested was not received at the time the 
hearing went to press.]
    Mr. Janik. Mr. Chairman, my part of that answer is, our 
obligation is to the National Forest Management Act, the 
provision of wildlife viability deals with habitat. We have to 
look at the long-haul implications of the effects of habitat. 
Our standard is looking at the viability provision. How that 
relates to requirements of the Endangered Species Act is a 
relationship, but one that falls under the jurisdiction of the 
Fish and Wildlife Service.
    The Chairman. I do not buy that, Phil, because you are a 
landholder.
    Mr. Janik. Yes.
    The Chairman. And if I am in your area on a lease for 
recreation you can tell me to do anything, and I have to do it 
or get out. You can do the same thing with your concern over 
the species associated with the habitat you are trying to 
maintain, if you want to do it. If you do not want to do it, 
that is something else.
    Mr. Janik. Mr. Chairman, we have provisions in the plan 
that deal with access, and that has to do with actual mortality 
of animals. So it is not as if we have not addressed some of 
these things. But when it comes to alteration of regulations, 
the provision for viability over the long haul calls on us to 
look at the habitat provisions.
    The Chairman. The U.S. Department of Agriculture regs are 
clear: avoid actions which may cause a species to become 
endangered. The Forest Service has had two alternatives: change 
the TLMP or close lands to hunting and trapping. So do not tell 
me you do not have the flexibility. You do. You did not choose 
to do it. That is your own business and you are held 
accountable for it.
    Mr. Allen, we would appreciate you briefly recounting for 
us the nature and extent of the Fish and Wildlife Service's 
involvement in the Tongass land managing process. Specifically, 
could you indicate at what date the Service was brought into 
the TLMP planning?
    Mr. Allen. Yes, Mr. Chairman. As I indicated, we became 
involved I think significantly in the late eighties, as I 
suggested in my testimony, in a variety of committees and work 
groups that were formed. That relationship became formal in 
1994 when we actually placed an employee of the Fish and 
Wildlife Service on the TLMP planning group itself.
    The Chairman. Based upon the Service's involvement with the 
TLMP planning effort as part of the interdisciplinary team, as 
well as its role in providing technical assistance to the 
viability analysis, do you concur with Mr. Janik that the TLMP 
will meet the National Marine Fisheries viability requirement?
    Mr. Allen. The Forest Service's viability requirement?
    The Chairman. The National Forest Management Act, I am 
sorry.
    Mr. Allen. Thank you. I nor my staff have made no 
determination on the Forest Service standard with regard to the 
viability.
    The Chairman. Do you anticipate doing so?
    Mr. Allen. No, we do not, sir.
    The Chairman. Why?
    Mr. Allen. It is a Forest Service decision. The way we have 
addressed the issue of fish and wildlife conservation on the 
forest is in the broader context of measures that we think will 
be important to their long-term conservation. The viability 
standard is a Forest Service standard. It is their decision and 
we do not make any independent judgment.
    The Chairman. Well, if you are not going to provide them 
any advice, then what was the point of your involvement?
    Mr. Allen. Well, sir, our advice has--as I said, we look at 
what the prescriptions are for harvest. We look at what the 
protection measures that are laid out over the landscape. I can 
say this much: that what we have been able to examine with 
regard to the new plan versus the old plan, the changes 
significantly benefit wildlife.
    But to answer your question directly, do I agree or concur 
that the Forest Service's viability standard has been met, I 
have not made that determination nor have I asked my staff to.
    The Chairman. Well, I guess the question would be do you 
intend to?
    Mr. Allen. No, sir.
    The Chairman. The reason for that is?
    Mr. Allen. It is a Forest Service decision.
    The Chairman. But you have an involvement in the process 
and have had since the eighties.
    Mr. Allen. Yes, sir.
    The Chairman. And formally since 1994.
    Mr. Allen. And we continue to make recommendations and give 
advice on what we think is good for fish and wildlife. How they 
determine whether or not--how they use that information to 
determine whether or not they have met their viability standard 
is their decision, sir.
    The Chairman. Well, are you not in a position where you are 
going to have to tell the court your opinion on the viability 
of the two species in question?
    Mr. Allen. No, sir.
    The Chairman. Who is?
    Mr. Allen. What we have to tell the court is whether or not 
these two species are eligible for listing either as threatened 
or endangered--an entirely different standard, a different law.
    The Chairman. Does that not require you to make some 
decisions regarding the viability----
    Mr. Allen. No, sir.
    The Chairman. What is going to provide you with that 
decisionmaking process?
    Mr. Allen. Not in terms of the standard of viability that 
is required by the Forest Service. We have a set of standards 
that we use to determine whether or not a species should be 
listed under the Endangered Species Act.
    The Chairman. That is outside the----
    Mr. Allen. A different set of standards, sir.
    The Chairman. Outside that covered within this National 
Forest Management Act viability studies, outside of that?
    Mr. Allen. Correct, totally outside.
    The Chairman. Are they tighter or looser?
    Mr. Allen. My personal opinion?
    The Chairman. Sure. That is all we have got.
    Mr. Allen. I think the law is a bit more prescriptive under 
the act on how we address and determine whether or not a 
species is endangered or threatened than the language that is 
in the, I guess it is, the Forest Management Act.
    The Chairman. So in other words, you are telling me that 
your process is independent of your association with the Forest 
Service on their development of the TLMP and under the 
structure that the Forest Service had to follow?
    Mr. Allen. Yes, our process for making a listing 
determination is, sir.
    The Chairman. Which is the higher threshold?
    Mr. Allen. I am not sure that I could answer that directly, 
which is the higher threshold.
    The Chairman. Well, we assume that the higher threshold 
would prevail.
    Mr. Allen. If we assume the higher threshold would prevail, 
if the issue--if you are trying to draw a connection between 
the viability standard and an endangered species determination, 
that has never been done, sir. Conceptually, it would be nice 
to be able to say that if you have a viable population for 
which the Forest Service in the actions that they take would 
have a significant effect to all or a significant portion of 
their range and you had a viable population, then conceptually 
you should be able to say that that species does not warrant 
listing.
    The Chairman. Well, it sounds to me like, independent of 
your cooperative effort with the Forest Service, whatever you 
are going to do on the listing issue is not associated with 
what you have been involved in.
    Mr. Allen. Not directly, sir, no.
    The Chairman. So I assume you are in a position at any time 
to make your evaluation based on other considerations.
    Mr. Allen. The basic connection between the TLMP process 
and the issues relevant to fish and wildlife conservation and 
the viability issue and the listing actions is the science that 
is available to make those decisions. The science base is the 
same for both of us.
    The Chairman. How do you handle a situation where you go to 
court and there may be a difference of opinion with regard to 
the Forest Service position and the U.S. Fish and Wildlife's 
position relative to the viability issue?
    Mr. Allen. On the viability issue? We would not go to court 
enjoining the Forest Service over a viability question. The 
Fish and Wildlife Service would not.
    The Chairman. Well then, are we in agreement?
    Mr. Allen. Are we in agreement?
    The Chairman. Yes, would you be in agreement on the 
viability? You would not take them to court, would not go to 
court. But if the court came down and said, okay, there is a 
difference of opinion here between the U.S. Fish and Wildlife 
Service and the Forest Service with regard to the analysis 
concerned with the species?
    Mr. Allen. I think if the U.S. Government went to court 
over the issue of viability, a question that really is in the 
domain of the Forest Service, if there were any differences or 
concerns over that issue, they would be resolved as a matter 
of--as technical matters and science matters within the 
administration. They would not be issues that would be 
contested legally in court between the U.S. Fish and Wildlife 
Service and the Forest Service.
    The Chairman. When we get to court--what is it, 60 days or 
so--are you going to be together?
    Mr. Allen. On the issue of the remands to the petitions?
    The Chairman. Yes.
    Mr. Allen. Are we going to be together?
    The Chairman. Are you going to have the same position?
    Mr. Allen. The action agency here, sir, is the U.S. Fish 
and Wildlife Service, and whether or not--I will let Phil 
answer that question, but we are the action agency by law with 
regard to the listing decision, and that will be the position 
of the Government.
    The Chairman. Why are you giving the question to Phil then?
    Mr. Allen. Pardon me?
    The Chairman. Then why do you give the question to Phil?
    Mr. Allen. Why do I give----
    The Chairman. You got a note there from your staff.
    Mr. Allen. Oh, I do.
    The Chairman. Yes. Go ahead and read it. I read mine.
    Mr. Allen. It says I have no answer; we are in litigation, 
sir.
    The Chairman. That is an honest answer.
    Well, the next question is, when we are in court on the 
TLMP are you going to be together?
    Mr. Allen. We will not be there, in all probability.
    The Chairman. You do not think so?
    Mr. Allen. No. No, sir.
    The Chairman. Do you agree with that, Phil?
    Mr. Janik. I do not know who is going to be asked to be in 
the court should we end up there with TLMP.
    The Chairman. Sure you will be in there. So you are not 
going to answer that one, either?
    We are trying to, obviously, make the point of whether you 
have come together on your conclusions in the TLMP or you are 
independent. Are you saying that the U.S. Fish and Wildlife 
Service could list a species that is viable today and that the 
Forest Service has undertaken actions to maintain viability 
pursuant to its responsibility?
    Mr. Allen. I could give you an example, sir, where indeed 
that could happen: where in fact the actions taken by the 
Forest Service, because of the range of the species, no matter 
how much they do, could in fact prevent a listing action 
because of actions outside of the control of the Forest 
Service.
    The Chairman. Mr. Allen, looking at the development of 
habitat reserves and meeting the viability requirement, 
yesterday we discussed with the Forest Service whether they 
took into account activities on non-Federal lands and they 
indicated that to some extent non-Federal lands were evaluated. 
We note that in an October 3 letter to the Forest Service from 
Janet Hohn, the Assistant Regional Director for Ecological 
Service of the Fish and Wildlife Service, she said that:
    ``The habitat reserve analysis also suggests that where 
past and ongoing timber cutting have eliminated or precluded 
the opportunity for use of the 300-year rotation and even-aged 
harvest techniques, approximately 900,000 acres since 1954, 
adequately sized, appropriately placed strategic habitat 
conservation areas are going to be needed in combination with 
other silvicultural management. The HCA designation will also 
need to take into account logging on adjacent private lands, 
Native lands, that has occurred or is planned if maintaining 
regional goshawk populations is part of the conservation 
strategy.''
    So it would appear that the Fish and Wildlife Service did 
look hard at private lands. Is that correct?
    Mr. Allen. Mr. Chairman, I believe basically all we did was 
look at the statistics that were made available to us by the 
Forest Service on how much of the private lands adjacent to 
Forest Service lands had been harvested.
    The Chairman. So you did not look on private lands?
    Mr. Allen. No, we did not look on private lands.
    The Chairman. You did look on Forest Service lands?
    Mr. Allen. In what?
    The Chairman. For goshawks.
    Mr. Allen. Yes, sir.
    The Chairman. And how much Forest Service land did you feel 
you covered?
    Mr. Allen. A small fraction of that forest.
    The Chairman. A small fraction. How much is a small 
fraction?
    Mr. Allen. Well, I believe that we were able to do a study 
2 years ago that involved about 25 square miles of forest in 
wilderness and unroaded areas that were not currently scheduled 
for timber harvest.
    The Chairman. You know, there is a representation here of 
ongoing harvesting taking place under the supposition. How do 
they know whether it is going to be on private or Forest 
Service lands, which private land is going to be developed vis 
a vis which will not?
    Mr. Allen. That really was not--I think the context of--I 
think the comment that we were providing at the time was that 
we noted that the amount of harvest, total harvest in aggregate 
on private lands, was significant. As the Forest Service 
proceeded with laying out on the forest their plan for habitat 
conservation areas, that in order to assure a good distribution 
of those that it simply would be prudent to take into account 
adjacent lands which may be entirely cut or not.
    The Chairman. You know, 25 miles seems pretty insignificant 
in a 17 million acre forest, recognizing that a significant 
portion of the 17 million is not goshawk habitat. Yet there 
could be an infrequent intermingling there, so I guess one can 
just question the reliability of that kind of a sample being 
accurate.
    Mr. Allen. As I indicated to you, it represents a very 
small area. Certainly we are not trying to represent it as 
something that is representative of the whole forest.
    The Chairman. No, but you are going to make your 
recommendation on that information.
    Mr. Allen. That is just one very small piece of information 
that will be used.
    The Chairman. Is that not fairly significant, an actual 
sampling of the forest as to what is there relative to the 
threatening of the species?
    Mr. Allen. Sir, we made an effort to look in a very small 
area. We used methodology that is the current state of the art, 
which has many flaws in terms of its reliability.
    The Chairman. That even substantiates my questionable 
concerns relative to how in the world you are going to have 
confidence in whatever your decision is.
    Mr. Allen. Well, as I said, we do have other information 
about goshawks.
    The Chairman. Other information that is as significant as 
an actual sampling? Such as what? What is more significant than 
an actual sampling?
    Mr. Allen. Well, probably the most significant information 
we have about goshawks in the forest, of course, are those 
goshawks that have been located primarily as a result of the 
areas that have been surveyed for production, as well as some 
located in other areas of the forest. There has been 
considerable work done by the Alaska Department of Fish and 
Game.
    The Chairman. Yes, but you are saying you took a sample. 
The Alaska Department of Fish and Game says they are not 
threatened.
    Mr. Allen. We looked at one very small area, sir.
    The Chairman. Well, that is fine.
    Mr. Allen. We did not have enough resources to do any more.
    The Chairman. But yet you are going to come down with a 
decision based on whatever you have been able to generate.
    Mr. Allen. Yes, the law does require----
    The Chairman. 25 miles.
    Mr. Allen. The law does require us to use the best 
scientific and commercial information available, and we will 
address it in that context.
    The Chairman. I note further in a November 19 letter to 
Beth Pendleton of the Forest Service Nevil Holmberg, the Fish 
and Wildlife Service's field supervisor for southeastern 
Alaska, noted in discussing the matrix management that: ``The 
matrix is the body of the Tongass between old growth reserves, 
including those areas that will actively be managed for timber 
production. The current preferred alternative results in the 
additional harvest of 502,000 acres of old growth by the year 
2025. When added to acres already harvested, the 387,000, and 
the 600,000 acres of private or State-owned lands, well over a 
million acres of old growth forest will be converted to younger 
serial stages. These factors require a careful long-term 
approach to avoid adverse consequences that will not be 
corrected for generations to come.''
    So here again it appears that Mr. Holmberg was looking at 
all ownership in assessing the Forest Service's 
responsibilities under the National Forest Management Act to 
meet the viability rule. Is it generally speaking the Fish and 
Wildlife Service's view in participating in the development of 
national forest plans that private and non-Federal land 
activities are relevant in advising the Forest Service as to 
what the Fish and Wildlife Service believes the Forest 
Service's statutory obligations are under the National Forest 
Management Act?
    Mr. Allen. The way I would address that question is, again, 
when we looked at fish and wildlife conservation issues on the 
Tongass National Forest and in southeast Alaska as a whole we 
thought it was important that the Forest Service does take into 
consideration what is occurring on adjacent lands. But that in 
no way was meant to imply that they either somehow exercise 
some control over that activity or that whatever occurred 
outside of their control necessarily was something that had to 
be accounted for with regard to their statutory requirements 
for maintaining viable populations.
    The Chairman. In the same letter, Mr. Holmberg notes that: 
``Throughout the planning process, now nearing closure, the 
Regional Forester, Mr. Janik, has steadfastly maintained that 
the Tongass must be science-based first. The Fish and Wildlife 
Service involvement, thus grounded, has sought to assure the 
fulfillment of this goal. The question before us is where do we 
go from here? The Fish and Wildlife Service believes that the 
cooperative working relationship exhibited over the last 2 
years is but a flawed, pale shadow of that which will evolve as 
we enter the twenty-first century.''
    Well, I am a bit confused. Both of you appear to have had 
an epiphany over your ability to forge a cooperative 
relationship that sounded almost of a moving nature, and I 
would expect that you would both retire to a cottage at the sea 
if that were the issue. But Mr. Holmberg believes that your 
relationship is a flawed, pale shadow of something that has not 
yet to evolve.
    What does Mr. Holmberg hope will evolve, Mr. Allen?
    Mr. Allen. Well, sir, I cannot directly speak for Mr. 
Holmberg. As you might well surmise, through the whole course 
of interaction with the Forest Service we have had a number of 
very vigorous debates on the issues of fish and wildlife 
conservation and we have all had our ups and downs. I would 
have to say overall, on the whole, we have made very 
substantial, significant progress in our relationship working 
together on these kinds of issues.
    What does Mr. Holmberg hope will evolve? I believe he would 
agree with me completely with the statement I made in my 
testimony, that what the next step is that is very important in 
this overall process is that the implementation of TLMP be 
accompanied by a good biological monitoring plan so we can 
learn from what we have laid out in this very complex 
comprehensive approach to land management.
    The Chairman. Well, I am going to hazard a guess on one of 
the things I think Mr. Holmberg may have meant. On October 21, 
1996, in a letter to Beth Pendleton, Mr. Holmberg states: 
``Finally, there remains an unaddressed issue of critical 
importance: the relationship of the revised TLMP to the NEPA 
completed timber sales through the Tongass National Forest. 
Given the number of such actions and the significant amount of 
forest they affect, failure to revise all unsold sales to 
conform with the new TLMP, regardless of their place in the 
NEPA process, would result in a de facto prolongation of forest 
management in accordance with the 1997 TLMP as amended. We find 
this prospect unacceptable.''
    I want both of you to respond to Mr. Holmberg's assertion 
and describe to me whether we are going to see you redoing 
sales where the preponderance of the NEPA compliance work has 
been completed. I also want you to provide me with cost 
breakdowns on what it would take to do this if that is where 
the two agencies are headed. If they are not, then let us say 
so.
    The proposition that this is even being considered, after 
spending taxpayers' money, $13 million, for the past, well, the 
total number of years that we have been in this process while 
your two agencies have been cooperating, suggests that this is 
perhaps a bit misleading relative to the exposure suggested by 
Mr. Holmberg.
    Mr. Allen. That was a concern, sir, that we raised with the 
Forest Service. We expressed our desire to have an opportunity 
to advise and have them consider reviewing some of the projects 
that were in the planning, various stages of planning. That 
activity in fact began and is probably not as onerous as might 
have been portrayed. I cannot give you any specifics as to how 
far that has gone. Perhaps Mr. Janik has some more specific 
information.
    The Chairman. You can give no assessment of the risk here?
    Mr. Allen. Pardon me?
    The Chairman. No assessment in your opinion of the risk 
associated with going back and doing these again?
    Mr. Allen. The risk of?
    The Chairman. Subjecting them to a new round.
    Mr. Allen. No. I think again the process that was brought 
about was not viewed as being onerous or a complete redoing of 
the planning process. It was more an examination of where there 
might be aspects of current projects that are significantly out 
of line with the new plan, and that did not require a great 
deal of time and effort.
    The Chairman. So you dismiss Mr. Holmberg's assertion?
    Mr. Allen. His assertion? It was an area of concern for us, 
yes. So no, I do not entirely dismiss his assertion.
    The Chairman. Well, I mean, where would we be if we have to 
go back? We would look pretty foolish, would we not, as a 
consequence of the caution that he expresses?
    Mr. Allen. Again, I think that the cautions that were being 
expressed there, sir, first and foremost, we had hoped that 
many of these projects, again where possible, could be brought 
in compliance with the standards that were going to be part of 
the new plan. Anything that was done in our view that improved 
the opportunities for fish and wildlife conservation were in 
our view valuable and important to any future decisions we 
might have to make.
    Mr. Janik. Mr. Chairman, if I may add to that.
    The Chairman. Go ahead.
    Mr. Janik. On page 40 and 41 of the record of decision, 
just as an example, we address a subject area that is always 
very awkward when you come out with a revised document of this 
kind, and that is called transition language: What do you do 
with existing projects that have already been under preparation 
and are in some degree of completion in terms of NEPA, or maybe 
even completed?
    We have tried to take in full account the concern you 
expressed in one of your questions, and that is there is a 
great deal of investment in these projects, and that is why 
there are four categories. What is being looked for here are 
the kind of fatal flaw types of things in the screening of 
projects, whether they be in category 1, and as you get through 
to 3 and 4 they are less under degree of preparation, so there 
is more opportunity to modify them in full compliance with the 
plan.
    Back in whatever date Mr. Holmberg wrote that note--when 
was that, October?
    The Chairman. Yes, it was October 21, 1996.
    Mr. Janik. We actually did have a screening of projects 
with the Fish and Wildlife Service involved. I am not sure if 
Fred Norbury is still in the room, but he was part of that with 
one of Dave's staff locally in Juneau. As Mr. Allen pointed 
out, it was not quite as rigorous as Mr. Holmberg might have 
anticipated when he wrote that note. It was done in just a few 
weeks. There were a few minor modifications made to some 
projects that did not involve a great deal of expense or 
retrofitting.
    We intend to do the same kind of cooperative screening now 
that we are 6 months hence or so, with regard to all the 
projects currently on the table.
    The Chairman. Well, obviously we are all looking for output 
at the end of the process. I am just wondering if we do not 
have the problem already before us and are just not relating to 
it and facing up to it. It is not something that the two of 
your agencies are going to simply work out in a collegial 
fashion without hitting the taxpayers with a big, big chunk of 
money.
    I refer you to a January 3, 1997, memorandum to Mr. Janik 
from Mr. Gary Morrison, the Forest Service supervisor in the 
Chatham area. In this memorandum he withdraws the In-Between 
timber sale, withdraws them. He states: ``As I am to 
understand, the reason for the withdrawal of this sale is based 
on direction from the Department of Justice,'' no less. He note 
further that: ``My understanding is that I am directed to 
either (a) forge a new decision document for the 4.4 million 
board feet of In-Between volume, as well as the yet 
unadvertised 9 million board feet of Crab Bay volume, both of 
which were cleared for immediate sale in the AWRTA settlement, 
or (b) reanalyze the sale areas along with the remainder of the 
southeast Chichagof project area volume that was not released 
on the AWRTA settlement and a new environmental impact 
statement''--a new one--``in full compliance with the direction 
of the new Tongass forest plan.''
    I also refer you to the TG message delivered to Gary 
Morrison on June 30 from Tim Obst. In this computer message, 
Mr. Obst indicates: ``I hate to tread on a sore subject, but 
the Department of Justice has been calling me to find out 
whether we have cancelled the advertisement for the In-Between 
and taken Crab Bay off the sale schedule. I know the message 
has come down the pike without leaving a trail and that Fred 
would like to get something in writing. But whatever we do to 
effectuate the direction, we need to do it this week so that it 
does not get closer to the bid opening date and there is no 
more effort wasted on the issue.''
    I have a concern with the effort that has already been 
wasted, already been wasted with this issue. I am further 
concerned that this seems to be an example of redoing sales 
that were already completed. I am most of all concerned that 
the Department of Justice is now intervening directly, for the 
first time, into timber sales decisions. It further states: Mr. 
Janik, please respond to my concerns.
    Mr. Janik. Certainly, Mr. Chairman. I am familiar with the 
situation of Crab Bay and In-Between. Frankly, those two sales 
are more related to the settlement that occurred with the 
Alaska Wilderness and Tourism lawsuit and the settlement that 
followed. Those sales were then identified as going to the 
Ketchikan Pulp Company, and during the Ketchikan Pulp Company 
settlement those sales were not encompassed in the 300-plus 
million that was involved in that settlement, but were taken 
out of that package through the settlement process under 
agreement with KPC and once again were then having to be 
prepared for independent offerings.
    What is involved here, as you see in the memos, is a lot of 
frustration. These sales have been bouncing around for a bit.
    The Chairman. It is pretty costly.
    Mr. Janik. And even though it is low volume, it is very 
frustrating. However, what is being dealt with here is an 
examination because it is the very thing that got us into a 
problem with the court in the AWRTA situation, that the NEPA 
documents and the NEPA sufficiency has to be evaluated at this 
point because now they are going to independent offering as 
compared to going to the long-term contract, which they were 
set up to do.
    So there is no way currently to predict just what the 
outcome of this evaluation will be. We are going to look at 
both those sales.
    The Chairman. So it is an exposure?
    Mr. Janik. Sir?
    The Chairman. It is an exposure.
    Mr. Janik. What do you mean by ``exposure''?
    The Chairman. Well, you say you do not know yet what it may 
lead to.
    Mr. Janik. Our evaluation. I am not sure what you mean by 
the term ``exposure.'' We are going to evaluate the two sales 
and the NEPA documents for adequacy.
    The Chairman. Well, were you not allowed to have them go 
somewhere else? I thought that was the point of the AWRTA sale, 
the settlement, to allow those.
    Mr. Janik. Yes, but then they were identified to go to the 
Ketchikan Pulp Company and for a while they were identified as 
having been transferred as part of the long-term contract 
obligation. Then when the settlement for the Ketchikan Pulp 
Company occurred those two sales were rejected during the 
settlement, and they now have to be prepared for independent 
offering.
    So we are going to examine whether the NEPA documents are 
sufficient for that new offering. It is the very thing that the 
court ruled on in the AWRTA case that bound up all of that 
volume for over a year, is that the purpose and needs statement 
and so on and so on in the NEPA documents were not targeted 
towards an independent offering. It was all that volume that 
went from the Alaska Pulp Corporation and was then offered for 
independent, and the court disagreed with our modifications and 
said we had to go back and do more work on the NEPA documents.
    The Chairman. Well, I do not know. Did you make the same 
mistake twice? These sales have been, what, through three 
lawsuits and two settlements, and I cannot believe----
    Mr. Janik. These sales have been through two settlements.
    The Chairman. Two settlements and three lawsuits.
    Mr. Janik. I am not sure how many lawsuits. I think two 
events associated with this problem have been the AWRTA 
settlement and the KPC settlement.
    The Chairman. I cannot imagine why there was a restriction 
on where they would go after the last settlement.
    Mr. Janik. Well, they obviously were not going to go to 
another long-term contract because none existed. So they are up 
for independent offering.
    The Chairman. Mr. Allen, yesterday we asked Mr. Janik what 
appropriations would be required to fully implement the Tongass 
plan. I would like to ask you, given the role that you have 
described in the forest plan implementation for the U.S. Fish 
and Wildlife Service, what additional resources will be 
required for your Service to play that role fully? I would also 
like to know what will happen if those resources are not fully 
forthcoming.
    Mr. Allen. Mr. Chairman, I cannot answer what the total 
costs of the monitoring program might be for TLMP. We have made 
an estimate. In fact, I have made a recommendation, the Service 
has, to the Secretary for funding in fiscal year 1999. My 
estimate at this point of what I think would be sufficient 
involvement by the Fish and Wildlife Service just as one 
player, because we view the State of Alaska also has a major 
role to play, would be approximately somewhere in the 
neighborhood of $500,000 to $600,000.
    The Chairman. Your Service seems intimately involved in all 
aspects of the TLMP implementation. What is your assessment on 
whether this is a wise investment of taxpayers' dollars as 
compared to using the funds on a recovery plan development for 
the species that are already on the list?
    Mr. Allen. Mr. Chairman, I think that the efforts that we 
have focused on in recent years, that is the Fish and Wildlife 
Service and the Forest Service, have all been preventative in 
nature. When we entered into an agreement in December 1994 to 
look at species that may be tending toward listing, we all 
agreed that anything that we could do of a preventative nature 
really was far less costly than ultimately what might be 
involved in taking remedial action if in fact it became 
necessary to list a species on the forest. It is like an 
insurance policy, sir.
    The Chairman. Hypothetically, with regard to the listing of 
the goshawk and the wolf, suppose that a new species were 
considered for listing. How would you and the Forest Service 
interact and how would the implementation of the TLMP be 
affected?
    Mr. Allen. Again, if for example, hypothetically, we were 
to receive a petition to examine another species on the forest, 
we would do essentially the same thing we did with the wolf and 
the goshawk. We would engage immediately with the Forest 
Service if we thought they were a major player, as well as with 
the State of Alaska. We would request additional public input 
for any other information relative to that. We would continue 
to consult and seek the advice of the Forest Service relative 
to that particular species.
    Under the terms of our memorandum of understanding with the 
Forest Service and the State of Alaska, where we have agreed to 
exercise conservation measures on species tending toward 
listing, this could also apply to a species that someone may 
have petitioned, whether the ultimate action is a listing one 
or not. It gives us an opportunity to examine more closely what 
the environmental requirements are of that species and, if it 
is determined necessary, to enter into a conservation agreement 
taking conservation measures which might amount to management 
practices. In the case of the State of Alaska if it is a game 
species, it could involve some regulatory actions.
    But these would be done, again, as measures that would 
prevent the need to invoke the Endangered Species Act.
    The Chairman. I am reading from the AWRTA settlement, 
appendix 2: ``The United States and AWRTA stipulate that, 
without further procedures under NEPA or ANILCA, the United 
States may prepare, advertise, offer, release, award, and allow 
operations to be completed for the following timber sales or 
offerings or portions thereof that are subject to a temporary 
injunction.''
    The specifics are Crab Bay, and it says ``In-Between, 
approximately 4.4 million board feet.'' Is that not adequate?
    Mr. Janik. That is part of what I was trying to explain 
earlier, Mr. Chairman, that these projects then went to the KPC 
allotment under the obligation of the long-term contract. They 
were then rejected, and at this point we are making sure that 
they are suitable for independent offering.
    The Chairman. Well, it says here you do not need to do 
that.
    Mr. Janik. Current discussion with a number of parties, 
including Department of Justice, indicates we need to take a 
look at this.
    The Chairman. It says here--and this is an order, is it 
not? It says ``court order'' at the bottom of it.
    Mr. Janik. And this homework may need to immediate re-
advertisement. I have no idea at this time.
    The Chairman. ``The United States stipulates that, without 
further procedures.'' Now, that is as clear as----
    Mr. Janik. I think the complication is the transfer over to 
the KPC and now the reversal into independent offering, what 
happened subsequent to that. And as I said earlier----
    The Chairman. That is not what it says, is it?
    Mr. Janik. There are some remaining questions that need to 
be answered.
    The Chairman. Well, you can have all the questions you 
want, but it says here ``The United States and AWRTA stipulate, 
without further procedure under NEPA or ANILCA, the United 
States may prepare, advertise, offer, release, award, and allow 
operations to be completed on'' the Crab Bay timber site.
    Mr. Janik. I agree, that language is quite clear.
    The Chairman. Well then, why did you not do it?
    Mr. Janik. Because in subsequent discussion, with the 
complication of the KPC settlement----
    The Chairman. Who did you discuss it with?
    Mr. Janik. A number of people: our own people, the 
Department of Justice, who was heavily involved in both these 
settlements, and our Office of General Counsel.
    The Chairman. Why do you not just make a decision? You have 
got the Department of Justice. You have got a court order to 
back you up. What more do you need?
    Mr. Janik. I am not sure there is anything more needed. We 
are looking into it.
    The Chairman. You know, Jack Ward Thomas made the statement 
in his opinion relative to the heart of the debate over public 
land management, and he said: ``The simple fact has arisen from 
a series of events and the interaction of the ESA and the 
regulations issued pursuant to the National Forest Management 
Act, specifically that diversity regulations and executive 
orders to take the brunt of the consequences of law and 
regulation on forest land where possible''--``Federal land 
where possible. This has a profound impact on the capability of 
the managers of the public lands to carry out their multiple 
use mission in a manner that solidifies the evolved policy of 
biodiversity retention and meets the expectations of many 
western members of Congress for community stability and higher 
levels of resource extraction.''
    Do you concur with that in general?
    Mr. Janik. That was the personal view of the Chief, Jack 
Ward Thomas. I judge his opinion very highly. The questioning 
related to the TLMP revision, sir, is we deal with the laws 
that are on the table and what we are instructed to do by 
those. That is what we attempted to do.
    The Chairman. Well, the way this thing reads is basically 
the Forest Service is going to make a decision and take the 
consequences, with the presumption that all Native land is 
harvested. That is the way it comes down on the application in 
your TLMP, and that is hardly true because it is not all 
harvested.
    Mr. Janik. Would you please put that in the form of--
rephrase that question, Senator? I am not sure I am exactly 
reading----
    The Chairman. The assumption is that the way you have come 
down and the application of this is that all Native timber is 
in fact assumed to have been harvested.
    Mr. Janik. I do not concur that that is the assumption we 
have made in the revision.
    The Chairman. What is the assumption you made in the 
revision on Native timber?
    Mr. Janik. What I believe has happened here through the 
panel assessments that we discussed and all else is that the 
context of the Tongass setting was taken into account when the 
folks that we asked to give their opinions and judgments on 
what was needed in terms of habitat strategies and the risks 
associated with those on the Tongass, on the Federal land, what 
was needed.
    So I would concur there was some consideration given to 
conditions on other lands. At the same time, the focus was what 
is needed on public land, the Tongass.
    The Chairman. I am going to wind this up in about 5 
minutes.
    There was a question yesterday relative to a point on the 
timeliness of changes in the planning process that went into 
the development of the TLMP, and I want to go back to these two 
charts. Do I have my narrative in front of me? I cannot read it 
from here, that is my problem. You have got it somewhere? We 
will find it.
    I am sure you figured I would get back to it, so you have 
probably got it memorized. Or maybe you can read it from there. 
It is dated----
    Voice. It is dated May 14, 1997.
    The Chairman. And read the reference. It says at the 
bottom--I have got it here. This is ``For your review.'' It is 
from the TLMP team to Gary Morrison, Gail Kimball, Brad Powell, 
Phil Janik, Fred Norbury, and Tim Obst, I believe.
    Mr. Janik. Tim Obst.
    The Chairman. And it says: ``For your review, enclosed are 
the additional proposed standards and guidelines,'' et cetera, 
et cetera, ``additional measures for landscape collectively, 
modifications.'' ``Enclosed are the proposals as they modify 
the December 1996 version of the forest plan.''
    It says then: ``Please look at these changes,''--and these 
are underlined in yellow--``Look them over and give us any 
comments no later than close of business on Thursday, May 15, 
if at all possible.'' That is the next day.
    Then the next chart, and I think it is significant because 
it says at the top this is a ``working document,'' marked 
``confidential'': ``Region X forest management has had an 
opportunity to review the most recent draft of the proposed 
TLMP forest-wide standards and guidelines for the marten, 
drafted 5-5-97 at 11 o'clock.'' That is getting pretty close, 
too.
    ``The initial reaction of forest management was that the 
revised standards and guidelines would result in a significant 
reduction in the amount of viable timber available for planned 
harvest.''
    Then down at the bottom it says: ``We believe that the 
impacts of timber harvest are so great that the current 
allowable sales quantity is unobtainable. In order to adhere to 
forest policy and applicable laws and regulations, changes of 
the magnitude reflected in the revised S and G's must be 
supported by the recalculation of the ASQ. We fear that to do 
otherwise would open the Forest Service to allegations of 
`deceiving the public.' ''
    Would you care to comment on that?
    Mr. Janik. Yes.
    The Chairman. Some pretty strong stuff coming at the end of 
the process.
    Mr. Janik. I am familiar with the memo, and let me give a 
little backdrop to this so we all understand the setting.
    The Chairman. The last minute, is it not?
    Mr. Janik. Very close. It was within the month that I 
signed the record of decision, yes.
    The Chairman. A few days.
    Mr. Janik. About 2 weeks, yes.
    There were many such things going on during the last 2 
months. As you know, the panels were reconvened and we got some 
risk ratings on the previously unpaneled alternatives, as well 
as doing a final legal check and substantive check as we were 
driving towards finishing the process and preparing to sign the 
record of decision.
    The subject of recalculating the ASQ, given some of the new 
stipulations that were being looked at that have come to be 
called mitigation measures, that are contained in appendix N 
that we discussed earlier, that was certainly a subject of 
discussion. We touched on that a little bit yesterday.
    I would like to refer to that last paragraph of Fred Walk's 
note, which is important. It says: ``If these requirements were 
characterized as mitigation measures to be used at the 
discretion of the land manager upon demonstrated and documented 
evidence that such measures are warranted to meet site-specific 
needs, then the current calculation could be used.''
    I point that sentence out because it is essential to the 
evaluation that took place, and that was the flexibility that 
we have written into the document, into the Tongass plan, that 
the ID team at the field level will examine whether these 
mitigation measures are truly needed or not, and some of the 
incidentals that Mr. Norbury and Mr. Day talked about in 
evaluating whether a recalculation was needed led to a 
conclusion that one was not.
    That is the kind of thing that transpired on that subject, 
Mr. Chairman. We have left the flexibility for implementation 
of mitigation measures to the field.
    The Chairman. I think it is a whole new area the public 
will really never know. They will not have had the opportunity 
to have had any input into this particular forest plan in the 
sense of these later developments, and that is certainly 
reality. They had it in the previous material, but not this.
    Mr. Janik. We did not see that as a need, to go out to the 
public again with this.
    The Chairman. Well, that obviously was your decision and 
one that I respect, but you have to be held accountable for it.
    Mr. Janik. I understand that, Mr. Chairman.
    The Chairman. I do not have any further questions, other 
than to thank the panel. You have been very gracious with your 
time, Phil.
    I am disappointed, obviously, in a number of facets that we 
have discussed at length here. I think we have done one thing 
and established a record and certainly gotten to some of the 
questions that I think will bear later examination. But I think 
that there is a notable lack of sensitivity by you and the 
Forest Service in general on the socioeconomic impact of this 
action on the communities that are affected, and that gives me 
great concern.
    I think that the input from the Forest Service technical 
experts in Madison, Wisconsin, are significantly lacking in the 
practicalities of what is possible to bring into the scene to 
replace the demise of the pulp mills, and utilizing 
specifically the utility timber. I think they need much more 
encouragement by you professionals, who recognize what it takes 
to attract industry into the Tongass of a nature that can meet 
the changing availability of wood fiber in the Tongass.
    The reality that this particular management group within 
the Forest Service is such a significant departure from that of 
years previous, when the interest of the Forest Service was 
truly multiple use, stimulate the economy and jobs, has moved 
into more of a habitat concern. I really question much of the 
science based on the inability to resolve between experts 
opinions that are out there and small samplings that have taken 
place.
    Nevertheless, we have got a legal process to pursue with 
regard to the question of listing, and that is going to be 
decided by a group other than this.
    Little attention was given to the second growth, the 
renewability of the forest, and I think that was unfortunate. I 
think the Forest Service should be charged with the task of 
trying to respond a little more timely to some of the 
misconceptions that are associated with the Tongass, that only 
experts can respond to, relative to presumptions that it is 
being clearcut adversely, that there is little consideration 
for habitat, that the fish runs are in danger, and so forth. 
Clearly those are not the case.
    I think that the combination of State and Forest Service 
management has probably been second to none in any forest. I 
think the Forest Service has exceeded the State's capability 
and I commend you for that. We have had, I think--the State has 
had an opportunity, from the standpoint of forest management 
practice, to see Federal managers leading the way, and that is 
as it should be.
    I am not convinced, however, that the State, given an 
opportunity, will not be able to develop second growth 
management a little faster if given the opportunity and with 
the incentive of the Native corporations to want to see that 
cash flow reoccurring by investing in thinning and so forth, 
doing things that you cannot do.
    I guess I am going to close again by referring to the GAO 
draft in testimony, because I think it is the crux of this 
whole issue and the manner in which the Forest Service has 
responded. It is referenced on page 12, and it is entitled 
``The Forest Service has not adequately monitored the effects 
of its decision.'' I think it is a legitimate criticism and I 
submit it to you in a constructive sense. It says:
    ``An option to the endless delays and increasing costs 
incurred attempting to ensure that a decision is scientifically 
credible and legally defensible would be to move forward with a 
decision using the best information available, the best science 
available.''
    It further states that: ``According to the inter-agency 
task force chaired by the Council on Environmental Quality''-
and I do not know what better source you can go to--``an agency 
can condition a decision the effects of which may be difficult 
to determine in advance because of uncertainty or costs on the 
monitoring of those uncertainties, indicate how the decision 
will be modified with the new information as it is uncovered or 
when preexisting monitoring thresholds are crossed, and re-
examine the decision in light of its results or when a 
threshold is crossed.''
    ``However, the Forest Service: one, has historically given 
a low priority to monitoring; two, continues to approve 
projects without an adequate monitoring component; and three, 
has not generally performed the monitoring of forest plan 
implementation required by its own current regulations. As a 
result, Federal regulatory agencies and other stakeholders may 
continue to insist that the Forest Service prepare the detailed 
environmental analysis and documentation which have become 
increasingly costly and timely consuming before making 
decisions, rather than support what many Forest Service 
officials believe to be a more efficient and effective option 
of monitoring and evaluation.''
    I think it is fair to say that within your TLMP there is 
not enough attention given to the monitoring aspects associated 
with the decisionmaking process.
    You may feel free to respond and we will call it a day.
    Mr. Janik. First of all, thank you, Senator, for the 
opportunity to have all of us testify before you.
    In reference again to the GAO report, from the revision 
documentation we feel we do have a strong monitoring plan in 
terms of actual implementation of the plan. I believe I am 
already on the record with judgments about the process leading 
up to the record of decision, so I will not be redundant here. 
Thank you, again.
    The Chairman. See, my point is that the monitoring, which 
you may or may not do, with regard to say the marten or the 
goshawk will not affect the U.S. Fish and Wildlife Service 
determination of whether they are going to list or not, for the 
goshawk at least, for the U.S. Fish and Wildlife Service.
    Mr. Allen. The question is will our determination be based 
on whether or not----
    The Chairman. The fact that they are monitoring it, you are 
going to make a decision regardless of the monitoring?
    Mr. Allen. Yes, sir, based on the existing conditions, 
correct.
    The Chairman. And I think that is unfortunate, because that 
hardly addresses the real application of your monitoring. But 
we have gone over that and there is not much point in repeating 
it.
    There will be a period of probably 10 days for additional 
materials. We will probably have some questions for you, and I 
will have additional materials that we will be putting into the 
record. Hopefully, as a consequence of this 2-day exposure, 
Alaskans will have a better understanding of what degree of 
certainty they might expect as far as timber availability is 
concerned and the complexities associated with the bounds under 
which the Forest Service is currently compelled to operate, 
which are very constrictive.
    I just wonder how far we are going to have to go before 
things come to a halt and we have to revisit the oversight 
process. But in any event, that is another story for another 
day.
    The hearing is concluded. I want to thank those that have 
been involved, and the recorder as well, and I wish you all a 
good day.
    [Whereupon, at 1:35 p.m., the hearing was adjourned.]

    [Subsequent to the hearing the following letter was 
received for the record:]

                             Friends of Southeast's Future,
                                           Sitka, AK, July 5, 1997.
Senator Frank Murkowski,
Chairman, Committee on Energy and Natural Resources, Dirksen Senate 
    Office Building, Washington, DC.

Subject: Concerning the joint congressional hearing to review the new 
        TLMP Revision, July 9 & 10. To be submitted in the 
        Congressional Record: A request for Sitka, Alaska--an Alaskan 
        ex-mill town request less logging not more.
    Dear Senator Murkowski: We are requesting that you place this 
important brief in the Congressional Record as testimony submitted to 
the joint congressional hearing to review the new TLMP Revision.
    In just three years Sitka has gone from being a mill town to a town 
calling for greater protection for our remaining high quality forest. 
Sitka needs your help to protect its subsistence, its heritage, and its 
way of life. We ask that currently approved projects near Sitka be 
canceled in the new TLMP. We also ask that the new TLMP Revision 
assures that future timber projects will respect the views of the Sitka 
public and the Alaska Department of Fish & Game (ADF&G), as explained 
and documented herein.
    On February 4, 1997, Sitka had a special election to determine City 
and Borough policy concerning logging. Significantly, in one of the 
largest election turnouts in Sitka history, 98 percent of the voters 
cast ballots in favor of one or the other of two propositions that 
asked for either firm restrictions on the clearcutting of old growth 
forest near Sitka (52% yes), or the total avoidance of such logging 
(46% yes). The way to vote in favor of logging as currently planned by 
the Forest Service was simply to vote ``No'' on both propositions. Yet, 
98 percent of the voters cast ballots in favor of tighter restrictions 
on logging in the Sitka Borough.
    We believe that both propositions were consistent with the TTRA 
sec. 705, which states: ``. . . the Secretary shall, to the extent 
consistent with providing for the multiple use and sustained yield of 
all renewable forest resources, seek to provide a supply of timber from 
the Tongass National Forest. . . .'' [Note: ``seek'' is not a synonym 
for guarantee.]
    It is the concern of the Alaska Department of Fish & Game (ADF&G) 
[Tab 7]* Friends of Southeast's Future that the new TLMP does not go 
far enough to provide for multiple use and sustained yield of all 
renewable forest resources.
---------------------------------------------------------------------------
    *Additional material submitted with this letter has been retained 
in committee files.
---------------------------------------------------------------------------
    The election makes it clear that Sitkans do not want the Forest 
Service to continue logging near Sitka in the way that has been decide 
for the recent Poison Cove-Ushk Bay and NW Baranof Projects and under 
the new TLMP.
    The ordinance placed in the Sitka General Code by this election 
states in part: ``It is further the policy of the City and Borough of 
Sitka to oppose all clearcut harvest which is not located so as to 
minimize negative impacts to critical fish and wildlife habitat, 
subsistence resources and scenic quality.'' [see proposition 2, under 
Tab 1.] According to the ADF&G, neither the Poison Cove-Ushk Bay and NW 
Baranof Projects, nor the new TLMP meet these criteria [Tabs 4,5, & 7].
    For example, the most recently decided project in the Sitka area is 
the NW Baranof project. It will take nearly all of its timber by 
clearcutting (or closely related methods) and will remove 80-95% of the 
timber from the overwhelming majority of the cutting units [see graph 
under Tab 3]. Because of its conflict with subsistence such logging is 
therefore contrary to the vote of the people of Sitka, as well as the 
TTRA.
    Sitka is the largest subsistence community in Alaska, and over 80% 
of Sitka households engage in subsistence. Deer is an important and 
vital subsistence resource for us, and the serious negative effects of 
the Poison Cove-Ushk Bay, NW Baranof projects, and the new TLMP are of 
major concern to both ADF&G and the commuhity of Sitka.
    The result of past Forest Service logging (mostly by 1970 
unacceptable clearcut methods) is that 87% of the high volume (VC 6 & 
VC 7) old-growth forest in the Sitka Cal Use Area has already been 
lost. Most of this was prime deer winter habitat [see Tab 5, p 14]. The 
Forest Service finally admitted to the 87% loss earlier this year, 
January 29, 1997 [Tab 6], and this figure is not disclosed in the 
Projects EIS's nor the new TLMP.
    The Forest Service has ignored what is obvious to everyone else. 
The Sitka Fish & Game Advisory committee voted unanimously to ask the 
Forest Service to adopt the No Action Alternative when commenting on 
the NW Baranof DEIS [Tab 8]. In addition, 85 percent of the public 
comments on the DEIS also favored the No Action Alternative.
    ADF&G comments such as those below should be viewed with heightened 
significance in light of overwhelming objection to the FS timber 
program in the Sitka area, as indicated by the planning record and the 
mandate from Sitka's recent special election:
    ``The ADF&G review and analysis [of the new TLMP] leads to several 
conclusions: 1) Significant loss of deer habitat capability has already 
taken place in the 1995 time period and additional loss of deer habitat 
capability will occur under the preferred alternative in the 1995-2095 
time period. 2) The deer population in many areas of the Tongass 
National Forest is now being harvested at the maximum rate that can be 
sustained. The number of deer needed to meet future subsistence and 
non-subsistence needs will increase with projected population growth. 
3) The preferred alternative proposes further logging with attendant 
reductions in the deer population for areas where: a) the deer 
population is presently harvested at a maximum sustainable rate and b) 
previous logging has already reduced deer habitat capability. 4) The 
preferred alternative proposes further timber harvest in areas rated of 
highest value to subsistence.'' [ADF&G Comments on Tongass Plan 
Revision, August 26, 1996; Tab 7, p 5]
    ``None of the NW Baranof alternatives adequately maintain 
subsistence resources and lifestyles. The FS has failed to demonstrate 
that the project is necessary and consistent with sound management 
principles for the utilization of public lands, or meeting the FS 
responsibilities to maintain subsistence values and uses.'' [Oct. 1995 
ADF&G comments on the NW Baranof Draft EIS. See Tab 5, p18]
    ``From our perspective one of the most critical elements of the 
Northwest Baranof sales is it's potential impacts on subsistence, 
particularly deer harvest. The preferred alternative proposes 
harvesting a large volume of timber in close proximity to the region's 
largest subsistence community, in an area where every major drainage 
has been clearcut logged in the past using logging methods which are no 
longer acceptable. We fear that this sale may be the most deleterious 
of any sales that have taken place in the Chatham Area to date in terms 
of its impacts on subsistence.'' [Ibid. p 14]
            Thank You For Your Considerations,
                                                 William H. Miller.

                                    

      

</pre></body></html>
